<html>
<title> - WATER MANAGEMENT AND ENDANGERED SPECIES ISSUES IN THE KLAMATH BASIN</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





  WATER MANAGEMENT AND ENDANGERED SPECIES ISSUES IN THE KLAMATH BASIN

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 June 16, 2001 in Klamath Falls, Oregon

                               __________

                           Serial No. 107-39

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


73-135              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 16, 2001....................................     1

Statement of Members:
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     6
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     6
    Herger, Hon. Wally, a Representative in Congress from the 
      State of California........................................     4
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2
    Simpson, Hon. Mike, a Representative in Congress from the 
      State of Idaho.............................................     8
    Smith, Hon. Gordon, a U.S. Senator from the State of Oregon, 
      Letter submitted for the record............................   161
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     2
        Prepared statement of....................................     4

Statement of Witnesses:
    Bishop, Franklin M., President and CEO, Intermountain Farm 
      Credit.....................................................    90
        Prepared statement of....................................    93
    Crawford, John, Klamath Project Farmer and Member of Tulelake 
      Irrigation District Board of Directors.....................    35
        Prepared statement of....................................    39
    Fletcher, Troy, Executive Director, Yurok Tribe..............    86
        Prepared statement of....................................    88
    Foreman, Allen, Chairman, The Klamath Tribe of Oregon........    75
        Prepared statement of....................................    78
    Gaines, Bill, Director of Government Affairs, California 
      Waterfowl Association......................................   139
        Prepared statement of....................................   142
    Gasser, Robert E., Klamath Basin Businessman.................   144
        Prepared statement of....................................   146
    Grader, William F. ``Zeke'', Executive Director, Pacific 
      Coast Federation of Fishermen's Associations...............   119
        Prepared statement of....................................   122
    Kerr, Andy, Senior Counselor, Oregon Natural Resources 
      Council....................................................    95
        Prepared statement of....................................    96
    Molder, Sharron, Principal, Tulelake High School, Tulelake, 
      California.................................................    41
        Prepared statement of....................................    44
    Raybould, Hon. Dell, Idaho State Representative..............    48
        Prepared statement of....................................    49
    Solem, David, Manager, Klamath Irrigation District...........   104
        Prepared statement of....................................   106
    Vogel, David A., President, Natural Resource Scientists, Inc.    57
        Prepared statement of....................................    58
    West, Hon. M. Steven, 2001 Chairman, Klamath County Board of 
      Commissioners, Klamath County, Oregon......................    29
        Prepared statement of....................................    31
    Wooldridge, Sue Ellen, Deputy Chief of Staff, Department of 
      the Interior...............................................     9
        Prepared statement of....................................    13

Additional materials supplied:
    Horton, Patricia L. et al., Letter submitted for the record 
      by Hon. Greg Walden........................................   161
    Miscellaneous Photographs and Letters submitted for the 
      record.....................................................   164
    Roberts, Jack, Oregon Labor Commissioner, Statement submitted 
      for the record.............................................   162

 
  WATER MANAGEMENT AND ENDANGERED SPECIES ISSUES IN THE KLAMATH BASIN

                              ----------                              


                        Saturday, June 16, 2001

                     U.S. House of Representatives

                         Committee on Resources

                         Klamath Falls, Oregon

                              ----------                              

    The Committee met, pursuant to call, at 9:20 a.m., at the 
Klamath County Fairgrounds, 3531 S. 6th Street, Klamath Falls, 
Oregon, Hon. Richard Pombo presiding.

   STATEMENT OF THE HON. RICHARD POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Pombo. Good morning. I wanted to welcome everybody here 
this morning. The hearing of the House Committee on Resources 
will please come to order. Today, the Committee will exercise 
its oversight jurisdiction with regard to the water management 
and endangered species issues in the Klamath Basin. I would 
like to thank everyone here for coming to this important event. 
I would like to also thank Representative Greg Walden, whose 
congressional district we are in this morning, as well as my 
other colleagues present here today. I am grateful for their 
interest in this important matter.
    Let me begin by introducing myself. I am Richard Pombo. I 
represent the 11th Congressional District in California, which 
is the home of San Joaquin and Sacramento Counties. I do not 
want to speak too long because we are here to listen to you. My 
purpose today is to focus attention on the Klamath Basin 
problem, find solutions and to assist in any way that we can.
    Let me say this, though, after serving as Chairman of the 
House Resources Committee, Endangered Species Act working 
group, I have attended numerous hearings throughout the years 
around the country and heard testimony from people who have 
lost their homes, their jobs and their dignity due to 
questionable interpretations of the Act. It is clear to me that 
ESA has been misused for years by some advocacy groups to 
threaten the rights of private property owners.
    Further, the impacts from environmental lawsuits on 
businesses and families throughout California and across the 
nation have been financially and emotionally devastating. We 
have sacrificed enough. I simply cannot stand by quietly as 
farmers, ranchers, families and businesses, especially those in 
the West who depend on natural resources for a living, suffer 
for no constructive purpose.
    It is time to take back our economic and constitutional 
rights. After all, the human species deserves the most 
important place in the ESA equation.
    I look forward to hearing from the panels of witnesses 
today, and to explore ways to improve the water management and 
endangered species issues in the Klamath Basin and across the 
Nation. Again, I want to thank everyone for being here this 
morning, and I also want to point something out. It's taken a 
tremendous amount of work putting this hearing on, and I 
appreciate the interest that is shown by the number of people 
who have turned out for the hearing today. Because this is an 
official congressional hearing as opposed to a town hall 
meeting, we have to abide by certain rules of the Committee and 
of the House of Representatives, so we would ask that there be 
no applause of any kind or any kind of demonstration with 
regards to the testimony. It is important that we respect the 
decorum and the rules of the Committee.
    At this time I would like to recognize Mr. Walden for any 
opening statement that he may have at this point.
    [The prepared statement of Mr. Pombo follows:]

   STATEMENT OF THE HONORABLE RICHARD W. POMBO, A REPRESENTATIVE IN 
                 CONGRESS FROM THE STATE OF CALIFORNIA

    Good morning. Welcome, everyone. The hearing of the House Committee 
on Resources will please come to order.
    Today, the committee will exercise its oversight jurisdiction with 
regard to the water management and endangered species issues in the 
Klamath Basin.
    I would like to thank everyone here for coming to this important 
event. I would like to also thank Representative Greg Walden, whose 
congressional district we are in this morning, as well as my other 
colleagues present here today. I am grateful for their interest in this 
important matter.
    Let me begin by introducing myself. I am Richard Pombo. I represent 
the 11th Congressional District of California, which is home to the San 
Joaquin and Sacramento counties.
    I do not want to speak too long because we are here to listen to 
you. My purpose today is to focus attention on the Klamath Basin 
problem, find solutions and to assist in any way that we can.
    Let me say this, though, after serving as Chairman of the House 
Resources Committee Endangered Species Act (ESA) working group, I have 
attended numerous hearings throughout the years around the country, and 
heard testimony from people who have lost their homes, their jobs and 
their dignity due to questionable interpretations of the Act.
    It is clear to me that ESA has been misused for years by some 
advocacy groups to threaten the rights of private property owners. 
Further, the impacts from environmental lawsuits on businesses and 
families throughout California and across the nation have been 
financially and emotionally devastating. We have sacrificed enough.
    I simply cannot stand by quietly as farmers, ranchers, families, 
and businesses, especially those in the West who depend on natural 
resources for a living, suffer for no constructive purpose.
    It is time to take back our economic and constitutional rights. 
After all, the human species deserves the most important place in the 
ESA equation.
    I look forward to hearing from the panels of witnesses today, and 
to explore ways to improve the water management and endangered species 
issues in the Klamath Basin and across the nation.
    Again, I want to again thank everyone for being here.
                                 ______
                                 

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman, colleagues. 
I want to welcome you to the great 2nd District of the State of 
Oregon and the Klamath Basin, ground zero of the Endangered 
Species Act debate. I very much appreciate you taking your time 
out of your busy schedules and away from your families and your 
districts to come here on this Father's Day weekend to hear 
from the people of this Basin about the problems that they face 
and the potential solutions to them.
    You know, sometimes I feel like the fellow who's speeding 
along on one of those back country roads, and you come up over 
the rise and here's a four-way intersection and there's a 
terrible wreck in the middle of it. There's glass and twisted 
metal and vehicles and injury, each driver saying he had the 
right of way when he came to that intersection. In some 
respects, it's that collision that we're examining today. 
Tribal interests point to treaty obligations. Fishermen say 
it's their right to have the water. Environmentalists say, Get 
the farmers out and give us the water. The farmers point to 
land grants that I've seen, signed by President Hoover in fact, 
saying they want water forever. It is this wreck that we've 
come upon.
    For nearly a century these interests sped along their way, 
and then on April 6th, 2001, the government stepped in and 
said, No water for the farmers, and there was an extraordinary 
disaster that's ensued since then.
    First, we must do everything we can do to help the economic 
lives of those who are having their water taken away, their 
farms dried up and their livelihoods destroyed. We must provide 
that help. Toward that end, we have gotten the administration 
to agree to add $20 million into emergency supplemental 
legislation. That money, approved by the Committee on Thursday, 
will be voted on by the U.S. House of Representatives next 
week. Know that that is but a drop in a dry canal in terms of 
the economic devastation that's in this Basin. We're working on 
18 other efforts to help get assistance, and we saw that today 
with the food bank effort here.
    The Committee's focus today is on what happened and why it 
happened. How did we get to this point? It's on the reliability 
of science and the openness of that process. It must focus on 
how the Endangered Species Act works, and how it fails us, and 
how it should be changed for the better. Our efforts today must 
also focus on the future of this Basin. What can we do to 
preserve a farming way of life here while improving water 
quality and quantity for the other needs, and how rapidly can 
we do that.
    Some farmers simply want out. Frankly, I don't blame them. 
They're being choked out and they have nowhere to go. They 
should not be forced to shoulder the entire cost of the 
Endangered Species Act requirements alone. But with the juicy 
carrots that are being dangled in front of them, you have to 
ask, Is this but yet another Federal proposal that will never 
be carried out, a promise that will not be kept?
    These are tragic times and present us with complex and 
thorny problems that hundreds of thoughtful people have spent 
years trying to sort out. It's clear to me the time has come 
for significant Federal reform of the Endangered Species Act. I 
hope today we will begin to see before us a way to untangle the 
wreckage, restore the rights and resolve the conflicts in this 
Basin. Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Walden follows:]

 STATEMENT OF THE HONORABLE GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                        FROM THE STATE OF OREGON

    Mr. Chairman, colleagues. I welcome you to the Klamath Basin - 
Ground Zero in the Endangered Species Act debate. I very much 
appreciate your taking time away from your districts - and on father's 
day weekend - your families - to come hear from the people of this 
basin.
    Sometimes I feel like the fella who's speeding along a back road 
for hours without seeing another vehicle, comes up over a rise. Ahead 
is a four-way intersection of gravel roads. And in the middle is the 
worst, tangled mess of metal and glass you've ever seen. Each driver 
saying he had the right of way.
    In some respects, it is this collision that we examine today.
    Tribal interests point to treaty obligations and argue for habitat 
restoration and fish recovery beyond ESA levels to harvestable levels.
    Pacific Coast Fishermen say the salmon's decline is due to habitat 
and inadequate stream flows and demand more water.
    Environmentalists say let the government buy out farmers and return 
the land to its pre-settlement state.
    Farmers point to land grants signed by President Hoover saying they 
and their heirs will forever have water rights for mining, agriculture 
and other uses. And they rely on the solid tenets of the Kuchel Act as 
well.
    For nearly a century these conflicting demands sped along their way 
and then on April 6, 2001 they collided in the intersection that brings 
us here today.
    First, we must do triage to save the economic lives of the farmers 
whose ditches are dry, whose fields are turning brown and whose bank 
accounts are turning red.
    Toward that end, I have encountered little objection. Next week the 
House will vote to support $20 million in emergency disaster aid to 
farmers. Thursday, I wrote to Secretary Veneman and told her relief 
must come in the nature of grants - not loans - and that I stand ready 
to assist if new legislative authority is needed to accomplish this. We 
all know that time is of the essence.
    We're working on 18 other efforts to get help to those in need - 
from seven semi-truck loads of food for the food bank to working to get 
livestock feed to ranchers to working on new ways to channel federal 
forest and range jobs to local residents, we are leaving no stone 
unturned.
    The Committee's focus today is on what happened and why it 
happened.
    It is on the reliability of the science and the openness of the 
process.
    It must focus on how the Endangered Species Act works and how it 
should be changed to work better.
    Our efforts today must also focus on the future for this basin.
    What can we do to preserve a farming way of life here while 
improving water quality, quantity and fish habitat? And how rapidly can 
we do it`?
    Some farmers simply want out and 1 do not blame them. They should 
not be forced to shoulder the cost of the ESA requirements alone. But 
will the juicy carrot being dangled in front of those most desperate 
materialize - or will it become just another unkept federal promise a 
few years from now?
    These are tragic times and they present us with complex and thorny 
problems that hundreds of thoughtful people have spent years trying to 
sort out.
    It is clear to me that the time has come for significant federal 
legislative action. 1 hope today we will begin to see before us a way 
to untangle the wreckage, restore the rights and resolve the conflicts.
    Thank you.
                                 ______
                                 
    Mr. Pombo. Mr. Herger.

    STATEMENT OF THE HON. WALLY HERGER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA 

    Mr. Herger. Thank you, Chairman Pombo, and all my other 
colleagues for coming. I want to thank you for sharing our 
strong concerns about the Endangered Species Act and for being 
witness in our commitment to making the updates in the law that 
are long overdue.
    Ladies and gentlemen, we are at war with the extreme 
environmentalists. What they have done in the Klamath Basin is 
nothing short of a tragedy. I have never seen anything like it 
in my years of public office. The Endangered Species Act has 
been invoked to completely destroy an entire local economy 
under the pretense of saving a non-commercial sucker fish. They 
used bogus science, misinformation and their political friends 
in the previous Clinton/Gore administration to bring an entire 
community to its knees, and nothing in the law prevented it. 
Nothing in the law required open decision making, public 
involvement or public review. Nothing in the law required 
independent review of the science. Nothing in the law required 
that the needless social and economic suffering that were sure 
to result would be considered.
    There is something fundamentally wrong, and indeed, immoral 
about this, and it must be changed. Across the West the 
extremist environmentalists are using the Endangered Species 
Act to drive farmers, ranchers and land owners from their homes 
and from the lands that they have worked for generations. Their 
goal is not to protect the environment. It is to destroy local 
economies, bankrupt businesses and drive people from the land. 
This is exactly what is happening in the Klamath Basin. To the 
extreme environmentalist, there is no balance, there is no 
middle ground.
    Herein lies the challenge. We must use this tragedy to 
educate the American public. Protecting the environment and 
promoting economic well-being does not have to be an either/or 
proposition. We have the experience and technical know-how to 
do both. Indeed, we must do both, because a healthy environment 
depends upon a healthy economy. There is no better example of 
that than the centuries-long relationship between agriculture 
and wildlife in the wildlife refuges right here in the Klamath 
Basin.
    What I can tell you is that they have only strengthened our 
resolve, and we are not going to give up. The fact that we are 
holding this hearing today on the dire need to update the 
Endangered Species Act is a positive first step. And unlike the 
last 8 years, we now have a presidential administration in 
Washington that is willing to listen to our concerns and work 
with us to ensure that common sense and balance prevail in the 
implementation of our environmental laws and policies.
    I would like to thank Sue Ellen Wooldridge for being here 
to testify today. She worked extremely hard for us and did her 
best with the hand she was dealt by the Clinton/Gore 
administration. We are not here to criticize her efforts, but 
we are here to ask her help and that of the administration in 
working to fully undo the political decisions that have 
devastated this economy. It is extremely unfortunate that the 
real decision-makers, the Clinton/Gore officials who have 
either retired or moved on, are not present today to answer for 
their actions. I will strive to bring those individuals in 
front of the Congress to be accountable for what they have 
done.
    Today, we must do two things. First, we must thoroughly 
examine the science, the decision-making and the process by 
which the biological opinions were developed so that we can 
uncover the political knots, undo them and rework them, based 
on, 1) independent peer-reviewed science, 2) actual historical 
evidence and, 3) balance. Not politics, speculation and 
guesswork. We must also uncover the specific provisions of the 
Endangered Species Act that fostered this tragic result so that 
we can begin developing recommendations for this Committee on 
how to restore balance to this misguided law so that people and 
communities will come first. Thank you.
    Mr. Pombo. Mr. Gibbons.

STATEMENT OF THE HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you very much, Mr. Chairman. First of 
all, I want to join my colleagues in their comments about the 
Endangered Species Act and its need for reform. And I do 
believe at this point, Mr. Chairman, that everything that needs 
to be said, has been said, perhaps not by everybody, but it has 
been said already.
    I want to look out here in the audience and just say thank 
you. Can you hear me now? About the only thing I can do is 
swallow this thing. I want to thank this community for your 
courtesy and your hospitality in hosting us today throughout 
this trying time. You have been just gracious, friendly and 
overwhelmingly welcoming to us as we come here. And I want to 
say as a Committee that we're here to listen, we're here to 
learn, and we're here to join with you in your effort to help 
reform the Endangered Species Act, and I believe that is our 
common goal that we need to be here to do is to learn from you.
    It has been said, Mr. Chairman, that World War II veterans 
were America's greatest generation. In my view, it is America's 
farmers and ranchers who are America's greatest generation for 
feeding this country, to keep us free. This battle is the 
Gettysburg of our nation in a civil war to ensure that our 
environment and our economy will work together. If the ESA is 
the Gettysburg of the Civil War right here in Klamath Falls, we 
will begin this fight here, we will join in this fight, and we 
will win in this fight to win the reform of the ESA. And if the 
economy in Klamath Falls were radioactive, the ESA has become a 
nuclear bomb, so we must win this war, not just for Klamath 
Falls, but for states like Washington and Oregon, California 
and Nevada. I want to thank you for having this hearing here 
today.
    Mr. Pombo. Mr. Hastings.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thanks you, Mr. Chairman. I think it's always 
good to review history, because when the National Reclamation 
Act was signed into law in 1902, the United States' vision to 
expand and homestead in the West finally became a reality. The 
development of irrigation and hydropower projects in the 
seventeen western states commenced, and not long after, the 
Klamath Projects in Oregon and California and the other 
irrigation projects were authorized.
    For those of us who live in and represent the regions that 
encompass the Bureau of Reclamation Projects, we know very well 
how irrigation and hydropower have developed our regions. Many 
contractors can go back to their own history, to those who 
homesteaded the West at the turn of the century. They were 
seeking a better way of life, a new place to live, and the 
government's water projects contributed to the development of a 
robust agricultural economy.
    The recent actions in the Klamath Basin, however, run 
counter to that vision and violate the central promise of 
western expansion. What we now face is a serious crisis in the 
relationship between water, people and wildlife. But to a 
greater extent, we face a serious crisis in the future of 
Western ideals, philosophies and a way of life most of us have 
been accustomed to. Actions in the Klamath Basin could have 
much broader implications and may well lead to the exact 
opposite goal of transforming the West. That implication could 
be denying progress, locking up the land and driving people 
out.
    While some might find that these are rather harsh comments, 
I must remind you that the Klamath Basin is not the only region 
in the West that has been impacted by the underlying issue at 
hand--the implementation of the Endangered Species Act and the 
over-zealous targets regarding species recovery. I know this to 
be true, because a similar experience is occurring in my own 
district right now.
    For 3 years, irrigators in the Medtile Valley in central 
Washington have been without water. The National Marine Fishery 
Service, or NMFS, shut the water off in order to save hatchery 
salmon known as the Carson stock. While simultaneously shutting 
off the water for farmers and devastating the economy in that 
valley, only 50-plus miles away, NMFS was clubbing the same 
Carson stock of hatchery fish. Why? Because NMFS determined 
that the Carson stock was co-mingling with wild stock in a 
different tributary, thus degrading the salmon population.
    Now, this situation in the Medtile Valley is occurring at 
the same time that salmon runs, both hatchery and wild, are the 
largest in the Pacific Northwest since 1938. In addition, the 
debate over endangered salmon is not over fish in general, but 
specifically, the amount of wild fish in the system. Now, the 
only way to distinguish a wild salmon from a hatchery salmon is 
by a fin that the hatchery workers clip on hatchery bred 
salmon, but hatchery fish have been spawning with wild stocks 
for decades. The first hatchery was put into the Columbia 
system nearly 80 years ago. But most importantly, this has been 
going on before the passage of the Endangered Species Act.
    Now, for those unfamiliar with the implementation of the 
Endangered Species Act in the West, this story, of course, 
sounds ludicrous; killing one species for co-mingling with 
another, bankrupting communities to save endangered species 
that humans consume, shutting off water that has been available 
for nearly a hundred years to farmers and ranchers in order to 
save suckers. As communities, governments and industry and 
tribal interests continue to discuss and debate the future of 
endangered species in the West, we need to come to a resolution 
on one very important issue.
    We know that fish need water. That's self-evident. But no 
Federal agency or entity has ever determined with good science 
just how much water is enough. We know how much water is 
necessary for irrigation, for transportation, for power 
generation, but there is no agreement on how much water fish 
require. We must be able to quantify what constitutes recovery. 
Regulations and enforcement should not refer to pre-civilized 
conditions. How did fish survive when drought occurred before 
the West was inhabited? Are we to use pre-civilization alleged 
fish counts as goals for endangered species recovery? I think 
not. Due to the decision by the U.S. Government to settle the 
West, people are here and the landscape has changed, and we 
must accept that.
    Because the lives and futures of people have been subject 
to extreme actions due to fish, my colleagues and I are 
seriously committed to amending the Endangered Species Act. 
Until each of these scenarios related to endangered species 
recovery is addressed, including the economic impact of 
listings on local communities, it will be extremely difficult 
to come to any consensus on salmon recovery.
    If the Klamath Basin and the Medtile Valley serve as 
guidelines for what lengths the Federal bureaucracy will go for 
endangered species recovery, then to me it is clear that the 
commonsense approaches are really the endangered species. We 
must require sound science, we must require economic balance, 
we must inject reason and leadership into the decision-making, 
and we must ensure that the Federal Government is not over-
stepping its bounds by interpreting the law at levels that 
seriously harm people and communities.
    We cannot turn back the hands of time and assume the 
Klamath Basin or any other region of the West should operate as 
it once did. Instead, we must find creative solutions whereby 
everyone can utilize the water. We know that people here today 
want these solutions. Unfortunately, there are others, mostly 
outside of our region, who do not want solutions. They want an 
issue as a weapon to advance their agenda.
    The solutions that we seek must include fish and people. It 
is not an either/or decision. And we can do this together, 
provided that we set guidelines that are manageable, attainable 
and reasonable. I don't think any of us here today would 
consider ourselves as anti-fish, but we must also recognize 
that not just fish rely on natural resources for survival.
    I'm honored and privileged to be here with my colleagues, 
and I want to thank my good friends, Greg Walden and Wally 
Herger, who represent this area, for their efforts on behalf of 
you. And I also want to congratulate and work with Richard 
Pombo, who has been the lead in the U.S. Congress in amending 
the Endangered Species Act, and I pledge to work with them so 
that we can find a solution to this in the long term. And I 
thank all of you for being here today.
    Mr. Pombo. Mr. Simpson.

    STATEMENT OF THE HON. MIKE SIMPSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Simpson. Thank you, Mr. Chairman. I see the microphones 
are working about as good as the ESA is. I do want to thank 
Greg for inviting me to your district. It is as beautiful as 
you've always told me it is down here, and I want to tell you 
all that I have never seen anybody as active at working on a 
problem for their constituents as Congressman Walden and 
Congressman Herger have been in this area, and we owe them all 
a great deal of thanks for what they have been doing, because 
they have been up day and night trying to address this problem 
and solve it for you.
    I am very pleased to be here, but I'm sorry that I need to 
be here. I have come, like the rest of my colleagues here, to 
listen to these individuals that are going to testify, to see 
if we can find some solutions to this problem that is facing 
us.
    Many people have seen this train wreck coming for many 
years. Our Chairman of our hearing today, Mr. Pombo, has warned 
about this train wreck for years and years, so it comes as no 
surprise to many of us, but I'm sorry that it happened here 
first or to the extent that it has here first. My concern is 
not only for the welfare of you that live here in this Basin, 
but for the fact that if this action isn't halted, it will 
spread throughout the entire West. It will effect every 
district of every Congressman in the entire west, and it needs 
to be addressed.
    Some say that there are no changes necessary to the 
Endangered Species Act. I would suggest that if there are no 
changes necessary to the Endangered Species Act then common 
sense has no place in our laws or their application. I think we 
need to bring common sense back into the Endangered Species 
Act, a law that passed overwhelmingly with bipartisan support 
when it was adopted. I don't think anyone anticipated the 
extent to which the Endangered Species Act would be 
misconstrued, as it has been. Today, I doubt we could get the 
Endangered Species Act through Congress, if we didn't have one, 
if we knew then what we know now, so we need to look at this, 
we need to work with our colleagues, some of the individuals 
who haven't felt the impacts of the Endangered Species Act like 
we have in the West. So I'm very glad to be here and I look 
forward to the testimony. Again, I congratulate Mr. Walden and 
Mr. Herger for the work that they're doing on your behalf. 
Thank you.
    Mr. Pombo. Thank you. I would like to invite our first 
witness, Sue Ellen Wooldridge, representing the Department of 
the Interior, to join us at the witness table.
    Good morning. I want to thank you for being here this 
morning. I know that your prepared testimony has been turned in 
to the Committee already. I would like to ask that you keep 
your oral testimony to 5 minutes. We will then have questions 
from the Committee. I will limit my colleagues to 5 minutes 
each for their questions. All the panels will be run that way 
here so that we can try to stay on time with the hearing. So 
thank you very much for being here. If you're ready, you can 
begin.

 STATEMENT OF SUE ELLEN WOOLDRIDGE, DEPARTMENT OF THE INTERIOR

    Ms. Wooldridge. Great, thank you. Thank you very much, 
Congressman Pombo. I am endeavoring to do my best to keep my 
remarks to 5 minutes. I will help myself by speaking quickly 
because I think I do have more than 5 minutes to say. I do want 
to thank you for the invitation to participate here today. I 
think I join with Congressman Simpson that I am pleased to be 
here today, but not happy to be here today.
    I have with me representatives of the Bureau of 
Reclamation, the Bureau of Indian Affairs, Fish and Wildlife 
Service, U.S. Geological Survey, Secretary's Indian Water 
Rights Office, and the National Oceanic and Atmospheric 
Administration, National Marine Fishery Service, and they are 
here to assist me, should you have some specific technical 
questions which are beyond my competence.
    Mr. Pombo. Thank you.
    Ms. Wooldridge. Last month I and other administration 
representatives spent several days and evenings traveling in 
the Basin. We started about at the peak of the Sprague River 
and the Sycan River, and we made it all the way down to Arcada. 
We met with farmers and ranchers from project and non-project 
areas, leaders from the Klamath Tribes, Yurok, Karuk and Hoopa 
Tribes, with Federal, State, city and county officials, various 
environmentalists, commercial fishermen, PacifiCorp which runs 
the dams on the Klamath, and numerous other interested 
citizens.
    I would like to recognize them now, and also acknowledge 
the folks who are sitting behind me, for what I perceive as 
their continued and unfailing politeness and courtesy in 
dealing with the Federal representatives that were out here at 
that time, and here today. Their comments were frank, pointed, 
helpful, and I think will help us fulfill our purpose in coming 
out here, which was to look for long-term solutions for the 
problems within the Basin. We were moved, pained, upset by the 
stories we heard. We're not indifferent to them, by any means, 
and they are difficult at best to cure. And it is extremely 
difficult to be part of something that leads to those 
conclusions.
    We heard about farms closing, we heard about fathers moving 
away from families to find work, businesses laying off workers, 
a myriad of problems in schools with children who hear their 
parents discuss their woes in the evening and have to go to 
school the next day, wondering if they're still going to be in 
the school district. The stories were endless and compelling. 
We heard their frustrations. But, again, as I said, we were 
impressed and want to thank them again for their graciousness.
    Secretary Norton speaks regularly of her 4-C approach to 
managing the Department--Communication, Consultation, 
Cooperation, all in the service of Conservation. It means that 
we as the Federal Government, representing the Department of 
the Interior, must communicate a consistent message, consult 
with interested and affected parties, cooperate with local 
regional interests and conserve our cultural and national 
heritage. Our trip was intended to further these principles.
    We were told the basin needs Federal leadership; and quite 
frankly, that was a little astonishing to those of us who are 
generally in favor of local control and local interest. What's 
that?
    Mr. Pombo. Just ignore it and keep going.
    Ms. Wooldridge. That's 4 minutes? Okay, I'm sorry. I will 
go fast.
    Mr. Pombo. I'll say this. This is the only time you're ever 
going to hear me say this. I will be liberal with the time.
    Ms. Wooldridge. Okay. I have no idea where to go from here. 
I just finished one of my 7 pages.
    We were told the basin needed Federal leadership, and it 
was kind of a shock to us. It was a shock to us, but we are 
prepared to exercise that leadership and work in cooperation 
with the locals to try to come up with some solution, and I 
know that all the Members on the panel are willing to do that 
as well. And I don't honestly think a Federal crammed-down 
solution is the answer in the basin, but I know that with good 
will and a lot of heavy effort and lifting, we can come up and 
try to help resolve these problems.
    The second theme we heard when we were here had to do with 
drought and financial relief that was needed for the basin. 
Third, we heard that the scientific basis of the Federal 
management decisions must be improved. I will speak to that 
more generally in a moment. And finally, we heard there was a 
strong desire for this basin-wide solution.
    We have severe drought conditions here. I was informed 
yesterday that we are now in the driest year on record in the 
basin. We've surpassed the 1977 drought. By law, the Department 
of the Interior plays rolls in this. As you know, the Bureau of 
Reclamation operates the project. We have trust 
responsibilities to the tribes. The Fish and Wildlife Service 
operates the refuges. And with all of these, we have to obey 
the law which exercises and determines the priorities for the 
water in the basin.
    As you all know, on April 6th, based on the priorities and 
the biological opinions of the Fish and Wildlife Service and 
the National Marine Fishery Service, reclamation announced that 
it was unable to operate the Upper Klamath Lake this year and 
to provide Project water for irrigation or the refuges. So what 
are we doing about that?
    Congressman Walden referenced that the administration had 
requested $20 million in the supplemental budget. I understand 
the House Appropriations Committee has redirected the request 
to cover the release of not less than $20 million from 
available funds from the Commodity Credit Corporation. The 
preventive planting coverage, I believe, from the Department of 
Agriculture, which I know has some limitations, is part of the 
standard crop insurance. USDA has allocated two million to the 
Basin through Emergency Watershed Protection, and USDA's Farm 
Service Agency has provided some initial allocations, up to a 
half million dollars. Reclamation is working on ground water 
supplies. California's Office of Emergency Service is making 
available five million dollars to help with ground water 
development. Reclamation is continuing ground water 
investigations, both in Oregon and California. The list goes 
on, and I would go through them all, but I want to try to get 
to some of the things I know are important to the panel and to 
the people in the audience.
    Interior is continuing to lead an inter-agency group back 
in Washington and out here on the ground with folks who are out 
here, trying to come up with ideas for resolving the long-term 
problems within the Basin, and we will continue that as long as 
we can and there's good will and interest in having us be 
involved in that.
    Let me turn to the science. One of the things that was a 
consistent theme, and we've heard it today as well, is that the 
science underlying the biological opinions which formed the 
basis for the decision that Project deliveries could not been 
made was bad science, irresponsible, not credible, you name it. 
We were told that the science was not exposed to a public 
process or peer review, and is thus susceptible to these 
criticisms.
    The Endangered Species Act requires that the protection of 
species be based on the best science available. That is the 
statutory mandate. One does not need to agree or disagree about 
whether that standard was achieved in order to believe that the 
process of making ESA determinations should be as transparent 
as possible. It is vital that the Department of the Interior 
and the other participants base water and fish decisions on 
sound science and an objective assessment of what we know and 
don't know.
    In our quest for credibility, we cannot ignore the 
criticisms we receive. We are mindful, for instance, that one 
set of reviewers in this case commented with respect to our 
draft biological opinion that it was difficult to evaluate 
because it was, and I am quoting, Full of--actually, that was 
an ellipsis full of--now I'm quoting--``Misspelled words, 
incomplete sentences, apparent word omissions, missing or 
incomplete citations, repetitive statements, vagueness, 
illogical conclusions, inconsistent and contradictory 
statements, often back to back, factual inaccuracies, lack of 
rigor, and rampant speculation.''
    While many of these criticisms related to the form in the 
Fish and Wildlife and NMFS opinions, a number related to their 
substance, and thus, the quality of the opinions with respect 
to their being based on the best science available. And while 
Fish and Wildlife Service made a multitude of changes after 
those criticisms were leveled, the existence of that type of 
criticism does not give rise to public confidence in the work 
of the Department. We agree that not all of the science used 
for the NMFS opinion for the Coho, or the Fish and Wildlife 
opinion for the suckers, has been independently peer-reviewed.
    And actually, just as an aside, when we first came in to 
the new administration, laying there waiting for us were 
letters from a number of you on this panel, pointing out the 
insufficiencies of that peer review process. Where peer review 
science was available, the Fish and Wildlife Service and NMFS 
used it. Where unpublished ``gray literature'' data was 
available, they used it. The Services continued to believe that 
the opinions were reasonable and based on the best science 
available. Unfortunately, the public does not have the 
additional opinion of scientists with the appearance of 
independence to confirm or deny this, and thus, the criticisms 
are left unanswered and we cannot point to independent peer 
review to lend credibility.
    In order to address these concerns, the Secretary will 
direct the science upon which the Fish and Wildlife Service's 
biological opinion is based, and which exists in the 
administrative record, be subject to an independent scientific 
review. Such a review is to be conducted by an objective, 
outside scientific body or group of experts that is widely 
recognized and has a disciplined scientific review focus. The 
science underlying the NMFS biological opinion will be subject 
to similar review. In addition, plans already exist to subject 
the forthcoming study by Professor Hardy to independent peer 
review.
    At a minimum, the independent science review should be 
asked to assess the degree to which the opinions used--I'm 
sorry--the Services use the best scientific information 
available at the time they prepare their biological opinions to 
assess how the Services use the science information available 
to make their management recommendations, identify objective 
scientific information that has become available since those 
opinions were prepared, and identify gaps in the knowledge and 
scientific information. In addition, the USGS, building on that 
scientific assessment, will undertake scientific studies 
focused on the identified knowledge gaps. As a non-regulatory 
agency with a purely scientific mission, the USGS will direct 
its science in both the upper and lower basin toward the 
critical needs of the decision makers as we go forward.
    With regard to project operations in the coming years, when 
we develop future long-term operations plans, we will instruct 
ourselves to fully review the existing scientific data and seek 
appropriate public comment as we go forward into the next water 
years. This concludes my prepared testimony. I'm pleased to 
answer any questions you may have.
    Mr. Pombo. Thank you. Ms. Wooldridge, I'd like to 
concentrate, if I can, on the science for a little bit. The 
Endangered Species Act requires that the Services use the best 
available science. When there is conflicting science, when 
different groups--different outside groups, the Fish and 
Wildlife Service, NMFS, and others have done biological 
surveys, have looked at data and come to different conclusions 
and there's a difference, how does Fish and Wildlife Service 
determine which is the best available science?
    Ms. Wooldridge. How, as in what is the legal obligation or 
process by--.
    Mr. Pombo. What do you use? How do you base your decision?
    Ms. Wooldridge. Well, this may be the place where I need to 
turn to one of the people who are sitting here. I don't know if 
you wish to have them here. My understanding is very basic, and 
that is that they take into account those comments and go out 
to those persons who have made those decisions and discuss them 
and test them, but I can't answer that question more precisely 
than that.
    Mr. Pombo. If you could prepare an answer to that question 
and have it for the record of the hearing, I would appreciate 
it, because I've known a number of cases, when we are looking 
at listings or habitat designations, there are differing 
opinions from different biologists and different scientists, 
and it appears to me that some of that science is ignored.
    Ms. Wooldridge. Well, it does seems to be the case when you 
deal with these, where you have--the science is all agreed to 
in the sense of the data, and you have differing conclusions or 
analyses from that data. I can tell you, as a decision-maker, 
it's very difficult to decide what the tie breaker is. And the 
Fish and Wildlife Service has their obligation, and they do 
what they believe they are required to do by making a judgment 
as to which is more likely, and they have a statutory 
obligation to choose the one that is the most conservative in 
the sense of protecting species. But I can understand that, and 
I will be happy to provide the answer.
    [The prepared statement of Ms. Wooldridge follows:]

STATEMENT OF SUE ELLEN WOOLDRIDGE, DEPUTY CHIEF OF STAFF, DEPARTMENT OF 
                              THE INTERIOR

    Thank you for the invitation to participate today in this oversight 
hearing on the Endangered Species Act and Water Management in the 
Klamath Basin. I appreciate the opportunity to be here today on behalf 
of the Department of the Interior. I have with me representatives of 
the Bureau of Reclamation, the Bureau of Indian Affairs, the Fish and 
Wildlife Service, the U.S. Geological Survey, and Secretary's Indian 
Water Rights Office, and the National Oceanic and Atmospheric 
Administration within the Department of Commerce. They are here to 
assist in responding to specific questions you may have. I will make 
some brief oral comments but I request that my entire written statement 
be included in the record of this hearing.
           MY VISIT TO KLAMATH BASIN AND WHAT WE HAVE LEARNED
    Last month, I and other administration representatives spent 
several days and evenings traveling the length of the Klamath Basin. 
Our intention was to meet with as many individuals and groups as 
possible to learn first-hand the circumstances faced by the Basin, the 
perceived needs of the Basin as understood by the various groups, and 
the effects, both existing and potential, that the Federal Government 
has had and will have on the Basin.
    We met with farmers and ranchers whose lands are above Upper 
Klamath Lake, farmers who have lands within the Bureau of Reclamation 
project area, leaders from the Klamath, Yurok, Hoopa Valley, and Karuk 
tribes, with Federal, state, city and county agency and elected 
officials, environmentalists from a myriad of organizations, school 
administrators, business people, commercial fishermen, management 
personnel from PacifiCorp (Scottish Power), as well as interested 
citizens not belonging to any of those groups. Each person or group 
described for us in vivid detail the impact that current drought, and 
the Endangered Species Act and other federal legal requirements were 
having on their businesses, their families, those they serve, or the 
interests they wish to protect. I would like to recognize and, through 
this record, thank everyone we met with for their frank and helpful 
comments.
    I was greatly moved by my meetings and pained by stories of the 
distress of many people here, stories of farms closing operations, 
fathers moving from families to find work, businesses laying off 
workers. I was equally moved by a desire to do as much as we can to 
help and to renew some degree of certainty to lives in this region. I 
am also painfully aware of limitations brought by a very limited 
resource and the multiple demands on it, and by the multiple 
responsibilities of the Department.
    Secretary Norton speaks regularly of her 4-C approach to managing 
the Department of the Interior - COMMUNICATION, CONSULTATION, 
COOPERATION, and CONSERVATION. To manage resources and our legal 
responsibilities effectively, we must 1) Communicate a consistent 
message; 2) Consult with interested and effected parties; 3) cooperate 
with local and regional interests; and 4) Conserve our natural and 
cultural heritage. Our trip was intended to further these principles.
    We learned many things. While opinions varied as widely as the 
subject matter, we did hear a number of common themes.
    First, we were told that the Basin needs leadership by the Federal 
Government to address the conflicts at hand. This was relatively 
surprising to us, and generally inconsistent with our philosophy that 
local problems are solved best by local solutions. However, it is also 
understandable, as there seems to be a Basin-wide view that the Federal 
Government - including Federal law - is largely responsible for the 
existing conditions.
    These conditions are variously described by the differing groups as 
including over-allocation of existing water, broken treaty rights, past 
favor toward agricultural interests, breach of promise to agricultural 
interests, bad or corrupt science, inadequate funding of water 
enhancement projects, poor forest and habitat management, overly 
conservative interpretation of existing resource data, failure to 
encourage the State of Oregon to address diversions by upper basin 
water users and general callousness toward the economic and human 
impacts of resource management decisions.
    The second common theme we heard is that immediate drought and 
financial relief is needed for farmers and the farming communities. As 
one local leader (Marshall Staunton) described it, the Federal law-
mandated cut-off of water to the Klamath Project is a--major human 
tragedy in the Upper Klamath River Basin.'' There are approximately 
1,400 farmers in the region, many of them small producers, and 
agriculture and agriculture-related businesses are a substantial factor 
in the Basin's economy. However, because of the water shortage, many 
farmers have not been able to plant crops or maintain livestock herds.
    Third, we heard that the scientific basis of Federal management 
decisions must be improved. While I will address this issue in a few 
moments, it is beyond question that where Federal resource decisions 
are made, the scientific basis of those decisions should be 
unassailable as biased or less than the best available science.
    Finally, we heard a strong desire for a basin-wide solution which 
will provide predictability and certainty. This presents both a 
quandary and an opportunity. There exists in the Basin a wide variety 
of groups or mechanisms dedicated to solving some part of the Basin's 
problems. These include, to name a few, the Upper Klamath Basin 
(Hatfield) Working Group, the Klamath Watershed Coordination Group, the 
Oregon Klamath Adjudication Alternative Dispute Resolution process, the 
Klamath Basin Compact Commission, the Klamath River Basin Fisheries 
Task Force and most recently, the mediation conducted in conjunction 
with the Kandra litigation. The quandary is how to utilize these 
existing forums and groups to achieve solutions. The opportunity is 
demonstrated by the obvious and overwhelming interest of the people in 
the Basin to find them.
    So, having heard these common themes, what are we doing? First, I 
will discuss the current situation, then our efforts to date and 
finally, what we intend to do.
                     WHERE WE ARE - DROUGHT and ESA
    While in this crisis much focus has been on the Endangered Species 
Act, it should not be forgotten what local residents already know - 
severe drought conditions are affecting the Basin. Snow water and 
precipitation amounts for the water year are well below average. 
Currently, the basin-wide precipitation is one half of normal. 
Streamflow forecasts are near record low levels. Projected net-inflow 
to Upper Klamath Lake for the summer is expected to be less than 35 
percent of average. Inflow to Gerber and Clear Lake reservoirs has 
ceased.
    The Federal Government has placed the Klamath Basin in ``D3'' 
status, which predicts ``. . . damage to crop or pasture losses likely; 
fire risk very high; water shortages common; water restrictions 
imposed.'' The Governors of Oregon and California and the U.S. 
Secretary of Agriculture have issued drought declarations for Klamath, 
Modoc, and Siskiyou counties. In short, this is the worst drought since 
1977, and potentially the worst on record.
    By law, the Department of the Interior plays several roles in the 
management of resources in the Klamath Basin. The Bureau of Reclamation 
(Reclamation) operates the Project, which includes the management of 
water levels in Upper Klamath Lake and Gerber Reservoir (both in 
Klamath County, Oregon), as well as Clear Lake Reservoir (in Siskiyou 
County, California). The Project historically provides water to 
approximately 210,000 acres of irrigated agriculture and two major 
portions of the Klamath Basin National Wildlife Refuge complex. The 
Project also affects flows in the Klamath River through an agreement 
with PacifiCorp, a hydropower company that operates Link River Dam at 
the south end of Upper Klamath Lake.
    The Secretary has a trust obligation to the Native American Tribes. 
Four federally-recognized tribes reside in the Klamath Basin'the 
Klamath Tribes of Oregon and the Hoopa Valley Tribe, the Karuk Tribe, 
and the Yurok Tribe of California. These Tribes have recognized 
property interests in the Basin which the United States holds in trust 
for their behalf and which varies with the individual Tribe and its 
associated ethnological and legal history. Among other interests, the 
Klamath Tribes have treaty-protected fishing, hunting, and gathering 
rights, and the Hoopa Valley and Yurok Tribes also have federally 
reserved fishing rights in the Klamath Basin. The fishing rights 
entitle the Tribes to harvest for subsistence, ceremonial, and 
commercial purposes. The Tribes also have water rights in the Basin 
necessary to support their resources.
    The Fish and Wildlife Service (FWS) operates six National Wildlife 
Refuges in the Klamath Basin National Wildlife Refuge complex, and the 
FWS carries out consultations for Federal actions under the Endangered 
Species Act (ESA) for species listed by the Service.
    The National Wildlife Refuge (NWR) complex covers more than 150,000 
acres. The Lower Klamath NWR is host to the largest fall population of 
staging waterfowl in the Pacific Flyway (nearly 1.8 million birds), 
winters the largest concentration of bald eagles (200-900 birds) in the 
Lower 48 states, and supports 20-30% of the Central Valley population 
of sandhill cranes during fall migration. In addition, the refuge hosts 
large numbers of nesting waterbirds and diverse wildlife species. Water 
for this management program is normally provided through Reclamation 
facilities.
    The Klamath Basin refuge complex annually has over 55,000 visitors 
for recreation and bird-watching. In addition, there were over 16,000 
migratory bird hunters in 1999, a number reduced to 13,000 last year 
due a short-term water shortage. These visitors provide considerable 
economic benefits to local businesses. The lack of water this year will 
force a significant reduction in waterfowl hunting at these refuges, 
and may lead to a fall-off in other visits as well.
    The FWS is also responsible under the Endangered Species Act for 
the Lost River and shortnose suckers, which occur only in the upper 
Klamath Basin and are listed as endangered. The National Marine 
Fisheries Service (NMFS) has the lead ESA responsibility for 
consultation on the coho salmon which is listed as threatened. These 
and other fish have supported Tribal fisheries and a large commercial 
fishery at the mouth of the river; these fisheries have been greatly 
diminished in recent years.
    Several legal mandates affect the management of Project water to 
meet these multiple needs. Following a review of the various 
authorities, the Department has managed the Project for the following 
purposes: 1) species listed under the ESA; 2) Tribal trust 
responsibilities, 3) irrigated agriculture, and 4) National Wildlife 
Refuges. This order of priority was confirmed by the Court in Klamath 
Water Users Protective Association v. Patterson.
    Under the ESA, the Bureau of Reclamation must consult with its 
sister agency the FWS and the NMFS regarding impacts of Project 
operations on endangered suckers and threatened coho salmon. This has 
been a long and complex process and the subject of much public 
discussion. On April 5 and on April 6, 2001, the FWS and the NMFS, 
respectively, provided Reclamation with final Biological Opinions 
regarding operation of the Klamath Project for the 2001 water year. 
Reclamation conformed its operations plan to those opinions.
    On April 6, 2001, Reclamation announced that with the exception of 
delivery of 70,000 acre feet for Project irrigated acres on areas 
served from Clear Lake and Gerber Reservoir, and a certain amount of 
water to be delivered to Tule Lake Sump for the protection of suckers, 
no water would be delivered from Upper Klamath Lake for Project 
operations. Reclamation is unable to operate Upper Klamath Lake this 
year to provide project water supply for irrigation or for the refuges.

                               ASSISTANCE

    Since the Committee will not hear directly from the Department of 
Agriculture, I will address the immediate efforts undertaken by the 
Administration to provide what relief is available under current 
authorizations and appropriations. The Administration, Secretary 
Norton, and Secretary Veneman are committed to working with Congress to 
ensure these funds are appropriately invested in the region to assist 
producers during this difficult time
The Administration and the Department of Agriculture
    President Bush requested $20 million in his supplemental budget for 
the Department of Agriculture to make available financial assistance to 
eligible producers in the Klamath Basin. This $20 million was proposed 
to supplement existing assistance already available to help farmers and 
ranchers adversely affected due to limited water availability in the 
region. I understand that the House Appropriations Committee has just 
re-directed this request to cover the release of not less than $20 
million from available funds of the Commodity Credit Corporation, in 
the belief that this may be a more efficient means to provide the 
funds.
    Prevented planting coverage is part of the standard crop insurance 
contract and is available on insurable crops in the impacted counties, 
except forage production and nursery. For producers with crops 
ineligible for coverage through the crop insurance program, USDA's Non-
insured Assistance Program (NAP) provides compensation similar to that 
available through crop insurance. Crops covered through NAP in the 
Klamath area include alfalfa hay, onions, mint, horseradish, rye, 
forage (grazed), forage (production, Oregon only), and various other 
minor crops.
    Through the Emergency Watershed Protection program USDA has 
allocated $2 million to the basin area for re-seeding efforts, which 
will help farmers establish vegetative cover with low moisture 
requirements on lands that they had laid bare in anticipation of 
planting, reducing wind erosion.
    Additionally, USDA's Farm Service Agency has provided almost 
$400,000 to help farmers get water for their livestock. Initial 
allocation for Klamath County, Oregon is $225,000 and $167,000 total 
for 2 California counties, Modoc and Siskiyou.

Interior

A.     Groundwater Supplies:

    1. Cooperation with State Programs. The Bureau of Reclamation 
(Reclamation), in partnership with the Oregon Water Resources 
Department (ORWD) and the California Department of Water Resources 
(CDWR) is working to develop groundwater supplies to assist 
agricultural water users served by the Klamath Project.
    Reclamation met with high-level policy makers from CDWR and ORWD on 
May 11, 2001, to coordinate fast-track groundwater development for this 
year and to develop a longer-term program to use groundwater for 
drought contingencies and supply augmentation purposes.
    Wells in some locations may have to be drilled to a depth of 
between 700 and 1,000 feet (or greater) to reach the water-bearing 
volcanic zone, which may exceed $300,000 per well. The potential yield 
(short-term and long-term) is unknown. Groundwater in the Klamath Basin 
has never been put to such a test, so the amount of yield that may be 
sustained is unknown at this time.
    California's Office of Emergency Service is making available up to 
$5 million to Tule Lake Irrigation District. Wells are anticipated to 
be on line this year, to help soften the blow, and Reclamation 
continues to cooperate with state agencies to facilitate construction 
of wells.
    Reclamation is continuing groundwater investigations in both the 
Oregon and California portions of the Klamath Basin that began with the 
October 1997 Klamath Basin Water Supply Initiative. Groundwater 
development holds potential in this area as a supplemental tool to be 
included for any long-term water management plan, and Reclamation will 
continue to coordinate with the State governments to further long-term 
efforts to use groundwater resources to help supplement dry-year needs 
in the Klamath Basin. While the effort currently under way may generate 
some supplemental water supplies later this summer, it will likely not 
generate a fully-developed dry-year supply.
    OWRD and USGS are cooperating on a regional ground water study in 
the Upper Klamath Basin. The study includes agricultural areas in 
southern Oregon and northern California. Reclamation has provided 
logistical and financial support to this effort. This regional ground 
water study will take 4 to 6 years to complete due to the data 
collection requirements. This study represents the primary effort to 
determine the amount of ground water that can be produced on a long-
term basis.

    2. Reclamation, Groundwater Acquisition. Reclamation has initiated 
a program to purchase groundwater from willing sellers to augment 
Klamath Project water supplies during the current irrigation season. 
Nearly $2.2 million in fiscal year 01 in drought funding will be spent 
on this endeavor. The emphasis is on supporting preventative planting 
of cover crops to prevent soil erosion. Reclamation has partnered with 
OWRD to develop up to 60,000 acre-feet of groundwater during this 
season for stream flow, water quality, and project supply augmentation.
    In addition, funding for lining of canals in California and Oregon 
district will help water conservation for the short and long term.

B.     Groundwater in National Wildlife Refuges:
    The Fish and Wildlife Service (FWS) is focusing on groundwater 
development in the Klamath Basin. It is estimated that in the future, 
refuges will experience conditions wherein 70 percent of the refuge 
wetlands will be dry 70 percent of the time during fall waterbird 
migration. Impacts are likely to be felt throughout the Pacific Flyway. 
To address this situation in the short term, the FWS has commissioned a 
groundwater study on the Lower Klamath National Wildlife Refuge in 
California where eleven test wells have been developed. Nine of these 
wells adjacent to, or on the refuge show promise. Two wells produced 
geothermal water. The FWS intends to develop 23,000 acre-feet of 
groundwater, intended for late summer/early fall use, when refuge water 
supplies are most critical. It may be possible to get one or two wells 
on-line in time to meet refuge requirements this fall.
    The FWS is also considering purchasing an additional well from a 
private owner, as well as paying for groundwater pumped from another 
owner. This water will be applied at a rate of 35 acre-feet/day to keep 
the largest unit from going dry for a 150-day period starting on June 

1. Pumping associated with this program is eligible for Reclamation 
Project power rates.

C.     Agency Coordination
    Further, with respect to Interior's efforts, the Secretary has 
taken the lead in coordinating among Interior, the Department of 
Agriculture, and the National Oceanic and Atmospheric Administration, 
and internally, we have formed a working group to explore potential 
long term solutions and work with the states and with all interested 
local groups.

                                SCIENCE

    As I stated earlier, we have received much criticism of the science 
used to support our decisions under the ESA. Specifically, we have been 
told that the science used was not exposed to a public process nor peer 
reviewed and thus does not appear credible.
    The ESA requires that protection of species be based on the best 
science available. One does not need to agree or disagree about whether 
that standard was achieved in order to believe that the process of 
making ESA determinations should be as transparent as possible. It is 
vital that Interior and other participants base water and fish 
decisions on sound science and an objective assessment of what we know 
and what we don't know.
    In our quest for credibility, we cannot ignore the criticisms we 
receive. In this case, we are mindful that while many of these 
criticisms relate to the form of the FWS and NMFS Opinions, a number 
relate to their substance, and thus the quality of the Opinions with 
respect to their being based on the ``best science available.'' We 
agree that not all of the science used for the NMFS opinion for the 
Coho or the FWS opinion on the suckers has been independently peer 
reviewed. Where peer reviewed science was available, the Services used 
it. Where unpublished ``gray literature'' data was available, the 
Services used it. The Services believe that the opinions are reasonable 
and based on the best science available. Unfortunately, the public does 
not have the additional opinions of scientists with the appearance of 
independence to confirm this.
    In order to address the concerns expressed about the scientific 
basis for management decisions in the Klamath Basin, the Secretary will 
direct that the science upon which the FWS Biological Opinion is based, 
and which exists in the Administrative Record, be subject to an 
independent scientific review. Such a review is to be conducted by an 
objective outside scientific body that is widely recognized and has a 
disciplined scientific review focus. The science underlying the NMFS 
Biological Opinion will be subject to similar review. In addition, 
plans already exist to subject the forthcoming DOI commissioned study 
by Professor Hardy, from Utah State University, to independent peer 
review. At a minimum, the independent science review body should be 
asked to:

1. Lassess the degree to which the the determinations made by the FWS 
and NMFS were based on best existing knowledge and best available 
scientific information at the time they prepared their biological 
opinions;

2. Lassess how the FWS and NMFS used the scientific information 
available to make management recommendations;

3. Lidentify objective scientific information that has become available 
since the FWS and NMFS prepared the biological opinions; and

4. Lidentify gaps in the knowledge and scientific information that need 
to be addressed.

    Building on this scientific assessment--as part of Interior's own 
scientific efforts in the Klamath Basin--USGS will undertake additional 
scientific studies focused on the identified knowledge gaps. As a non-
regulatory agency with a purely scientific mission, USGS will direct 
its science in both the upper and lower basin toward the critical needs 
of decision makers.
    Additionally, in fiscal year 2001, the FWS began to collect 
baseline information for a study to assess fish habitat conditions in 
the Klamath River and its tributaries below Iron Gate Dam. We hope that 
actions will result from the study that will help recover species, 
avoid further listings, enhance tribal trust responsibilities, restore 
recreational fisheries and related local economies, and reduce impacts 
of conservation efforts on water users.

                             LOOKING AHEAD

    Interior has organized longer term efforts. I can report on very 
good progress in implementing Public Law 106-498, the Klamath Basin 
Water Supply Enhancement Act.
    As I noted earlier, Reclamation in 1997 entered into a partnership 
with the States of Oregon and California and the Klamath River Compact 
Commission to begin a Water Supply Initiative. Based on information 
collected through sustained public outreach efforts, Reclamation has 
identified 95 potential projects.
    Public Law 106-498 provides Interior important authority and 
direction to advance efforts begun under the Initiative, and authorizes 
additional important feasibility studies. Representatives of Oregon and 
California are very interested in expanding the partnerships initiated 
with the Water Supply Acquisition Program by participating in the 
feasibility studies authorized in Public Law 106-498. Reclamation will 
be working closely with the States over the next few months to develop 
a comprehensive strategy for full implementation of the Act.
    The Act authorized and directed the Secretary of the Interior to 
study, in consultation with affected State, local and tribal interests, 
stakeholder groups and the interested public, the feasibility of:
<bullet> Increasing the storage capacity and/or yield of the Klamath 
Project facilities while improving water quality, consistent with the 
protection of fish and wildlife.
<bullet> Developing additional Klamath Basin groundwater supplies; 
and,
<bullet> Finding innovative solutions in the use of existing 
resources, or market-based approaches, consistent with state law.
    Using funding previously provided for the Water Resources 
Initiative, Reclamation has been able to initiate partial 
implementation of the Act as follows:

    1. Increasing Klamath Project Storage Capacity/Yield: In December 
2000, Reclamation released an appraisal level report examining the 
desirability of raising the Upper Klamath Lake as much as two feet to 
elevation 4145.3 feet. The report considered two alternatives: 1) 
construction of new dikes and sea walls, and modification of existing 
dikes to contain the lake within its current boundaries, and 2) 
acquisition of lands inundated by raising the lake without structural 
construction or modification to contain the lake within its current 
boundaries. Option 1 is estimated to cost $125 million and option 2 is 
estimated at $129 million; the cost of either option is approximately 
$800 an acre-foot. A feasibility study would consider environmental 
impacts and costs and benefits of raising the lake. The study is 
expected to begin on a limited basis during Fiscal Year 2001, using 
existing funding from the Water Resources Initiative.
    Reclamation also has completed a cursory review of existing 
information to determine if it is feasible to increase the storage 
capacity by raising the Gerber Dam. Feasibility of this project is 
considered likely, and collection of engineering data has begun. A plan 
of study is in preparation during Fiscal Year 2001, using existing 
funding from the Water Resources Initiative.

    2. Developing Groundwater Supplies: In Fiscal Year 1999, 
Reclamation entered into a cooperative agreement with the Oregon Water 
Resources Department to study the potential of obtaining supplemental 
groundwater supplies in the Klamath and Lost River Basins in Oregon. 
Preliminary results indicate good potential for high production wells 
in the aquifer underlying lands irrigated by Shasta View Irrigation 
District. These wells are anticipated to have a low impact on other 
wells in the area. In the 2001 irrigation season, an existing well will 
be pump-tested. If long term pumping appears feasible, a plan of study 
will be prepared regarding the potential to drill additional test and 
production wells. This ongoing effort helped to facilitate the 
emergency relief efforts described above.
    Reclamation also entered into a cooperative agreement in Fiscal 
Year 1999 with the CDWR to examine groundwater in the California 
portion of the Klamath and Lost River Basins. Since the Fall 1999, CDWR 
has performed semiannual water level measurements on 35 wells. Data 
will be collected over a three year period to assess the potential for 
groundwater augmentation.
    In addition, as mentioned above, Reclamation provided funding for a 
cooperative study by the Oregon Department of Geology and Mineral 
Industries and the U. S. Geological Survey (USGS) to determine the 
geologic potential for additional groundwater availability in the Wood, 
Sprague and Williamson River valleys. Information gained from that 
study could be used to initiate a full feasibility study.

    3. Innovative Solutions: Reclamation recently initiated a one-year 
pilot Klamath Basin Irrigation Demand Reduction Program to determine 
irrigators'' interest in receiving a payment in lieu of applying 
surface water to their irrigated lands. This pilot program may aid in 
development of a long-term demand reduction program. Reclamation 
received approximately 550 proposals from irrigators willing to forego 
surface water on their irrigated lands in exchange for a combined total 
exceeding $20 million. Reclamation's Fiscal Year 2001 budget for 
implementation of this program is approximately $4 million.
    Public Law 106-498 also directed the Secretary to complete ongoing 
hydrologic surveys in the Klamath Basin conducted by the USGS, 
mentioned earlier. The study has four phases and is scheduled to be 
completed in Fiscal Year 2005. The Act also authorized the Secretary to 
compile information on native fish species in the Upper Klamath River 
Basin, upstream of Upper Klamath Lake. A compilation of existing 
information is currently underway, and will be used to determine the 
necessity of further studies.
    We will do our utmost to see that these studies are given very high 
priority. We fully appreciate the necessity of these and other projects 
to work toward a sustainable future within the basin--both for those 
who live and work there and for the wildlife we are pledged to 
conserve.
    With regard to Project Operations for coming years, when the Bureau 
develops future plans to meet its multiple obligations and other 
biological assessments are developed in consultation with FWS on such 
plans, FWS will fully review the existing scientific data and to seek 
appropriate public comment and peer review.
    This concludes my prepared testimony. I am pleased to answer any 
questions you may have.
                                 ______
                                 
    Mr. Pombo. Well, this is where I have a real problem--one 
of the places I have a real problem with the service is because 
many times I believe they make a political decision, and that's 
not their job. Their job is to base their decision on science 
and not on politics. And if it's a political decision, it's at 
that time that they should boot it over to Congress, because 
that's our job, and we have to stand for election. And it 
shouldn't be--the bureaucracy in general should not be making 
political decisions. And when you are deciding between 
competing science, if it never goes out to peer review, if you 
never have an outside body look at that science, you are making 
political decisions.
    Ms. Wooldridge. I don't disagree with that.
    Mr. Pombo. And I'd like to remind our audience that the 
decorum of the House requires that you not respond positively 
or negatively to any of the testimony or the questions that are 
asked.
    As we look at reforming the Endangered Species Act and 
changing it and trying to make it work better, one of the 
things that the administration could be extremely helpful on is 
making suggestions on the science side. What do we need in the 
Act so that when you come to a decision, we can count on that? 
I know science is never finished. Things are always being 
studied. There's always new evidence that comes out. But I 
don't have confidence in the process as it exists right now, 
and it would be extremely helpful for any suggestions that the 
administration would have in terms of, how do we set up a peer 
review system that I believe we can count on and trust? So I 
would greatly appreciate that.
    At this time, I turn to my colleague, Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman. I want to 
followup on a couple of the comments you made, Sue Ellen. And I 
want to go back to the Oregon State University analysis of the 
pre-decision or draft professional scientific review copy, 
which you read from and cited in your testimony, and I 
appreciate that because it is a damning indictment of the 
original work. And the thing that troubles me is this document 
was put out 6 March of 2001--the OSU review. The decision to 
turn the water off for farmers came out 6 April, 2001, a month 
later.
    And I know, in making contact with OSU, they say that there 
were changes made to the biological opinion after their review. 
But can you explain to me how those changes were made in that 
short a period of time, when what is listed here, and I'll 
quote again. ``The document is excessively long, the problems 
are not window-dressing rather than obscure the data and make 
it very difficult to find validity in the claims. The document 
has the potential to have a severe negative impact on the 
Services' public credibility.'' This is 6 March--the OSU 
report--and I'm just curious. How do you get from there to 6 
April and make the number of changes that had to have been made 
to satisfy OSU.
    Ms. Wooldridge. I can't answer that directly and I don't 
want to make a flippant remark. I do have a list of the changes 
that they made in response to that. I am not aware of whether 
they were in contact with those professors independently or 
whether they had some advance notice of what the critique was 
going to be.
    Mr. Walden. Well, let me take it another step then, because 
this is one of the issues I keep hearing about is the need for 
peer reviewed science. Was there a requirement in the law that 
the draft opinion be peer reviewed?
    Ms. Wooldridge. No.
    Mr. Walden. So had OSU not been asked to peer review it, 
the possibility exists that the original document that they 
found extraordinary flaws in could have been the basis upon 
which your decision was made.
    Ms. Wooldridge. Yes. I will say--.
    Mr. Walden. But what you--.
    Ms. Wooldridge. --that the Fish and Wildlife Service sent 
it to the American Fisheries Association for them to send it 
off for these comments.
    Mr. Walden. Right, and I understand that in this case, but 
my point is to the bigger issue about why or why not we need to 
amend the Endangered Species Act, because the potential exists, 
had the Fish and Wildlife Service not done this, because 
they're not required by law to send it off--they did it of 
their own volition--that we could be building the foundation 
for decisions the magnitude of that in the Klamath Basin based 
upon non-peer reviewed data.
    Ms. Wooldridge. That's correct.
    Mr. Walden. And in this case, it has been peer reviewed. 
And in this case, frankly--and I spoke, or my staff did, with 
OSU and the people who did the review yesterday, and they said, 
Yes, these things were cleared up. But I want to read from an 
e-mail from Professor Douglas Markel to somebody here in 
reference to this. And he says that, among other things, ``No 
doubt there's uncertainty surrounding a whole bunch of issues 
in the biological opinion, but the final product is at least a 
well reasoned document.'' Then he goes on to write, ``It errs 
on the side of the fish, which may be the position the authors 
feel is required of them. Personally, I'm somewhat more 
optimistic about the future of the suckers and would have 
thought that a different decision could have been reached.'' 
That was Thursday, the 14th of June. What do we do when we have 
scientists that differ in an issue that is as critical as this? 
What do I tell these people? What do we do? How do we change 
the law so we don't face this.
    Ms. Wooldridge. I know the question is not rhetorical. I do 
think that is the benefit of having peer review. And should 
you, as you mentioned, wish to go that direction and try to 
explore those, I know the administration would be happy to 
provide our experience and what we can to help with that.
    Mr. Walden. Well, and as I understand it--at least one 
draft or comments I've heard you make, the administration 
supports peer review.
    Ms. Wooldridge. Yes, it does.
    Mr. Walden. An outside review.
    Ms. Wooldridge. Yes, it does.
    Mr. Walden. Let me ask you another question involving the 
Hardy flow report. Somebody gave me this today, which continues 
to raise the questions. Hardy flow report flawed. Quote, ``We 
used some incorrect data.'' And it's a quote from a publication 
of a subsequent interview, with questions specifically about 
the Hardy flow report. Loveland stated, quote, ``There were 
problems. We used some incorrect data and that's being looked 
at now.'' When asked if it changes the report, Loveland 
responded, ``Yes, it very well could We have to turn it over to 
the Justice Department to coordinate the efforts of Hardy on 
the river flow/Coho issue.'' Is that something you're familiar 
with in terms of questions--.
    Ms. Wooldridge. I'm not familiar with that e-mail. I do 
think I have some understanding that there was some changes 
that were made in some modeling that the Bureau of Reclamation 
was using, and that they've been working with Professor Hardy 
to fix those, and that that will inform his determinations as 
he's going forward. The Hardy II process has not finished.
    Mr. Walden. Let me ask you another question, because my 
time is running out. A couple of months ago I wrote to the 
Secretary regarding the legislation that Senators Smith and 
Wyden and I got passed last year, calling on the Bureau of 
Reclamation to do a complete analysis of this Basin to see how 
we can improve water storage, water quality, water quantity. 
The initial Bureau of Reclamation response was that it might be 
several years before they could complete that or even start 
that study. Can you report back to me now whether or not we can 
speed that up? We don't have several years to wait.
    Ms. Wooldridge. I do understand that. In that legislation, 
you asked that we conduct a number of feasibility studies, and 
I can--and I actually cut it out of my remarks because I was 
going so slowly--that we have begun a feasibility study on 
increasing the Klamath Project storage capacity. That is also 
funded in the next years' budget, in the Secretary's budget. 
And we will commit to you that we are going to make sure that 
we are making these high priority as we go through. They are 
subject to budget constraints and not any lack of interest in 
trying to bring these to a conclusion as soon as we can.
    Mr. Walden. But you will do everything possible to--.
    Ms. Wooldridge. Yes, sir.
    Mr. Walden. And we will work with you, if you need 
congressional assistance on that.
    Ms. Wooldridge. Thank you very much.
    Mr. Walden. Thank you. Thank you, Mr. Chairman.
    Mr. Pombo. Mr. Gibbons.
    Mr. Gibbons. Thanks you very much, Mr. Chairman. Ms. 
Wooldridge, we want to welcome you here. We know that you've 
been in this job something less than 6 months. We're not here 
to blame you, because we know that you've inherited just one 
hell of a problem. We're here with the hope that you can help 
us on all of this, and certainly that's the direction that 
these questions are being addressed.
    Ms. Wooldridge. Thank you.
    Mr. Gibbons. In my preparation for this hearing today, I 
looked at the overall view of the Klamath Basin and realized 
that it has approximately 5,000 square miles to it. There are 
hundreds of public and private activities throughout the Basin 
that, in effect, have some sort of impact on this species. I 
want to ask just one basic question. Why is the Endangered 
Species Act only being applied to the Klamath Project.
    Ms. Wooldridge. That is a very good question. The Federal 
project has certain deliveries, at least as described by the 
project in the biological assessment. The other users of water 
within the basin are unadjudicated, and that is within the 
province of the State of Oregon and in the State of California. 
And we have been--because the Federal project has these 
certainties, you can determine jeopardy looking just at that. 
And, of course, the problem is that that focuses the full 
burden of the Endangered Species Act on a particular group of 
people, and that is not right. But from the perspective of 
somebody who's representing the Department of the Interior, 
it's a box that's very hard to get out of, because we can't 
tell the outside of Project uses or users that they are 
violating the ESA when we don't know what their right is. And 
so we are hopeful that this long-term solution is going to 
include trying to look outside the project as well as just at 
the project, because you can't have a Basin-wide solution that 
looks solely at these particular people. But it is a conundrum 
and a problem.
    Mr. Gibbons. Well, I do know that there are other Federal 
projects, especially in the Upper Klamath region of Klamath 
Lake, that are also not subject to this restriction, and they 
are Federal projects. Let me ask just one follow-up question 
very briefly here in an effort to get through this. What are 
the most recent timelines for beginning and completing water 
augmentation studies that were authorized in legislation that 
was sponsored by Congressman Walden and the two Oregon Senators 
from the Upper Klamath Basin.
    Ms. Wooldridge. My understanding is that we have begun 
those studies already, that they are underway. And they 
originally were on a time frame based on what we assumed were 
going to be the kinds of appropriations that we might be able 
to bring to bear on those projects. As I mentioned briefly, we 
are going to make sure that these are very high priority, they 
are funded for next year, so that we know that we've got money 
to continue to get toward those in terms of being included, and 
we will do what we can to make sure that that happens.
    Mr. Gibbons. Mr. Chairman, in order to move this hearing 
along, I'll yield back the balance of my time. But I did want 
to say that it's a pleasure to have an administration that's 
willing to work with us and not against us.
    Ms. Wooldridge. Thank you.
    Mr. Pombo. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman. It's good to see you 
and for you to be here today. And like Congressman Gibbons, I 
want you to know that you are among friends and we look forward 
to working with you to try to address this issue and others 
that face us in the West. One thing I'd like to know is--and I 
guess maybe I'm a little backwards on this, but it's my belief 
in that I don't believe there's anything called Federal water. 
I think it's state water. And I'd like to know if the taking of 
this water in this project is consistent with Oregon water law, 
and the use of this water is consistent with Oregon water law.
    Ms. Wooldridge. My belief is the answer is yes.
    Mr. Simpson. Is there a consistent Federal policy on when 
and how water can be essentially taken from a project like 
this? Apparently this was taken without--you know, they just 
said, We're going to turn off your water. In other areas in 
Idaho where they've tried to restore salmon with flow 
augmentation, it's been through a willing seller, willing 
buyer, for whatever we had--427,000 acre feet taken for the 
last several year, to willing sellers. Is there any consistent 
policy, and why we would have a willing seller/willing buyer in 
one area, and in another area just say, We're going to turn it 
off?
    Ms. Wooldridge. I am venturing probably beyond my level of 
competence. My basic understanding is that these issues are 
governed by state law. This is a federalism issue, and water 
has always been a matter of the state law that governs it. And 
I assume that the consistent policy would be that we ensure 
that those state laws are respected and carried out and are not 
trumped by some Federal grab of water--Federal water law or 
something.
    Mr. Simpson. Fine. I'm glad to hear you say that, and I 
look forward to working with you to try to make sure that that 
is the case, because I can tell you that with the variety of 
Federal agencies, that there are attempted Federal takes of 
State water law, to override them, whether it's bypass flows in 
Colorado or whether it's the recent, I guess you could say, 
order from NMFS for Idaho power, to give up 350,000 acre feet 
of their water that's stored behind Brownly Dam--Brownly 
Reservoir, without any other consideration. I see a clear 
pattern that the Federal Government is trying to take control 
of State water, and I look forward to working with you to try 
to make sure that that doesn't happen.
    One other area I'd like to ask you just a little bit about, 
and that is the area in the ESA of listing a delisted species. 
How do you list one, and then how do you delist one? And as you 
know, listing is not that difficult anymore. Delisting is 
almost impossible. Do we need to make reforms in the area of 
how we list an endangered species? And from what I understand 
out here, these sucker fish--it would be nice if they were 
named something differently--but they used to grab them with 
hooks and pull them out of the river, so many, and then 
apparently they were listed with only so many estimated 
population, and then they've had fish kills that were more than 
what they thought were actually in the lake, so it kind of 
makes me wonder about the ease with which we list. And if 
there's that many, why is it so difficult to delist them?
    Ms. Wooldridge. Boy, that's one of those where you say 
that's a mystery wrapped in a conundrum. I have asked the same 
questions. I won't pretend to be an expert on this either. My 
understanding, at least with respect to the suckers, is that 
the Fish and Wildlife Service is concerned because there isn't 
recruitment or new fish being born into particular year classes 
that you would see in a natural system, and that rather than 
seeing a spike in a population for every several years, that's 
not happening. And so while the absolute number is an estimate, 
but larger than when it was listed, the concern is that it's 
not--that it is still susceptible because it's not recruiting 
itself, you know, in those years.
    Mr. Simpson. Well, I appreciate the testimony. I look 
forward to working with the administration to address some of 
these concerns that we have with the Endangered Species Act--
not to repeal it, not to have less concern for those species 
that need protection, but to actually bring some common sense 
back into the Endangered Species Act with the realization that 
humans beings are part of our environment also.
    Ms. Wooldridge. Thank you.
    Mr. Simpson. Thank you.
    Mr. Pombo. Mr. Herger.
    Mr. Herger. Thank you, Mr. Chairman. And again, I want to 
join in welcoming you, Ms. Wooldridge. I don't envy the 
position that you're in, coming in in a new administration. 
You're inheriting what is probably one of the greatest 
tragedies I've ever seen take place. But if I could ask, it 
would appear that the actual historical evidence indicates that 
the die-offs of the sucker fish actually occurred in years in 
which water levels in the Upper Klamath Lake where high, and 
not low, and that is supported by a study done by the Klamath 
Water Users Association. It seems to me that what the U.S. Fish 
and Wildlife Service is saying here would actually be harmful 
for these fish.
    And getting back to--you've talked about it a little bit 
and certainly the questions that have been directed to you come 
down to peer review. We have what would appear to be historical 
evidence that, if anything, these sucker fish are healthier 
when the water levels are lower than they are when they're 
high. We have some who we would feel are on a political, 
extreme environmental jihad here. I hate to put it in those 
terms, but I don't know any other way you could look at it. It 
would appear that they are looking for--in the scientists, or 
at least the biologists who have looked at this have almost 
picked out what they could to ensure that there is not a mesh 
with our environment and with the economy of our area. And 
again, that might seem like harsh terms, but I see that, not 
only in the Northern California part of the Klamath Basin that 
I represent, but I see it in an area in the southern part of my 
district where we're trying for put a highway in where there's 
been, just yesterday, the 148th death, fatality on a road that 
because of a meadowfoam and a garter snake, they can't improve 
the highway, or where we had a levee that broke where 6 years 
before the Corp of Engineers said it would break, but they 
found a beetle there that supposedly was endangered.
    Again, it would seem that we are not having peer review. 
We've heard this come up about peer review, and I'd like to 
have you comment on this and whether or not--you mentioned it's 
not in the law. Do you feel it should be in the law, and if 
it's not in the law, can we still implement it? And I'm even 
going to go one step further than that. I'm concerned of where 
we have those of like minds that seem to be part of this 
extreme environmental movement who, basically, they want to run 
people off the land, whether it be here as farmers, or whether 
it be out in the Chico area that I represent, where again the 
148th fatality from about Marysville to Chico have taken place 
in the last 10 years.
    But again, this peer review is very important. We put men 
on the Moon more than 3 decades ago. I'm convinced that we can 
both protect our environment, and as my colleague, Mr. Simpson, 
said, I don't think there's any of us who want to see us do 
away with the Endangered Species Act, but certainly we want to 
see it implemented in a proper way, in a balanced way, in a way 
where we utilize the best science, not just a very biased 
interpretation of science that we seem to go getting. So my 
question is, getting around--it's not in the law. Can we still 
utilize it because it makes sense, because it's the right thing 
to do, and even to go one step forward, extend that just a 
step, and that is, can we ensure that we have independent peer 
review of scientists outside of this closed block of Fish and 
Wildlife and NMFS and some of those others who seem to have 
this bias in the wrong way? Is there something that we can do 
in the administration here?
    Ms. Wooldridge. Well, let me answer that this way. I think 
that peer review does two things. It helps us to know, as 
decision makers, that our judgments are reasonable. And often 
in these cases, you don't know absolutely where something is 
true or false, but if you know that what you've done is 
reasonable, that is helpful, because it adds to the credibility 
of what is being done. So it helps because it helps you know 
that your judgments are correct, and it helps so that those who 
are affected by it can have confidence that it wasn't a product 
of a political decision.
    As you did say, the ESA does not necessarily require this, 
or does not require this. And my brief here today was not to 
talk about what the administration thought should be done to 
modify or reinterpret or make modifications to the Endangered 
Species Act. Our focus in the 5 months that we've been there 
has been to use what administrative or administrative kinds of 
things that we could do to help make sure that these decisions 
were implemented properly, in accordance with the law. So the 
answer is yes, and I think we can, as in this case, as we have 
said, as we go forward with this, that we will subject this to 
peer review and we will use independent peer review. That is 
not to say that within that, that we are going to--they've got 
to talk to somebody, and they will need to know from our 
biologists what is the data and how it was gathered, and those 
sorts of things, but in terms of the actual review, yes.
    Mr. Herger. Thank you. Thank you, Mr. Chairman.
    Mr. Pombo. Mr. Hastings.
    Mr. Hastings. Thank you, Mr. Chairman. I want to add my 
voice to those that welcome you and recognize that you are 
inheriting things that you're trying to deal with with the best 
that you have. I would just kind of--being last to ask 
questions, a lot of those questions have already been asked by 
my colleagues, but I would like to wrap it up in this sense, 
because there is a common thread that all of us I think were 
saying and all of us have been concerned about in dealing with 
the Endangered Species Act. And, obviously, it talks about the 
good science and peer review. And it all revolves around, to 
me, and I think especially for people that are impacted--people 
here in the Klamath Basin, certainly people in the Medtile 
Valley in my area--and that is, they want a solution. They 
don't want an issue. And you can get to a solution if you can 
get people together and somehow arrive at a common ground. But 
what is missing in all of this--and I can see it from my 
constituents, and I certainly sense it listening to what has 
been going on here--is a lack of interaction, and you said you 
were going to correct that, in your testimony. But it deals 
around science and good science and so forth.
    I am reminded of former Governor Dixie Lee Ray of 
Washington. I was in the legislature when she was Governor. She 
has since passed on. She wrote two books, ``Trashing the 
Planet'' and ``Environmental Over-kill.'' And in both of those 
books, while Governor Ray was--at least, the extreme 
environmentalists didn't like her very much because she was 
exposing, I think, what they were all about. She never said 
that an issue was wrong. She just said, Prove it. That's all 
she said was ``prove it.'' And her basis, coming from a 
scientific background, was to have good science that is peer 
reviewed, and I think that's all people are asking. So I guess 
I would ask you go a step further, to take back to the 
Department of the Interior--and I would certainly hope that the 
Committee would agree with me, but if not, at least for any own 
satisfaction--I would like to know what specific steps, since 
the Department of Interior is in favor of peer review--what 
specific steps will you be taking in the short-term to try to 
answer some of the questions that were brought up about Dr. 
Hardy's report, for example? I mean, if there are holes in this 
thing, how are we going to correct that? What steps are going 
to be done and how the Department of the Interior is going to 
handle that here with the Klamath Basin, but with other issues 
that are no doubt going to come up in your four or 8 years that 
you will be in office. Could I ask you to get something for the 
Committee--and if not for the Committee, certainly for me, and 
I will share with the Committee--on what you're going to do?
    Ms. Wooldridge. I would be happy to do that in writing. I 
do think it is going to call for us to make some judgments in 
terms--we do thousands of biological opinions, for instance, a 
year. And it may well be that we need to make a kind of a 
standard or judgment with regards to which of those, and how 
often, and that kind of thing--because peer review, as you can 
imagine, is very costly--but where you have decisions which are 
equally costly to people, I think it is only reasonable that we 
then maybe make that kind of a cut. Where we have fairly 
dreadful impacts on people, that we make sure that our 
decisions are as correct as we can make them.
    Mr. Hastings. Well, I would hope that--because, again, the 
common thread that we are all asking about is what is the 
basis? What is the basis, based on science, peer review, 
whatever the case may be? Prove it, in other words, if you're 
going to make a decision that's going to affect so many people. 
And I would just ask the Department, this administration--and 
I'd be willing to work with them--to put this in place as soon 
as possible so that it's easier for us then to go back and tell 
our constituents that it was done in a manner that is 
responsible, but probably more important, a manner that is 
seeking to find a solution rather than to maintain an issue, as 
so many people outside our region want to have. Thank you for 
your testimony.
    Ms. Wooldridge. Very well.
    Mr. Pombo. Mr. Herger.
    Mr. Herger. Just very quickly, and if I could, just cutting 
to the chase. What will it take to reopen the consultation on 
the existing biological opinion.
    Ms. Wooldridge. I believe that our view of it is that the 
consultation is ongoing.
    Mr. Herger. So it's ongoing. Would you like to go further? 
Is it possible then--again, it would appear that there's more 
information here. It would appear that we have not had an 
adequate, if at all, independent peer review. We're looking at 
again the bankruptcy of communities. Is there any commitment, 
or is it possible to get an indication of the Department of 
Interior's--.
    Ms. Wooldridge. Well, Congressman, let me answer it this 
way. I'm not quite sure I'm following exactly what you're 
asking, but let me-- We're moving into the next years' 
operation, and these folks back here in the community have to 
have a certain amount of certainty, to the extent possible, of 
about what is going to be happening with them. And we have two, 
1-year biological opinions. We need to have the long-term 
opinion. We need to do an EIS-NEPA on the operations of the 
project. Those things, to me, seem pretty clear that we need to 
have those. And as we continue to consult with the services on 
the operation of the project, what we said today is that we 
will make sure that there is an independent review of the 
science which forms the basis of these opinions.
    Mr. Herger. Thank you.
    Mr. Hastings. I would go back, but you took all my time.
    Mr. Pombo. Well, before I excuse you, Ms. Wooldridge, I'd 
just say that science is probably, in my mind, one of the most 
important issues that we have to face in terms of reforming the 
act, the Endangered Species Act. But one of the other things 
that really gets to me is the Act is not enforced equally in 
all parts of the country. There is a difference between the way 
that it is implemented in the West versus the way it is 
implemented in the East--there's a big difference. And just to 
maybe balance things out a little bit, it's come to my 
attention--I've been told that the Potomac River near 
Washington D.C. is home of an endangered sturgeon, and that the 
drinking water process--the purification process that 
Washington D.C. goes through--as part of that process, they 
dump alum into the Potomac. And from what the biologist has 
told me is that that kills the eggs of the sturgeon. So maybe 
if we shut off the drinking water for Washington D.C., it would 
gain the kind of attention to this problem that we need, that 
we may be able to make some changes. So I would suggest to you 
that as part of your ongoing review, that maybe we can look at 
that as well.
    But I want to thank you very much for your testimony. I 
know that there are several questions that were asked of you 
that you will be answering for the record. If you could get 
those to us on a timely basis so that we can include them, I 
would appreciate it.
    Ms. Wooldridge. I'd be happy to do that. Thank you very 
much.
    Mr. Pombo. Thank you. I'd like to call up our second panel 
of witnesses. We have the Honorable Steven West, John Crawford, 
Sharron Molder, the Honorable Dell Raybould, and Dave Vogel. If 
you would join us at the witness stand, please--the witness 
table.

  STATEMENTS OF THE HONORABLE M. STEVEN WEST, COMMISSIONER OF 
 KLAMATH COUNTY, OREGON; JOHN CRAWFORD, KLAMATH BASIN FARMER; 
   SHARRON MOLDER, TULELAKE HIGH SCHOOL PRINCIPAL, TULELAKE, 
     CALIFORNIA; THE HONORABLE DELL RAYBOULD, IDAHO STATE 
    REPRESENTATIVE; DAVE VOGEL, PRESIDENT, NATURAL RESOURCE 
                        SCIENTISTS, INC.

    Mr. Pombo. Thank you very much for joining us here today. 
I'm going to begin with Mr. West, who is the commissioner of 
Klamath County, Oregon. Mr. West, you may begin.

                  STATEMENT OF M. STEVEN WEST

    Mr. West. Thank you, Congressman. As the current Chairman 
of the Board of Commissioners, it's also my privilege today to 
represent my fellow Commissioners, John Elliot and Al Switzer.
    Water is the life blood of Klamath County. In 1905 
President Theodore Roosevelt recognized the importance of 
irrigated agriculture by authorizing the Klamath Irritation 
Project. The United States Government invited people to build 
ranches and farms on the irrigated land, and much of that land 
was divided into homesteads and awarded to returning veterans 
of the First and Second World Wars.
    The United States Department of Agriculture reports that 
1,064 families in Klamath County are farmers, and these farmers 
produce over a $120 million a year in farm gate sales. Using a 
conservative multiplier, that's a $264 million industry in 
Klamath County. Agriculture contributes 40 percent of the 
region's economy, makes up over 10 percent of the region's tax 
base, and employs over 7 percent of the region's workforce.
    The people of the Upper Basin are facing an economic 
disaster of epic proportions. It is both a natural and a 
regulatory disaster. The natural disaster is a record drought. 
The basin has received a D-2 Severe Drought designation. 
Secretary of Agriculture Ann Veneman has declared a USDA 
Drought Disaster Declaration, and President Bush has been 
requested to issue a Presidential Disaster.
    The regulatory disaster is the result of management 
decisions made by the United States Bureau of Reclamation, 
based on biological opinions from the United States Fish and 
Wildlife Service and National Marine Fisheries. These 
biological opinions started as memos from the agencies on 
January 19th, the last day of the Clinton administration. The 
biological opinions were implemented by the bureau on the 6th 
of April.
    During previous drought years, all interests in the basin 
worked together to minimize the loss of the impact. The Bureau 
was allowed flexibility in the operation of the Project to 
minimize negative impact to agriculture and endangered species. 
This year that common sense flexibility is gone. These 
biological opinions have received little or no review, and it 
appears that what little peer review that has been done has 
largely been ignored. In light of the pervasive flaws in the 
biological opinion, it's ludicrous to base such a far-reaching 
decision on what is at least very questionable work. Why should 
Federal agencies, as stewards of public resources, be allowed 
to base decisions of this magnitude on such questionable 
information?
    The decision to not deliver water to the Klamath Irrigation 
Project is having a huge negative economic consequence. The 
dollars from agriculture are spent and re-spent here in the 
basin. Hundreds of families are facing bankruptcy and the loss 
of land that's been in their families for generations. Every 
business, family, and individual in Klamath County is going to 
feel the impact. There will also be significant loss of revenue 
for local government services at a time when the demand for 
those services has never been higher.
    Klamath County Assessor Reg LeQuieu has estimated that tens 
of thousands of acres of irrigated farm land currently valued 
at from $622 to $146 per acre will be valued at only $28 per 
acre without irrigation water. The tax loss has been estimated 
at $640,000. President Theodore Roosevelt said, ``The 
conservation of natural resources is the fundamental problem. 
Unless we solve that problem it will avail us little to solve 
all the others.'' The people of the Basin understand that 
challenge and have been committed to producing local, balanced, 
common sense solutions. Their cooperative efforts have restored 
riparian zones, created over 20,000 acres of wetlands, enhanced 
existing wetlands, and installed fish streams.
    Independent studies show that these projects are all 
working or contributing significantly to improving water 
quality in the Upper Klamath Lake. But all the cooperative and 
collaborative efforts were not given any credit in the 
biological opinions. Because of the heavy-handed management 
practices of these agencies, future local efforts are 
threatened. The agencies have created a huge breach of trust. 
The very citizens who have been committed to finding solutions, 
and who have worked the hardest to implement those solutions, 
are giving up on that process, and who could blame them? The 
Federal Government has not been able to keep its promise for 
water in the Klamath River system. Now they are making the 
irrigators of the Klamath Irrigation Project and the people of 
the Upper Klamath Basin pay the cost for the government's 
broken promises.
    So what are the solutions? There are equally important 
immediate and long-term actions that need to be taken. The 
immediate actions: Pass the $20 million emergency Federal 
package that's in President Bush's supplemental budget and get 
it to the affected people without a lot of agency red tape. 
Next, find additional Federal funding that is proportional to 
the Federal Government's responsibility for the current crisis. 
Next, open the biological opinions to peer review which allows 
for full participation by local stakeholders. Require and 
empower Federal agency managers to participate in the 
development and implementation of local consensus-based 
cooperative solutions that are based on common sense. And the 
Federal Government must acknowledge its responsibility and 
obligations made to the Klamath Irrigation Project.
    The long-term solutions are, first, develop a multi-year 
Federal economic safety net for agriculture, similar in concept 
to Senate Bill 1608, that would give time for long-term 
solutions to be implemented, including amending the Endangered 
Species Act to consider economic impact. Next, guaranty an 
annual amount of water to agriculture in early spring that will 
allow crop decisions to be made. Next, the Federal Government 
must provide financial resources for restoration that are 
proportionate to the size of the problem. Next, develop the 
best opportunities for additional water storage in the Klamath 
River system with a guaranteed amount of water dedicated to 
irrigated agriculture. Stop all out of Basin transfers and 
develop other sources of water to replace water to those who 
have received, historically, these out of Basin transfers. And 
finally, the Federal Government must level the international 
economic playing field for United States agriculture.
    It's time for the Federal Government to become part of the 
solution, not just part of the problem. There's no room for 
partisanship or political agendas when the stakes are this 
high. Again, thank you for allowing me to testify before you 
today, and I'd be happy to answer any questions.
    Mr. Pombo. Thank you. Mr. Crawford.
    [The prepared statement of Mr. West follows:]

  STATEMENT OF M. STEVEN WEST, 2001 CHAIRMAN, KLAMATH COUNTY BOARD OF 
                             COMMISSIONERS

    Good morning members of Congress, my name is Steve West. I am one 
of the three full-time commissioners elected to represent the 64,000 
residents of Klamath County. Currently, I serve as the 2001 Chairman of 
the Klamath County Board of Commissioners, and I am pleased to also 
represent my fellow Commissioners, John Elliott and Al Switzer, here 
today.
    I want to thank you for making time in your busy schedules to hold 
this hearing today in Klamath Falls. My hope is that after this hearing 
today, you will have a much better understanding of the challenges we 
face in the Upper Klamath Basin and will help us in implementing both 
immediate short-term and long-term solutions.
    Water resource issues in Klamath County and the entire Klamath 
River system are very complex. These issues include: two states, non-
adjudicated rights, the Endangered Species Act (ESA) and multiple 
endangered species that are competing for the same resource, out of 
basin water transfers, tribal trusts, water quality and quantity 
issues, flood and drought cycles, federal wildlife refuges, and a 
hundreds of million dollar annual agriculture industry. To understand 
the complexity, it takes more than reading a report or a legal brief. 
To really understand, you must meet and listen to the people whose 
lives these issues effect.
    Water is the lifeblood of Klamath County. It supports wildlife, 
recreation, tourism, agriculture, and most importantly, it supports 
people. In 1905, President Theodore Roosevelt recognized the importance 
of irrigated agriculture in feeding our growing nation and the world by 
authorizing the Klamath Irrigation Project. Over the next forty-five 
years, the United States Government invited people to build ranches and 
farms on the land irrigated by the Klamath Irrigation Project. Much of 
the land was divided into homesteads and awarded through lotteries to 
returning veterans home from defending their country during the Second 
World War. The Klamath Irrigation Project was completed in the 1960's 
and was paid for by the farmers and ranchers. The project is a great 
example of American hard work and ingenuity. The Project has become 
home for generations of well-run family farms and ranches.
    The United States Department of Agriculture reports that 1064 
families in Klamath County are farmers. These farmers produce over 
$120,000,000 a year in farm gate sales. This figure is not retail 
sales, but what the farmer gets for the sale of raw products. If you 
use a very conservative multiplier of 2 to 2.2, that is a $264,000,000 
industry in Klamath County. Agriculture contributes over 40% of the 
Klamath Basin's economy, makes up over 10% of the region's tax base, 
and employs over 7% of the region work force. Klamath County and the 
Upper Klamath Basin is a high desert region with an average annual 
precipitation of only 10 to 12 inches. Without irrigation there is very 
little agriculture in this area.
    The people of Klamath County and the Upper Klamath Basin are facing 
an economic disaster of epic proportion. This economic disaster is 
effecting two states, three counties, one region's economy, and the 
lives of everyone who has made the Upper Klamath Basin their home. It 
is both a natural disaster and a regulatory one.
    The natural disaster we face is a record drought. Mr. Rob Allerman, 
the Bureau of Reclamation's Klamath Project hydrologist has estimated 
that inflows into Upper Klamath Lake from April to September will be 
less than the record drought of 1992 and similar to the drought of 
1977. Total stream flow into the Upper Klamath Lake from all sources is 
estimated to be at only 29% of normal. These are record low levels.
    Mr. Roger Williams, Meteorologist in Charge, National Oceanic and 
Atmospheric Administration (NOAA), National Weather Service in Medford 
reports that precipitation measured at Kingsley Field (Klamath Falls 
Airport) from September 1, 2000 through March 26, 2001 was only 32% of 
average. NOAA officials also report that the Northwest is the most 
drought-impacted region in the country and that the Upper Klamath Basin 
is the driest in the Northwest.
    The National Resources Conservation Service (NRCS) reports that the 
``Snow Water Equivalent'' for snow pack in the Upper Klamath Basin as 
of March 26, 2001 was only 34% of normal. Snowmelt occurred at all 
elevations one to two months earlier than normal. The Upper Klamath 
Basin would have had to of received 200% of normal spring rain to get 
back to a normal water year. The highest spring ever recorded in 
history in the Basin only produced 143% of normal.
    The Upper Klamath Basin has received a D-2 Severe Drought 
designation. Governor Kitzhaber, at the request of the Klamath County 
Board of Commissioners and recommendation of the Oregon Drought 
Council, has signed a State Drought Declaration for Klamath County. 
Secretary of Agriculture Ann Veneman has declared a U.S. Department of 
Agriculture (USDA) Drought Disaster Declaration for Klamath County. The 
Klamath County Board of Commissioners has also requested that Governor 
Kitzhaber seek a Presidential Disaster Declaration from President Bush.
    The regulatory disaster is the result of management decisions made 
by the United States Bureau of Reclamation (USBoR) based on Biological 
Opinions (BO) from the United States Fish and Wildlife Service (USFWS) 
and the National Marine Fisheries Service (NMFS). Memos from the NMFS 
and USFWS both dated January 19th, the last day of the Clinton 
administration, were sent to the USBoR. These memos made new 
recommendations for Upper Klamath Lake levels and Klamath River down 
stream flows. The USFWS and NMFS memos were followed up with formal 
Biological Opinions (BO). The Klamath River down stream flows and Upper 
Klamath Lake levels demanded in these Biological Opinions were 
implemented by the USBoR on April 6th.
    It has been estimated that the Klamath River Down Stream flows and 
Upper Klamath Lake elevations required by the Biological Opinions will 
create an average water shortage of 250,000 acre feet in all water year 
types. (An acre-foot of water is enough water to cover one acre of 
area, one foot deep).
    Drought conditions are nothing new to the Upper Klamath Basin. 
During the drought years of 1992 and 1994, all interests in the Basin, 
including agriculture and National Wildlife Refuges, worked together to 
minimize loss and impacts. USBoR was allowed flexibility in the 
operation of the Klamath Irrigation Project that minimized negative 
impacts to agriculture and endangered species. This year, because of 
the rigid and unreasonable demands of USFWS and NMFS for Upper Klamath 
Lake levels and Klamath River downstream flows, that common sense 
flexibility is gone.
    USFWS and NMFS Biological Opinions that the USBoR is basing its 
2001 Klamath Project Operating Plan on has received little or no peer 
review. It also appears that what little peer review that was done has 
been largely ignored by these agencies. A review for the Oregon Chapter 
of the American Fisheries Society done by Douglas F. Markle, David 
Simon, Michael S, Cooperman, and Mark Terwilliger of Oregon State 
University's Department of Fisheries and Wildlife (February 5, 2001 and 
March 6, 2001) made the following statements:

            . . . The editorial problems are of such magnitude that 
        they severely influence this review. The misspelled words, 
        incomplete sentences, apparent word omissions, missing or 
        incomplete citations, repetitious statements, vagueness, 
        illogical conclusions, inconsistent and contradictory 
        statements (often back to back), factual inaccuracies, lack of 
        rigor, rampant speculation, format, content, and organizational 
        structure make it very difficult to evaluate this BO.
            We urge, in the strongest possible way, that the Service 
        (U.S. Fish and Wildlife Service) re-visit every single sentence 
        for importance, applicability, grammar, spelling, content and 
        internal consistency with other parts of the document. The 
        document is excessively long. The problems are not ``window 
        dressing'', rather they obscure the data and make it very 
        difficult to find validity in claims. This document has the 
        potential to have a severe negative impact on the Service's 
        (U.S. Fish and Wildlife Service) public credibility. . .
            . . . The analytical problem with the system is that the 
        lake level is a seasonally monotonous function of date, so that 
        sequential observations are serially auto-correlated and 
        variables of interest are cross-correlated. For example, low 
        lake level and low temperature do not co-occur because low lake 
        levels happen in late summer or fall and low temperature 
        happens in winter. An important consequence is that lake level 
        cannot be easily separated from cross-correlated physical 
        variables or from seasonal behavior patterns of the fish. Fish 
        responses that are temperature related cannot be easily 
        separated from lake level. A further consequence is that an 
        entire year's worth of observations become a statistical sample 
        of one. The BO does not seem to appreciate this fundamental 
        analytical problem.
            The BO argues that lake elevation is related to water 
        quality and was responsible, in part, for fish kills such as 
        those observed in 1995, 1996, and 1997. The case for a fish 
        kill - lake level relationship rests on weak or inappropriate 
        data, such as the following:
        <bullet> Pg. 27. ``In contrast, suckers captured in 1994 - 
        1996 (years with better water quality and higher lake levels) 
        were substantially more robust''.
            This is an instance where thin fish are used as evidence of 
        poor water quality when no such evidence is presented, not even 
        a correlation coefficient. Further on of the years, 1994, had 
        the lowest lake level on record, and directly challenges the 
        premise...
        <bullet> Pg. 74. ``Lower Lake elevations may increase AFA (a 
        type of blue-green algae) and worsen water quality.''
            Again, the two lowest water years, 1992 and 1994, are not 
        explained. This discussion describes a complex, non-linear 
        system that either implicates intermediate lake levels or 
        suggests that almost any lake level can be associated with poor 
        water quality. The data implicate intermediate, not lower, lake 
        levels because 1.) historical data have been interpreted to 
        indicate that fish kills were common prior to Link River Dam, 
        2.) the pre-dam minimum elevation was 4139.93 and therefore all 
        historical fish kills took place at higher lake elevations, and 
        3) no die off has ever been documented when elevations were 
        below the historical minimum (pg.46). . .
            . . . In summary, the argument for a fish kill - lake level 
        relationship is complex, but does not account for observation 
        that extremely low lake elevations in 1992 and 1994 did not 
        produce fish kills. Further, the BO suggest that 1995-1999, the 
        most heavily managed years in the lake's history, were higher 
        water years, yet fish kills occurred in three of the five 
        years. The data presented give little support for the 
        contention that low summer lake level is related to fish kills. 
        If anything the data support the notion that intermediate 
        summer levels are dangerous. . .
    In light of the pervasive flaws in the Biological Opinions pointed 
out in just one limited peer review, it is ludicrous to base such a far 
reaching decision as the USBoR's 2001 Klamath Irrigation Operation Plan 
on what is at the very least questionable work. If more exhaustive peer 
review had been allowed and considered, how many more flaws would have 
come to light? In the Endangered Species Act (ESA), Biological Opinions 
are presented, as the best science has to offer. If my fellow County 
Commissioners and I, as stewards of public resources, made decisions of 
this magnitude based on such questionable information, we would not 
long be County Commissioners. If American corporations and industries 
made decisions of this magnitude based on such questionable 
information, they would not long be in business. Why should federal 
agencies, as stewards of public resources, be allowed to base decisions 
of this magnitude on such questionable information?
    The USBoR's decision to not deliver irrigation water to the Klamath 
Irrigation Project is having huge negative consequences. The economic 
loss from grain, alfalfa, pasture, livestock, and potato crops, plus 
the increased feed cost for dairies is estimated in the hundreds of 
million dollars. Livestock producers who have invested years and 
countless dollars in breeding programs will suffer losses that will 
take years to recover from. Even pastures that are not watered will be 
negatively affected to the point that they will require replanting. 
These dollars from the agriculture economy are paid in salaries and 
spent to purchase farm supplies, fuel, equipment, vehicles, food and so 
on; they are spent and re-spent here in the Upper Klamath Basin. 
Hundreds of farm and ranch families are facing bankruptcy and the loss 
of land that has been in their families for generations. Every 
business, family, and individual in Klamath County is feeling the 
impact.
    There will also be significant loss of revenue for local government 
services. Beside County Government services the repayment of three 
public project construction bonds will be negatively impacted. Those 
bonds are for the Klamath County Courthouse, the Klamath County 
Government Center, and the Klamath County Fair Grounds Event Center 
where this hearing is being held today. Also negatively impacted will 
be the Klamath County Library Service District, two school districts, a 
community college, four (4) cemetery districts, sixteen (16) fire 
districts, five (5) park districts, seventeen (17) road districts, five 
(5) vector control districts, a public transportation district, and the 
911 emergency dispatch services.
    Klamath County Assessor Reg LeQuieu has estimated that tens of 
thousands of acres of irrigated farm land currently valued at from $622 
to $146 per acre will be valued dry at only $28 per acre without 
irrigation water. He has estimated the tax revenue loss at $640,000. 
Eighty percent of the new revenue growth allowed under Oregon Property 
Tax law will be eliminated.
    Klamath County and the Upper Klamath Basin have not enjoyed the 
economic prosperity of the 1990's. Economic impacts from loss of timber 
jobs and the recession of the 1980's are still being felt. Klamath 
County's current unemployment rate is over 10%. There are outstanding 
ongoing efforts by Klamath County Economic Development Association 
(KCEDA) and Team Klamath to diversify the Basin's economy. We are 
trying to build a healthy diversified economy built on our historic 
base industries of agriculture and forestry, while adding technology 
and tourism.
    The recent siting of the new manufacturing plant of Electro 
Scientific Industries, Inc. (ESI) and Escend Software's research and 
development facility are examples of successful business recruitment. 
Dr. Martha Ann Dow and her team at Oregon Institute of Technology (OIT) 
is a vital asset to Klamath County's economic future. The Running Y 
Ranch Resort, the 2002 Centennial Celebration for Crater Lake National 
Park, and other destinations in the area are increasing the tourism 
industry's contribution to economic health. However, all these efforts 
are for naught if we lose our agricultural economy base. This past 
year, Collins Plywood closed resulting in the loss of 300 family wage 
jobs, showing that our economy is still very fragile.
    In 1907, at the Deep Waterway Convention in Memphis, Tennessee, 
President Theodore Roosevelt said, ``The conservation of natural 
resources is the fundamental problem. Unless we solve that problem it 
will avail us little to solve all others.'' The people of Klamath 
County and of the Upper Klamath Basin understand that the challenge 
that President Roosevelt recognized in 1907 is the same challenge that 
we face today. They have worked hard to be part of the solution.
    There has been a great commitment by the people of the Upper 
Klamath Basin to produce local, long term, balanced, common sense 
solutions. Over the last several years, there have been many ongoing 
local efforts to find solutions. The Klamath Adjudication and Alternate 
Dispute Resolution (ADR) processes are ongoing projects of the Oregon 
Water Resources Department. Both, however, in my opinion will simply 
result in dividing up the drought.
    Farmers, ranchers, Soil Conservation District, Watershed Councils, 
Tribes, consumers and conservationist have worked together 
cooperatively and collaboratively. They have restored riparian zones, 
created over 20,000 acres of new wetlands enhanced existing wetlands, 
and installed fish screens. They are doing these projects and more 
because they are the right things to do, not because they are being 
forced to. Studies done for the Oregon Department of Environmental 
Quality show that these projects are all working and are contributing 
to improved water quality in Upper Klamath Lake by lowering phosphorous 
levels.
    President Theodore Roosevelt once said, ``I have a perfect horror 
of words that are not backed up by deeds''. He would find nothing to 
cause him horror with the people of Klamath County and the Upper 
Klamath Basin. He would only need to look at their accomplishments to 
see that their words have been backed up by their deeds. But all these 
cooperative and collaborative efforts were not given any credit in the 
USFWS and NMFS Biological Opinions and in the USBoR's 2001 Klamath 
Irrigation Project Operating Plan that resulted from those opinions.
    In my opinion, future local efforts are all in danger of collapsing 
because of the current heavy-handed management practices of the USBoR, 
USFWS, and NMFS. The current management practices of these agencies 
have created a huge breach of trust. They have also resulted in inner-
agency and inter-agency squabbles. As a result of the current 
situation, I am concerned that the very citizens who have been 
committed to finding solutions and who have worked the hardest to 
implement those solutions are giving up on that process. And who could 
blame them. The current management practices of these agencies threaten 
to end agriculture in the Upper Klamath Basin. This is an end that we 
can not allow to happen.
    The United States Federal Government made promises for water in 
treaties with Tribes in the 1860s. The United States Federal Government 
made promises for water in homestead grants to returning veterans, war 
heroes, the greatest generation, in the 1920s and 1940s. The United 
States Federal Government made promises for water in the Endangered 
Species Act to endangered species in the 1970s. The United States 
Federal Government has not been able to keep its promises. Now the 
United States Federal Government is making the irrigators of the 
Klamath Irrigation Project, the people of Klamath County, and the 
people of the Upper Klamath Basin pay all the cost of the government's 
broken promises.
    In passing the endangered Species Act legislation, the people's 
elected federal representatives said that these species were important 
enough to the people of the United States to pass a powerful law. The 
Endangered Spices Act is the federal law for all the people of United 
States. Therefore all the people of the United States should have to 
shoulder the cost of implementing this law, not just those that make 
the Upper Klamath Basin their home. The people of Klamath County and 
the Upper Klamath Basin can not be asked to pay the entire cost of the 
Endangered Species Act for the entire Klamath River watershed. All the 
problems of water quality, quantity, and endangered species in the 
Klamath River System, cannot be solved on the backs of the Klamath 
Irrigation Project, the people of Klamath County, and the people of the 
Upper Klamath Basin alone.
    We want to work together with all the people of the Klamath River 
from the headwaters to the Pacific Ocean, but the Klamath Irrigation 
Project and the Klamath Basin's economy cannot bear the entire cost. 
So, what are the solutions? Klamath Commissioners John Elliot, Al 
Switzer, and my self, Modoc County Supervisor Nancy Huffman, Siskiyou 
County Supervisor Joan Smith, Oregon State Senator Steve Harper, U.S. 
Representatives Greg Walden, Wally Herger, and their staff's, U.S. 
Senator Gordon Smith and his staff, have all been working tirelessly to 
bring help to the people we have been elected to serve. We need your 
help and we need it now. I believe that there are equally important 
immediate and long-term actions that need to be taken.

                            Immediate Action

    <bullet> The $20 million dollar emergency federal package 
contained in President Bush's supplemental budget must be passed 
immediately and gotten to the affected people in the most expedient 
manner possible and with a minimum amount of agency red-tape.
    <bullet> Federal funding, in addition to the package in President 
Bush's supplemental budget, that is proportionate to the Federal 
Government's responsibility for the current regulatory crisis must be 
identified and be made available.
    <bullet> The current USFWS and NMFS biological opinions must be 
opened to a peer review process that is done in good faith, in an open 
public forum which allows for full participation by local stake 
holders.
    <bullet> Local Federal Agency managers must be required to and 
empowered to participate in good faith to develop and implement local 
consensus-based and cooperative solutions without the interference from 
heavy handed agency bureaucrats in region offices or Washington, D.C.
    <bullet> The Federal Government must acknowledge its 
responsibility for historically promoting and encouraging the 
development of agriculture in the Upper Klamath Basin through 
homesteads and reclamation projects, and thus it has an obligation to 
honor the agreements made with agriculture.

                            Long Term Action

    <bullet> A multi-year Federal economic safety net must be 
developed for the Upper Klamath Basin, similar in concept to SB1608, 
that would give time for long term solutions to be implemented.
    <bullet> Agriculture must be given a guaranteed quantity of water 
in early spring (February-March) of each year that will allow decisions 
on crop production and production financing to be based on.
    <bullet> The Federal Government must provide financial resources 
that are proportionate to the size of the problem. The Klamath River 
System is the third largest river system on the West Coast. The 
financial resources currently being made available are only a fraction 
of what is being spent on the restoration of the Columbia River System 
and the Sacramento-San Joaquin River System.
    <bullet> All opportunities must be identified for additional water 
storage in the Klamath River System and adequate funding must be 
provided to construct the best projects in no more than five years, 
with a guaranteed amount dedicated for irrigated agriculture.
    <bullet> All out-of-basin water transfers must be stopped and 
other sources of water to replace water to those who have historically 
received the out-of-basin transferred water need to be identified.
    <bullet> The Federal government must work legislatively to level 
the international economic playing field for United States agriculture 
to sell their products and to remedy the unfairness of current trade 
agreements.
    The problems and solutions are large and complex, and time has run 
out. It is time for the Federal government to become part of the 
solution, not just part of the problem. These are people's lives we are 
talking about. There is no room for partisanship or political agendas 
when the stakes are this high. Again, thank you for allowing me to 
testify before you today. I am happy to answer any questions you might 
have.
                                 ______
                                 

                   STATEMENT OF JOHN CRAWFORD

    Mr. Crawford. Thank you, Mr. Chairman and members of the 
Committee. My name is John Crawford. I'm a Klamath Project 
farmer. As part of my testimony today, I have the humbling 
responsibility of representing Klamath Project agriculture, 
including the veterans and the Hispanic members of our 
community. Klamath Project irrigators are often accused by 
environmental extremists of being highly subsidized and having 
not paid our portion of the construction costs of the Klamath 
Project. In fact we have repaid every penny of our obligation 
to the Klamath Project, and the following statement will 
provide insight as to past accomplishments of the agricultural 
community.
    Through the half century since the Klamath Project was 
completed, the Federal Government has invested about $14.7 
million in the construction of the Project. Federal tax 
collections alone, since 1940, have reached a cumulative total 
of about $95 million, or more than six times the project's 
cost.
    Two hundred thousand acres of fertile land have been 
reclaimed from swamp and arid prairie. More than 1,600 farm 
families and scores of merchants and tradesmen derive an 
excellent livelihood from this reclamation project. About 
44,000 acres of the 200,000 acres reclaimed were originally in 
the public domain. These public lands have been dedicated to 
the most worthy purpose of assisting our war veterans. I can 
think of no finer program. Since 1922, settlement opportunities 
have been provided to more than 600 veterans of World Wars I 
and II.
    Although the accomplishments in the Klamath Project area in 
the past half century have been great, there is sill room for 
expansion, and even greater accomplishments are in store for 
this area in the future if the full development of the water 
and land resource potential is effectively achieved.
    ``I believe that you will find this a very interesting 
study and another example showing that expenditures for our 
reclamation program constitute one of the nation's wisest 
investments.''.
    Those are the words of Clair Engle, the chairman of this 
very committee, spoken on May 16th of 1957. That wise 
investment has provided over six billion dollars in farm 
products, based on the value of today's dollar.
    Words cannot begin to describe the pain being experienced 
in our communities. Farm families have lost income. Long-term 
commodity supply contracts have been terminated. Debts will not 
be paid. Dreams are being shattered. The loss is not only 
economic. It is a loss of our identity. There is no separation 
between our work and the rest of our lives. We are farmers and 
ranchers.
    Recently, I've seen Tom Hanks of ``Saving Private Ryan'' 
fame soliciting support for the World War II memorial in 
Washington D.C. As a life member of the Veterans of Foreign 
Wars, I fully support this effort, but believe there no better 
place to recognize the admiration and respect earned by our 
World War II veterans than here in the Klamath Basin. This can 
be accomplished if our government honors its commitment to the 
veterans who homesteaded the Tulelake area of the basin.
    With the Chairman's permission, I would like to submit the 
written testimony of over 20 of these veterans who homesteaded 
in the Tulelake area.
    Mr. Pombo. Without objection, it will be included in the 
record.

    [The information referred to is located at the end of this 
hearing:]

    Mr. Crawford. The vast majority of the basin's Hispanic 
people are permanent residents of the area. These proud leaders 
and valued members of our community are inexorably linked to 
Basin agriculture. No water has equated to loss of jobs, and 
some of the men have already been forced to leave the area in 
search of work. Now that the school year has ended, this exodus 
will continue and escalate. It is tragic that we may lose our 
friends and neighbors that make up the Hispanic community.
    How have we arrived at this deplorable and devastating 
outcome that destroys our communities and provides no 
recognizable benefit for any of the endangered species? This 
outcome is the product of a corrupted scientific process and a 
disproportionate focus on the Klamath Project.
    Instead of having applicant status in both Section 7 
consultations for suckers and Coho salmon as we held in the 
development of the 1992 opinion for suckers, we have been 
excluded from the salmon consultation and relegated to 
commenting on the sucker biological opinion after the fact. The 
Department of the Interior has ignored two different sucker 
restoration plans developed by the Klamath Water Users 
Association in their preparation of biological assessments and 
opinions. They have ignored credible peer review, including 
that of Oregon State, which has already been discussed. We 
would like to formally request that applicant status of Project 
irrigators be reinstated for both the section 7 consultations 
for suckers and for Coho.
    Members of Congress and stakeholders continually ask the 
same questions, but honest answers never seem to materialize. 
If all of the fish kills in Upper Klamath Lake have occurred at 
high water levels, why is the average fish kill elevation the 
same as that prescribed as the minimum level in the biological 
opinion? If no fish kills have occurred at low levels, why is 
the concern so heavily weighted that they may occur in the 
future? If the only viable year class of suckers recruited in 
the last 10 years, 1991, occurred in a low water elevation of 
4138, why is that not recognized? If the healthiest sucker 
population with the most year classes occurs in Clear Lake 
where virtually no emergent vegetation exists, why does the 
U.S. Fish and Wildlife Service insist that the relationship 
between emergent vegetation and lake levels in Upper Klamath 
Lake is so important?
    If fish kills on the Klamath River, including Coho, 
occurred in August of '94, May and June of 2000, and May of 
2001, when releases were being substantially augmented with 
water from Upper Klamath Lake and the temperature of that water 
was toxic to fish, why does the National Marine Fisheries 
Service insist that more water, regardless of its quality, is 
better? Since fish returns, particularly Coho, were excellent 
in 1995 and 1996, following the lowest flows since Link River 
Dam was constructed, why don't the agencies acknowledge that 
other factors may have more influence than flows in the main 
stem Klamath below Iron Gate Dam?
    The demand that the Klamath Project must shoulder all of 
the responsibility for providing lake levels, river flows and 
any other needs that the agencies can dream up goes well beyond 
unfair and borders on the ridiculous. There are two other 
Federal irrigation projects, thousands of acres above Upper 
Klamath Lake, thousands of acres irrigated from the Shasta and 
Scott rivers. The Federal Government does not have the courage 
or creativity to deal with this inequity. The Klamath Project 
has simply been chosen as an easy target.
    The perception shared by the tribes and some environmental 
groups that all of the water stored for irrigation, plus all of 
the inflow for the year, is still not enough to protect 
resources, even with no deliveries to agriculture and the 
refuges, is completely counter-productive to attaining 
agriculture's cooperation for any endeavor. The resentment that 
this attitude has instilled in the community will result in 
long-term harm to agriculture's support for restoration 
projects and activities.
    We have initiated or supported the creation of nearly 
25,000 acres of wetlands that have changed from productive 
agricultural lands in private ownership to Federal or 
conservancy ownership. We have supported appropriations for the 
refuges and collaborated with the California Waterfowl 
Association and Ducks Unlimited to improve wetland habitats. 
Unlike others, we have never demanded all the water and never 
will. We support our fellow food producers in the commercial 
fishing industry and have focused our restoration efforts on 
improving water quality. We think that these improvements, 
which have been well documented, provide the most positive 
impact on the fisheries relied upon by the commercial fleet, 
and also improve conditions for endangered suckers and the 
trust resources of the downstream tribes as well.
    It has been stated by Glen Spain of the Pacific Coast 
Federation of Fisherman's Association that market conditions in 
the Klamath Basin may make agriculture's future an effort in 
futility. Like the fishing industry, we have fought through 
tough times before and survived. We can prosper again, but only 
with an adequate supply of water. The unfortunate truth for 
both fishermen and farmers is that the cheapest meal I can 
think of today consists of a big baked potato and a fillet of 
pen-raised Chilean Coho available at Safeway in Klamath Falls 
for $1.89 a pound.
    The devastated condition of this basin not only includes a 
$250 million loss of farm gate revenue and the risk to public 
safety related to wind and soil erosion that continues to 
occur, but the horrible degradation of 200,000 acres of habitat 
for hundreds of species living in the Klamath Project. How can 
we justify the elimination of this habitat in the name of 
single species management up in Upper Klamath Lake when that 
management will probably not benefit the endangered suckers?
    If an adequate economic relief package is not forthcoming, 
the long-term harm and damage may be so severe that the people 
and resources of this community cannot survive. Existing 
disaster and drought relief programs provided by the U.S. 
Department of Agriculture cannot be modified or adapted to 
provide for these circumstances. Economic relief must be 
crafted to accommodate the tremendous need based on what has 
occurred in this basin.
    The California community wants to thank Governor Gray Davis 
for taking quick, decisive action and providing immediate 
relief in the form of five million dollars for the drilling of 
wells to augment our non-existent allocation of water.
    The primary concern that I have regarding this entire issue 
is that I cannot identify a single action taken by the 
Department of the Interior that will prevent us from being in 
this identical situation next year. I don't believe that any 
type of long-term solution has been addressed by the Federal 
agencies. Thank you.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Crawford follows:]

   STATEMENT OF JOHN CRAWFORD, KLAMATH PROJECT FARMER AND MEMBER OF 
            TULELAKE IRRIGATION DISTRICT BOARD OF DIRECTORS

    Mr. Chairman and members of the committee:
    My name is John Crawford and I am a Klamath Project farmer. I have 
lived in the Klamath Basin my entire life. I am a member of the 
Tulelake Irrigation District Board of Directors, past president of the 
Klamath Water Users Association, member of the Board of Trustees of the 
Nature Conservancy of Oregon, a member of the Upper Klamath Basin 
Working Group and the Klamath Basin Ecosystem Foundation.
    As part of my testimony today I have the humbling responsibility of 
representing Klamath Project agriculture including the veterans and the 
Hispanic members of our community. Klamath Project irrigators are often 
accused by environmental extremists of being highly subsidized and 
having not paid our portion of the construction costs of the Klamath 
Project. In fact we have repaid every penny of our obligation to the 
Klamath Project and the following statement will provide insight to 
other accomplishments of the agricultural community:``Through the half 
century since the Klamath Project was completed, the Federal Government 
has invested about $14.7 million in construction of the project. During 
that same period the project has produced crops having a gross value of 
more than $350 million. During the last 10 years alone, project lands 
have produced 67 million bushels of potatoes valued at $80 million, and 
42 million bushels of barley valued at $62 million. Federal tax 
collections alone since 1940 have reached a cumulative total of about 
$95 million, or more than 6 times the project's cost.
    Two hundred thousand acres of fertile land have been reclaimed from 
swamp and arid prairie. More than 1,600 farm families and scores of 
merchants and tradesmen derive an excellent livelihood from this 
reclamation project. About 44,000 acres of the 200,000 acres reclaimed 
were originally in the public domain. These public lands have been 
dedicated to the most worthy purpose of assisting our war veterans. I 
can think of no finer program. Since 1922 settlement opportunities have 
been provided to more than 600 veterans of World Wars I and II.
    Although the accomplishments in the Klamath project area in the 
past half century have been great, there is still room for expansion, 
and even greater accomplishments are in store for this area in the 
future if full development of the water and land resource potential is 
effectively achieved.
    I believe that you will find this a very interesting study and 
another example showing that expenditures for our reclamation program 
constitute one of the nation's wisest investments.''
    The above is an excerpt of the statement of Clair Engle, the 
Chairman, to the members of the House Interior and Insular Affairs 
Committee dated May 16, 1957.
    That wise investment has provided over 6 billion dollars in farm 
products based on the value of today's dollar.
    Words cannot begin to describe the pain being experienced in our 
communities. Farm families have lost income. Long-term commodity supply 
contracts have been terminated. Debts will not be paid. Dreams are 
being shattered. The loss is not only economic. It is a loss of our 
identity. There is no separation between our work and the rest of our 
lives. We are farmers and ranchers.
    Recently, I have seen Tom Hanks of ``Saving Private Ryan'' fame 
soliciting support for the World War II memorial in Washington D.C. As 
a life member of the Veterans of Foreign Wars I fully support this 
effort, but believe there is no better place to recognize the 
admiration and respect earned by our World War II veterans than here in 
the Klamath Basin. This can be accomplished if our government honors 
its commitment to the veterans who homesteaded the Tulelake area of the 
Basin.
    The vast majority of the Basin's Hispanic people are permanent 
residents of the area. These proud leaders and valued members of our 
community are inexorably linked to Basin agriculture. No water has 
equated to loss of jobs and some of the men have already been forced to 
leave the area in search of work. Now that the school year has ended 
this exodus will continue and escalate. It is tragic that we may lose 
our friends and neighbors that make up the Hispanic community.
    How have we arrived at this deplorable and devastating outcome that 
destroys our communities and provides no recognizable benefit for any 
of the endangered species? This outcome is the product of a corrupted 
scientific process and a disproportionate focus on the Klamath Project.
    Instead of having applicant status in both the Section 7 
consultations for suckers and Coho salmon as we held in the development 
of the 1992 opinion for suckers we have been excluded from the salmon 
consultation and relegated to commenting on the sucker biological 
opinion after the fact. The Department of Interior has ignored two 
different sucker restoration plans developed by the Klamath Water Users 
Association in their preparation of biological assessments and 
opinions. They have ignored credible peer review including Oregon State 
University's assessment of the sucker biological opinion that said the 
opinion was comprised of ``illogical conclusions'', ``inconsistent and 
contradictory statements'', ``factual inaccuracies and rampant 
speculation''. The review also stated that the document had the 
potential to severely damage the public credibility of U.S. Fish and 
Wildlife Service (USF&WS).
    Members of Congress and stakeholders continually ask the same 
questions, but honest answers never seem to materialize. If all the 
fish kills in Upper Klamath Lake have occurred at high water levels why 
is the average fish kill elevation the same as that prescribed as the 
minimum level in the biological opinion. If no fish kills have occurred 
at low levels why is the concern so heavily weighted that they may 
occur in the future? If the only viable year class of suckers recruited 
in the last ten years (1991) occurred in a low water year elevation 
4138 why is that not recognized? If the healthiest sucker population 
with the most year classes occurs in Clear Lake where virtually no 
emergent vegetation exists why does the USF&WS insist that the 
relationship between emergent vegetation and lake levels in Upper 
Klamath Lake is so important? If fish kills on the Klamath River 
(including Coho) occurred in August of 1994, May and June of 2000 and 
May of 2001 when releases were being substantially augmented with water 
from Upper Klamath Lake and the temperature of that water was toxic to 
fish why does the National Marine Fisheries Service insist that more 
water regardless of its quality is better? Since fish returns 
(particularly Coho) were excellent in 1995 and 1996 following the 
lowest flows since Link River Dam was constructed why won't the 
agencies acknowledge that other factors may have more influence than 
flows in the main stem Klamath below Iron Gate Dam?
    The demand that the Klamath Project must shoulder all of the 
responsibility for providing lake levels, river flows and any other 
needs the agencies can dream up goes well beyond unfair and borders on 
the ridiculous. There are two other federal irrigation projects, 
thousands of acres above Upper Klamath Lake, thousands of acres 
irrigated from the Shasta and Scott rivers. The federal government does 
not have the courage or creativity to deal with this iniquity. It has 
simply been chosen as easy target.
    The perception shared by the tribes and some environmental groups 
that all of the water stored for irrigation plus all of the inflow for 
the year is still not enough to protect resources even with no 
deliveries to agriculture and the refuges is completely counter 
productive to attaining agriculture's cooperation for any endeavor. The 
resentment that this attitude has instilled in the community will 
result in long-term harm to agriculture's support for restoration 
projects and activities. We have initiated or supported the creation of 
nearly 25,000 acres of wetlands that have changed from productive 
agricultural lands in private ownership to federal or conservancy 
ownership. We have supported appropriations for the refuges and 
collaborated with the California Waterfowl Association and Ducks 
Unlimited to improve wetland habitats. Unlike others we have never 
demanded all the water and never will. We support our fellow food 
producers in the commercial fishing industry and have focused our 
restoration efforts on improving water quality. We think that these 
improvements, which have been well documented, provide the most 
positive impact on the fisheries relied upon by the commercial fleet 
and also improve conditions for endangered suckers and the trust 
resources of the downstream tribes as well. It has been stated by Glen 
Spain of the Pacific Coast Federation of Fishermen's Associations, that 
market conditions in the Klamath Basin may make agriculture's future an 
effort in futility. Like the fishing industry we have fought through 
tough times before and survived. We can prosper again, but only with an 
adequate supply of water. The unfortunate truth for both fisherman and 
farmers is that the cheapest meal I can think of today consists of a 
big baked potato and a fillet of pen raised Chilean ``Coho'' available 
at Safeway in Klamath Falls for $1.89 per pound.
    The devastated condition of this Basin not only includes a $250 
million loss of farm gate revenue and the risk of public safety related 
to wind and soil erosion that continues to occur, but the horrible 
degradation of 200,000 acres of habitat for hundreds of species living 
in the Klamath Project. How can we justify the elimination of this 
habitat in the name of single species management in Upper Klamath Lake 
when that management will probably not benefit the endangered suckers.
    If an adequate economic relief package is not forthcoming the long-
term harm and damage may be so severe that the people of this community 
cannot survive. Existing disaster and drought relief programs provided 
by the U.S. Department of Agriculture can probably not be modified or 
adapted to provide for these circumstances. Economic relief must be 
crafted to accommodate the tremendous need based on what has occurred 
in this Basin.
    The California community wants to thank Governor Gray Davis for 
taking quick, decisive action and providing immediate relief in the 
form of 5 million dollars for the drilling of wells to augment our non-
existent allocation of water.
    The primary concern that I have regarding this entire issue is that 
I cannot identify a single action taken by the Department of Interior 
that will prevent us from being in this identical situation next year. 
I don't believe that any type of long-term solution has been addressed 
by the federal agencies.
                                 ______
                                 
    Mr. Pombo. Ms. Molder.

                  STATEMENT OF SHARRON MOLDER

    Ms. Molder. Mr. Chairman, members of the Committee, thank 
you for the opportunity to testify today. My name is Sharron 
Molder. I'm the Principal of Tulelake High School, and I depend 
on farming for my daily existence just as you do.
    I want to thank you on behalf of all the students, parents, 
teachers, and staff members of the Tulelake Basin School 
District and our neighboring schools located within the Klamath 
Basin for coming to Klamath Falls to learn more about the 
crisis we are now facing. In fact, with no objection, I would 
like to invite all current and former students from Tulelake, 
Merrill and Malin to please stand up so you can see the people 
I represent here today. We are not a small group.
    I have been asked to give my opinion on what caused the 
current water crisis. If you come to Tulelake High School and 
walk through the foyer where a tradition of graduating classes 
have been displayed since 1934, you will understand. The 
veterans of World War I and World War II who came to farm in 
the Klamath Project believed that a written promise for water 
forever made by the government that sent them to war, and 
signed by Franklin Delano Roosevelt, Herbert Hoover or Ulysses 
S. Grant, was meant to last longer than 50 years. These are the 
people who created the backbone of this community. Out of 135 
families, today in the Tulelake School District, 18 children at 
the high school are third generation, 18 are fourth generation 
and two are from fifth generation farming families.
    What caused this crisis? Greed and hidden agendas by 
environmental zealots who are not much different than the 
carpetbaggers who rampaged the South after the Civil War 
devastated our communities. Indifference to social and economic 
conditions has begun to destroy not only our rural communities, 
but also 430 native species of wildlife as well.
    We don't just raise potatoes, horseradish and onions. We 
grow kids. The valedictorian for the class of 2001, Brianna 
Byrne, is a member of a local family who has farmed here for a 
century. At a hearing before the California State Assembly, 
Water, Parks and Wildlife Committee in May, Brianna stated, 
``How can I and other members of my chapter of Future Farmers 
feel any sense of security in pursuing agriculture as a career 
when the government of the strongest nation on earth takes away 
the core of our history and community based on unproven and 
speculative science?''
    The Tulelake community has tried to repair the situation by 
communicating the news of this devastating crisis through the 
media and a massive letter writing campaign to all government 
representatives. I'd like to share excerpts of some journal 
writings by students at Tulelake High School in hopes that you 
will have some insight into the people that are affected by 
this callous decision accepted as necessary by some branches of 
our government. Dozens of testimonies make a clear statement 
that our young people are losing there faith in government, and 
I believe that should concern you, Mr. Chairman and Committee 
members.
    Our students wrote, ``The citizens of the area are looked 
upon as pawns of their own government--the American government. 
The government totally turned their backs on the people of this 
Basin. They took away their livelihood. There once was a strong 
belief in this community for the American government, but that 
has now been destroyed.''
    Mr. Chairman, I ask that you please include this 
information in the official record.
    Mr. Pombo. Without objection.

    [The information referred to has been retained in the 
Committee's official files:]

    Ms. Molder. The Tulelake School District provides education 
for children from preschool through 12th grade. As of March, 
2001, the student enrollment in the district was 574; 55 
percent of our student population is Hispanic, approximately 80 
percent of these students qualify under Federal guidelines as 
economically disadvantaged and therefore receive free or 
reduced lunches and other benefits. Based on a poll preparing 
the district's operating plan and budget for 2001/2002, we 
could lose approximately 200 students, 30 to 40 percent of our 
student population, and approximately one million dollars in 
lost revenue. I know a lot about school administration, but I 
don't know how to administrate a school with no children.
    Our schools are recognized by the State of California as 
high performance schools. Our technology is second to none in 
Northern California. We are a very successful school district. 
Our success is particularly notable when you consider that many 
of our students come from homes that are at or below the 
poverty level, and Spanish is the primary language spoken in 
the homes. A government official in Sacramento told me that 
instead of destroying our schools, the Federal agencies should 
be up here studying them.
    Many of the students' recent writings and actions indicate 
even more significant adverse impacts to the school community. 
Our recent 4th quarter grade reports show a significant 
increase in D's and F's. This time frame parallels the news of 
the water crisis. These are students who emotionally gave up. 
We expect our SAT 9 scores to drop district-wide.
    Many of the families in our schools have participated for 
years in the successful agricultural business community, and 
are now unemployed or are employers who have not only been 
forced to lay off long-term employees, but face the prospect of 
financial ruin themselves. The emotional pain and stress felt 
by the parents is recognized and transmitted to the students. 
As hope for a rapid solution fell, referrals and problems 
increased. I am concerned that facing a summer with no jobs for 
high school students, problems will continue to increase. We 
usually process about 100 student work permits, and we have 
processed six.
    Modoc and Siskiyou Counties have been declared a ``special 
disaster area.'' A Local Assistance Center has been set up. 
However, some of our community members are undocumented 
immigrants who will not be eligible for assistance. They have 
put down roots. Some are third-generation now. But without 
financial aid, they must move on. Others who will need our 
services but will not accept them are senior citizens in need, 
but too proud to accept a government handout.
    It is troubling to hear from people who don't live here, 
but who suggest that we should all just accept a government 
buyout and move on. Unfortunately, discrimination is still 
prevalent in our society, as these remarks sadly show. Our 
schools will reopen in August, but who will still be here? Our 
summer school enrollment has dropped from 220 students last 
year to 170 this year. Our staff is frustrated and deeply hurt 
by the possibility that our efforts to build an excellent 
learning community are at risk because of the loss of 
irrigation water to the farms that support this school 
district. We still have children in this Basin to raise and 
educate.
    I share the words of Ross Macy who said, ``As an FFA 
officer, I have been taught the importance of farming and 
leadership. I have ambitions to gain the highest honor that the 
FFA has to award, the American Farmer Degree, and to accomplish 
this in my home town and in my high school. However, because of 
this destructive decision, I may not be able to reach this 
goal, and neither will future generations.'' Above all, the 
greatest country in the world needs to have the greatest 
government in the world so that a government ``of the people, 
by the people and for the people shall not perish from this 
earth.'' Abraham Lincoln.
    My daughter Jennifer is a sophomore at Cal Poly, San Luis 
Obispo, majoring in production agriculture, a 1999 graduate of 
Tulelake High School and a member of FFA. In October we 
traveled to Kentucky where she received her American Farmer 
Degree from the largest youth organization in American. I pray 
that she will not be the last. How can this problem be 
prevented in the future?
    Our government in an emergency is reactive, not proactive. 
As Thomas Jefferson said, ``It is more honorable to repair a 
wrong than to persist in it.'' You could still open the gates 
and turn on the water. Some say it is too late to turn on the 
water this year, but as long as it can help any person or any 
species in the Basin, it is not too late. We teach our 
children, if you make a mistake you admit it, correct it and 
move on. Congress should also financially reimburse those 
businesses and workers who have suffered because of the loss of 
water supplies. The science that led to these decisions must be 
reviewed. Economic impact studies should be conducted before 
decisions are made. It is the people in this Basin who are 
endangered and worth saving.
    To close, I choose the words of sophomore, Lupita Aguilar: 
``We need to find an answer to all of this. Please find a way 
in which both fish, farmers and ranchers get water. I'm sure 
there is a solution because there is one to everything. We just 
have to work together and find the one that will benefit all 
sides.'' Thank you.
    Mr. Pombo. Thank you.
    [The prepared statement of Ms. Molder follows:]

STATEMENT OF SHARRON MOLDER, PRINCIPAL, TULELAKE HIGH SCHOOL, TULELAKE 
       BASIN JOINT UNIFIED SCHOOL DISTRICT, TULELAKE, CALIFORNIA

    Mr. Chairman, members of the Committee, thank you for the 
opportunity to testify today. My name is Sharron Molder. I am the 
principal of Tulelake High School and I depend on farming for my daily 
existence, just as you do.
    I want to thank you on behalf of the students, parents, teachers, 
and staff members of the Tulelake Basin School District and our 
neighboring schools located within the Klamath Basin, for coming to 
Klamath Falls to learn more about the tragedy unfolding before us.
    I have been asked to give my opinion on what caused the current 
water crisis. If you came to Tulelake High School and walked through 
the foyer where a tradition of graduating classes have been displayed 
since 1934, you would know the answer. The Veterans of WWI and WWII who 
came to farm in the Klamath Project, created by the Bureau of 
Reclamation believed that a written promise for water forever, made by 
the government that sent them to war, and signed by Franklin D. 
Roosevelt, Herbert Hoover, or Ulysses S. Grant was meant to last longer 
than 50 years. These are the people who created the backbone of this 
community. Their pictures, on display from 1934 to the present honor 
the generations that followed these brave families. Who is affected by 
the loss of water in the Tulelake Basin? Out of 135 families in the 
high school we have 18 families with third generation children, 18 who 
are fourth generation and two who are fifth generation farming 
families. Some of these same veterans now face a severe loss in income 
because their land cannot be leased for farming providing retirement 
income. These proud Americans never saw the crisis coming. What caused 
this crisis? Greed and hidden agendas by environmental zealots who are 
not much different than the carpetbaggers who rampaged the south after 
the civil war devastated our communities. Indifference to social and 
economic conditions has begun to destroy not only our rural communities 
but also 430 native species of wildlife as well.
    My daughter, Jennifer wants to be a farmer. She is a sophomore at 
Cal Poly, San Luis Obispo, majoring in Production Agriculture, a 1999 
graduate of Tulelake High School and a member of FFA. She has earned 
her American FFA degree, the highest national honor in the Future 
Farmers
    Organization, still the largest youth organization in America. I 
share with you excerpts from the FFA Creed written by E.M. Tiffany
    I believe in the future of agriculture. I believe that American 
agriculture can and will hold true to the best traditions of our 
national life and that I can exert an influence in my home and 
community which will stand solid for my part in that inspiring task.
    Jennifer is one of Tulelake's children. We don't just raise up 
potatoes, horseradish and onions. We also grow kids. Another student, 
our valedictorian for the class of 2001, Brianna Byrne, is on her way 
to Santa Clara University. She is a member of a Klamath Basin family, 
in farming for a century. At a hearing before the California State 
Assembly, Water, Parks and Wildlife Committee on May 22, 2001 Brianna 
stated ``How can I and the other members of my chapter of Future 
Farmers feel any sense of security in pursuing agriculture as a career 
when the government of the strongest nation on earth takes away the 
core of our history and community based upon unproven and speculative 
science?''
    The Tulelake community has tried to repair the situation by 
communicating the news of this devastating crisis through the print 
media, television and a massive letter writing campaign to our 
government representatives. A sophomore took photographs during a 
sandstorm, when the dirt blew so hard you couldn't see the end of your 
car on the highway, a common occurrence these days. Students and staff 
prepared a reception at Tulelake High School for Congressman Wally 
Herger, with mere 24 hours notice. The previous day the high school 
took busses to the rally at The Event Center in Klamath Falls to hear 
the governor of Oregon address the crowd of 6000. Columbia Plywood in 
Oregon gave the high school 30 sheets of plywood to advertise our 
plight along highway 139 to passing motorists. The students painted 
messages on both sides: ``Give us our slice of the pie'', ``In 
preschool we were taught to share'', ``Save our ecosystem, fish, 
rancher, and farmer'' and ``Call 911! Some Sucker stole our water!'' 
But still, the tap is dry. I liken the feeling to the ``rolling power 
blackouts'' that areas of California have been experiencing. Imagine 
that the lights are switched off, but they do not go back on in an 
hour, or a day. You do not know if the switch will ever go back on, 
ever. So it is with our irrigation water.
    The Tulelake community has tried to repair the situation by 
communicating the news of this devastating crisis through the media and 
a massive letter writing campaign to our government representatives. 
I'd like to share excerpts of some journal writings by students at 
Tulelake High School in hopes that you will have some insight into the 
real people that are affected by this speculative science accepted as 
truth by some branches of our government. Dozens of statements make a 
clear statement that our young people are losing their faith in 
government and I believe that should concern you Mr. Chairman and 
committee members.
    Ross: The citizens of the area are looked upon as pawns to their 
own government, and not just any government, but the American 
government. I feel as if the government believes that some fish in a 
river are more important than the livelihoods of thousands. Is this how 
the American government was set up? Absolutely not. It just goes to 
show how unimportant the government believes the small farmer is. We do 
all we can to produce the food the world needs, maintain the 
environment, and sustain our own lives. There is no farmer in the world 
that has to put up with more regulations and strict standards than the 
American small farmer. However, we still hold on, believing that these 
regulations are helping to produce a superior product, and we are 
helping to give the world the food it needs. And then the government 
takes it all away. The government has set a standard, and now little 
bits of land can be taken away throughout the entire United States, and 
soon we will be abolishing the American small farmer all together.
    Wes: On Friday, the 6th of April, our government decided that they 
were not going to give any water, as in none at all, to the farmers of 
the Klamath Basin. They decided that they were going to let all the 
water run down river just because there might be a possibility that the 
fish population would deplete. There was no evidence guaranteeing that 
the fish population would go down. They still decided that the lives of 
fish were more important than the lives of countless farmers. The 
government totally turned their backs on the people of this Basin. They 
took away something that was truly important to the people here; they 
took away their livelihood. Our government, at the turn of the century, 
invited homesteaders to come and settle here and start new lives. Now, 
that very same government is taking away what they once had supported. 
The farmers of this area use only two percent of the water in Klamath 
Lake. They only want 6 inches of the lake water so that they can 
provide food for their families and thousands of other families in the 
US. Everything that goes on in Tulelake is in one way or another linked 
to agriculture. My dad works for a fertilizer corporation whose 
business comes from the farmers. Every friend that I have here is also 
linked to farming. To most of them farming is all they know, its what 
they have done for their whole lives, its what they have taught their 
children to do. What are they going to do when they are suddenly out of 
a job? All because the Government believes that the lives of fish are 
more important than the lives of your people. What kind of Government 
is that?
    Angela: Our FFA chapter earns most of its money by our school farm. 
Without water we will not be able to farm this summer and we are unsure 
how we will be able to pay for chapter contests and educational 
conferences for next year. The saddest thing to think about is that my 
FFA jacket maybe useless next year because there doesn't seem to be a 
future for the farmers in this area.
    Alejandra: The water crisis means a lot to me because of my 
parents. They don't have a good education to get a different job, so 
they can only work out in the fields or in the packing sheds.
    Amanda: What about the businesses, the schools, the churches, the 
youth groups, school sports, and also the wildlife? What do the farmers 
and ranchers do now? Move from their homes and take their children out 
of the schools where they grew up with all their classmates and built 
strong relationships? Our towns will become ghost towns because there 
is no work. Tulelake, Merrill, and Malin are based on farming and when 
that gets taken away the towns become nothing. All the money the 
farmers and workers put into their houses and businesses will have all 
gone to waste for the sake of Sucker Fish! To me, this seems 
outrageous.
    Jose Antonio: Our community revolves around agriculture. Many 
families have started moving, looking for jobs. The farmers don't have 
the money to have the workers work for them. I have been really worried 
that my family will want to move. I'm sixteen years old and I've lived 
in Tulelake for eleven years. All my friends have known me for most of 
my life and I don't want to be separated from them. I'm asking anybody 
that reads this or hears this to help us.
    Laura: The water decision in this basin is a tragedy. So many 
families will be leaving and so many friends. It is very strange that 
we are having a recession in the economy and we are putting people out 
of jobs. Isn't it supposed to be the other way around?
    Jerry: When people would eliminate people over fish, there is 
something wrong. If people would rather see a sucker fish prosper, than 
see a whole community survive, something is erroneous. This issue is 
more than being able to stay in Tulelake, it is the fact that people 
can get away with catastrophic devastation to smaller communities, for 
unimaginable wants. If it starts here, it won't stop. Other communities 
will be struck with this, If we don't get any water and the protection 
agencies win, then they will have the power to do it over and over 
again.
    Juan: The water crisis is a very big problem at this point in my 
life. I have many other problems and this is one that has to be 
resolved fast. Please make our suffering end this month.
    Wes: There isn't much work so there isn't much money coming in. 
Times are very rough. It is hard for our family to pay the bills each 
month. My mom and dad are stressed out all the time. What's worse is 
that there is nothing I can do about it.
    Agustin: My parents don't want to move because they like this 
peaceful community and good schools. My father is going to move away 
and send us money so we won't have to leave here. He will return when 
the situation is better.
    Amanda: I worry about moving and leaving my small school. Small 
schools are special because you get to know other students real well 
and most of us have relationships with our teachers.
    Matt: Turning off the water has taken away my dream to go to 
college and play basketball. I don't know now how I can pay for it.
    Rebecca: As human beings we should try everything in our power to 
sustain wildlife, but at what cost? In Tulelake, by refusing water to 
the basin's farmers there is the idea that a fish's life is worth more 
then many farmers and their families'' lives. This is a ridiculous 
idea. There isn't any person who would sacrifice the life of themselves 
or their children for the life of a fish. So why are farmers in 
Tulelake being asked to do so? These farmers have made their livelihood 
out of farming. They have built on the American Dream, the American 
Dream to produce and flourish. The dream that with every drop of sweat 
that falls and with every trickle of blood spilled, at the end of the 
day they can be proud of their toil. This crisis does not only affect 
farmers and the Tulelake Basin. By supporting the fish's life, you are 
supporting the basin's business degradation. There once was a strong 
belief in this community for the American Government; but that has now 
been destroyed. Please help us to regain some of that belief, and 
support the Tulelake Farmers.
    Cecilia: Immigrants once came to this country to escape this type 
of tyrannical government and gave their lives for the freedoms we all 
enjoy. Why now does the government have the right to tell us how we are 
to make our living and where we are to live?
    Our students feel betrayed. We all feel betrayed.
    The Tulelake School District provides education for children from 
preschool through 12th grade. As of March 2001, the student enrollment 
in the District was 574. Approximately 80% of the said students qualify 
under federal guidelines as economically disadvantaged and, therefore, 
receive free or reduced lunches and other benefits. As of said date, 
approximately 55% of our student population was Hispanic. We are 
currently involved in preparing the District's operating plan and 
budget for the 2001-2002 school year. In order to determine the impact 
of the cutoff of water on our school population we began polling the 
students in our schools. Based on our poll, we could lose approximately 
200 students, 30 - 40% of our total student population by the beginning 
of the next school year. The estimated loss of revenue will be 
approximately 1 million dollars.
    Our schools are recognized by the state of California as High 
Performing Schools. Our schools are recognized by the state of 
California as High Performing Schools. Tulelake Basin Elementary School 
raised their API from 545 to 659, an increase of 114 points. Tulelake 
High School, already a high performing school, raised our API 53 
points, the second largest increase in the north state. This phenomenal 
growth far exceeded the accountability targets set by the state of 
California. Our technology is second to none in Northern California. 
Our student to computer ratio is 1:2. We have a video-conferencing lab 
for students and community members to take courses from College of the 
Siskiyous. Next fall we will begin a yearlong course for Cisco 
Networking Certification as well as a semester course in A+ 
Certification as part of our technology path. We are part of the 
University of California College Prep Initiative, offering 7 online AP 
courses and 4 honors courses next year. We are also expanding AVID to 
three grades, 8th, 9th and 10th to increase opportunities for college 
path education to more students. We have been a part of the KRIS 
Project (Klamath Resource Information System ) collecting water quality 
data from tributaries to Klamath Lake. We understand the problem. What 
we do not understand is being excluded from the solution. We also have 
a working school farm which supports our agricultural program offering 
hands on experience to future farmers. We cannot farm either this year 
without water. We cannot water our football fields, soccer fields or 
our parks. A governmental official in Sacramento told me that instead 
of destroying our schools you should be up here studying them!
    Many of the students'' recent writings and actions indicate even 
more significant adverse impacts to the school community. Based on my 
years of experience in education I recognize and understand the 
emotional and behavioral impacts of stress on the school population. 
Our recent 4th quarter grade reports show a significant increase in D's 
and F's. This time frame parallels the news of the water crisis. There 
are students who emotionally gave up. We expect our SAT 9 scores to 
drop District wide. It was very hard to motivate many of our students 
to focus beyond the crisis. The children in our schools are well aware 
of the financial and emotional health of their families. Many of the 
families in our schools have participated for years in the successful 
agricultural business community. Many of the parents of our students 
are now unemployed or are employers who have not only been forced to 
lay off long-term employees, but face the prospect of financial ruin 
themselves. The emotional pain and stress felt by the parents is 
recognized and transmitted to the students. As hope for a rapid 
solution fell, referrals and problems increased. I began to deal with 
behaviors I had not witnessed in three years. We are concerned that 
facing a summer with no jobs for high school students, the problems 
could continue to increase. We usually process about 100 student work 
permits, mostly for field workers. We have processed six.
    California Governor Gray Davis signed a bill declaring Modoc and 
Siskiyou counties within the Klamath Reclamation Project a ``special 
disaster area''. Two million dollars will come to our non-profit, 
Tulelake Community Partnership to set up a Local Assistance Center. We 
hope it is soon enough and direct enough to help all of our people. 
Some of our community members are undocumented immigrants, former 
migrant workers, who will not be eligible. They have put down roots; 
some are third generation now, but without assistance they must move 
on. Others who will need our services but will not accept them are 
senior citizens, too proud to accept ``a government handout''. Mr. 
Wendall Wood commented that the government can write a check to our 
farmers but not to a bald eagle. Mr. Wood needs to remember who signs 
the check.
    The schools will open in late August, but who will still be here? 
How do we plan? Our summer school enrollment has dropped from 220 last 
year to 170 this year K--8. Our staff is frustrated and deeply hurt by 
the possibility that our efforts to build an excellent learning 
community are at risk of destruction because of the loss of irrigation 
water to the farms that support this school district. We are committed 
to keeping our certificated and classified staffs intact. We are a very 
tenacious and proud community and we will find a way to maintain our 
way of life for the children we have yet to raise and educate.
    I share the words of Ross Macy : ``I am an officer in the Future 
Farmers of America. This organization has taught me the importance of 
farming, and of leadership. I have ambitions to gain the highest honor 
that the FFA has to award, the American Farmer Degree and to accomplish 
this in my hometown, and in my own high school. However, because of 
this destructive decision I might not be able to reach this goal, and 
neither will future generations. This is terrible. Above all, the 
greatest country in the world needs to have the greatest government in 
the world. ``So that a government of the people, by the people, and FOR 
the people, shall not perish from the earth.'' Abraham Lincoln.
    Farmers are truly the Keepers of the Earth. If the ESA is not 
amended there will always be a lawsuit on the horizon. There was a 
combination of factors that came together during this drought year. 
Unfortunately, the land itself, which sustains this agricultural 
community, became a commodity.
    How can the problem be prevented in the future? Our government in 
an emergency is reactive not proactive. As Thomas Jefferson said, ``It 
is more honorable to repair a wrong than to persist in it.'' You could 
still open the gates and turn on the water. Some say it is too late to 
turn water on this year but as long as it can help any person, or any 
species in the Basin, it is not too late. We teach our children if you 
make a mistake you admit it, correct it and move on. Congress should 
also financially reimburse those businesses and workers who have 
suffered because of the loss of water supplies. The science that led to 
these decisions must be reviewed. Economic impact studies need to be 
conducted prior to the impact, as is required by your laws.
    It is the people in this Basin who are endangered and worth saving. 
To close, I choose the words of sophomore, Lupita Aguilar : ``We need 
to find an answer to all this. Please find a way in which both fish, 
farmers, and ranchers get water. I'm sure there is a solution because 
there is one to everything. We just have to work together and find the 
right one that will benefit all sides.''
    Thank you.
                                 ______
                                 
    Mr. Pombo. Mr. Raybould.

                   STATEMENT OF DELL RAYBOULD

    Mr. Raybould. Thank you, Mr. Chairman. I appreciate the 
opportunity of coming to Oregon to testify before this 
Committee. My name is Dell Raybould and I am from Rexburg, 
Idaho. I am here today representing a number of water, farming 
and agricultural interests in the State of Idaho, including the 
Committee of Nine, which is the governing board of Water 
District Number 1 in the State of Idaho, The Idaho Water Users 
Association, and the Idaho Farm Bureau Federation.
    I've been a farmer and a businessman in eastern Idaho for 
over 50 years. I have served in water management as the 
Director of Canal Companies, a private reservoir company, and 
an irrigation district. I am also a current member of the Idaho 
State House of Representatives, in which I serve on the 
Resources and Conservation Committee.
    I believe that there is a basic lack of understanding and 
respect regarding the commitment that the Federal Government 
made to encourage settlers to establish agriculture in the arid 
West. The Federal Government has a contractual as well as a 
moral obligation to protect this essential industry, which the 
Federal Government itself fostered and encouraged.
    Mr. Chairman, there are three points that I would like to 
make today. First, the Federal Government should never allow 
the constitutional protections of this nation to be ignored or 
made subservient to actions of Congress. The issue here is 
fundamentally a property rights issue and the constitutional 
guarantee that the government will never take private property 
without just compensation. Secondly, the Federal Government 
needs to adopt and maintain a consistent policy west-wide 
regarding the acquisition and use of water for the Endangered 
Species Act purposes. And, third, sound science must guide any 
decision to use water for the Endangered Species Act purposes. 
Flow targets must be demonstrated by credible, peer reviewed 
scientific evidence, not models or untested theories.
    The issue of whether and how water should be acquired for 
the Endangered Species Act purposes is not a new one for us. We 
are very familiar with it in the Upper Snake River Basin in 
Idaho. During 1994, Senator Larry Craig secured a written 
pledge, signed by the Commissioner of the Bureau of 
Reclamation, that water for Endangered Species Act purposes 
would only be acquired from willing sellers and within state 
law providing for water leases in the Upper Snake River Basin, 
and that there would be no taking of water.
    The willing seller within State law and with the lease 
provisions policy announced in 1994 remains the case today in 
Idaho. With the willing seller leases and state law policy so 
firmly entrenched in the Upper Snake River Basin, the question 
must be asked, what happened in the Klamath Basin? Why was 
water, held under contract, taken from the irrigators? Is there 
no consistent policy regarding the acquisition of water for ESA 
purposes? Apparently not. This needs to change. We believe that 
the right to own private property is one of the fundamental and 
defining characteristics of this Republic. It would indeed be 
troubling if the erosion of private property rights is not as 
troubling to this Committee as it is to us.
    The water users of the Klamath Basin must be compensated 
for their loss. I applaud the Bush administration for including 
$20 million in disaster assistance for the Klamath Basin in its 
supplemental appropriation request. I understand that other 
financial assistance is also being arranged. While this will 
certainly aid those in need, this money should be recognized 
for what it is: a Band-Aid to temporarily alleviate the pain of 
a much larger wound.
    Reclamation project benefits established almost a century 
ago should not been brushed aside in the name of the Endangered 
Species Act. These projects have been paid for by the water 
users, and whole communities have grown up around the projects 
as a result of the promises made by the Federal Government. It 
is my experience that the willing seller, lease, and state law 
policy have worked well in the Upper Snake River Basin. I 
believe it could work in the Klamath Basin and other parts of 
the arid West. Mr. Chairman and Committee Members, I therefore 
request that you help see that it is adopted.
    In conclusion, I find the entire episode in the Columbia 
(sic) Basin this year to be appalling. Time honored contracts 
between water users in the United States have been thrown aside 
in the name of the ESA and junk science. For this, the local 
economy and a way of life have been sacrificed. Mr. Chairman, 
today is the day. Now is the time to amend the Endangered 
Species Act by passing legislation to exempt irritation water 
from Endangered Species Act jurisdiction. We encourage you to 
do what you can to see that order and sanity are restored in 
the Klamath Basin. If there is anything we can do to help, we 
will. Mr. Chairman, I again appreciate the opportunity to 
testify, and would welcome any questions that you may have. 
Thank you.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Raybould follows:]

 STATEMENT OF DELL RAYBOULD, REPRESENTING THE COMMITTEE OF NINE, WATER 
 DISTRICT 1, STATE OF IDAHO, THE IDAHO WATER USERS ASSOCIATION, INC., 
                  AND THE IDAHO FARM BUREAU FEDERATION

    Mr. Chairman and Members of the Committee, my name is Dell 
Raybould, from Rexburg, Idaho. I'm here today representing a number of 
water, farming and agricultural interests in the State of Idaho, 
including the Committee of Nine, which is the governing board of Water 
District 1 in the State of Idaho, the Idaho Water Users Association, 
and the Idaho Farm Bureau Federation.
    I appreciate the opportunity to testify before you regarding the 
situation here in the Klamath Basin and across the West. In particular, 
I would like to acknowledge my Congressman, Mike Simpson, as well as 
Representative Butch Otter, for their role in providing me with the 
opportunity to testify.
    I have been a farmer and a businessman in Eastern Idaho for 53 
years. I have served in water management as the director of canal 
companies, a private reservoir company, and an irrigation district. I 
am also a current member of the Idaho State House of Representatives, 
in which I serve on the Resources and Conservation Committee.
    This hearing is important not just for the people of the Klamath 
Basin, but also for those people living in Idaho and throughout the 
West that are dependent upon irrigated agriculture.
    There is a basic lack of understanding and respect regarding the 
role that irrigation has played in the settlement of the West and the 
commitments that the federal government made to encourage settlers to 
bring the deserts of the arid West into production.
    Agriculture and ranching is still the most important industry in 
the West and the federal government has a contractual, as well as a 
moral, obligation to protect this essential industry which the federal 
government itself fostered and encouraged through direct Congressional 
action.
    Mr. Chairman, there are three general points that I would like to 
make today:
    (1) The federal government should never allow the constitutional 
protections of this nation to be ignored or made subservient to actions 
of Congress. The issue here is fundamentally a property rights issue 
and the constitutional guarantee that the government will never take 
private property without just compensation, and even then, only when 
there are not alternatives.
    (2) The federal government needs to adopt and maintain a consistent 
policy westwide regarding the acquisition and use of water for 
Endangered Species Act purposes. Such acquisitions should be from 
willing sellers only and the water should be used consistent with state 
law. Water should not be taken from irrigators against their will or 
used in a way that is contrary to state law.
    (3) Sound science must guide any decision to use water for 
Endangered Species Act purposes. The need for minimum reservoir pools 
or downstream flow targets must be demonstrated by credible, peer 
reviewed scientific evidence, not models or untested theories. Known 
factors of mortality such as harvest, predators, and ocean conditions 
must receive renewed focus.
    We are here today because more than 1,500 farmers and ranchers in 
the Klamath Basin have had their water taken from them when they need 
it most - during a drought - in the name of the Endangered Species Act. 
At least ninety percent of the 200,000 acres of farmland under the 
Klamath Project will be without water this year. Not because of a 
drought, but because of the federal government's implementation of the 
Endangered Species Act. It is a wrong-headed policy that has resulted 
in this catastrophe and one that needs to be changed.
    The issue of whether, and how, water should be acquired for 
Endangered Species Act purposes is not a new one. We are very familiar 
with it in the Upper Snake River Basin in Idaho.
    In response to the listing of Snake River salmon under the ESA in 
1991 and 1992, the National Marine Fisheries Service (NMFS) requested 
that the U.S. Bureau of Reclamation provide up to 427,000 acre feet of 
water from the Upper Snake River Basin for the purpose of assisting in 
the downstream migration of the salmon.
    NMFS has required the delivery of water from Idaho for flow 
augmentation in Biological Opinions issued during 1995, 1998, 1999 and, 
most recently, on May 2, 2001.
    During 1993, the Pacific Northwest Regional Director of the Bureau 
of Reclamation, John Keys, was provided with written guidance from Dan 
Beard, the Commissioner of the U.S. Bureau of Reclamation, regarding 
the acquisition of water by the Bureau to aid in the recovery of 
threatened and endangered salmon.
    The July 19, 1993 memorandum from Dan Beard is attached to my 
written testimony.
    In his memorandum, Commissioner Dan Beard concluded that there were 
four options ``available and legally authorized'' to secure water for 
flow augmentation. They were: (1) releasing water stored but not under 
contract; (2) releasing water covered by existing spaceholder 
contracts; (3) participating in rental water banks to acquire water; 
and (4) buying back already committed space in the reservoirs.
    It was option number 2 on this list - ``releasing water covered by 
existing spaceholder contracts''--that raised the fundamental issue of 
whether the federal government would respect or ignore the United 
States Constitution. More specifically, the question was whether water 
would be acquired on a willing seller-willing buyer basis, or whether 
water would be taken by the federal government without regard to 
private property rights and the contractual obligations of the Bureau.
    Through his memo, Commissioner Beard signaled the intent of the 
Clinton Administration to take water away from irrigators.
    Commissioner Beard's memo was met with heavy criticism by the 
entire western water community, and especially by Idaho interests. As 
just one example, Beard was peppered with questions at the National 
Water Resources Association's annual conference in San Diego during the 
fall of 1993.
    During 1994, on the eve of NMFS adopting a new Biological Opinion 
that would govern the flow augmentation program, Idaho's Congressional 
delegation, led by Senator Larry Craig, secured a written pledge, 
signed by Commissioner Dan Beard and Rolland Schmitten, Assistant 
Administrator for Fisheries, NMFS, Department of Commerce, that water 
for ESA purposes would only be acquired from willing sellers in the 
Upper Snake River Basin and that there would be no taking of water. A 
copy of this April 1, 1994 letter addressed to Senator Craig and a 
related press release from Senator Craig's office, dated April 4, 1994, 
are attached to my testimony. The Bureau's Regional Director, John 
Keys, was also instrumental in forging the willing seller policy of the 
federal government.
    The willing seller policy announced in 1994, coupled with deference 
to state law, was subsequently reflected in the Biological Assessments 
and Biological Opinions issued by the Bureau and NMFS. This remains the 
case today.
    With the ``willing seller'' and ``state law'' policy so firmly 
entrenched in the Upper Snake River Basin, the question must be asked: 
What happened in the Klamath Basin? Why was water held under contract 
taken from irrigators? Is there no consistent policy even within the 
Snake/Columbia Basin regarding the acquisition of water for ESA 
purposes? Apparently not. This needs to change.
    We believe that the right to own private property is one of the 
fundamental and defining characteristics of this republic. It would 
indeed be troubling if the erosion of private property rights is not as 
troubling to this Committee as it is to us.
    In the short term, the water users of the Klamath Basin must be 
compensated for their losses. Their livelihoods have been taken by the 
federal government and must be returned to them, in tact. The 
Endangered Species Act is an obligation of all of the people of the 
United States - not just those that reside in this basin. It is a 
matter of basic fairness that just compensation be provided from the 
U.S. Treasury for the losses that have been sustained.
    The recent Court of Federal Claims decision in Tulare Lake Basin 
Water Storage District v. United States (April 30, 2001) requires NMFS 
and the U.S. Fish & Wildlife Service to compensate water users for 
reduced water deliveries that resulted from ESA compliance in the 
Central Valley of California. So, too, should the water users of the 
Klamath Basin be compensated for water shortages caused by the federal 
government.
    It has been reported that the economic losses in the area this year 
are likely to exceed $200 million. I applaud the Bush Administration 
for including $20 million in disaster assistance for the Klamath Basin 
in its Supplemental Appropriations request to Congress, as urged by 
Senator Gordon Smith and Representative Greg Walden. I understand that 
other financial assistance is also being arranged. While this will 
certainly aid those in need, this money should be recognized for what 
it is: a band-aid to temporarily alleviate the pain of a much larger 
wound.
    To fix the problem for the long term, the Bush Administration must 
take the existing willing seller/state law policy in the Upper Snake 
River Basin and apply it westwide.
    Reclamation project benefits, established almost a century ago, 
should not be brushed aside in the name of the Endangered Species Act. 
These projects have been paid for by water users and whole communities 
have grown up around the projects as a result of the promises made by 
the federal government.
    The United States should not take this water from the farmers and 
ranchers of the Klamath Basin. If the United States desires water for 
ESA purposes, it should be required to purchase the water from willing 
sellers in the basin. The use of the water must also be consistent with 
state law.
    It is my experience that this federal policy has worked well in the 
Upper Snake River Basin. I believe it could work in the Klamath Basin 
and other parts of the arid west. Mr. Chairman and Committee Members, I 
therefore request that you help see that it is adopted.
    Of course, before any water is purchased, there must first be a 
demonstrated, scientifically-based need for the water.
    Water users in Idaho have relentlessly challenged the scientific 
basis for NMFS' flow augmentation program. A key part of this program 
is the establishment of downstream flow targets. We challenge the flow 
targets as being inconsistent with actual hydrologic data maintained 
for the past 80 years.
    Similar questions must be asked in the Klamath Basin regarding the 
downstream flow targets for the coho salmon, as well as the minimum 
pool levels established for the suckers. Are these thresholds based on 
observed data, or are they based on computer models and unproven 
theories?
    Have the studies relied upon by the federal agencies been 
adequately peer reviewed by credible scientists? Have biological 
studies done by independent scientists been disregarded by the federal 
agencies?
    The answers to these and other tough scientific questions - and not 
politics--should dictate whether, and how much, water is required to 
meet the needs of the species. Credible, peer reviewed data, and the 
consideration of all available scientific information is a must. 
Decisions to take water from irrigators should not be guided by junk 
science.
    In the Upper Snake River Basin, water users and the State of Idaho 
have been able to debunk the myth that flow augmentation will recover 
the salmon. Other factors are at play which threaten the fish. I 
understand that ocean conditions are improving and, if so, this should 
significantly increase salmon runs. Predators and harvest are also 
major sources of mortality - ones that can and should be controlled. 
These factors must be taken into account when looking at the Klamath 
Basin.
    In conclusion, I find the entire episode in the Klamath Basin this 
year to be appalling. And I am not alone in my assessment. Irrigators 
in Idaho and throughout the West are keenly aware of the plight here in 
the Klamath Basin. Time-honored contracts between water users and the 
United States have been thrown aside in the name of the ESA and junk 
science. For this, the local economy and a way of life have been 
sacrificed.
    We encourage you to do what you can to see that order and sanity 
are restored in the Klamath Basin. If there is anything we can do to 
help, we will.
    Mr. Chairman, again I appreciate the opportunity to testify and I 
would welcome any questions that you may have.
                                 ______
                                 
    [Attachments to Mr. Raybould's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T3135.058
    
    [GRAPHIC] [TIFF OMITTED] T3135.059
    
    [GRAPHIC] [TIFF OMITTED] T3135.060
    
    [GRAPHIC] [TIFF OMITTED] T3135.061
    
    Mr. Pombo. Mr. Vogel.

                    STATEMENT OF DAVID VOGEL

    Mr. Vogel. Mr. Chairman and members of the Committee, thank 
you for the opportunity to be here to testify. My name is David 
Vogel. I'm here to provide you with important information 
concerning the science, or more aptly stated, the lack of 
science behind the artificially created regulatory crisis that 
has been imposed in the Klamath Basin, and to recommend 
solutions to this major problem. I'm a fishery scientist with 
26 years of experience. I have authored many technical reports, 
including restoration of Klamath Basin fishery resources. I 
have performed research on Coho salmon and the endangered 
suckers as well as many other fish species throughout the 
western United States.
    Mr. Chairman, I offer your Committee several reasons why 
this regulatory crisis did not have to occur, and how it can be 
avoided in the future. My written testimony provides more 
details. I will simply summarize the main points here.
    My first point pertains to how the decision making process 
went awry. In my entire professional career of nearly three 
decades, I have never been involved in a process that was as 
closed, segregated, and as unjust as we now have in the Klamath 
Basin. The constructive science-based processes I have 
experienced elsewhere used an honest and open dialogue. 
Hypotheses are developed and then tested against empirical 
evidence. Such are the accepted standards of science, but they 
have not been applied here.
    My second point pertains to the distortion of facts and the 
lack of science associated with the suckers and Coho salmon. 
The two sucker species exhibit far greater numbers over a much 
broader geographic range, and with greater reproduction than 
reported by the agency more than a decade ago. These facts call 
into serious question if the fish really are endangered. This 
year's crisis was caused by a demand for high lake levels, and 
is a major step backwards for practical natural resource 
management. Forcing higher than normal lake levels is likely to 
be detrimental, not beneficial for the suckers.
    As you can see from Figure 1 of my testimony, huge fish 
kills occurred when the lake was near average or above average 
levels, but not at low levels. In fact one of the worst fish 
kills on record occurred during 1971 when the lake was nearly 
full. This is not a professional opinion, but is a fact 
extensively documented, yet ignored by the Fish and Wildlife 
Service.
    The National Marine Fisheries Service added to the 
regulatory crisis by demanding higher than historical flow 
rates from Iron Gate Dam. As you can see from Figure 2 in my 
testimony, and the poster to my left, numerically and 
proportionally, few Coho are present in the mainstem river 
channel in the area most influenced by the Klamath Project. 
Instead, NMFS chose to focus on the Klamath Project in the 
Upper Basin to rectify for the failures in the tributaries of 
the Lower Basin where most Coho reside. This misguided 
scientifically deficient approach will not succeed. In short, 
scientific bases for the agency's actions are lacking. Further 
scrutiny will reveal these deficiencies. Tragically, for the 
Upper Basin and for the fish, warm water is being dumped in the 
wrong place, at the wrong time, and for all the wrong reasons. 
The purported biological benefits to the fish will not been 
realized.
    My last point is that there are solutions to avoid such 
problems in the future. There are enormous opportunities to do 
good things for ecosystem restoration. There are numerous on 
the ground actions that could be undertaken to improve the 
existing situation and provide greater flexibility and balance 
for resource management. It's time to take a new approach. To 
this end, the water users have adopted an unprecedented, 
proactive strategy for restoration. They have promoted actions 
ranging from improving fish access to the Sprague River, to 
physical habitat and water quality improvements. The major 
impediments to taking action appear to be those individuals 
afraid of taking calculated risks, and those unwilling to seek 
a balanced approach to natural resource management. I submit 
that these attitudes will lead to continual conflict and 
controversy, and they will not solve the problems.
    Mistakes made by these two agencies can be prevented 
through a proper peer review, much like Sue Ellen Wooldridge 
mentioned. However, this peer review should be performed 
outside of the Departments of Interior and Commerce to avoid 
the problems encountered this year. Data must be examined with 
clear scientific objectivity, using widely accepted scientific 
principles. To be objective, agency policies and positions do 
not belong in the scientific process. Good science will lead to 
good policies. And if the agencies are willing, there is a 
great opportunity to accomplish restoration goals without doing 
the kind of harm that is being experienced now. Thank you.
    [The prepared statement of Mr. Vogel follows:]

 STATEMENT OF DAVID A. VOGEL, PRESIDENT, NATURAL RESOURCE SCIENTISTS, 
                                  INC.

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify at this important hearing. My name is David 
Vogel. I am a fisheries scientist who has worked in this discipline for 
the past 26 years. I earned a Master of Science degree in Natural 
Resources (Fisheries) from the University of Michigan in 1979 and a 
Bachelor of Science degree in Biology from Bowling Green State 
University in 1974. I previously worked in the Fishery Research and 
Fishery Resources Divisions of the U.S. Fish and Wildlife Service 
(USFWS) for 14 years and the National Marine Fisheries Service (NMFS) 
for one year. During my tenure with the federal government, I received 
numerous superior and outstanding achievement awards and commendations, 
including Fisheries Management Biologist of the Year Award for six 
western states. For the last 10 years I have worked as a consulting 
fisheries scientist on a variety of projects on behalf of federal, 
state, and county governments, Indian tribes, and numerous other public 
and private groups. During the past decade, I have advised the Klamath 
Water Users Association (KWUA) on Klamath River basin fishery resource 
issues. I was the principal author of the 1993 ``Initial Ecosystem 
Restoration Plan for the Upper Klamath River Basin'' and was one of the 
primary contributing authors to the Upper Basin Amendment to the 
Klamath River fishery restoration program. I was a principal 
contributor of information for the 1992 Biological Assessment on Long-
Term Operations of the Klamath Project. More recently, I was a 
contributor to technical portions of the March 2001 document, 
``Protecting the Beneficial Uses of Waters of Upper Klamath Lake: A 
Plan to Accelerate Recovery of the Lost River and Shortnose Suckers''. 
This plan was also authored by Dr. Alex Horne and I have attached his 
March 21, 2001 testimony before the Senate Subcommittee on Water and 
Power. I have performed research projects on coho salmon and the 
endangered suckers, as well as many other species.
    Today, I am providing your Committee with important information 
concerning the science, or more aptly stated, lack of rigorous science, 
behind the artificially created regulatory crisis that has been imposed 
on the Upper Klamath basin. These topics relate to the sucker fish, 
which the USFWS has focused on to regulate higher-than-normal lake 
elevations in Upper Klamath Lake, and coho salmon, which NMFS has 
focused on to demand higher-than-normal flows below Iron Gate Dam on 
the Klamath River. And lastly, I am providing your Committee with 
recommendations to avoid the regulatory crisis that has been created in 
the Klamath Basin.

                        DECISION-MAKING PROCESS

    In my entire professional career, I have never been involved in a 
decision-making process that was as closed, segregated, and poor as we 
now have in the Klamath basin. The constructive science-based processes 
I have been involved in elsewhere have involved an honest and open 
dialogue among people having scientific expertise. Hypotheses are 
developed, then rigorously tested against empirical evidence.
    None of those elements of good science characterize the decision-
making process for the Klamath Project. At one time, several years ago, 
the agencies would interact with all interests who had expertise or a 
stake in the decisions. Recently, my role has been to receive completed 
analyses (usually without supporting data) and mail in comments. Often, 
the timeline is such that it is virtually impossible to comment and 
certainly impossible for the agencies to consider the comments 
objectively and meaningfully. The overriding sense I have is that the 
goal is to dismiss what we have to offer. A scientist that I work with 
has had the experience of being invited to a technical meeting, then 
literally turned away. Additionally, we have been invited to attend 
recent meetings related to downstream flow studies, but our presence 
was requested at the end of the process, after key assumptions had been 
developed.
    I provide examples below of the kinds of information that have not, 
in my opinion, received objective consideration or open discussion. I 
also include alternative actions and recommendations.

                         KLAMATH BASIN SUCKERS

Endangered Species Status
    Disturbingly, I have learned from an extensive review of the 
relevant Administrative Record that the information used by the USFWS 
to list the two sucker species as endangered in 1988 under the 
Endangered Species Act (ESA) is now very much in question. The USFWS so 
selectively reported the available information that it can only be 
considered a distorted view of information available to the agency at 
that time. The dominant reason that the USFWS listed the species was an 
apparent precipitous decline in both populations in the mid-1980s and 
the lack of successful reproduction (recruitment) for 18 years. 
Documents selectively used by the Service to support the listing 
portrayed an alarmist tone indicating that the species were on the 
brink of extinction. Because of information in the Administrative 
Record and scientific data developed since the listing, major questions 
are now posed calling into question the integrity of the original 
listing decision.
    Due to extensive research performed on the Lost River and shortnose 
sucker populations in recent years, relative population abundance 
estimates are available for both species. Although there are 
differences in the manner by which each estimate was computed and some 
estimates have broad confidence intervals, the numbers represent the 
best available information that was used by the USFWS to list and 
monitor the species. A comparison of estimates developed prior to and 
after the listing demonstrates a remarkable change in the species'' 
status (Table 1). Recent data demonstrates that the sucker populations 
exceeded the original estimates used to justify listings by an order of 
magnitude.
    It is now evident that either:
    1) The estimates of the sucker populations in the 1980s were in 
error and did not, in fact, demonstrate a precipitous decline (i.e., 
the populations were much larger than assumed), or
    2) The estimates of the sucker populations in the 1980s were 
reasonably accurate and the suckers have demonstrated an enormous boom 
in the period since the listing and no longer exhibit ``endangered'' 
status.
    Furthermore, in contrast to the lack of recruitment described in 
1988, it is now very evident that the Upper Klamath Lake sucker 
populations have experienced substantial recruitment in recent years 
and also exhibit recruitment every year. Only three years after the 
sucker listing, it also became apparent that the assumptions concerning 
the status of shortnose suckers and Lost River suckers in the Lost 
River/Clear Lake watershed were in error. Surveys performed just after 
the sucker listing found substantial populations of suckers in Clear 
Lake (reported as ``common'') exhibiting a biologically desirable 
diverse age distribution. Within California, the USFWS surveyors 
considered populations of both species as ``relatively abundant, 
particularly shortnose, and exist in mixed age populations, indicating 
successful reproduction''. Recent population estimates for suckers in 
the Lost River/Clear Lake watershed indicate their populations are 
substantial, and that hybridization is no longer considered as 
``rampant'' as portrayed by the USFWS in 1988. Tens of thousands of 
shortnose suckers, exhibiting good recruitment are now known to exist 
in Gerber Reservoir. In 1994 the Clear Lake populations of Lost River 
suckers and shortnose suckers were estimated at 22,000 and 70,000, 
respectively, with both populations increasing in recent years 
exhibiting good recruitment and a diverse age distribution (Buettner 
1999). Unlike the information provided by the USFWS in the 1988 ESA 
listing, it is now obvious that the species' habitats were sufficiently 
good to provide suitable conditions for these populations. 
Additionally, the geographic range in which the suckers are found in 
the watershed is now known to be much larger than believed at the time 
of listing. The shortnose populations in the lower Klamath River 
reservoirs (J.C. Boyle, Copco, and Iron Gate), previously believed to 
be small or essentially non-existent at the time of the listing, are 
more abundant and widespread than assumed in 1988 (Markle et al. 1999).
    In summary, although the species had obviously declined from their 
historic population levels in the early to mid-1900s, the surmised 
status of the species was not as severe as assumed in the mid- to late-
1980s. The two fish species presently exhibit far greater numbers, over 
a much larger geographic range, and with greater recruitment than 
assumed more than a decade ago. ``Remnant'' populations postulated in 
1988 are now known to be abundant. ``Severe'' hybridization among the 
species assumed in 1988 is now known not to be as problematic. In the 
mid-1990s, Upper Klamath Lake sucker populations were found to exist on 
an order of magnitude greater than believed in the mid-1980s. And it is 
now clear that widespread recruitment of both species regularly occurs.
    This all leads to an important, albeit an awkward, question for the 
USFWS and is one that the agency cannot, or will not, answer. Which 
assumption is correct: that posed by the agency in 1988 or that of the 
present day? The species were either inappropriately listed as 
endangered because of incorrect or incomplete information or the 
species have rebounded to such a great extent that the fish no longer 
warrant the ``endangered'' status.
Upper Klamath Lake Elevations
    I believe the USFWS's recent Biological Opinion on the Operations 
of the Klamath Project has artificially created a regulatory crisis 
that did not have to occur. This circumstance was caused by the USFWS's 
focus on Upper Klamath Lake elevations and is a major step in the wrong 
direction for practical natural resource management. The USFWS 
rationale for imposing high reservoir levels ranges from keeping the 
levels high early in the season to allow sucker spawning access to one 
small lakeshore spring, to keeping the lake high for presumed water 
quality improvements. This measure of artificially maintaining higher-
than-historical lake elevations is likely to be detrimental, not 
beneficial, for sucker populations. The data do not show a relationship 
between lake elevations and sucker populations, and to maintain higher-
than-normal lake elevations can promote fish kills in water bodies such 
as Upper Klamath Lake.
    During the mid-1990s, I predicted that fish kills could occur if 
the Upper Klamath Lake elevations were maintained at higher-than-
historical levels. Subsequently, those fish kills did occur. The USFWS 
recent Biological Opinion dismissed or ignored the biological lessons 
from fish kills that occurred in 1971, 1986, 1995, 1996, and 1997 and, 
instead, selectively reported only information to support the agency's 
concept of higher lake levels. All the empirical evidence and material 
demonstrate that huge fish kills have occurred when Upper Klamath Lake 
was near average or above average elevations, but not at low elevations 
(Figure 1). This is not an opinion but a fact extensively documented in 
the Administrative Record and subsequently ignored by the USFWS.
    A good indicator that Upper Klamath Lake elevations do not create a 
``population-limiting factor'' for the suckers is a comparison of 
historical seasonal lake elevations with sucker year class strength 
that may or may not result from those lake elevations. Sucker year 
class strengths for some years are now available because suckers killed 
during die-offs in 1995, 1996, and 1997 were examined to determine the 
age of the fish. This allows a determination of the year the fish were 
hatched and, because sufficient numbers of fish were collected, the 
relative ``strength'' of one year class compared to other years. Using 
this new analysis of the best available scientific information, it is 
evident the sucker populations do not experience a population-limiting 
condition from lower lake elevations as incorrectly postulated by the 
USFWS. In fact, one of the strongest year classes of suckers occurred 
during a drought year in 1991 when lake levels were lower than average. 
These data demonstrate that there are no clear relationships between 
Upper Klamath Lake elevations and sucker year-class strength. 
Additionally, the data now demonstrate that the two species did not 
suffer ``total year-class failures'' during the drought years in the 
late 1980s and early 1990s as was commonly speculated at that time. It 
is particularly noteworthy that the strong 1991 class of suckers 
experienced extremely low lake elevations during the severe drought of 
1992 but nevertheless remained the dominant year class observed in 
1995, 1996, and 1997. Also, based on the age structure of suckers 
determined from the 1997 fish kill, it was readily apparent that many 
older-aged suckers were in the population; from the early 1990s until 
1997, it had been surmised that the age structure of the sucker 
populations were almost entirely younger fish. This new evidence 
indicates that environmental conditions resulting from the drought, 
including low lake elevations, did not have the adverse impacts on the 
sucker populations assumed by the USFWS. The USFWS Biological Opinion 
notably ignored extremely relevant scientific data and information that 
was contrary to the agency's premise in the Biological Opinion. The 
USFWS failed to point out empirical evidence the agency could have 
provided in the Biological Opinion which demonstrates that Upper 
Klamath Lake levels lower than demanded in the Biological Opinion will 
not harm (and may actually benefit) the sucker species.

                          KLAMATH COHO SALMON

    In my opinion, the National Marine Fisheries Service (NMFS) 
significantly and inappropriately added to the regulatory crisis in the 
Klamath Basin by calling for higher-than-normal releases from Iron Gate 
Dam under the auspices of protecting the coho salmon, a ``threatened'' 
species, from extinction.
Primary Factors Affecting Coho are in the Tributaries, Not the Mainstem
    Coho salmon, as a species, prefer smaller tributary habitats, as 
compared to larger mainstem river habitats. This extremely important 
biological fact was not incorporated into the rationale NMFS used to 
assess Klamath Project effects on coho. Fry and juvenile coho normally 
occupy small shallow streams where there are more structurally complex 
habitats (e.g., woody debris) than are found in larger, mainstream 
river systems; this fact is amply described in the scientific 
literature. NMFS ignored the fact that proportionally and numerically 
only small numbers of fry use the reach most affected by the Klamath 
Project as compared to the entire basin. NMFS has notably failed to 
reconcile this critical piece of biologically relevant information. 
NMFS avoided using an excellent source of information that would 
demonstrate this fact. A 1985 U.S. Department of Interior document 
entitled: ``Klamath River Basin: Fisheries Resource Plan'' thoroughly 
describes and graphically shows the distribution of coho in the Klamath 
Basin. That voluminous, peer-reviewed document clearly demonstrates 
that the upper Klamath River, in proportion to the entire Klamath River 
basin, is a geographically minor area of coho presence. This fact is 
evident from the attached Figure 2 adapted from the Klamath River Basin 
Restoration Plan. Instead of acknowledging this indisputable 
information, NMFS has singularly focused on demanding dramatically 
increased, higher-than-historical flows from Iron Gate Dam to 
``protect'' coho from extinction. In so doing, NMFS has inappropriately 
suggested that coho habitats should somehow be re-created in the large 
river channel downstream of Iron Gate Dam to serve as a surrogate for 
the lost or degraded habitats in Klamath basin tributaries. This 
misguided, scientifically deficient approach is unlikely to succeed.
    I thoroughly reviewed thousands of pages of documents in detail to 
determine whether the available scientific data and information suggest 
that the recent historical flow regime in the mainstem Klamath River 
below Iron Gate has been a significant factor affecting Klamath River 
fishery resources. These documents included scientific peer-reviewed 
literature, state and federal agency documents and reports, and 
investigations encompassing many decades of research on the Klamath 
River. This extensive review revealed that numerous factors other than 
the recent historical mainstem flow regime at Iron Gate Dam are 
overwhelmingly documented to have affected Klamath River fishery 
resources. There are many other documented factors that have affected 
salmon runs in the Klamath River; I compiled a comprehensive listing of 
those factors in March 1997 and provided that list to NMFS. None of the 
documents I have reviewed provided any supporting scientific 
information or data suggesting that the historical mainstem flow regime 
at Iron Gate Dam is a significant factor adversely affecting coho 
salmon. To the contrary, the available information provides compelling 
evidence that other factors are far more important in affecting fish 
populations than the recent historical Iron Gate Dam flow regime.
    It is particularly noteworthy that the multi-million dollar, multi-
agency Long-Range Plan for restoring Klamath River anadromous fish (the 
principal document guiding salmon restoration in the basin) addresses 
the issue of Iron Gate Dam releases and potential effects on salmonids 
in an almost passing manner (Klamath River Basin Fisheries Task Force 
1991). Nearly the entire discussion in the Long-Range Plan on the topic 
of salmon production focuses on the tributaries in the lower Basin. 
This is instructive because, despite all the efforts and research 
accomplished to date on the Klamath River, no entity has developed any 
scientific data to support the premise that specific Iron Gate releases 
over the past several decades has been a significant factor limiting 
Klamath River salmonids.
    Probably the strongest indicator demonstrating that the recent 
historical Iron Gate Dam flow regime is not a primary factor affecting 
lower Klamath River fish is the response of the fish populations. There 
are no apparent cause-and-effect relationships between historical flow 
levels at Iron Gate Dam and resulting production of coho salmon. 
Clearly, there are other well documented factors that have an influence 
on the Klamath River salmon runs than the flow regime alone (e.g., 
harvest, hatchery production, tributary habitats).
    The following are highly relevant facts ignored by NMFS in the 
agency's Biological Opinion:
    <bullet> Fry rearing habitat in the upper mainstem Klamath River 
is not as quantitatively or qualitatively important to the species as 
is rearing habitat in the Klamath River tributaries.
    <bullet> Numerically and proportionally, very small numbers of 
coho fry rear in the mainstem downstream of Iron Gate Dam in the reach 
most influenced by the Klamath Project.
    <bullet> The indirect effects of variable Iron Gate flow on adult 
coho populations in the Klamath basin is minuscule when compared to 
other direct factors such as incidental ocean harvest and other harvest 
of adult fish.
    NMFS relied on a closed process to formulate the agency's 
recommendations for Klamath River instream flows. Individuals involved 
with this process purposefully excluded scientific experts that could 
have provided meaningful input to the process. This exclusionary 
process is contrary to scientific and procedural processes employed 
elsewhere in the United States, particularly in California.
    In summary, sound scientific bases for the NMFS Biological Opinion 
are lacking. NMFS relied on an incorrectly applied and incomplete 
computer modeling exercise to support the agency's conclusions of the 
effects of the Klamath Project operations on coho. A close examination 
of the NMFS Biological Opinion demonstrates that it does not 
empirically describe how Klamath Project operations affect coho 
populations in the Klamath River basin. Instead, the agency's action 
resulted in too much warm water dumped in the wrong place at the wrong 
time and for all the wrong reasons. The purported biological benefits 
to coho salmon will not be realized.

   THE NEED FOR ALTERNATIVES USING A PRO-ACTIVE/ADAPTIVE MANAGEMENT 
                                APPROACH

Implement Meaningful Restoration Actions
    New data and analyses indicate that regulatory measures and some 
research implemented over the past decade, although perhaps well 
intended, misdirected resources away from other more beneficial 
actions. Also, unfortunately, to the extent recovery or restoration 
efforts have been undertaken over the past 13 years since the listing, 
they have not been effective. The USFWS has contended that maintaining 
high reservoir elevations is the only feasible short-term measure that 
can be implemented to benefit the sucker populations; this is 
incorrect. Alternatives are available to benefit the species/ecosystem 
and have been presented to the agency. These alternatives could have 
prevented the crisis we are in today.
    There are fundamental changes that have occurred in Upper Klamath 
Lake that cannot be ignored. As an example, the fact that non-native 
fish were introduced into the lake and are now proliferating is a 
change that is absolute. Such changes have permanently altered the 
ecosystem. Despite the emotional rhetoric one may hear about ``Nature 
healing herself'', there is no turning back to a so-called ``pristine'' 
ecosystem. These non-native fish prey on and compete with suckers and 
will never be extirpated from the lake. However, there are numerous on-
the-ground actions that could be undertaken to improve the existing 
situation and provide greater flexibility and balance for resource 
management. The Upper Klamath Basin is in a situation where millions of 
dollars have been spent on ``ecosystem restoration'' (primarily land 
acquisition) under the auspices of sucker recovery; unfortunately, the 
site-specific linkages to sucker recovery are highly debatable and 
unclear. These benefits have not been forthcoming. It is time to take a 
new approach.
    Several recovery projects first identified in the early 1990s hold 
promise for increasing the sucker populations. To this end, the KWUA 
recently developed a document entitled ``Protecting the Beneficial Uses 
of Waters of Upper Klamath Lake: A Plan to Accelerate Recovery of the 
Lost River and Shortnose Suckers'' (Plan) to promote timely 
implementation of biologically innovative action-, and results-oriented 
restoration projects. This Plan was presented to the Senate 
Subcommittee on Water and Power in March 2001. Some of the projects in 
the Plan are embodied in the 1993 USFWS Sucker Recovery Plan, but have 
not been pursued. The Plan focuses on implementation of specific 
actions to accelerate the recovery of the endangered suckers while 
minimizing conflicts among competing uses for common resources. This 
Plan's use of cooperative efforts between local interests and those 
individuals and groups sharing common goals is considered preferable to 
traditional fragmented plans which result in tragic conflicts for 
limited resources we are seeing in the basin today. The Plan recommends 
actions such as improving access of suckers in the Sprague River to 
physical and water quality improvement projects in Upper Klamath Lake.
    As with the suckers in the Upper Klamath Basin, there are viable 
alternatives and opportunities to increase coho populations in the 
Lower Klamath Basin, particularly in the tributaries. However, until 
NMFS changes its singular and misdirected focus on higher-than-
historical flows from Iron Gate Dam, restoration opportunities using 
the agency's approach are unlikely to succeed. Unfortunately, whatever 
the existing lower basin programs may have accomplished to date, 
fishery restoration does not appear to be one of them. Although many 
millions of dollars have been spent on the lower basin programs, 
benefits to fish have not been evident. A new strategy of embracing a 
more holistic watershed approach and cooperative partnerships in the 
tributaries, instead of the traditional adversarial approach is needed.
Implement Independent Peer Review
    Many of the mistakes made by the USFWS and NMFS during this year 
could have been avoided through a proper peer review of the agencies' 
actions. It is imperative that the peer review not be a facade of 
``like-minded'' individuals or agencies promoting or protecting their 
policies or positions. To prevent the flawed process that occurred this 
year, it will be necessary to ensure that a peer review be performed by 
individuals without a vested interest in the suckers and coho remaining 
listed species under the ESA; to do otherwise undermines the integrity 
of the scientific process. For example, it is clearly inappropriate to 
have so-called peer review by some stakeholders demanding water rights, 
including high lake levels. Likewise, researchers dependent on the ESA 
controversy for funding may have a clear conflict with objective 
review. Individuals that would use the threatened or endangered status 
as ``leverage'' to promote their positions should also be excluded from 
the process. Additionally, the peer review should be a ``blind'' review 
process to allow reviewers to be anonymous; this will ensure that 
``peer pressure'', instead of peer review, does not occur. The peer 
review of the agencies' Biological Opinions should be performed outside 
the Departments of Interior and Commerce to avoid the problems we have 
observed in the Klamath basin crisis. Data must be examined with clear, 
scientific objectivity using widely accepted scientific principles. To 
be objective, agency policies and positions do not belong in this 
scientific process. Good science will lead to good policy. And, if the 
agencies are willing to do so, there is a great opportunity to 
accomplish restoration goals without doing the kind of harm that is 
being experienced now.

                               REFERENCES

    Buettner, M. 1999. Status of Lost River and shortnose suckers. U.S. 
Bureau of Reclamation. Presentation at the 1999 Klamath Basin Watershed 
Restoration and Research Conference.
    CH2M Hill. 1985. Klamath River Basin fisheries resource plan. For 
U.S. Department of the Interior.
    Kier, William M., Associates. 1991. Long range plan for the Klamath 
River Basin conservation area fishery restoration program. The Klamath 
River Basin Fisheries Task Force.
    Markle, D., L. Grober-Dunsmoor, B. Hayes, and J. Kelly. 1999. 
Comparisons of habitats and fish communities between Upper Klamath Lake 
and lower Klamath reservoirs. Abstract in The Third Klamath Basin 
Watershed Restoration and Research Conference. March 1999.
    U.S. Fish and Wildlife Service. 1988. Final Rule: Endangered and 
Threatened Wildlife and Plants; Determination of Endangered Status for 
the Shortnose Sucker and Lost River Sucker. 53 FR 27130-01.
                                 ______
                                 
    Mr. Pombo. Thank you. I'd like to begin this round of 
questioning with Mr. Hastings.
    Mr. Hastings. Thank you for your consideration, Mr. 
Chairman. I appreciate that. I appreciate all of you coming 
here today and taking your time to testify in front of this 
Committee.
    Mr. West, let me start with you, or Commissioner West, I 
should say, because I have the greatest admiration for local 
elected officials.
    Mr. West. Thank you.
    Mr. Hastings. In fact, I think your job is really a lot 
harder than ours. I say it in this context; there's no politics 
in a pothole--just fix it. And so you're in a situation now--a 
very difficult situation of trying to balance all the needs 
that arise from this decision not made by you. You're familiar 
with the Oregon Natural Resources Counsel proposal. I guess 
that we'll hear this later on, because I was reading it in the 
prepared testimony that is coming later on, about the notion to 
buy up this land from willing sellers, and so forth. Tell me if 
there is any impact on you, and if so, what is that impact on 
this county.
    Mr. West. Thank you, Congressman. First, I would ask the 
question, what is a willing seller? If I, as a property owner, 
through no fault of my own, have had all the value taken away 
from my property, and someone now offers me an unusually large 
sum of money for my property, am I a willing seller or am I a 
hostage? The county that I represent is over 57 percent 
publicly owned. I'm not sure we can afford anymore publicly 
owned land. You gentlemen are all from western states. You 
realize that in reality PILT, Payment in Lieu of Taxes, is 
really a misnomer. The actual funding that comes through 
Payment in Lieu of Taxes is only a fraction of the tax revenue 
that would be paid if those lands were privately held.
    In the State of Oregon it's very simple. State government 
runs on income tax, county governments run on property tax. So 
any additional loss to our tax base would continue to have 
devastating effects on Klamath County, so I question the 
premise of willing seller, and I am concerned about the 
additional impacts to the county tax base.
    Mr. Hastings. Okay, Thank you very much, Mr. West.
    Mr. West. Yes, sir.
    Mr. Hastings. Representative Raybould--I guess that's the 
correct way to say it. In your testimony, you talked about the 
agreement that Senator Craig had reached with the Bureau of 
Reclamation and National Marine Fisheries back, according to 
this, in 1994. Have they lived up to the terms of that 
agreement?
    Mr. Raybould. Yes. In Idaho we have statutes that allow 
irrigation districts to establish rental pools, and the rental 
pools that are established allow an irrigator, if he has excess 
storage water in any given year, to contribute that water to 
the rental pool, and then he is paid for it out of the rental 
pool. The Rental Pool Committee then rents that water to other 
irrigators for other needs for water, out of the pool, but 
agriculture has first priority on any water that is consigned 
to the rental pool, so that puts agriculture first. When all of 
agriculture's requests are satisfied, then power interests, or 
in the case of the Bureau of Reclamation, they can purchase 
water from the rental pool. This is a 1-year deal. I don't 
mean, in any sense of the word, to indicated that Idaho farmers 
are selling their water rights or selling their land--only this 
lease of water. And it comes under the willing buyer/willing 
seller doctrine. That has worked very well up until this year. 
This year we're in extreme drought. There is very little water 
in the rental pool.
    The Endangered Species Act is not going to get water for 
flow augmentation from Idaho farmers this year. The biological 
opinion that has come out is still requesting 427,000 acre feet 
of water from the Upper Snake. It isn't there. We are right now 
jockeying to see how that's going to work out, but at this 
point in time they have lived up to their commitment to not 
take water other than from our rental pool, from a willing 
consignor, a willing seller.
    Mr. Hastings. Thank you very much.
    Mr. Vogel, as a scientist, you made a number of points in 
your written testimony. What I'd like to ask you--because you 
have heard us, and you'll probably hear us later on--all of us 
on this panel are concerned about good science and so forth. 
Could you give us an idea, from your perspective, what we 
should be incorporating into the amendments that need to be 
made to the Endangered Species Act as it relates to good 
science? How would we go about that, from a legislative 
standpoint, to accomplish what we all want to do?
    Mr. Vogel. Sure, thank you. Actually, I do know quite a bit 
about the Endangered Species Act. I worked for 15 years 
previously for the U.S. Fish and Wildlife Service and the 
National Marine Fisheries Service. That was more than a decade 
ago. So I have a lot of background experience working for the 
agency in terms of how the Act is administered. In fact when I 
was in the Fish and Wildlife Service I was involved with some 
listings of fish in California.
    First of all, probably one of the most important things is 
to point out that it's extremely easy to get a species listed. 
And I'll be real blunt--a child could do it. It's that easy. I 
have kids. I've even thought about having them do it as a test 
case, if it didn't result in harm to people, like we have right 
now. The problem is it's almost impossible to get a species 
delisted. There is not a real good mechanism within the ESA to 
figure out how to do it, and it's very, very tough. I've 
struggled with it, tried to figure out how agencies can do it, 
and it's almost impossible. So clearly, there has to be a very 
clear articulation on procedure to make it as easy to delist as 
it is to list.
    The other is that the act does not allow the ability to 
take calculated risks, for the lack of a better phrase. It 
doesn't allow for any mistakes. There are a lot of very 
practical ways in resource management where you can do good 
things for fish and wildlife, but the Act doesn't provide that 
flexibility or creativity. That has to be written into the Act, 
because there's a lot of good things that landowners, as an 
example, can do good things for the fish and wildlife habitats. 
They're not allowed to do it right now, the way the act was 
written.
    The other thing we talked about was peer review. There's a 
very clear mechanism I think for peer review. It's being very 
grossly abused right now. It's not really peer review. I call 
it peer pressure biology, in that if you don't agree with the 
agencies' policies and position, you're chastised because 
you're not abiding by what they believe. It has to be a blind 
peer review process. And by that, I mean, the author does not 
know who's critiquing his work, and the person critiquing the 
work doesn't know who wrote the work. That's true peer review, 
and the act doesn't allow for that.
    The last is accountability of civil servants. I was a civil 
servant for 15 years. I took it very, very seriously and I was 
very proud to say I was a civil servant. And I had a handbook 
that identified exactly what it means to be held accountable as 
a government employee. Something got lost, I'd say in the last 
decade, that eliminated that personal accountability of 
employees that would abuse the act. I'll be real blunt. Some of 
these Federal biologists have become intoxicated by the power 
provided by the Endangered Species Act, and that has to be 
eliminated.
    Mr. Hastings. Thank you very much, Mr. Vogel. And, Mr. 
Chairman, thank you for your consideration. I appreciate it.
    Mr. Pombo. Mr. Herger.
    Mr. Herger. Thank you, Mr. Chairman.
    Mr. Vogel, I want to thank you. I want to thank each of 
you. And as you pointed out, you've actually spent time working 
with the, quote, Fish and Wildlife.
    Mr. Vogel. Yes.
    Mr. Herger. And with NMFS. I understand, 14 years with Fish 
and Wildlife and a year with NMFS. And I want to thank you for 
your very strong and stirring testimony of just how serious 
this problem is. I was just wondering, you have also--and 
you're a biologist; is that correct?
    Mr. Vogel. Yes.
    Mr. Herger. A scientist. And you've reviewed the biological 
opinions.
    Mr. Vogel. Yes, both of them.
    Mr. Herger. And could you indicate to us if you've seen any 
instances that these opinions were driven not by on the ground 
science, but perhaps--perhaps driven by political decision-
makers who wanted to reach a predetermined outcome.
    Mr. Vogel. Yes. I don't have a quick answer for that, 
unfortunately, because it's so embodied within many, many 
meetings that were held in secret over many months in this last 
year. There was a lot of evidence of data that was ignored, 
that was contrary to the positions of the agencies. We know 
what that data is. We know where they ignored it. We know how 
they misapplied the data that they did have. But there was a 
very closed process we saw this last year. I'll point out that 
almost 10 years ago we had a very open dialogue, a very 
constructive dialogue with the agencies. They put their data on 
the table. We put our data on the table. We'd have honest, 
frank debate about it. Sometimes heads got knocked, and so 
forth, but at least we all talked about it. It was open, it was 
honest, and it was very efficient. And it worked well during 
the drought years, in '92 and '94, as an example. And we got 
through this crisis using that type of open scientific 
dialogue.
    This last year, the door was slammed shut, and that was one 
of the biggest problems we encountered this year is that we 
could never get to the point of contributing what we believed 
was very valuable information that could have avoided this 
regulatory crisis. That, in itself, can never be allowed to 
happen again. That door needs to be opened once again to allow 
the scientific scrutiny to occur on all the data.
    Mr. Herger. Thank you, Mr. Vogel. So in other words, you 
have a concern--I don't want to put words in your mouth, but it 
would appear that you have a strong concern that the decision 
that finally came down that allowed the farmers of the Klamath 
Basin basically to get zero water, perhaps could have had a 
predetermined political outcome that--.
    Mr. Vogel. Yes.
    Mr. Herger. --could have been avoided had we had all the 
data, all the scientific data explored and considered.
    Mr. Vogel. Absolutely.
    Mr. Herger. Thank you very much.
    And just as a follow-up to what Mr. Vogel was saying, Mr. 
Crawford, you were involved in the last administration, I 
understand, during the '92, '94 drought that Mr. Vogel spoke 
of. And I understand that during that time that the water users 
were afforded what was called applicant status, which enabled 
them to be a participant in the process of developing the 
biological opinions. But then under the 8 years of the Clinton/
Gore administration that status was taken away. Are you able to 
explain that process to us, and can you explain how and why you 
lost that applicant status?
    Mr. Crawford. Thank you, Mr. Congressman. Absolutely. In 
1992 we had such a severe lack of information regarding the 
suckers that what very little was known was so very important 
in making a good decision that would be--result in a biological 
opinion that we could live with. We were at the table and our 
information was considered, as was everybody else's information 
considered. It was weighted carefully as the best available 
science, and we ended up with a biological opinion for suckers 
in 1992 that allowed us the flexibility to get through those 
serious drought years of 1992 and 1994.
    Unfortunately, as the process changed through 
administrative mandate and enforcement and policy regarding the 
Endangered Species Act, biological opinions that were 
forthcoming after--or more importantly, in 1995 the Klamath 
Project went to annual operations plans that superceded those 
biological opinions. Lake levels were established on an annual 
basis, in 1995 and in 1996 and in 1997, that far exceeded the 
levels identified in the '92 opinion. There were no fish kills 
in '92 and none in '94, but there were substantial fish kills 
that occurred in '95, '96 and '97 under those annual operating 
plans that held Upper Klamath Lake at the highest level it had 
been held since Link River Dam was built.
    That's an example of how removal of our applicant status as 
irrigators in the Klamath Project has harmed, not only our 
ability to exist as an irrigation community, but the 
livelihoods of the suckers are very well at risk because of 
that same action. And the same applies on the river. We have 
been completely excluded from Dr. Hardy's process and from 
having the ability to have input to that process, and we are 
formally asking that our applicant status for that section 7 
consultation be reinstated.
    Mr. Herger. Thank you very much, Mr. Crawford. Mr. 
Chairman, and without objection, if this Committee could 
request from the Interior Department about the applicant status 
and why it was lost, and why the Department--and whether the 
Department would commit to restoring it.
    Mr. Pombo. Without objection, that will be added to the 
list of questions for the Interior Department.
    Mr. Herger. Thank you very much.
    Mr. Pombo. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman. We never know where 
you're going to go next.
    Mr. Pombo. You're right.
    Mr. Simpson. I appreciate that.
    Representative Raybould, I appreciate you coming over here 
all the way from Idaho. I know it's a long drive, 50 miles, or 
40 miles; but it's a very long drive, and I want to thank you 
for coming over to show that these people are not alone in this 
issue, that the people of Idaho care about what's going on here 
and the impacts that the potential outcome could have on the 
rest of the West.
    You mentioned the 427,000 acre feet that the legislature 
has appropriated on a willing seller/willing buyer basis over 
the last several years in order for flow augmentation for 
salmon. Do we have any results on the effects of flow 
augmentation as they pertain to the effectiveness of returning 
salmon and flushing salmon.
    Mr. Raybould. Thank you, Mr. Chairman, Congressman Simpson. 
The legislature authorized 427,000 acre feet to be taken out of 
the State of Idaho under the idea that water had to be used 
within the State on its way out. The only way to do that was 
with power production. It's against state law to remove water 
from outside the state without it being put to beneficial use 
in the State.
    This was done on a test basis. I believe you were in the 
legislature when the initial legislation was passed to do this. 
It was to be on a test basis and the National Marine Fisheries 
was to report back to the State of Idaho on the results of this 
test, whether flow augmentation did any good or not. We have 
yet to receive a report from National Marine Fisheries. There 
are theories that have been debunked in the past two or 3 years 
in as much as more salmon are coming back now, with less flow 
augmentation, than there were before.
    It is obvious to us that ocean conditions, the lowering of 
the sea surface temperature in the ocean, has had may more to 
do with salmon recovery than any meager thing that we could do 
with a few hundred--a thousand acre feet of water, when you 
figure that 20 or 30 million acre feet of water flow down the 
Snake and the Columbia each year. So, yes, we believe, through 
the studies that our Department of Water Resources has done, 
flow augmentation has done absolutely nothing to help recover 
salmon.
    Mr. Simpson. Thank you. And again, thank you for coming 
over here. I appreciate it very much.
    Mr. Crawford, let me ask you, is there any idea, of the $20 
million in emergency founding, how is that going to be spent to 
help agriculture? Do you have any plans for how it's going to 
be divided up? Is it going to go solely to agricultural 
producers? Could you give me some idea? And let me tell you, 
first, that I do believe that that will be approved by 
Congress, because it was in the President's request, and I 
applaud him for that, and I believe--you know, not knowing 
exactly what Congress will ever do, I do believe that it will 
probably be approved. But do we have a plan for how it's going 
to be spent?
    Mr. Crawford. Certainly, not only the water users and basic 
community are struggling with that very issue, but I think that 
the Congress is going to end up struggling with it as well. I 
think, as was stated before, that that $20 million is very 
greatly appreciated, but it's a very small Band-Aid on very 
large wound. The $250 million annual hit for this year, that I 
identified, is a very real thing. So if we try to get that 
money--the 20 million--on the ground to producers, and we try 
to share that with the farm workers in the community, we try to 
share that with the businesses that have suffered because of 
the taking that has occurred, it is going to be a very 
difficult task to distribute what is such a minute percentage 
of the hurt experienced here this year.
    Mr. Simpson. Well, I appreciate that. It seems like, if 
you're looking at the 250 million--I've heard 250 million or 
350 million dollar economic impact that this could have on this 
community. And we're talking, what, 10 percent or less than 10 
percent--8 percent of the total impact being in this emergency 
appropriation? Everybody sees the impact that this is having on 
the farmer that's not going to be able to plant a crop or 
anything else like that.
    A lot of people don't understand that in communities like 
this, when the farming industry is not doing well, neither is 
the farmer doing well, neither is the auto mechanic or the auto 
salesman or the dentist or the doctor or anyone else doing very 
well. I always told people in my dental practice that I could 
tell what the price of potatoes were every year by going back 
and looking at my appointment book, and you can do that. People 
don't understand how this impacts not just the farmer, but 
every business in the community, and as Ms. Molder said, how it 
impacts every school in this district and how it is going to 
impact the children in this district. The impacts go far beyond 
just the individual that isn't able to plant a crop out there, 
so I appreciate the testimony of all of you and look forward to 
working with you, because this is a band-aid to a solution that 
needs to be addressed.
    Mr. Crawford. Thank you, Mr. Chairman.
    Mr. Pombo. Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman, and to all of you 
again, welcome. I'm very impressed with your testimony here 
today and your open and candid remarks about the problems that 
this has created. I think one of the things that I've learned 
here just from listening to you is that anytime there's a 
decision to be made by the Federal Government on issues like 
endangered species, what we need to do is put a few farmers and 
ranchers on the Fish and Wildlife Service to make that decision 
for us.
    Mr. West, I was tremendously impressed with your comments 
about the economic safety net needed throughout that and the 
early decision to be made with water delivery rates so that you 
can make some crop decisions in planting. Those are very 
important as well. With regard to counties and the part you 
made about, when you remove property from the tax base. Believe 
me, I come from a state that has the highest percentage of its 
state boundary and geography owned and regulated by the Federal 
Government. In fact several of our counties are 10,000, 12,000 
square miles, 98 percent owned by the Federal Government. And 
you're right. PILT comes no where near being able to support 
their infrastructure, their schools, their highways, hospitals, 
law enforcement throughout the county, when you have a county 
that size.
    What I want to talk to you about is, if you lose 40 percent 
of your population, as projected by the implication of this 
Endangered Species Act on the sucker fish, what are some of the 
numbers that you see in terms of your ability to provide 
services to families, to seniors, hospital care? Has your 
county looked at those numbers and made any determination at 
this point whether you're going to have to close facilities and 
reduce activity, reduce services? Has your county looked at 
those yet.
    Mr. West. Mr. Chairman and Congressman Gibbons, we are very 
definitely impacted by this and have just concluded our annual 
budget process, and in that budget process we saw requests that 
we did fund for an additional $45,000 for the Swell Water 
Conservation District, an additional $50,000 for senior 
citizens' food programs, and I'm very pleased to say and proud 
that the elected officials of Klamath County stood together and 
turned down our cost of living rates, and that money, 
approximately $19,000, is being put into a special fund to help 
us meet some of the additional costs that we're facing because 
of this regulatory disaster. And we're already seeing an 
increase on the need for those services.
    If I might just quickly read a couple of sentences from the 
director of our Mental Health Department to one of my 
colleagues. ``Men and women accustomed to hardship, who have 
worked and fought their way through all the challenges nature 
and the economy have handed them for generations, cannot help 
themselves now. Their children are watching their friends 
disappear abruptly from their classrooms, and seeing their 
parents' dread, fear and outrage. Nightmares, anxiety and 
depression are new experiences that are taxing already 
overwhelmed family coping skills.''
    In our county Mental Health Department, pre-commitment 
investigation is up 67 percent, crisis services are up 64 
percent, mental health medical services are up 32 percent. 
That's for March, April and May, when compared directly against 
last year, so we are seeing an increase in needs. Obviously, 
you gentlemen participated with the food coming in which was so 
generously donated by businesses. So there's a huge demand on 
our food bank, and we're going to see more and more increases 
in demands for county services. We did not enjoy the benefits 
of the economic recovery in the 1990's here, and our 
unemployment is still over 10 percent.
    Mr. Gibbons. Thank you.
    And I want to address Mr. Crawford here for a minute, if I 
may. Mr. Crawford, picking up from what my colleague in 
Washington, Representative Hastings, asked earlier about the 
proposal to buy--from the Oregon Natural Resource Council, to 
buy farmland--I hope you're familiar with that in this brief 
question here. So if a farmer were to sell, what would be the 
tax implications? What would be the long range implications? Is 
it a plan that has met with reality, or is it just a short term 
fix for this problem?
    Mr. Crawford. Mr. Chairman and Congressman Gibbons, I'm 
going to use some strong words regarding that proposed action. 
And I am going to define some impacts from the perspectives of 
the people who fully intend to stay in this Basin, in that 
farming is their future and the future of their children. There 
are three basic flaws with the idea that any conservancy group 
is going to go out and buy willing seller farmland, and 
particularly in the Tulelake area. They're proposing to spend 
about $100 million to accomplish that. The rights of those 
private land owners to sell to anyone they choose are the kind 
of rights that I hold as dear as anyone else as long as there 
are no impacts on their neighbors, or in this case, on the 
National Wildlife Refuge that is present there.
    They're talking about eliminating commercial farming on 
15,000 acres of Federal lease land as a part of this proposal. 
Therefore, this proposal is predicated on a lie. The net loss 
of 15,000 acres of prime farm land to the irrigation district 
that supplies the water, and to the farmers who depend on the 
income from those acres, is just as important as any other 
aspect of that acquisition. When any conservancy group is 
reimbursed at $110 million for the land that they paid for from 
willing sellers, whether it--they've contended that it's going 
into some sort of a farming trust to be administered by the 
irrigation district or the Growers Association. The truth is 
they are going to be reimbursed at 110 percent for their 
expenditure. At that point in time, the only way that it is 
legal to make that happen is for that land to go into the hands 
of the Federal Government. It would be a net loss of whatever 
acres--$110 million--from what the Federal Government can buy.
    The other problem is their vision for that 15,000 acres of 
wildlife refuge. They envision it as a created and maintained 
wetland or as a storage facility to provide water for other 
areas of the refuge. Today that land has a 1905 irritation 
water right. If they are to create and maintain a wetland, it's 
going to be a 1928 reserve right, because that's when the 
refuge was created, so the water will not be available to 
accomplish that goal. If water is to be stored there as part of 
a storage project, they're going to have to get a right from 
the State of California to store water, dated 2001, and that 
water has to belong initially to the State of Oregon, so that 
stored water will be junior to any other water use in the 
entire Klamath Basin and will not be served in any year. That 
will be the net result of what's been proposed.
    Mr. Gibbons. Now, Mr. Chairman, if I may make just one 
final question here. I know my time is up, but I did want to go 
to Mr. Crawford, because this is an important part.
    Mr. Crawford, you and your farmers in their association as 
water users have been paying, as you stated in your testimony, 
for the diversionary works to get that water to them. Let me 
ask you a question right now, and you can help answer this for 
us and the Federal Government. If you are not getting your 
water, are you being relieved of your obligation to pay for the 
O and M on that works?
    Mr. Crawford. Not only are we not being relieved of the 
responsibility of paying for that water--not that water; that O 
and M on the facilities that deliver that water--but there are 
21 irrigation districts represented within the Klamath Project, 
and what is the faith of those folks that are going to be 
called upon next year, if we can rectify this disaster? We have 
to have the infrastructure and the people prepared to deliver 
that same water next year, so we recognize our obligation to 
pay for that. Unfortunately, we have to recognize some income 
to see that that happens and that in the future, the facilities 
that we need are there, are manned, and the services that they 
supply are available to us as irrigators.
    Mr. Gibbons. Thank you. Thank you, Mr. Chairman.
    Mr. Pombo. Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman. Congressman Gibbons, I 
appreciate your raising that issue. I have before me the O and 
M costs to the reserve works here, and have already talked to 
the Department of Interior about that very point. Why should 
you have to pay for something you're not going to get? And 
that's the point here, and we need to do something about that.
    Mr. Crawford, later, in the next panel, we'll hear from a 
number of people who have some rather strong comments to make, 
as we've heard from other members of this panel and others that 
have strong comments. But I want to ask you a question, because 
of the testimony that I've read from Mr. Kerr, where he makes 
some comments that are pretty strong. And you're representing 
the farmers, so I want to ask you. One of the things he writes 
is, ``Locally, potatoes are being raised more for the 
government subsidies than the market.''
    Could you explain to me any subsidies you're aware of being 
paid to potato growers in this market?
    Mr. Crawford. Congressman Walden, first of all potatoes 
happen to be a nonprogram crop through the FSA program.
    Mr. Walden. I'm aware of that.
    Mr. Crawford. The idea that potato farmers are being 
heavily subsidized--and I think a portion of what Mr. Kerr 
refers to is the production of potatoes, onions, sugar beets, 
on that 15,000 acres of leased land that has been referred to--
and not only are those crops on those acres not subsidized, but 
the Kiekel Act in 1964 said that those acres would be comprised 
of 75 percent cereal grain production for the benefit of 
waterfowl. And that Kiekel Act has never--we have never 
approached the 25 percent that is allowed to be in row crop 
since the Kiekel Act was written so--.
    Mr. Walden. So you're following the law.
    Mr. Crawford. We're following the law. We are following 
everything.
    Mr. Walden. --which mandates what you grow there. He goes 
on to say, ``Klamath Basin farming is in trouble, but in 
reality the Endangered Species Act is the least of their 
problems.'' Do you happen to concur with that?
    Mr. Crawford. You know, I referred earlier to the cheap 
meal of a baked potato and a Chilean pen-raised Coho. The 
unfortunate reality for this Spring is that we're seeing a 
potential turn-around in the fresh market potato industry. And 
I think everybody realizes that this may indeed be the first 
year in a very long cycle of troublesome markets for fresh 
market potatoes. We have no fresh market potatoes planted out 
there on these farms and ranches who have gone through this 
long siege of poor market conditions, so we will not be able to 
take advantage of the changes in those trends this year to make 
ourselves whole again. The potato industry is very cyclical and 
always has been, and if we lose the opportunity to produce this 
year, we may never recover, and that is based solely on the 
idea that, for whatever reason, we have a zero allocation of 
water.
    Mr. Walden. He also says it's marginal farmland. Do you 
agree with that or not ?
    Mr. Crawford. You know, when we go in to prove up yields in 
the FSA, it's amazing the productivity that occurs in this 
Klamath Basin. It is the most suited area in the world for the 
production of potatoes. Cool nights and warm days are what some 
of our row crops thrive on. Our grain yields are unparalleled, 
unparalleled anyplace else in this country, and good practice 
of rotational crops is what makes that all a viable thing.
    Mr. Walden. I asked you those questions for a very 
important purpose, because we get testimony like this that then 
becomes part of the official record, that sometimes people have 
no opportunity to rebut, and it becomes believed and the truth. 
And I have real trouble accepting that, so I appreciate your 
comments on that.
    Mr. Crawford. Congressman, I might also say that this 
hundred million dollars that's been proposed to buy private 
lands and turn them into public lands, it is the contention of 
the irrigators that that hundred million dollars could instead 
be used to implement a sub-rotation program on the lease lands 
down there, or to do a myriad of restoration work that would 
provide benefit for all of the environmental resources as well 
as agriculture in the Klamath Basin.
    Mr. Walden. I'll tell you, Mr. Crawford, if I could get a 
hundred million dollars, that's where I'd put it after I took 
care of the economic disaster here, and that's what we ought to 
get, and that's what this Federal Government ought to deliver. 
We ought to go to work to get more water in this basin, storage 
available for agriculture and for fish, but to satisfy both 
needs. If there's an extra hundred million floating around in 
Washington, we're going to put our hands on it, but it's going 
to be for a more productive purpose.
    Mr. Vogel, I'd like to ask you a question.
    Mr. Vogel. Yes.
    Mr. Walden. You've reviewed these biological opinions. You 
probably heard my reference to Mr. Markel's e-mail of Thursday, 
June 14th, where he said ``maybe their sound science might have 
come to a different conclusion.'' What do you see as the 
biggest scientific flaw in the biological opinions?
    Mr. Vogel. In both opinions?
    Mr. Walden. You take either one or both.
    Mr. Vogel. Okay. Well, there's no question it's the single 
minded approach that more water is always better for fish. 
There's a mind set there that cannot be shaken. It happened 
somewhere. I'm not sure what it is. And I get chastised for 
even suggesting that anything less than the maximum possible 
flows or the maximum possible lake levels will be good for 
fish. We've seen it demonstrated. We've heard it over and over. 
Very high lake levels-- we've seen it in the past--they kill 
fish. Low lake levels are not killing fish.
    The same with the Klamath River. They treat Upper Klamath 
Lake as though it's the Shasta Reservoir. They have this 
concept that there's this enormous, four and a half million 
acre reservoir with very cold, clear water, and somehow it's 
going to save all the problems of the Lower Klamath River 
Basin, and it will not work. Upper Klamath Lake is very warm, 
very eutrophic and very shallow, and it's about 60 miles from 
there down to Iron Gate Dam. They're dumping more water today 
to try to mitigate for the failures of habitat restoration 
programs in the tributaries, and that really has to be shaken 
loose. I mean, the further scrutiny of this peer review will 
reveal those deficiencies.
    Mr. Walden. Do you believe that the habitat improvement is 
what's needed most? If you could do one thing--if we could do 
one thing, two things, what would it be that would get to the 
heart of these problems we're facing today?
    Mr. Vogel. There's absolutely no question. The number one 
thing is we've got to start some projects--on the ground 
projects. I've never seen a place anywhere in the western 
United States where people will not allow on the ground 
projects to be initiated. They're saying, ``No, don't do 
anything. Let nature heal herself. Just simply buy up the land, 
get all the water, and somehow, through mechanisms we don't 
understand, everything will be okay.'' And it will not occur. 
There's no turning back the clock to make a pristine ecosystem. 
Those days are gone. The idea is to come up with practical, 
real-world, on the ground projects to begin restoration 
activities.
    Mr. Walden. Thank you, Mr. Vogel. Thank you, Mr. Chairman.
    Mr. Pombo. Mr. Simpson.
    Mr. Simpson. Mr. Walden pointed out how sometimes 
statements become part of the record and then people start 
quoting them, and I just wanted to make sure that Mr. Crawford, 
when he was bragging about potato production here and he said 
this is the greatest place to grow potatoes in the world, what 
he meant was-- I'm coming from Idaho and I do have to put this 
in the record is that, what he meant to say is this is almost 
the greatest place in the world to grow potatoes.
    Mr. Hastings. Mr. Chairman, could I lend my voice to 
talking about the quality of the potatoes grown in the Columbia 
Basin Project as being maybe something that would compete with 
this area.
    Mr. Gibbons. Mr. Chairman, I also want to add that Nevada's 
Winemucca potatoes to that same item.
    Mr. Pombo. Well, all I'll say is that since I am chairing 
this hearing and I happen to represent the San Joaquin Valley 
of California, we're going to come to a conclusion about the 
best place to raise potatoes.
    Mr. Vogel, there's something that you just said about a 
pristine environment, and I think that--and I don't want 
anybody to get the wrong idea about what your comment meant. 
It's my understanding that in this so-called pristine 
environment, that the Klamath Lake was a much shallower lake 
than it is today, and yet the fish survived in that setting. 
How was that possible?
    Mr. Vogel. Well, it's possible because we're talking about 
sucker fish, in all honesty, there's this image that people are 
inappropriately portraying, that sucker fish are like salmon or 
they're like trout, and they're not. They thrive very well in 
muddy water, muddy conditions, shallow water. You see them all 
over the watershed now. We see them in habitats where these 
fish were never believed to be known. In fact I know ranchers 
and farmers right in this Basin that know they have suckers on 
their property, and there's no way in the world they're going 
to tell anybody about it, for obvious reasons. So this is not 
a--this isn't rocket science. It's very, very straightforward, 
very simple. And the Fish and Wildlife Service is trying to ram 
a square peg into a round hole with these lake level issues, 
and we have to shake them away from that mind set.
    Mr. Pombo. Well, you heard before, on the previous panel 
and on this panel--a lot has been talked about in terms of 
science and how we come to the conclusions that we do. And as a 
former civil servant yourself, I think it's important that the 
agencies, the outside groups, no matter what side of the issue 
they're on, come up with the best science that they are able to 
develop, and all of that to be presented to the agency to make 
their decision based upon science.
    And currently, the way the system works, that doesn't 
happen, because I have heard complaints from those in the 
environmental community that their science has not been 
listened to. I have heard people from agriculture and building 
industries saying that the science that they put together was 
not listened to. And if we are ever going to have science that 
we can depend on, the entire system has to be changed from 
where we currently are. But I think that it's important that 
you and everybody else realize of this, that people being 
here--you know, a hundred plus years of people farming in this 
valley has changed the environment, and unless you are going to 
go in and remove any sign of human activity, including any dam, 
any person, any school, any city--just take it all out--and 
then somehow think that it's going to return to what it was 
before, it's not going to happen. So the solution has to be, 
how do you have a balance between protecting fish and wildlife 
and the people who live here, and how do the people that live 
here become part of the solution instead of those who pay the 
price, and I think that that's the solution that we have to 
come to.
    I want to thank this panel and invite our third panel to 
come up. The Committee is going to take a very, very short 
break. But I do invite our third panel to take their seats, and 
we will be back very shortly.
    [Recess.]
    Mr. Pombo. I'm going to call the hearing back to order. We 
have our third panel here.

 STATEMENTS OF ALLEN FOREMAN, CHAIRMAN OF THE KLAMATH TRIBES; 
 TROY FLETCHER, YUROK TRIBE; FRANKLIN M. BISHOP, PRESIDENT AND 
 CEO, INTERMOUNTAIN FARM CREDIT; ANDY KERR, SENIOR COUNSELOR, 
OREGON NATURAL RESOURCES COUNCIL; DAVE SOLEM, MANAGER, KLAMATH 
                      IRRIGATION DISTRICT

    Mr. Pombo. I'm going to start with Mr. Foreman, if you're 
ready to begin.

                   STATEMENT OF ALLEN FOREMAN

    Mr. Foreman. Congressmen, member of the Committee, I 
appreciate the opportunity to present the Klamath Tribe's views 
on the water problems in the Klamath Basin. Most of what has 
been said here today, thus far, I agree with. The tribes have 
been saying the same thing for years. We have suffered from the 
empty promises of the government also.
    I appear before you today representing not only a 
constituent base, but also as a leader of a sovereign nation, a 
nation that's recognized by the United States. I'm here not 
merely as another interest group or an interested party. I 
would like to remind the Committee that the United States has a 
legal and moral obligation to preserve and protect the trust 
responsibility to the tribes. The Constitution of the United 
States refers to its treaties as the supreme law of the land. 
It is in this context that I direct my remarks to you, on a 
government-to-government basis.
    Our livelihoods are also as important as any others in the 
basin. The land and the other resources that we depend upon has 
been lost. Restoration is a necessary part of the solution in 
the basin. In order to understand the problems, it's important 
to understand its historical roots.
    From the beginning of time, we owned all of the land in the 
Upper Klamath Basin and all of its resources, including the 
water. As a result of the Treaty of 1864, the tribes gave up 20 
million acres of land, but still retained ownership of the 
remaining land an its resources. In the 1950's the land was 
lost due to a flawed termination policy, which President Nixon 
later declared to be immoral. We still retained the resources, 
including the water. The courts have upheld that those rights 
exist today, and I know of no agreed upon document in existence 
today that changes that fact.
    Later, when the Government invited the farmers and the 
veterans of World Wars I and II to move into the Basin and 
suggested that the water would be available, the Government did 
not take into consideration or tell the farmers about the 
tribal water rights. The Link River Dam was put into place, 
that actually lowered the Klamath Lake from its historical 
levels. This began to diminish our resources.
    To further compound the problem, for nearly a century the 
U.S. Has allowed the State of Oregon to issue water permits 
without regard for Tribal water rights, and until recently, 
without regard for the natural health of the rivers, lakes and 
marshes, causing virtually all of the Basin's streams to be 
listed on the 303 list as having severe water quality problems, 
and a further decline to our treaty resources.
    The Government's own agencies--the Forest Service, the 
National Parks, the U.S. Fish and Wildlife Service--claim the 
same water, again without regard to the Tribal water rights or 
the tribe's needs. Today the problems are a cumulative result 
of nearly a century of extended promises for the available 
water.
    Recently, the tribes have been victims of unwarranted and 
unjustified attacks on both our public imagine and our 
character. Unfortunately, there have been personal attacks as 
well. The most grievous of these are the attacks on our 
children in the public schools, many of whom live and attend 
schools within the farming communities.
    With the water shortage this year, it's hard for anyone to 
think about a future when the present looks so hopeless. We 
know that livelihoods are at risk in the farming community. I 
want to make one thing perfectly clear. It is not now, nor has 
it ever been, in the interest of the Klamath Tribes to shut 
down or destroy agriculture in the Klamath Basin.
    It's both incorrect and unfair to blame the Tribes for the 
current water shortage. The real problem is that demand for 
water in the Klamath Basin has been allowed to exceed the 
supply. I hope that everyone can understand why the Tribes 
continue to defend our water rights in the same way everyone 
else in the Basin seeks to reinforce their own rights and 
claims. I would like to remind you that over use of the water 
has already severely damaged the livelihoods of our own 
families.
    We also believe that the Federal Government has a 
responsibility to the farm families who, like the Klamath 
Tribes, now depend on a water system that is simply not capable 
of meeting the current demands. We, as a people who have for 
years felt the pain of being unable to meet the demands and 
needs of our families and communities, do not want to see our 
friends and neighbors in the agricultural community suffer. 
Sharing the benefits of nature's bounty is one thing, but now 
we must also share the adversity caused by decades of over-
allocation and ineffective resource management. Today, we all 
need to focus on the present problem. The Tribes have been a 
leader in the search for an effective solution to the water 
problems.
    Concerning the biological opinion, if a peer review is 
going to happen, which appears to be likely, it should review 
both the science that supports the withdrawal from the natural 
system as well as the science that supports keeping the water 
in the system, should be reviewed equally. First, we believe 
that the biological opinion incorporates the best available 
science. Second, we're concerned about the objectivity of any 
review simply because many influential people have already 
committed to a negative position. A review would involve a 
great deal of time and resources on a matter that the courts 
have already reviewed.
    Doing away with or revising the Endangered Species Act or 
the biological opinion simply will not change the Tribal trust 
responsibilities, nor will it fix the problems that exist 
today. What will work? The current situation is correctable 
with strong, even-handed and focused leadership to get beyond 
the squabbles among agencies, between water interests and 
between the U.S. And the State of Oregon.
    The goal must be restoring and sustaining a healthy and 
functioning ecosystem to support multiple uses. The Upper Basin 
watershed currently cannot provide a reliable foundation for 
either the Tribe or the agricultural community. Correcting this 
will allow the Tribes and agriculture to become stable and 
healthy. We need to reduce demand on the system through a 
program that fairly rewards the agricultural community for 
retiring land, so the remaining lands can be farmed with a 
certainty. This will stabilize the future for agriculture in 
the Basin. Next, a sustainable livelihood for the Tribal 
community must be part of the equation. This depends on the 
restoration of the Tribe's ownership of their homelands, which 
contains a significant portion of the watershed. We will then 
be able to restore the health of the forests, streams and 
springs that nurture our water supply, and restore our much 
needed subsistence base.
    The basin will not regain its health by treating the 
symptoms while avoiding the causes of the water shortage. We 
need to restore nature's productive capacity in the Klamath 
Basin, like the Creator intended, otherwise we'll be facing 
problems just like this one for years to come. Those of us who 
must face the consequences of those empty promises cannot build 
a future by turning on each other. The fisheries, the farming 
communities, the Klamath Tribe's culture and economy are all at 
risk. We need high level Federal policy makers to provide the 
leadership so that all of us who live in the Klamath Basin can 
work together on a lasting solution, not an inadequate quick 
fix. Thank you, Mr. Chairman.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Foreman follows:]

   STATEMENT OF ALLEN FOREMAN, CHAIRMAN, THE KLAMATH TRIBES OF OREGON

    Congressmen, members of the committee, I appreciate the opportunity 
to present the Tribes views on the water problems in the Klamath Basin.
    I appear before you here today representing not only a constituent 
base but also as a leader of a sovereign nation, recognized by the 
United States,. I am not here merely as another interest group or an 
interested party. I would like to remind you that the United States has 
a legal and moral obligation to preserve and protect their trust 
responsibility to us. The constitution of the United States refers to 
its treaties as the supreme law of the land. It is in this context that 
I direct my remarks to you, on a government-to-government basis.
    In order to understand this problem appropriately it is important 
to understand its historical roots.

    *From the beginning of time we owned all the land in the Klamath 
Basin and all of it's resources, including the water.
    *As a result of the Treaty of 1864, the Tribes have given up twenty 
million acres of land but still retained ownership of the remaining 
land and its' resources. In the 1950's the land was lost due to a 
flawed termination policy, which President Nixon later declared to be 
immoral, we still retained the resources including the water. The 
courts have upheld that those rights exist today. I know of no agreed 
upon document in existence today that changes that fact.
    *Later when the government invited farmers and veterans of world 
wars I and II, to move into the Basin and suggested that water would be 
available, the government did not tell the farmers about Tribal water 
rights. The Link River Dam was put into place that actually lowered the 
Klamath Lake from its historical levels. This began to diminish our 
resources.
    *To further compound the problem for nearly a century the U.S. has 
allowed the State of Oregon to issue water permits without regard for 
Tribal water rights, and until recently, without regard for the natural 
health of the rivers, lakes and marshes. Causing a further decline to 
those Treaty resources.
    *The governments own agencies, the Forest Service, National Park, 
and the U.S. Fish and Wildlife claim the same water, again without 
regard to the Tribes water rights or needs.

    Today's problems are a cumulative result of nearly a century of 
extended promises to others for our water.
    Recently the Tribes have been the victims of unwarranted and 
unjustified attacks on both our public image and our character. 
Unfortunately there have been personal attacks as well. The most 
grievous of these is the attacks on our children in the public school 
system, many of whom live and attend schools within the farming 
communities.
    With the water shortage this year it is hard for anyone to think 
about the future when the present looks hopeless. We know that 
livelihoods are at risk in the farming community. I want to make one 
thing perfectly clear, it is not now, nor has it ever been, the intent 
of the Tribes to shut down or destroy agriculture in the Klamath Basin.
    It is both incorrect and unfair to blame the Tribes for the current 
water shortage. The real problem is that the demand for water in the 
Klamath Basin has been allowed to exceed the supply. I hope that 
everyone can understand why the Tribes continue to defend our water 
rights, in the same way everyone else in the Basin seeks to reinforce 
their own rights and claims.
    We also believe the federal government has a responsibility to the 
farm families who, like the Klamath Tribes, now depend on a water 
system that is simply not capable of meeting current demands. We as a 
people, who for years have felt the pain of being unable to meet the 
needs of our families and communities, do not want to see our friends 
and neighbors in the agriculture community suffer.
    Sharing the benefits of nature's bounty is one thing but now we 
must also share the adversity caused by decades of over allocation and 
ineffective resource management.
    Today we all need to focus on the present problem. The Tribes have 
been a leader in the search for an effective solution to the water 
problems.

    The following is a list of things that we know that will and will 
not work:

    Will not work:
    Concerning the BO.

    1. We believe that the current BO is the best available science.
    2. A review is unnecessary because the courts have already ruled 
upholding the science.
    3. We are concerned about the objectivity of any review simply 
because many influential people have already committed to a negative 
position.
    4. A review would involve a great deal of time and resources.

    Doing away with or revising the ESA and BO simply will not change 
the Tribal trust responsibility nor will this fix the problems that 
exist today.

    What will work:
    The current situation is correctable with strong, even-handed and 
focused leadership, to get beyond the squabbles among agencies, between 
water interests, and between the US and the Sate of Oregon.

    *The goal must be restoring and sustaining a health and functioning 
ecosystem to support multiple uses. The upper basin watershed currently 
cannot provide a reliable foundation for either the tribal or the 
agricultural communities, correcting this will allow the Tribes and 
agriculture to become stable and healthy.
    *We need to reduce demand on the system through a program that 
fairly rewards the agricultural community for retiring land, so the 
remaining lands can be farmed with certainty. This will stabilize the 
future for agriculture in the Basin.
    *A sustainable livelihood for the tribal community depends on the 
restoration of the Tribes' ownership of our homelands, which contains a 
significant portion of the watershed so that we can restore the health 
of the forest, streams, and springs that nurture our water supply, and 
so that we will be able to restore our much needed subsistence base.

    The Basin will not regain its health by treating symptoms while 
avoiding the causes of our water shortage. We need to restore nature's 
productive capacity in the Klamath Basin. Otherwise we will be facing 
problems like this one for years to come.
    Those of us who must face the consequences of those empty promises 
cannot build a future by turning on each other. The fisheries, the 
farming communities, the Klamath Tribes culture and economy are all at 
risk.
    We need high-level Federal policy makers to provide leadership so 
that all of us who live in the Klamath Basin can work together on a 
lasting solution, not an inadequate quick fix.
                                 ______
                                 
                           EXECUTIVE SUMMARY

    The current situation in the Klamath Basin offers a unique 
opportunity to develop a policy showing that economic and environmental 
concerns can be productively balanced, and that the honor of the U.S. 
can be upheld in its dealings with both indigenous peoples and its 
other citizens. The situation is not some sort of obscure scientific 
controversy, but rather a problem of community instability on three 
fronts. These fronts are interdependent, so any real solution to Basin 
problems must address all three, or the problems will persist.
    <bullet> The Klamath Tribes currently lack crucial elements 
required for their societal and community stability; as this is 
corrected the Tribes will become a stabilizing element in the Basin.
    <bullet> The agricultural community is undergoing economic 
difficulty and uncertainty in water supplies that make it unstable; as 
this is corrected that community will become a stabilizing element in 
the Basin.
    <bullet> The Upper Basin watershed is in a devastated condition 
and cannot provide a reliable foundation for either the tribal or the 
agricultural communities; correcting this will allow the Tribes and 
agriculture to become stable and healthy.
    The situation is correctable with strong, even-handed and focused 
leadership by the Administration to get beyond the squabbles among 
agencies, between water interests, and between the United States and 
the State of Oregon which have characterized the situation in recent 
years. In this document the Klamath Tribes discuss three fundamental 
problems and offer the broad outlines of a prescription for solutions.
    Ecosystem repair: Basin rivers, lakes, wetlands and forests are 
degraded to the point that the health and stability of all Basin 
communities are undermined. Large-scale restoration oriented toward 
long-term ecosystem functions can solve this problem. Research into 
agricultural improvements will enhance prosperity of agricultural 
operations, an essential component of achieving necessary restoration 
on private lands.
    Solving over-appropriation: Federal and state promises have created 
a demand for water that exceeds what Nature provides. Administration 
leadership is needed to lay the foundation for restoring the balance.
    Returning the tribal homeland: A sustainable livelihood for the 
tribal community depends on the Tribes' recovery of certain lands now 
in federal ownership. These lands were taken from the Tribes as part of 
the now discredited Termination policy; the Administration can further 
the process of their return.
    The Basin is at a critical juncture. It can be the centerpiece of a 
federal policy balancing nature and the economy, or it can be left to 
descend into decades of divisive litigation and strife.
                                 ______
                                 
A STRATEGIC APPROACH TO ACHIEVING ECONOMIC AND ECOLOGICAL HEALTH IN THE 
                             KLAMATH BASIN

                    THE KLAMATH TRIBES - JUNE, 2001

    The events of 2001 in the Klamath Basin are the inevitable 
consequence of long-standing, unresolved conflicts. With all Klamath 
Basin residents suffering economic hardship brought on by decades of 
the federal and state governments' mismanagement of the region's water 
resources, only leadership from the highest levels of the United States 
government can restore a sustainable economy based on rationally 
managed natural resources. The Klamath Tribes have been and will be 
here always, so we have been intimately involved in all of the issues 
that must be addressed to achieve stability and prosperity for the 
Basin as a whole.
    The Klamath Tribes are uniquely positioned to play a central role 
in resolving Basin problems to the benefit of all, and we are very 
serious about doing so. Therefore, instead of focusing on past hurts 
and inequities, we are focused on the future, on finding solutions that 
can work for everyone. In this spirit, we offer the following outline 
of our strategic approach to achieving economic and ecological health 
in the Klamath Basin. Our intent here is not to provide a greatly 
detailed strategy, but rather to facilitate a basic understanding of 
the problems driving the present conflicts and crises, and then to 
offer the key elements of viable long-term solutions.
    We believe that our strategy provides a strong foundation for the 
development of an effective U.S. policy which can resonate throughout 
the nation, and perhaps the world. We envision a policy showing that 
economic and environmental concerns can be productively balanced, and 
that the honor of the U.S. can be upheld in its dealings with both 
indigenous peoples and its other citizens. While we firmly believe that 
successful policy can be built on the foundations we offer here, we are 
not naive about the challenges involved. Strong, even-handed, 
responsive leadership from the highest levels of the U.S. government 
will be the pivotal element in determining the success or failure of 
efforts to bring health and stability to the Klamath Basin.

Background and Description of Problems
    It is our intent to approach the issues at hand in a positive, 
solution-oriented manner. However, it is crucial for policy-makers to 
understand the perspective from which the Klamath Tribes approach the 
present situation, so we must briefly detail some history. Social and 
ecological problems experienced here in the Klamath Basin are complex 
and have a 140+ year history. We refrain here from providing great 
detail, focusing instead upon the fundamental problems, which have 
brought us to the present situation; problems which must be resolved to 
achieve health and stability. We stand ready and able to provide 
detailed explanations and analyses of any component, and will await 
requests for further information to do so.
    In the Treaty of 1864, the Klamath Tribes reserved hunting, 
fishing, and gathering rights on 2.2 million acres of land, essentially 
encompassing the entire Upper Klamath River Basin above Upper Klamath 
Lake. Over time, reservation boundaries were resurveyed and changed 
until in 1954 the reservation was reduced to 1.1 million acres. The 
Termination Act of 1954 led to the loss of federally recognized tribal 
status as well as the conversion of a major portion of our ancestral 
lands into the Winema and Fremont National Forests. Termination 
precipitated a time of severe economic and social devastation from 
which we are struggling to recover. In 1986 the US acknowledged the 
failure of the termination era policies by restoring our federally 
recognized tribal status. While this step restored some capability and 
authority to influence resource management, it was not accompanied by 
the return of our ancestral lands, and so was insufficient to overcome 
the legacy of devastation wrought on the landscape during the 
termination era.
    It is vital to understand that the Klamath, Modoc, and Yahooskin 
peoples have been on this land for hundreds of generations, thousands 
of years before the ancestors of the American pioneers had any idea 
that the North American continent even existed. When we go out into the 
land, we can literally feel the permanent presence of our people 
throughout history, a sense of belonging that cannot really be 
described or fully understood by outsiders. Our land was taken from us 
in stages from 1864 to 1954, until we were left with none. Since 1864 
we watched as enormous changes were made across the landscape; we 
watched Upper Klamath Lake turn into a cesspool, the streams and rivers 
degraded, the marshes plowed under, the salmon disappear, the sucker 
fishery plummet, the deer herds decline to all-time lows, sacred places 
trampled and pillaged, and the forests completely changed in character.
    Many decades of industrial forestry, agricultural development, and 
other changes led to a complete transformation of our landscape, and 
resulted in the decimation of natural resources vitally important to 
the spiritual, cultural and economic livelihoods of the tribal 
community. Radical changes in forest structure and composition 
contributed to tremendous declines in our mule deer herds. Places 
sacred to our people have been trampled and pillaged. Road development 
has cris-crossed our ancestral lands with an amazingly dense road 
network. What little old growth forest remains occurs in small isolated 
patches.
    Over the past century, the most beneficial use of water was 
considered to be taking water away from fisheries in order to create 
more irrigated agriculture. Accordingly, vast tracts of wetlands and 
even lakes were diked, drained, and transformed to farmland. 
Floodplains of our major river systems were developed as well, 
resulting in extensive loss of important riparian ecosystems and the 
commensurate impairment of floodplain function. Profound changes in the 
geomorphology (that is, the shape and physical characteristics) of our 
rivers degraded both fish habitat and water quality. Diversions of 
water from our rivers annually draw them far below natural base flows. 
Diversions of water from Upper Klamath Lake cause annual lake level 
fluctuations far in excess of the natural condition. Cumulative effects 
of these and other transformations of the watershed contributed greatly 
to the hypereutrophication of Upper Klamath Lake, impairing water 
quality so severely that some of the toughest and most abundant fish 
species, the suckers, have been pushed to the brink of extinction. 
Effects of these terrible conditions are felt by everyone, causing 
problems for other fisheries and water users far downstream of Upper 
Klamath Lake.
    The direct consequences of this severely degraded watershed are 
being felt by all in the present water crisis. As all parties battle 
over who gets how much water, the fundamental problems which underlie 
the entire situation are not being addressed. Everyone living here can 
fight about water quantity forever, and no matter who wins or loses the 
terrible problems we face will remain, until we properly address the 
central problem of extreme ecosystem degradation. A healthy Basin 
economy depends on being able to squarely address ecosystem restoration 
at an appropriate scale. Unless we do this, we simply doom ourselves to 
continued instability, strife, and economic depression.
    So far we have described the devastated condition of both our 
ecosystem and the tribal economy, but another important piece of the 
puzzle remains, the health and stability of the agricultural economy. 
The recent shutoff of irrigation water to part of the Klamath Project 
has obviously hurt that portion of the agricultural economy. Such 
events further de-stabilize the basin, resulting in extreme 
polarization of the very groups which must come together to achieve 
long-term solutions. Agriculture needs something which it does not 
have: a stable water supply. Instability of the agricultural water 
supply results from decreased wetland and floodplain storage as well as 
from ESA-related regulatory actions, both of which originate from 
impaired ecosystem functions, and from uncontrolled development of 
water demand which now far exceeds the supply Nature provides.
    In the present crisis we are watching our agricultural neighbors 
experience in part what has happened to the Tribes over and over: 
promises ignored, trust betrayed, severe personal economic damage, 
terrible pain, anguish, fear, and anger with no productive outlet. We 
do not revel in their misery, and did not try to engineer their demise. 
However, we cannot let their agony and anger obscure the pathway to 
successful resolution of our problems. We want what is best for all 
Klamath Basin residents, a healthy ecosystem with stable and prosperous 
economies for all. Thus the crucial question is this: can we devise an 
effective strategy to restore health and stability to the Klamath Basin 
ecosystems as well as to the Tribal and agricultural economies? We 
firmly believe that the answer is yes, a successful approach can be 
devised, and that the success or failure of such a strategy rests in 
the willingness of the highest levels of the US government to engage 
the situation with strong leadership, wise policy, and adequate 
resources.

The Pathway to Stability: Three Key Elements
    A central theme of these problems is instability, which will 
persist until the foundational problems we face are addressed at the 
appropriate basin-wide spatial scale and a long-term temporal scale. We 
are not facing some sort of scientific controversy here, but rather a 
problem of extreme social instability. The instability occurs on three 
fronts, each of which must be addressed by real solutions.
    <bullet> As long as the Klamath Tribes lack crucial elements to 
regain stability, our social and economic pain will be a destabilizing 
element in the Basin.
    <bullet> As long as the agricultural community undergoes the 
uncertainty and economic difficulties it has been experiencing, it will 
be a destabilizing element in the Basin.
    <bullet> As long as the watershed in the Upper Basin remains in 
its present devastated condition, there is no possibility that either 
the Tribes or agriculture will become stable and healthy.
    Critical ecosystem functions must be restored, recognized, and 
valued by all. Agriculture must own their land and have an assured 
water supply. The Klamath Tribes must own our land, manage it to meet 
our needs and the needs of our neighbors in the Klamath Basin, and have 
an assured water supply. A sustained and prosperous society in the 
Upper Klamath Basin cannot be achieved without adequately addressing 
these three foundational elements.

                         ECOSYSTEM RESTORATION

    Four main components require restoration in the Upper Klamath Basin 
ecosystem: rivers, lakes, wetlands, and forests. The Klamath Tribes 
have been researching and managing these ecosystems for a long time, 
and we have concluded that repair of the following structural and 
functional components is crucial to regain ecological health in the 
Basin. It is critical to consider the scale of both the problems and 
their solutions. Ecological problems in the Upper Basin have been 100+ 
years in the making and occur across a large portion of this watershed. 
To be successful we must recognize that repairing this Basin will take 
time; a century of abuse cannot be erased in a moment. We can guarantee 
failure by approaching restoration with a small-scale, short-term mind 
set, expecting that a few years of restoration actions will immediately 
realize benefits sufficient to free up water supplies and allow a quick 
return to the status quo. Alternatively, we can guarantee success by 
recognizing the landscape scale of restoration needs, and by focusing 
our goals on the long-term benefits to restoring critical ecosystem 
functions.

Rivers and streams need to be re-shaped, re-positioned, and adequately 
        watered.
    Early on, riparian communities were removed, which destabilized the 
riverbanks, causing rivers to widen, straighten, and incise into their 
floodplains, lowering the local water tables and drying out the 
floodplains. As a result of these structural changes, nutrients are no 
longer stored appropriately either in the river channel or in the 
riparian ecosystem. Instead, nutrients free-flow down the river 
systems, which greatly contributes to the eutrophication of our lakes. 
Like nutrients, water is no longer stored appropriately in wetlands and 
floodplains, so summer base-flows are reduced, and then are further 
reduced by water withdrawals. All of these effects are reflected in the 
greatly impaired physical habitat and water quality conditions we now 
have in our rivers.
    Our rivers need to be narrower, deeper, more sinuous, and they need 
to be placed back into the proper contact with their floodplains. 
Dense, diverse riparian systems need to once again flourish along our 
river corridors, and sufficient water must remain in the rivers to 
maintain healthy aquatic life and healthy riparian plant communities. 
We firmly believe that landowners will see benefits from these 
improvements as their fields and pastures in the flood plains are 
reconnected with the water table. They will embrace, not resist, these 
improvements once the benefits are demonstrated. A program of 
substantial pilot projects to illustrate these benefits would be an 
appropriate next step.
    Implementing these restoration actions from the top down in the 
Basin watershed makes a lot of sense. As the watershed above Upper 
Klamath Lake heals, summer inflows to the lake will increase and 
nutrient inflows will decrease, with obvious benefits to all beneficial 
uses downstream from the lake.

The Upper Klamath Lake system needs a more natural hydrology, with 
        functional tributaries and peripheral marshes.
    Just as Upper Klamath Lake has been a focal point of the present 
water controversy, it remains a vital ecosystem component because it 
provides the main habitat for endangered suckers, the main water source 
for the Klamath River where threatened salmon dwell, and the primary 
irrigation storage for the Klamath Project. Competition among these 
uses has been greatly intensified by the terrible water quality 
problems in Upper Klamath Lake, so solutions to the water quality 
problems have been and must continue to be a centerpiece for management 
in the Basin.
    Two major components need to be addressed in Lake management and 
restoration. First, annual draw-down of the Upper Klamath Lake system 
far in excess of natural levels must stop. Both water quality and 
physical habitat for fish are impaired by the extreme fluctuations in 
lake elevation, which have occurred annually since 1921. Second, 
peripheral wetlands need to be reconnected to the lakes, providing fish 
habitat and water quality benefits. Major projects are already underway 
at the Wood River Ranch (BLM) and the Lower Williamson River Delta 
Preserve (TNC), and have already provided significant benefits. Both 
projects are located on major lake tributaries that are crucial 
locations for the restoration of appropriate morphology and 
connectivity between the rivers, their delta wetlands, and the lakes. 
In addition, marshes are becoming re-established on the Agency Lake 
Ranch (BOR), and options for its management are being developed. More 
opportunities exist for major wetland restoration around the edges of 
the Upper Klamath Lake system.

Upper basin wetlands need to be restored.
    Large, unique wetlands exist in the Upper Basin, and they are in 
need of extensive restoration. The Klamath Marsh (FWS) and the Sycan 
Marsh (TNC) are huge wetlands that are vitally important components of 
the rivers on which they occur. Both were extensively drained and 
modified for grazing uses, and require large-scale actions to restore 
their many important ecosystem functions. Of particular importance is 
the restoration of their hydrology, which has far-reaching influences 
on both the marshes themselves and flows in the downstream river 
systems. They also both perform important functions for the river 
systems upstream, exerting profound geomorphological influences on the 
river channels and providing important habitat for large, migratory 
fish like Redband trout and the threatened bull trout. The many 
ecological benefits realized by restoring these unique wetlands are too 
numerous to list here. Suffice it to say that in these critical areas 
the restoration efforts already underway, which are greatly limited by 
funding, need to be redoubled.

Forests need to be re-structured.
    Many decades of industrial forestry have radically altered the 
forests in the Basin. Forests, which once were structurally complex 
with trees of diverse species and ages, have been transformed into 
young stands with low species diversity. These simple forest types now 
dominate the landscape, which profoundly affects many things. Mature 
forest stands are rare and occur in isolated patches, and animals 
relying on them have suffered steep declines. Mule deer herds are at 
all time lows, due in large part to the poor habitat provided by these 
simplified forests. Road networks are amazingly dense, a legacy of 
intensive harvest activities. Hydrological functions of the forest 
lands have been altered in complex ways not fully understood, but which 
likely affect the timing and magnitude of spring runoff and influence 
the perennial nature of many small streams. We need to embark on a 
long-term approach to restore complex forest types across the landscape 
through careful, selective harvest and other innovative forestry 
practices.

Agricultural research and enhancement.
    Agricultural lands occupy large portions of our most sensitive 
landscapes--floodplains and historic wetlands. As such they represent 
crucial components of our present-day ecosystems. It is very important 
that farmers and ranchers be supported by significant research into 
appropriate topics like water conveyance and application efficiencies, 
innovative crop selection and marketing strategies, and innovative 
grazing strategies. Much of the ecosystem restoration we all need must 
happen on private lands, and we believe the best way to make it happen 
is to help agriculture to prosper. Marginal operations cannot afford to 
be interested in restoration--prosperous operations can. Solid research 
can point the way to more profitable agricultural strategies. However, 
applying the results of such research will likely involve 
infrastructure changes with which financial assistance will be needed. 
It is imperative that changes to agricultural operations be facilitated 
in ways that make operational changes and ecosystem restoration both 
desirable and profitable for producers.
                                 ______
                                 
      Solving Over-Appropriation Problems is Part of the Solution
Basin goals must include developing a sustainable agricultural 
        component of the Klamath Basin economy.
    * We do not have that now. Now it is fragile, dependent on regular 
government relief, and entangled in constant conflict with its 
neighbors.
Some farmers try to describe (and demand of public officials) an ideal 
        that has never existed, i.e., uninterrupted water supply at 
        current demand levels.
    * In fact, even the farmers do not really believe it is possible.
    Project Irrigators (below Upper Klamath Lake) in Kandra v. U.S. 
demand that the United States and the State of Oregon reduce Upper 
Basin (above Upper Klamath Lake) irrigators' water use.
    Upper Basin irrigators in the Klamath Basin Adjudication challenge 
the validity of Project Irrigators' water rights and water use. And 
vice versa Project Irrigators challenge the validity of Upper Basin 
users' uses and rights.
It is unlikely that the congressional delegations can do the right 
        thing on this issue.
    * Politically no elected official from Oregon feels safe in being 
the first to say the real problem is over-commitment of limited 
resources.
    * But if the Administration puts the issue on the table, elected 
officials and all other interests will have to respond. Everyone is 
learning that what's being asked of them by the farmers is (a) 
impossible to deliver and (b) not really believed by the farmers 
themselves, i.e., each farming interest asks for its water to by 
guaranteed while asserting that other farmers should be cut off. The 
delegations know the status quo is unsustainable; they need to respond 
to Administration leadership on the issue.
Demand reduction concepts should look Basin-wide, not just at the 
        Project. There is more bang for the buck the farther up the 
        watershed one looks.
    * Water quality and temperature improvements higher in the system 
have more far- reaching beneficial effects.
    * Water savings higher in the system provide more management 
options over a larger territory than similar savings lower in the 
system.
                                 ______
                                 
Returning Tribal Lands Now in Federal Ownership and Control is Part of 
                              the Solution

    The Klamath Tribes managed the territory of their homeland on a 
sustainable basis for thousands of years. We continue to have 
significant property rights in the form of hunting, fishing and 
gathering rights and the water rights to support these activities on 
the former reservation. As a result we have, over the past thirty 
years, been involved in and gathered significant information about the 
management of these lands and the related wildlife and water needs. We 
are intimately familiar with what the land needs in order to restore 
the stability of the natural systems on which the Basin economies 
depend.
    Solutions to Basin ecosystem and economic problems should include 
the return to Tribal ownership of approximately 690,000 acres of 
certain lands now owned and managed by the federal government. The 
following points should be kept in mind when considering this aspect of 
resolving the current situation in the Klamath Basin.
    <bullet> The Tribes are the only government in the Basin that can 
provide a long-term commitment to the management of these lands 
consistent with an articulated set of management principles that will 
NOT be subject to amendment by a successor administration. This is one 
way to guarantee that these lands will be managed over the long term 
consistent with watershed rehabilitation and restoration of watershed 
capability.
    <bullet> The Tribes have a vision and proposal for how to 
accomplish the restoration of the lands, the watershed, and the 
wildlife habitat for generations to come.
    <bullet> A restored watershed will return appropriate hydrologic 
functions to the Basin.
    <bullet> Restoration of riparian areas will improve water quality 
and fish habitat, increase base flows, make flood plain agriculture 
more productive, and improve lake and river conditions far downstream.
    <bullet> Returning out of Basin diversions that once naturally 
flowed into the Klamath watershed would add 30 to 40 thousand acre-feet 
to the system.
    <bullet> Using more efficient irrigation methods would reduce 
substantial losses to the system.
    <bullet> Enforcement measures should be mandated to protect 
legitimate water users. Currently there is little or no enforcement 
against illegal use.
    <bullet> Major forest management changes are necessary to enhance 
the damaged watershed.
    <bullet> Substantial reduction of both natural and artificial 
pollutants would greatly improve water quality.
    <bullet> A serious reduction in out of stream demand above Klamath 
Lake would greatly enhance the entire system.
    <bullet> Ground water augmentation is feasible only to the extent 
that it is based on sound hydrological data and does not impair the 
surface water supply.
    <bullet> The Tribes can commit to the delivery of the harvest of 
timber to the local economy, thereby securing to the Basin economy a 
reliable and sustainable economic base for that sector.
    <bullet> The lands were taken from the Tribes as a result of the 
disastrously flawed and now discredited federal policy of Termination, 
which the Tribes resisted unsuccessfully. Therefore the honor of the US 
is manifest in the extent to which serious consideration is given to 
return of the Tribes' homeland.
    <bullet> The Tribes' stability depends on our ability to obtain a 
sustainable livelihood in the Basin. This, in turn, depends on our 
having a land base whose management is keyed to tribal values and long-
term sustainability rather than to shifting federal priorities.

    ** Establishment of a subsistence base for the Tribes. We know 
from the past that this land is capable of providing for the needs of 
our people. The Tribes have a 100-year restoration plan to heal the 
land, ``When we heal the land, we also heal the people''.
    ** Restore our full Tribal identity. ``Our culture is strongly 
linked to the land. It is impossible to talk about one without the 
other.''
    ** Provide employment and income opportunities for tribal members. 
``We will protect our resource while generating a sound economy and 
commerce. Most important is not to take more than the land can 
endure.''
    ** Protect and preserve our spiritual sites and cultural 
resources. ``Our people have been on this land from the beginning of 
time, the spirit of our ancestors walk this land to this day.''
    ** The stability and economic well being of the Tribes is 
beneficial for the entire community.
                                 ______
                                 
                   HISTORY, BACKGROUND AND STATISTICS

    Klamath County, Oregon contains 6151 square miles on the California 
border in south central Oregon. The county is located between the 
foothills of the Cascade Range and the Great Basin desert. Klamath 
County comprises approximately one-third of the area drained by the 
254-mile long Klamath River, which empties into the Pacific Ocean. The 
larger region known as the Klamath Basin, covers more than 10 million 
acres including most of Klamath County, Oregon and portions of three 
other Oregon counties and five counties in California.
    This region once contained some 350,000 acres of lakes, freshwater 
marshes, wet meadows, and seasonally flooded basins. Salmon once 
traveled the length of the Klamath River into the Klamath Lake and its 
tributaries, the Wood, Williamson, and the Sprague Rivers. Lakes and 
streams in the upper basin also contained great populations of C'wam 
and Qupto. These fish provided a major food source for the Klamath 
Tribes. Early white explorers to the Klamath Basin were astounded by 
the great concentrations of ducks, gees, swans, pelicans and other 
birds. Early trappers in the area harvested beaver, otter and other 
fur-bearing animals here.
    Historically, the Klamath, Modoc and Yahooskin Band of the Snake 
Indians lived in the major portion of the upper Klamath Basin as 
separate Tribes. Today the three Tribes are recognized collectively as 
The Klamath Tribes. Other Tribes residing in the lower portion of the 
Klamath Basin include the Hoopa, Karuk, and Yurok.
    Damming and diversions of rivers, and draining of wetlands in the 
upper river basin have taken a large toll on the region's ecology and 
wildlife. Over 75 percent of the Klamath Basin's wetlands have been 
drained and converted to agriculture. Over logging and other factors 
have also impacted the area's ecology dramatically, significantly 
altering the hydrology and degrading the water quality. The C'wam and 
Qupto are now listed as endangered species, and the Coho salmon are a 
threatened species.
    In the Treaty of 1864 the United States government on behalf of the 
American people guaranteed the continuance of The Klamath Tribes' pre-
existing right to hunt, fish, gather and trap on the Tribes' 
reservation, along with sufficient water to protect the resources 
necessary to these activities. The Tribes in turn ceded in excess of 20 
million acres of surrounding lands. These mutual promises are still in 
force today.
    In 1905 the United States government authorized the Bureau of 
Reclamation's Klamath Project without regard to water that was 
guaranteed to the Tribes in 1864. Later the United States government 
allowed the State of Oregon to issue certificates for the same water on 
the Oregon side of the basin, again without regard to the Tribes pre-
existing rights. Later the U.S. Park service and the USFWF were allowed 
to claim the same water. As a result, there is a drastic over 
allocation of the existing water supply.
    The statistical background of the local community offers important 
insights into the current situation and possible solutions.
    <bullet> The population of Klamath County has increased 26 percent 
from 1970 to 63,185 people in1997. The most significant change is that 
both the number and percent of Klamath County residents 65 years old 
and older have doubled during that same time period.
    <bullet> Nearly two-thirds of the growth in personal income over 
the last 28 years has come from non-labor sources: dividends, interest, 
rent, and transfer payments (such as retirement and medical benefits).
    <bullet> Services surpassed manufacturing and government as the 
largest source of earnings in the early 1990s. Health services comprise 
about half of total service income.
    <bullet> Income from farming declined 93 percent (in real terms) 
between 1969 and 1997 and represents two-tenths of one percent of total 
personal income. Agricultural services accounted for six-tenths of one 
percent of income in 1997, a decrease since 1969.
    <bullet> Total employment in Klamath County has increased 44 
percent since 1969 to 32,065. The largest gain was an 82 percent 
increase in the number of people who own their own business. Farm 
employment declined one percent since 1969.
    <bullet> Income from state and local government jobs has increased 
98 percent since 1969 to $106 million. State and local government now 
represent nearly three-fourths of government sector income.

Source: US Department of Commerce. 1999. Regional Economic Information 
        System (REIS) 1969-1997
                                 ______
                                 
    Mr. Pombo. Mr. Fletcher.

                   STATEMENT OF TROY FLETCHER

    Mr. Fletcher. Thank you, Mr. Chairman and Congressmen. My 
name is Troy Fletcher. I'm a member and Executive Director of 
the Yurok Tribe. The Yurok Reservation is located at the mouth 
of the Klamath River and extends 44 miles upstream. Whatever 
happens in the Klamath Basin, whether it's on the Trinity, the 
Shasta, the Scott or in the Upper Klamath Basin, is of direct 
interest to the Yurok Tribe. The Klamath Basin is a big basin. 
It's 10,000 square miles, plus, and we have a large interest in 
anything that happens, specifically directed toward fishery 
interests.
    I'd like to start by making a few points that briefly 
summarize my written testimony. First off, I want to underscore 
and stress the willingness, the desire of the Yurok Tribe to 
continue to work toward resolution of the issues in the Basin. 
These are difficult, large issues that will require the 
dedication and the participation of a number of different 
interests. For any of this to be productive--any of the 
discussions to be productive, for any of the resolutions to be 
meaningful, there needs to be an acknowledgment that our 
interests are legitimate as well as the interests of others, 
and we acknowledge the legitimate interests of all the parties 
in the Basin that are dealing with this tough issue.
    We understand what the constituents in the Klamath Project 
are going through. The Yurok Tribe, as the Klamath Tribe has 
mentioned, Chairman Allen mentioned, has been going through the 
same thing for decades. It's an ongoing impact. Our fishery 
resources have declined from, not only historic levels, but 
even the levels that were there over the past few decades. 
We're not only interested in Coho flows in the river, from our 
perspective, it needs to not only focus on Coho salmon. There 
are other issues out there.
    When it comes to the discussion on ESA and the reform of 
ESA, I'd like to stress, as Chairman Allen also stressed, that 
there's Tribal trust issues right behind that. A lot of the 
discussion that occurred this year, of course, was focused on 
the Coho salmon or the endangered species in the lake, but 
those other species also are part of the equation. They are 
part of our discussions that we've had with the Department of 
Interior, the National Fishery Service and others, and they've 
been part of our ongoing concern.
    I'd like to say a few words about the science. There was a 
lot of discussion here about science. There's a lot of debate 
about whose science is better than the other person's science. 
And I too agree that if we're going to stress peer review, as 
we should, then I believe sincerely that all parties need to be 
at the table. There needs to be open, candid, frank, lively 
debate over the science that goes into our decision making 
processes, but it's got to go two ways.
    And I do have to make a few comments on some of the 
comments Mr. Vogel made earlier. I've been a member of the 
Klamath River Task Force, or was a member of the Klamath River 
Task Force up until last year. The Klamath River Task Force 
started looking at these flow issues in '96 and '97. At that 
time the Task Force Commission was scoping to look at the in-
stream flow issues in the Klamath Basin, and we stressed the 
need to have a number of parties--all parties participate in 
that discussion, even parties who weren't members to the Task 
Force, like the groups on the Shasta and the Scott River, 
attended those scoping meetings. Those scoping meetings were 
the beginnings of the Hardy, phase two and phase one, flow 
studies.
    I, personally--and it's in the minutes of the Klamath Task 
Force--have asked that the Klamath County representative and 
their technical work group person, who happens to be Mr. 
Vogel's partner, attend those meetings. We've stressed the need 
at the technical work group for everybody to attend those 
meetings. For financial or other considerations, that 
participation wasn't there, and it was sorely needed, and now I 
think you're seeing the result of a lack of participation.
    There's questions being raised, there's issues that are 
thrown out, there's criticisms of the science that we do have. 
Some of that criticism, some of those issues I think could have 
been addressed if people would fully participate to the best of 
their abilities. And they should be there. They have to be 
there. If they're not there then we're not going to have any 
reasonable solutions, as I said earlier, so we're open to that 
and we think it should happen.
    I would also like to add that because of the breadth of the 
scientific issues, they're not easy issues. There are times of 
year, there are differences of opinion in the amounts of flow, 
and there are all kinds of issues on the table. I think it 
would be good to convene a several day workshop, a several day 
forum, to fully go through the issues that are under debate in 
the scientific realm. I think that would benefit everybody. It 
would be good to see some of you there, and let's all get a 
good understanding of what we're each talking about when we're 
talking about science. After all, usually the proof in science 
boils down to a courtroom, and we need to try to avoid that. 
Let's try to get on the same page.
    When it comes to solutions for the basin, we too believe 
that there's just too much demand for the limited amount 
supplied. We believe and we know that fish, the salmon species, 
need more water. We also, though, hear what the Klamath Project 
users are saying, and we agree that it's not fair to single out 
the Klamath Project. The irrigators that are above the lake 
need to be held accountable. The States of Oregon and 
California need to be accountable. Irrigators in the Shasta and 
the Scott River need to be accountable. This is going to be a 
Basin wide issue. It's going to require Basin-wide solutions 
and resolutions, and it's not fair to focus in on one group. We 
fully think that that's a fair criticism. With that, thank you 
for this opportunity.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Fletcher follows:]

      STATEMENT OF TROY FLETCHER, EXECUTIVE DIRECTOR, YUROK TRIBE

    Thank you for the opportunity to appear before you today to provide 
the perspective of the Yurok Tribe on the problems of water scarcity in 
the Klamath Basin. I am the Executive Director of the Yurok Tribe, the 
largest Indian tribe in California, with a population of approximately 
4,000. We appreciate your interest in finding acceptable and permanent 
solutions to the water crisis facing the Klamath Basin.
    It is an unfortunate fact that today there is insufficient water 
available in the Klamath Basin to satisfy the demands of irrigators, 
tribes, and wildlife refuges. The Yurok Tribe feels the effect of these 
shortages in an especially acute way. Our reservation is bisected by 
the last 45 miles of the Klamath River as it makes its way to the 
Pacific Ocean. Our people and our culture are tied to the Klamath River 
in ways that are sometimes difficult for outsiders to understand. We 
rely on the River for the anadromous fish it supplies for our food, for 
the spiritual meaning that comes from ceremonies based on the River, 
and for the ultimate cultural significance as Yurok people. As one of 
our elders put it, the Klamath River is our identity as Yurok people. 
This has been true since time immemorial.
    The United States created our reservation in 1855 so that our 
people would have a permanent place to practice a culture centered on 
the Klamath River. We see that as a promise made to us that the United 
States must honor today. This fact has led the Department of the 
Interior, and many federal and state courts to conclude that we have 
fishing rights that are protected by federal law. And, because a 
fishing right without water would be largely meaningless, we also have 
a right to adequate amounts of water to satisfy our fishing needs. 
Although our water right has not been formally quantified by the 
courts, law and morality require that federal agencies, such as the 
Bureau of Reclamation, must operate their projects in ways that respect 
our water and fishing rights.
    The federal government has undertaken a trust responsibility for 
the lands and resources of Indian tribes. The courts have ruled time 
and again that the Bureau of Reclamation has a legally-enforceable 
trust obligation to satisfy the fishing and water rights of the tribes 
in the Klamath Basin, including the Yurok Tribe. We believe as well 
that as a legal matter the tribes in the Klamath Basin should have the 
first priority to scarce supplies of water.
    We continue to be frustrated by the failure to resolve the water 
problems in the Klamath Basin. In contrast to the farmers in the 
Klamath Irrigation Project, who typically have received full contract 
deliveries of water, the Yurok Tribe has rarely received sufficient 
instream flows to support the restoration and maintenance of the 
Tribe's fishery. The diversion of water by the Klamath Project for 
irrigation is one of the primary reasons for the deteriorating 
condition of our fishery. We understand that other factors contribute 
as well, but the simple fact is that salmon and other anadromous fish 
cannot survive without a natural streamflow of adequate amounts, depths 
and velocities at critical times in the spawning and rearing cycles.
    The Klamath River anadromous fishery is in deep trouble, with 
population levels at historic lows. As you know, coho salmon are listed 
as threatened under the Endangered Species Act. These actions show that 
some species of the Klamath fishery are facing extinction. Spring 
chinook and summer steelhead salmon populations are presently at levels 
that represent a small fraction of their historic abundance. Eulachon 
are nearly extirpated from the Basin, and anecdotal information shows 
that lamprey and sturgeon populations are also declining. The decline 
of our fishery has decimated our community, increasing unemployment, 
destroying the social cohesion of our reservation and degrading our 
cultural practices.
    The failure to provide adequate instream flows has harmed and 
continues to harm the Yurok Tribe. Our culture is degraded and our 
economy suffers. Without the ability to rely and subsist on our 
fishery, our people are forced to leave the reservation for employment. 
Our unemployment rate therefore is very high. The Tribe's commercial 
fishery, which operates only occasionally at minimal levels, is one of 
the few economic enterprises we have. Last year, there was a fish kill 
in the Klamath River of an estimated 100,000 to 300,000 juvenile 
steelhead, chinook and coho salmon that will undoubtedly affect the 
health of future fish runs. We need a viable, sustainable fishery to 
support our people, and to have that, we need enough water in the 
River. The impact on our people and our fishery will likely be 
especially harsh this year, because of the extremely low amounts of 
rainfall and snowpack in the Klamath Basin.
    We have spent considerable sums of the Tribe's scarce money and 
devoted enormous amounts of staff time to this problem, but we fear 
that our voice is not being heard. The Tribe's Department of Fisheries, 
the largest department of the Tribe, commits millions of dollars each 
year to fish management, habitat restoration, law enforcement, and 
fishery monitoring. Restoring the fishery is our highest priority. Yet 
each year it seems that we bear a disproportionate share of the burden 
that water shortages impose on all water users.
    We see many challenges to progress toward resolving the water 
crisis in the Klamath Basin. We appreciate the fact that there must be 
a sound biological basis for planning and water management in the 
Basin, particularly as to the water and habitat needs of salmon and 
other fish. The Yurok Tribe for many years has been engaged in 
developing that strong scientific basis. However, rather than join with 
us to develop a consensus about the biological needs of the species, 
the Klamath Project Irrigators have attacked each and every report on 
the flow needs of anadromous fish as ``advocacy science.'' Similarly, 
in the recent suit brought to overturn the BOR 2001 Annual Operations 
Plan, the biological opinion of the National Marine Fisheries Service, 
which determined the instream flows necessary to avoid jeopardy to coho 
salmon, was attacked as arbitrary and capricious. The federal judge in 
the case rejected this argument, finding that NMFS considered all of 
the available facts and reached a reasonable and supportable 
conclusion. We hear a constant refrain that our carefully designed 
studies, conducted in conjunction with experts from other agencies, are 
``junk science'' and that the needs of the fish are greatly 
exaggerated. We categorically reject this characterization. These 
unfounded attacks make cooperative efforts at long-term solutions 
difficult. This is not the place to debate the merits of these 
biological determinations, but we raise this to show our frustration 
with the failure to develop cooperative relationships to work on this 
problem. Our objective has been, and continues to be, to develop 
credible, unbiased science to use when making important decisions about 
scarce Klamath Basin water resources.
    No one involved with the water problems in the Klamath Basin 
believes that the annual operations plans of the Bureau of Reclamation 
is the best way to manage the Project. The Yurok Tribe shares that 
view, because of the chaotic nature of the decision-making process, the 
rush to consult at the eleventh hour, and the uncertainty of not 
knowing how much water will be available for our fishery. Some of these 
problems could be alleviated if the work on the long-term environmental 
impact statement were completed. We have urged completion of this 
process for years and we renew our call to finish this work. We believe 
this document could serve as the basis for a long-term operations plan 
that would avoid the unsatisfactory process we go through every year.
    We are willing to work with the tribal, state, local and federal 
governments, as well as the citizens of the Klamath Basin, to develop 
solutions that will engender support among all the interests in the 
Klamath Basin. We are concerned, however, that solutions that may be 
developed in the upper portion of the Basin are not always properly 
assessed for their impact, whether adverse or beneficial, on the 
instream flow requirements of the Yurok Tribe. From our perspective, 
the key question to ask about all of these proposals is whether they 
will result in sufficient water quality and quantity for downstream 
uses on the Yurok Reservation and surrounding area. Solutions that make 
up for deficiencies in deliveries to irrigators, but do not address the 
health of the Klamath Basin ecosystem, including appropriate Klamath 
River flows, are not real solutions to the problem. In other words, we 
believe federal agencies and Congress need to take a basin-wide view of 
the problem.
    The Yurok Tribe is committed to joining with our neighbors in the 
upper basin to find common ground and workable solutions. The Tribe is 
fully participating in the mediation in the Kandra litigation ordered 
by federal Judge Aiken. For many years, we have taken a leadership role 
in finding solutions through our participation in various restoration 
and water fora. We intend to continue those efforts. The fate of our 
tribal people depends on the success of those efforts.
    Let me outline a number of factors that we believe could help 
overcome the current obstacles to long-term solutions to the water 
crisis. First, blaming the legal requirements of the Endangered Species 
Act and the federal tribal trust obligation for the current crisis is 
not a constructive beginning point for finding common ground. The 
courts have carefully and fairly applied the law in legal challenges 
brought by the Project Irrigators, and proposals to radically change 
this legal regime are not calculated to lead to mutually acceptable 
solutions.
    Second, any solution to the water crisis must be founded on the 
principle that each stakeholder recognizes the legitimate interests of 
others in obtaining water for their needs. The Yurok Tribe recognizes 
that the Project Irrigators have legitimate needs, and we are 
sympathetic to the economic suffering they have experienced this year. 
In turn, we expect a corresponding recognition and respect for the 
Tribe's legitimate needs for adequate instream flows.
    Third, solutions must address the fact that the basin is 
overappropriated. There is complete agreement that demand outstrips 
supply in most years. Although we believe that supplies could 
potentially be increased through groundwater development and other 
measures, no solution will work in the long run unless agricultural 
demand for water is reduced.
    Finally, we believe that solutions to the current crisis must 
include both short-term and long-term measures. The planning process 
for the 2002 water year will begin soon, but we should be cognizant of 
the fact that devising a better way to allocate scarce water supplies 
on an annual basis leaves unanswered many of the important questions 
about long-term solutions. The Yurok Tribe is interested in permanent 
fishery and watershed restoration, which may take years to implement. 
These long-term measures will contribute as much to permanent solutions 
as proposals focused on the upcoming water year.
    We appreciate the opportunity to appear before you today. We would 
be pleased to answer any questions you may have.
    Thank you.
                                 ______
                                 
    Mr. Pombo. Mr. Bishop.

                STATEMENT OF FRANKLIN M. BISHOP

    Mr. Bishop. Mr. Chairman and distinguished Committee, I'm 
Franklin Bishop, President and CEO of Intermountain Federal 
Land Credit Association and Production Credit Association. I 
have served the associations as Joint-President for over 13 
years. These two farm credit institutions are part of the 
nationwide farm credit system which was established by Congress 
in 1916 to provide a dependable source of credit to farmers and 
ranchers across this great nation. We provide 800 loans for 
$180 million to 550 farmers and ranchers in the seven 
northeastern California counties in the State of Nevada.
    Intermountain Federal Land Credit Association provides 49 
loans to 35 borrowers for over seven million dollars in the 
Tulelake Basin south of the Oregon border. We make and service 
these loans from an office in Tulelake, and have local 
representation on our Board of Directors by Jim Boyd, a potato 
and grain farmer from Tulelake who has served on Intermountain 
FLCA board for 13 years.
    I am well acquainted with the agricultural and economic 
conditions impacting the Klamath and Tulelake Basins. I have 
never seen a situation in which the forces of mother nature 
have combined with the Federal Government--in this case the 
Bureau of Reclamation, the Fish and Wildlife Service, the 
National Marine Fishery Service and the Endangered Species 
Act--to create the perfect storm. Perhaps no one could see the 
economic storm clouds and ensuing devastation that has been set 
in motion by the recent drought conditions that limited water 
supplies to levels that have been artificially set by 
government agencies at elevations to ensure the survival of two 
species of fish at the peril of three or four generations of 
American family farmers.
    I am here today to testify on behalf of the farm credit 
system and the banking community as to the devastating 
financial impact that lack of water will force upon some 1,500 
farming and ranching families. Many of the farmers are already 
financially stressed due to 6 years of below break-even potato 
prices, the loss of sugar beets as a cash crop, and the low 
prices received for grains and other rotational crops. All 
lenders must evaluate each borrower's financial situation to 
determine if continued financing is possible, or what 
alternative plans and servicing actions are available to 
provide financing on a responsible and sound basis, with 
reasonable levels of risk.
    Farm Credit System Associations, such as ours, have a 
congressional mandate to provide financing on a sound basis 
through times of financial stress when many other lenders are 
no longer willing or able to take the risk associated with 
riding out the storm. I am sure that all agricultural lenders 
from this area are working to prevent a worst case scenario in 
which borrowers are unable to make loan payments because they 
had little or no farm income as a result of conditions beyond 
their control, whether natural or man-made.
    One of the tools to help avoid this worst case scenario is 
the loan guaranty program provided by the Farm Service Agency 
or FSA. Our associations have had a long and beneficial 
relationship with FSA, spanning the last 13 years. We currently 
have 60 loans for 5.7 million dollars outstanding guaranteed by 
that agency. The guaranty program provides the credit 
enhancements necessary to allow lenders to provide continued 
financing or restructuring opportunities for farmers 
experiencing financial stress. The program has been available 
to lenders for over 20 years, providing a tremendous service to 
farmers and ranchers across the Nation.
    We understand, however, that FSA may condition loan 
guarantees for restructured loans based on the Tulelake and 
Klamath Basin farmers receiving full water allocations for 
2002. Never before have the loan guarantees provided by FSA 
been conditioned in this manner. We have no information that 
tells us farmers will be unable to obtain water for the next 
year's crop. We have to assume that we will get average snow 
pack and that water will be available for farming operations 
next year. FSA's own regulations tell the agency to assume 
normal conditions when analyzing a loan. The agency cannot 
assume a drought, and so it should not assume the Federal 
Government will again withhold water from these farmers.
    FSA guarantees are critical to helping Tulelake and Klamath 
farm families and their communities survive. If lenders are 
forced to discontinue financing and initiate foreclosure 
proceedings, not only will farm families lose their homes and 
livelihoods, but land values will plummet, farm machinery and 
equipment values will be reduced to 25 cents on the dollar, and 
area businesses will be ruined. The government can help lenders 
stay with our customers by providing certainty to these farm 
families, and soon.
    Today, we do not know if the Federal Government will 
provide direct assistance. We do not know if FSA will provide 
loan guarantees. We need full cooperation and coordination from 
all government agencies. Without these, lenders will likely be 
unable to resume lending, even though water may be eventually 
restored. In the worst case scenario where water from the 
Bureau is not forthcoming next year and land owners are faced 
with selling property, there will be no interested investors to 
purchase the land, purchase the businesses or purchase the farm 
and ranch assets that will be left behind.
    Without the certainty of a return of economic stability to 
the area, how can any plans be formulated by outside parties to 
limit the destruction? Moreover, those farmers who may have 
avoided much of the financial distress in their operations to 
this point may be left without lenders, only to suffer the 
longer term consequences of financial ruin because of a 
``Cherynobl effect'' that precludes any interest in the area 
from outside businesses.
    Farmers who borrow money today may find that they have no 
borrowing capacity tomorrow. It's just that simple. This is not 
sensationalism, but rather a very realistic view of what can 
and will happen if lenders are forced to leave the community. 
Therefore, I am asking this Committee, all Congressional 
Representatives and all Federal agencies, ensure that existing 
programs be available as part of many, many tools that can be 
used to avoid disaster and restore long-term economic viability 
and stability to this vitally important agricultural community.
    Having reviewed the causes and implications of the current 
water crisis and what I believe can be done to repair the 
situation, I'd like to express an opinion on what we can do to 
prevent this problem from occurring in the future. In the 
short-term, we urge the Federal Government, in conjunction with 
local representatives of the agricultural and rural businesses 
communities, to provide temporary economic assistance to 
maintain the economic value and asset base of the community. 
This will promote harmony and sustain a sense of well-being to 
the Tulelake and Klamath communities.
    We also urge Congress to establish policies for these types 
of unanticipated emergency situations in the long-term. Changes 
to the Endangered Species Act, for example, to avoid disastrous 
impact and economic loss where conflicts of a monumental size 
and nature such as this has occurred are in order. Compensation 
for farmers and local businesses for losses sustained as a 
consequence of no water resulting from the Endangered Species 
Act, which the courts have ruled ``trump'' all other laws and 
regulations and conflict what the Act itself, warrant full 
consideration.
    Finally, all Federal agencies should be directed to 
cooperate in an effort to minimize economic and emotional 
damage to the community, while maintaining viability, not only 
in economic terms but in terms of the human spirit. Thank you 
for allowing me to testify today.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Bishop follows:]

STATEMENT OF FRANKLIN M. BISHOP, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
   INTERMOUNTAIN FEDERAL LAND BANK ASSOCIATION, FLCA, INTERMOUNTAIN 
                     PRODUCTION CREDIT ASSOCIATION

    Good Morning.
    I am Franklin M. Bishop, President and CEO of Intermountain Federal 
Land Bank Association, FLCA and Intermountain Production Credit 
Association. I have served the Associations as joint President for over 
13 years. These two Farm Credit institutions are part of the nationwide 
Farm Credit System which was established by Congress in 1916 to provide 
a dependable source of long-term credit to farmers and ranchers.
    Under the Farm Credit Act of 1971, as amended, the Farm Credit 
System provides $85 billion dollars of loans to farmers and ranchers, 
agricultural cooperatives, farm-related businesses, marketing and 
processing facilities, and part-time farmers, as well as young, 
beginning, small, and minority farmers and ranchers. For 85 years the 
Farm Credit System has been mandated by Congress and the Farm Credit 
System regulator, the Farm Credit Administration, to serve the short-, 
intermediate-, and long-term needs of American farmers and their 
cooperatives. The Farm Credit System accesses its funding through a 
fiscal agent in New York by selling bonds on the New York money markets 
through a series of brokerages. It enjoys the highest levels of 
confidence by private, institutional, and the investing public.
    The Farm Credit System is privately owned by its borrowers who are 
required to own stock in the Farm Credit Institutions from which they 
borrow to provide capitalization and participate in governance at the 
local level. The Farm Credit System is a government sponsored 
enterprise, serving a critically unique public policy role by providing 
financing to America's farmers and ranchers at competitive interest 
rates during good and bad times alike.
    The Intermountain Farm Credit Associations provide nearly 800 loans 
for $180 million to 550 farmers and ranchers in the seven northeastern 
California counties and the state of Nevada. The Intermountain Federal 
Land Credit Association provides 49 loans to 35 borrowers for $7.2 
million in the Tulelake Basin south of the California/Oregon border. We 
make and service these loans from an office in Tulelake, California, 
and have local representation on our Board of Directors by Jim Boyd, a 
potato and grain farmer from Tulelake who has served on the 
Intermountain FLCA Board for 14 years.
    I have worked in the Farm Credit System for over 26 years in 
various capacities as a credit analyst, loan officer, field 
representative, branch manager, regional supervisor, appraiser, vice 
president of review and audit, senior vice president of credit, and 
president-CEO and co-CEO of Intermountain FLCA and PCA headquartered in 
Reno, Nevada, and Ag Credit of California FLCA and PCA, located in 
Stockton, California.
    I am well acquainted with the agricultural and economic conditions 
impacting the Klamath and Tulelake Basins. I have never seen a 
situation in which the forces of Mother Nature have combined with the 
Federal Government, in this case, the Bureau of Reclamation, the Fish 
and Wildlife Service, the National Marine Fisheries Service, and the 
Endangered Species Act to create the ``Perfect Storm''.
    Perhaps no one could see the economic storm clouds and ensuing 
devastation that has been set in motion by the recent drought 
conditions that limited water supplies to levels that have been 
artificially set by government agencies at elevations to ensure the 
survival of two species of fish at the peril of two or three 
generations of American family farmers.
    The loss of approximately 210,000 acres of irrigated field and row 
crop farm ground caused by the decision to ``shut-off'' water from the 
Bureau of Reclamation to the Tulelake Irrigation District will result 
in an economic calamity and financial ruin to farmers, ranchers, farm-
related businesses, community services, merchants, and many area 
businesses that rely on the income generated from this highly 
productive farming community to sustain their businesses.
    There will be plenty of testimony as to the economic impacts at the 
local, county and state levels here today, so I will not direct my 
comments to that particular subject. I am here today to testify on 
behalf of the Farm Credit System and the banking community as to the 
devastating financial impact that lack of water will force upon 
approximately 1,500 farming and ranching families.
    Many of the farmers are already financially stressed due to six 
years of below breakeven potato prices, the loss of sugar beets as a 
cash crop, and the low prices received for grains and other rotational 
crops. All lenders must evaluate each borrowers financial situation to 
determine if continued financing is possible or what alternative plans 
and servicing actions are available to provide financing on a 
responsible and sound basis with reasonable levels of risk.
    Farm Credit System Associations such as ours have a Congressional 
mandate to provide financing on a sound basis through times of 
financial stress when many other lenders are no longer willing or able 
to take the risk associated with ``riding out the storm''. I am sure 
that all agricultural lenders from this area are working to prevent a 
``worst case'' scenario in which borrowers are unable to make loan 
payments because they had little or no farm income as a result of 
conditions beyond their control--whether natural or manmade.
    One of the tools to help avoid this worst case scenario is the loan 
guarantee program provided by the Farm Service Agency (FSA). Our 
Associations have had a long and beneficial relationship with FSA 
spanning the last thirteen years. We currently have 60 loans for $5.7 
million outstanding guaranteed by FSA. The FSA loan guarantee program 
provides the credit enhancements necessary to allow lenders to provide 
continued financing or restructuring opportunities for farmers 
experiencing financial stress. The guarantee program has been available 
to lenders for twenty years, providing a tremendous service to farmers 
and ranchers across the nation.
    We understand, however, that FSA may condition loan guarantees for 
restructured loans based on the Tulelake and Klamath Basin farmers 
receiving full water allocations for 2002. Never before have the loan 
guarantees provided by FSA been conditioned in this manner. We have no 
information that tells us our farmers will be unable to obtain water 
for the 2002 crop year. We have to assume that we will get average 
rainfall and that water will be available for farming operations next 
year. FSA's own regulations tell the agency to assume ``normal'' 
conditions when analyzing a loan. The agency cannot assume a drought, 
and so it should not assume that the federal government will again 
withhold water from these farmers.
    FSA guarantees are critical to helping Tulelake and Klamath farm 
families and their communities survive. We hope that Congress will 
encourage all government agencies to cooperate in an effort to bring 
about the needed loan restructures that can prevent widespread economic 
disaster. Lenders and farmers alike need this guarantee program now to 
ensure that they have every chance to develop plans for dealing with 
this tragic situation over which they have had little to say.
    If lenders are forced to discontinue financing and initiate 
foreclosure proceedings, not only will farm families lose their homes 
and livelihoods, but land values will plummet, farm machinery and 
equipment values will be reduced to 25 cents on the dollar, and area 
businesses will be ruined. The government can help lenders stay with 
our customers by providing certainty to these farm families soon. 
Today, we do not know if the federal government will provide direct 
assistance. We do not know if FSA will provide loan guarantees. We need 
full cooperation and coordination from all government agencies. Without 
these, lenders likely will be unable to resume lending even though 
water may eventually be restored. In the worst case scenario where 
water from the Bureau is not forthcoming in 2002, and land owners are 
faced with selling property, there will be no interested investors to 
purchase the land, purchase the businesses, or purchase the farm and 
ranch assets that will be left behind.
    Without the certainty of a return of economic stability to the 
area, how can any plans be formulated by outside parties to limit the 
destruction? Moreover, those farmers who may have avoided much of the 
financial distress in their operations to this point, may be left 
without lenders, only to suffer the longer term consequences of 
financial ruin because of a ``Chernobyl effect'' that precludes any 
interest in the area from outside businesses.
    Farmers who borrow money today may find that they have no borrowing 
capacity tomorrow. It's that simple. This is not sensationalism, but 
rather a very realistic view of what can and will happen if lenders are 
forced to leave the community.
    Therefore, I am asking that this committee, all congressional 
representatives, and all federal agencies ensure that existing programs 
be available as part of many, many tools that can be used to avoid 
disaster and restore long-term economic viability and stability to this 
vitally important agricultural community.
    Having reviewed the causes and implications of the current water 
crisis, and what I believe can be done to repair the situation, I'd 
like to express an opinion on what we can do to prevent this problem 
from occurring in the future. In the short-term, we urge the federal 
government, in conjunction with local representatives of the 
agricultural and rural business communities, to provide temporary 
economic assistance to maintain the economic value and asset base of 
the community. This will promote harmony and sustain the sense of well-
being to the Tulelake and Klamath communities.
    We also urge Congress to establish policies for these types of 
unanticipated emergency situations in the long-term. Changes to the 
Endangered Species Act, for example, to avoid the disastrous impact and 
economic loss where conflicts of a monumental size and nature such as 
this has occurred are in order. Compensation for farmers and local 
businesses for losses sustained as a consequence of no water resulting 
from the Endangered Species Act which the courts have ruled ``trump'' 
all other laws and regulations in conflict with the Act itself, warrant 
full consideration. Finally, all federal agencies should be directed to 
cooperate in an effort to minimize economic and emotional damage to the 
community, while maintaining viability, not only in economic terms, but 
in terms of the human spirit.
    Thank you for allowing me to testify today.
                                 ______
                                 
    Mr. Pombo. Mr. Kerr.

                     STATEMENT OF ANDY KERR

    Mr. Kerr. I am here today to suggest a different course 
than the one of endless litigation and listings of endangered 
species. Instead, I offer a proposal that was developed by 
conservation and farming interests in the Klamath Basin. This 
joint proposal balances farming and conservation. Specifically, 
it would, 1) acquire land or interest in water from willing 
sellers for fish and wildlife purposes or for the establishment 
of replacement lease land so commercial farming can end on the 
national wildlife refuges. 2) it would provide for the 
acquisition from willing sellers to re-reclaim the lakes, 
wetlands and streams for natural water storage and cleansing. 
The third point is that it would ensure the Federal funding of 
local governmental units as maintained. And fourth, it would 
provide for economic transition assistance grants for local 
governmental units.
    It is proposed that in addition to the payment of fair 
market value for the land, that a transition payment also be 
made, both of which would total $4,000 per acre. To put this in 
perspective, before the water was cut off in this severe 
drought year by a combination of an act of God and an act of 
Congress, such lands were worth perhaps $2,500 per acre. Prices 
have plummeted since then; $4,000 an acre is 60 percent above 
the former market value. Precedent exists for such 
compensation. The Federal Government has bought down commercial 
fishing fleets. It is considering paying tobacco farmers to get 
out of tobacco farming.
    The benefits to the remaining farmers in the basin of this 
joint proposal would be immense. With the reduction of water 
demand by reducing the amount of irrigated agriculture and the 
concurrent increase of natural storage by the re-reclamation of 
reclaimed and abused lands, irrigated water supplies will be 
much more reliable, perhaps even enough to cope with a severe 
drought.
    Conservationists negotiated this proposal with local land 
owners, most with roots that go back generations. They are 
ready to sell their lands to the Federal Government, if for no 
other reason than that there is no other buyer. Of course, 
$4,000 an acre is not enough to compensate for the loss of a 
lifestyle. However, it is enough for most to get clear of the 
bank and have something left for retirement or for the kids' 
college fund. This $4,000 per acre figure can be justified to 
the taxpayers as a saving over the current system of farm 
subsidies for these lands. Most importantly, it is the right 
thing to do.
    Many land owners would have sold out years ago, before the 
water was cut off this year, had there been a market. Some are 
old, others are tired of losing money, others are tired of the 
uncertainty of farming. I'm sorry to have to note that these 
willing sellers have been verbally abused and threatened for 
their stance by some of their neighbors. One would have thought 
that one of the most basic property rights is the right to sell 
it.
    This joint proposal is ecologically rational, economically 
efficient, fiscally prudent, it is socially just, and it is 
politically pragmatic. The conservation community would use all 
of its powers of persuasion and political influence to see this 
proposal or something like it enacted into law. There is only 
one specter on the horizon that could diminish our capacity to 
work for this joint proposal. It is if the conservation 
community instead has to use its resources to yet again defeat 
another attack on the Endangered Species Act. If that happens, 
our ability to advocate for such a just proposal will be 
diminished.
    The Klamath Basin is the Everglades of the West. The 
Federal and State governments have committed tens of billions 
of dollars to restore the Everglades. It can find a billion for 
the Klamath River Basin. We are not such a poor nation that we 
must destroy species and ecosystems, nor are we rich enough 
that we can afford to. We are a rich enough nation to fairly 
compensate those who are adversely affected by changes in 
government policies pertaining to Native American tribal 
rights, the conservation of fish and wildlife, and the 
globalization of trade. Thank you for the opportunity to 
testify.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Kerr follows:]

  STATEMENT OF ANDY KERR, SENIOR COUNSELOR, OREGON NATURAL RESOURCES 
                                COUNCIL

    My name is Andy Kerr. I am Senior Counselor to the Oregon Natural 
Resources Council. ONRC has been involved in conservation issues in the 
Klamath River Basin for a quarter century. I have been involved as 
long, serving as a field representative, conservation director, 
executive director and now senior counselor.
    I won't talk today about the causes of the water crisis, other than 
to quote Oregon Governor John Kitzhaber:
    LThe current water crisis in the Klamath Basin has been 150 years 
in the making and serves as a reminder to us all that we are stretching 
our natural resources beyond their limits. Even in a normal year, the 
water in the Klamath Basin cannot meet the current, and growing, 
demands for tribal, agricultural, industrial, municipal and fish and 
wildlife needs.
    Agriculture was in trouble long before the combination of record 
drought and the Endangered Species Act came into play.
    Implementation of the government's official biological opinions--on 
Klamath Project operations and their affect on the federally listed 
coho salmon, bald eagle, and two species of mullet--are projected to 
result in water conflicts between agriculture and endangered species, 
an average of six years out of ten. Not all years will be this bad with 
had a snowpack less than one-quarter of average.
    These biological opinions detail the minimum amount of water 
necessary in the lake and the river to prevent the extinction of these 
species. They do not specify the water levels and flows--and the water 
quality--necessary to recover the species so the protections of the 
Endangered Species Act are no longer necessary, let alone the level to 
return salmon and mullet to healthy harvestable surpluses.
The State of Klamath Basin Agriculture
    I do want to touch on the causes of the farm crisis in the Klamath 
Basin. First, it's marginal as farmland. It's at 4,000-feet elevation 
where frosts stay late and come early. Second, it's heavily subsidized 
farming, more so than most other farmlands in this nation. Besides the 
plethora of farm subsidy programs, both deliveries of the water and the 
electricity to pump it are heavily subsidized by taxpayers and 
ratepayers.
    Currently project farmers are paying 0.6 cent/kilowatt hour. I'm 
currently paying ten times that at my home and anticipate a rise in 
October of around 50%. When the contract for electricity expires in 
2006, project farmers electricity costs will increase by a factor of 
ten to thirty.
    The North American Free Trade Agreement, the General Agreement on 
Tariffs and Trade and the World Trade Association have caused more 
damage to Klamath Basin agriculture than the Endangered Species Act 
ever could. Farming is in decline in the basin due to market 
conditions--not a shortage of water, whether due to drought or the 
Endangered Species Act. Processing plants for sugar beets and 
horseradish have closed. Canadian potatoes, Chinese onions, and Mexican 
sugar are flooding into this country. With Congress poised to approve 
the Free Trade Agreement for the Americas, it will be NAFTA times two. 
The globalization of trade may be beneficial to the nation's economy as 
a whole, but it has been mostly disastrous to farming in the Klamath 
Basin.
    As it has been practiced in the Klamath Basin, farming is not 
economically, let alone environmentally sustainable. Nationally, 48% of 
farm income is coming from the federal taxpayers. Locally, potatoes are 
being raised more for the government subsidies than the market. Klamath 
Basin farming is in trouble; but in reality, the Endangered Species Act 
(ESA) is the least of their problems.
The Wrong Path: Attacking the Endangered Species Act
    Attacking the Endangered Species Act is a poor strategy for the 
``give-me-water-or-give-me-death'' crowd. First, as noted previously, 
it would be more on target to attack the North American Free Trade 
Agreement.
    Second, seeking to invoke the Endangered Species Committee (the so-
called ``God Squad'') is a bad idea. I was involved in the last time 
the God Squad was invoked by George Bush the elder. It did not work out 
well for either the timber industry or the Administration. In that 
case, large amounts of old-growth logging profits were involved. In 
this case, any ``profits'' are derived only from the result of massive 
federal subsidies. In that case, it was ``timber jobs versus the 
spotted owl.'' In this case, the political debate will be framed as 
subsidized federal farmers raising crops at a price above market value, 
versus commercial fishers, Native Americans, endangered Pacific salmon, 
and the nation's national bird, the bald eagle. To win an exemption 
from the Endangered Species Act, the God Squad would have to find that 
the harmful activity economically imperative and no alternatives exist. 
Our attorneys are salivating at the prospect of the invoking the God 
Squad in this case.
    Third, the God Squad cannot override tribal rights, the Clean Water 
Act, the National Environmental Policy Act or other federal law.
    Fourth, it would be a futile political effort to gut the Endangered 
Species Act. It has been tried numerous times by opponents with a much 
better set of legal and political facts than in this case. 
Unfortunately, each time controversy arises about enforcement of the 
Endangered Species Act; aggrieved parties always fancy themselves as 
the ones who will be the ``poster children'' that succeed in gutting 
the ESA. It has not yet worked.
    Fourth, attacking the underlying science supporting the biological 
opinions of the federal fish and wildlife agencies is probably flawed 
strategy as well. Every Secretary of the Interior that I've known since 
the Ford Administration has tried to substitute politics for science. 
The ESA is crystal clear on that point. The Secretary must follow the 
law by following the science. This is not a case is not bad science, 
but of science taken badly.
    Even assuming that farm prices are going to increase soon and that 
magically the ESA was no longer an issue--exercises in irrational 
exuberance--, the environmental issues of the basin do not go away. 
Poor farming and other management practices have resulted in not only a 
severe lack of water quantity for fish and wildlife, but atrocious 
quality. In the late summer, the pH in parts of Upper Klamath Lake can 
be comparable to that of dishwashing detergent. The water that returns 
to the Klamath River is high in nitrogen and phospherous carried in 
from fields ladened with pesticides. The need for enforcement of state 
water quality rules under the federal Clean Water Act is undeniable.
The Right Path: Just Compensation
    Having said this, I am here today to suggest a difference course 
than the one of endless litigation and listings. Instead I offer a 
proposal that was developed by conservation and farming interests in 
the Klamath Basin. This joint-proposal balances farming and 
conservation (see A Voluntary Demand Reduction and Resource Enhancement 
Program for the USBR Klamath Project, attached). Specifically it would:
    1. Acquire lands or interests in water from willing sellers for 
fish and wildlife purposes, or for the establishment of replacement 
lease lands, so commercial farming can end on the national wildlife 
refuges.
    2. Provide for the acquisition from willing sellers to re-reclaim 
lake, wetlands and streams for natural water storage and cleansing.
    3. Ensure that federal funding of local governmental units is 
maintained.
    4. Provide for economic transition assistance grants for local 
governmental units.
    It is proposed--in addition to the payment of fair market value for 
the land'that a transition payment also be made, both of which would 
total $4,000/acre. To put this in perspective, before the water was cut 
off in this severe drought year by a combination of an Act of God and 
an Act of Congress, such lands were worth perhaps $2,500/acre. Prices 
have plummeted since then. $4,000/acre is 60% above the former market 
value.
    Precedent for such compensation exists. The federal government has 
bought down commercial fishing fleets. It is considering paying tobacco 
farmers to get out of tobacco farming.
    The benefits to remaining farmers of this joint proposal would be 
immense. With the reduction of water demand by reducing the amount of 
irrigated agriculture and the concurrent increase of natural storage by 
the re-reclamation of reclaimed and abused lands, irrigated water 
supplies will be much more reliable than today--perhaps even enough to 
cope with a severe drought year like this one.
    Conservationists negotiated this proposal will local landowners; 
most with roots that go back generations. They are ready to sell their 
lands to the federal government; there is no other buyer).
    Of course, $4,000/acre is not enough to compensate for the loss of 
a lifestyle. However, it is enough for most to get clear of the bank 
and have something left for retirement or for the kids college fund. 
This $4,000/acre figure can be justified to taxpayers as a savings over 
the current system of farm subsidies for these lands. More importantly, 
it is the right thing to do.
    Some of the landowners we worked with to negotiate this deal asked 
to testify today, but were told the witness list was already full. 
Others are afraid to speak up publicly about their desire to sell. Many 
would have sold years ago if their had been any market. Some are old, 
others are tired of losing money, others are tired of the uncertainty 
of farming these days. I'm sorry to have to note that these willing 
sellers have been verbally abused and threatened for their stance by 
some of their neighbors. One would have thought that one of the most 
basic of property rights is the right to sell it.
Conclusion
    This joint proposal is ecologically rational, economically 
efficient, fiscally prudent, socially just and politically pragmatic. 
It has both the broad and deep support of the conservation community. I 
believe it to be a breakthrough in the thinking of conservation 
organizations. I hope that it will be a model to avoid or solve 
conflicts elsewhere.
    For it to be successful, this joint proposal must first gain the 
open support of the landowners that wish to have the option to sell 
their land. It is necessary for such landowners to ban together against 
bullies who would deny them their property rights and their future.
    My friend and Western writer, Terry Tempest Williams has stated 
that environmentalists must be ``both fierce and compassionate--at 
once.'' The Oregon Natural Resources Council is strongly committed to 
this proposal with its:
    <bullet> just compensation for affected landowners;
    <bullet> commitment for community economic transition assistance; 
and
    <bullet> maintaining federal contributions to the revenues of 
local governmental units.
    The conservation community will use all of our powers of persuasion 
and political influence to see it enacted into law. There is only one 
specter on the horizon that could diminish our capacity to work for 
this joint proposal. If the conservation community has to instead use 
its resources to defeat yet another attack on the Endangered Species 
Act, our ability to advocate for this proposal will be diminished.
    For this proposal to be enacted, it must pass Congress. It is up to 
the Oregon and California congressional delegations to lead the way.
    The conservation community sees the Klamath River Basin as the 
``Everglades of the West''. (see The Klamath Basin's Wildlife 
Abundance, attached). The federal and state governments have committed 
tens of billions of dollars to restore the Everglades. It can find a 
billion for the Klamath River Basin. The joint-proposal I am offering 
today is an important component to conserve and restore this great 
natural wonder and also provide economic justice to those affected by 
changing government policies. (See Blueprint for Restoration of the 
Klamath Basin, attached.)
    We are not such a poor nation that we must destroy species and 
ecosystems, nor are we so rich that we can afford to. We are a rich 
enough nation to fairly compensate those who are adversely affected by 
changes in government policies pertaining to Native American tribal 
rights, the conservation of fish and wildlife, and the globalization of 
trade. Thank you for this opportunity to testify.
                                 ______
                                 
 A Voluntary Demand Reduction and Resource Enhancement Program for the 
                          USBR Klamath Project

    This proposal was jointly created by an ad hoc committee of 
environmental, community, economic and landowner interests during a 
series of meetings in the Klamath Basin.
    Below are conceptual elements for a voluntary land and/or water use 
sale program for landowners being served by the United States Bureau of 
Reclamation's Klamath Project in Oregon and California. This proposal 
would also provide for the voluntary acquisition of lands, water rights 
and/or federal grazing privileges in the Klamath River Basin. Details 
would be filled in during consideration of the proposal by Congress.
    1. The federal government, through the USDA Farm Services Agency, 
would offer to purchase irrigated farmland or a non-irrigation 
conservation easement in the US Bureau of Reclamation's Klamath Project 
from willing sellers at appraised value. For efficiency, individual 
appraisal of each eligible parcel will not be required. Rather the US 
Government would conduct statistically representative sample appraisals 
and apply the results to all lands within the project area. A similar 
process would be used to determine the value of the non-irrigation 
conservation easement, using January 1, 2001 as a reference date.
    a. Voluntary Land Sale. This voluntary land sale program would 
apply to deeded acreage directly associated with irrigated farmlands in 
the Klamath Irrigation Project. It would not include homes or other 
buildings, improvements or equipment.
    b. Voluntary Sale of Non-Irrigation Conservation Easement. The 
easement would apply to irrigation of the land by any means, and not 
limited to the use of project water. A landowner choosing to sell a 
non-irrigation conservation easement would be compensated in the amount 
of the difference between the market value of the land with a reliable 
source of irrigation water and comparable land without irrigation 
water.
    2. The closing date opting into the voluntary sale program will be 
90 days after enactment of the law. The USDA Farm Services Agency would 
regularly publish information pertaining to participation in the 
program, including publication in a local newspaper and on a web page. 
Due to the potential interest in the voluntary sale program and limits 
on the amounts of funds appropriated by Congress each year, it may be 
necessary to implement the program over a several-year period. Priority 
for acquisition would be based on dire financial need as determined by 
criteria developed by the FSA. For the period between when 
participating landowners opt into the program and the transaction is 
completed, annual compensatory payments will be made to landowners to 
not irrigate their lands.
    3. The sellers of lands in this willing seller program outlined in 
provision 1(a) will also receive an economic transition payment in the 
amount of $4,000/acre minus the appraised value of the land. The 
transition payment would only be available for those farmlands that are 
thereafter used in a manner that precludes their future eligibility for 
all United States Department of Agriculture programs, now in effect or 
later established, except for those lands specified under provision 
6(a).
    4. Landowners eligible for this program must have been the owner of 
record on January 1, 2001. The eligibility date is necessary to 
preclude lending institutions or speculators from benefitting from the 
recent financial misfortunes of others.
    5. Those parcels of lands purchased by the federal government that 
are appropriate for inclusion into a unit of the National Wildlife 
Refuge System shall become part of the Tule Lake, Lower Klamath units 
or new refuges established for this purpose. Such holdings must 
generally meet criteria for inclusion in the National Wildlife Refuge 
System.
    6. Those parcels of lands purchased by the federal government that 
are not appropriate for inclusion into a unit of the National Wildlife 
Refuge System shall either:
    (a) Be granted to an appropriate local governmental body for the 
purposes of replacing lease farming lands on the Tule Lake and Lower 
Klamath National Wildlife Refuges. Operational control and the revenue 
stream therefrom will be granted to appropriate local governmental 
bodies. Revenues from the lease program will first go to offset tax 
revenues comparable to those currently generated by refuge lease lands. 
Additional revenues may be used by the appropriate local governmental 
body to offset management costs. The amount of land to be used for this 
purpose is equal the amount of lease farm lands currently on the 
refuges. In the event that farming does not occur on a parcel of land 
for five years, operational control of that parcel shall revert to the 
United States. The acreage limit for this new lease lands is equal to 
the acreage currently being leased for commercial farming on the 
national wildlife refuges. Water interests associated with new lease 
lands shall retain the same legal status as when privately held.
    (b) Be administered in a custodial state to minimize soil erosion, 
pending final disposition. After the acreage of lands in provision 6(a) 
have been met, the remaining lands may be used by the US Fish and 
Wildlife Service to either: (1) exchange for other lands owned by 
willing parties; or (2) sell with the proceeds being devoted to 
acquiring other lands from willing sellers. In either case, such lands 
would be included in the National Wildlife Refuge System within the 
Klamath River Basin of Oregon and California.
    7. The Kuchel Act pertaining to the management of the Lower Klamath 
and Tule Lake National Wildlife Refuges would be repealed. The refuges 
would be managed just as other units of the National Wildlife Refuge 
System. The water rights associated with the lease lands within the 
refuges will remain with the land and be used for the purposes for 
which the refuges were established. The water rights shall be 
transferred to refuge purposes in such a manner as to maintain the 1905 
priority date and the US Bureau of Reclamation shall give the same 
preference to the refuges as it previously gave to irrigation contracts 
covering said lands.
    8. Except for the new lease lands described in Section 6, the water 
rights now attached (or that may become attached as a result of 
adjudication) to the parcels, or non-irrigation conservation easements 
in this voluntary land sale program, would be transferred to the US 
Fish and Wildlife Service which will be used to meet the purposes of 
refuges and for the benefit threatened or endangered species in the 
Klamath River Basin. These species include the northern bald eagle, 
coho salmon, the Qapdo (``kup-tu'', or shortnosed sucker), C'wam 
(``tshuam'', or Lost River sucker) and other species that may be listed 
in the future. This includes lands that are added to the National 
Wildlife Refuge System or those managed in a custodial state pending 
final disposition.
    9. $100,000,000 would be made available for the acquisition from 
willing sellers of appropriate lands and/or water rights from lands in 
the headwaters of the Klamath River Watershed, excluding the Klamath 
Project, or in the Scott and Shasta Valleys. This would include lands 
and interests in lands around Upper Klamath Lake, Klamath Marsh and 
tributaries to the lake and marsh that are suitable for re-reclamation 
as lake and/or wetlands, riparian restoration and for instream flow and 
lake and marsh level enhancement. It would also include appropriate 
lands in the Scott and Shasta Valleys in California. Such funds could 
also be used for the voluntary retirement of federal grazing permits. 
The result of such acquisitions would be to both increase the storage 
capacity and improve the water quality of the lake and marsh, and help 
meet tribal reserved water rights from instream flows in the 
tributaries and the lake and marsh. Doing so will increase the amount 
of water available for endangered species and tribal trust obligations, 
thereby increasing the probability of adequate water being available to 
landowners who choose not to elect to participate in the Voluntary Land 
Sale Program.
    10. Tax revenues to local jurisdictions lost by participation in 
the voluntary sale program will be replaced by the federal government. 
Revenues from those lands that become part of the National Wildlife 
Refuge System will be mitigated via the Refuge Revenue Sharing Act in a 
way that fully funds the program. For those lands temporarily held by 
the US Bureau of Reclamation, the federal government would pay an 
amount to local taxing districts equivalent to what was being paid on 
January 1, 2001.
    11. Federal transition assistance grants will be made to affected 
and eligible local government units. Such grants could be used for 
mitigating the impacts of the results of the voluntary sale program 
and/or to assist communities in preparing for the post-sale program 
period. The amount available for such grants will be specified in the 
legislation after consultation with local government units. The 
administering agency would be the USDA Farm Services Agency.
    It is mutually understood that this is a proposal to Congress to 
help resolve both the chronic and acute crises affecting farming and 
fish and wildlife in the Klamath Basin. For a voluntary land sale 
program to become law, Congress must develop a final package that it 
finds to be in the national interest. Changes to this proposal are 
inevitable. The greater degree of participation by project landowners, 
and the greater the support by local government and other community 
interests, the greater the possibility that this proposal--or something 
close to it--will be enacted into law.
    Finalized this 9th day of June, 2001.
    Endorsers
    Concerned Klamath Project Landowners
    Oregon Natural Resources Council
    Water Watch
    Northcoast Environmental Center
    World Wildlife Fund (Klamath-Siskiyou Ecoregion Project)
    Siskiyou Regional Education Project
    Kalmiopsis Audubon Society
    Lane County Audubon Society
    Oregon Watersheds
    Audubon Society of Corvallis
    Salem Audubon Society
    Golden Gate Audubon Society
    Rogue Valley Audubon Society
    Cape Arago Audubon Society
    Oregon Natural Desert Association
    Rogue Valley Audubon Society
    Cape Arago Audubon Society
    Soda Mountain Wilderness Council
    California Wilderness Coalition
    Center for Biological Diversity
    Northwest Environmental Advocates
    Umpqua Watersheds
    Klamath Siskiyou Wildland Center
    California Trout, Inc.
    Friends of Del Norte County
    Concerned Friends of the Winema
    Endangered Species Coalition
    Northwest Environmental Defense Center
    Headwaters Inc.
                                 ______
                                 
                 The Klamath Basin's Wildlife Abundance
                  by oregon natural resources council

    The statistics of former wildlife abundance (and decline) in the 
Klamath River/Basin have been well documented and noted in numerous US 
Fish and Wildlife Service (USFWS) and other agency publications. In 
1994, the USFWS office in Klamath Falls wrote, in describing the need 
for habitat restoration, that ``113 out of 410 wildlife species 
identified in the Klamath Basin are considered to be of concern or at 
risk.'' More over, for the entire Klamath/Central Coast Ecoregion there 
are ``197 species that are considered sensitive (i.e. federal category 
species or species which are considered sensitive or species of concern 
by Oregon and California.)``--Klamath/Central Pacific Coast Ecoregion 
Restoration Strategy-USFWS, Volume 4, January 14, 1997.
    Much of the reason for these declines is due to habitat loss. Page 
1-2 of the July 1995 Wood River Wetland Resource Mgt. Plan, for example 
notes that particularly in the ``upper'' Klamath Basin , ``wetlands 
have been reduced from over 350,000 acres prior to 1905 to less than 
75,000 acres today due to agricultural conversion...and other human 
changes to the landscape (USBR 1992).''
    Yet, overall, the entire Klamath River/Basin still remains one of 
the richest biological areas in North America (and elsewhere in much of 
the world) for two major reasons:
    First, the area is geologically very old compared to most of 
western North America, having been covered continuously by vegetation 
for at least the last 65 million years (the entire Cenozoic Era). Thus, 
the basin has been a refugium for species destroyed in other areas by 
submergence, glaciation, desiccation, or lava flows. For example, the 
Siskiyou Mountains, in the lower river/basin, has the highest known 
diversity of conifer species: a 1-square mile area in the Sugar Creek 
Drainage of the Klamath National Forest has 17 species of conifers.
    Second, just to the west of Klamath Falls is a zone where four 
major bioregions-the Cascadian, Californian, Great Basin and Klamath/
Siskiyou Mountains all converge--supporting plant and animal species 
from all four regions. This meeting of biological regions is very 
pronounced in the Soda Mountain area located mostly south of Hwy. 66 
between Klamath Falls and Ashland. To protect this particular area's 
superior ecological and scientific values President Clinton last summer 
designated this area the Cascade Siskiyou National Monument.
    Some of the wildlife species we particularly find in the upper 
basin, such as White-faced Ibis, American White Pelicans, Red-neck 
Grebes, Snowy Egrets, Least Bittern, Green Heron, Ring-neck Duck, 
Yellow Rail, Pronghorn Antelope, Western Pond Turtle, Oregon Spotted 
Frog and others occur in the Klamath Basin and area wildlife refuges at 
what is generally the western, northern or eastern extremes of their 
broader breeding range.
    Protection of these species in their Klamath Basin wetland habitats 
is thus important, because individuals and populations at the edge of a 
species range are important for the viability of the species. 
Individuals and populations at the edge of a species range often 
possess the genetic constitution that expands the adaptive capability 
of the species. This capability affords the species protection from 
random catastrophic events and enhances its ability to adapt to large-
scale disturbance.
    As for overall historical abundance, most recently, the USFWS's 
January 2000, ``Programmatic Environmental Assessment of Klamath Basin 
Ecosystem Restoration Office Projects 2000-2010'' quoted E.D. Cope's 
1884: ``On the fishes of the recent and Pliocene lakes of the western 
part of the Great Basin'' (who was also author of a 1879 American 
Naturalist article titled: ``The fishes of Klamath Lake.'') Dr. Cope 
wrote: that Upper Klamath Lake sustained ``a great population of 
fishes'' and ``was more prolific in animal life'' than any body of 
water known to him at that time.
    In regards to waterfowl, an April 20, 1956 USFWS publication (and 
report to the Secretary of Interior): ``Plan for Wildlife Use of 
Federal Lands in the Upper Klamath Basin'' stated: ``About 80 percent 
of all the waterfowl of the Pacific Flyway funnel through the Upper 
Klamath River Basin in their annual migrations. In the Fall of 1955, 
for example, there were at one time upward of 7,000,000 birds on Lower 
Klamath and Tule Lake National wildlife Refuges in the Basin. This is 
the greatest concentration of waterfowl in North America and probably 
in the world.''
    While no one was counting much before then, it is estimated there 
were even more birds earlier in that century. Thomas C. Horn, the 
Klamath Basin National Wildlife Refuge manager in 1957 wrote: ``At the 
time the area was made a refuge, in 1908, literally clouds of birds of 
many species darkened the sky; the thunder of their wings was like the 
roar of distant surf, and their voices drowned out all other sounds.'' 
Similarly, William Finley wrote in The Condor, 1907, in an article 
titled: ``Among the Pelicans'' of Lower Klamath as a ``jungle``of 
tules, an ``impenetrable mass'' with numerous floating islands 
supporting a total of ``four to nine thousand while pelicans, one of 
the biggest breeding colonies anywhere.''
    Despite all that has been lost, the Klamath Basin today still 
represents the largest interior freshwater wetland west of the 
Mississippi River, and for that reason can well be termed the 
``Everglades of the West.''
                                 ______
                                 
             Blueprint for Restoration of the Klamath Basin
             Prepared By A Coalition for the Klamath Basin
                             June 16, 2001

    A Coalition for the Klamath Basin is an alliance of local, 
regional, and national organizations dedicated to protecting and 
restoring the Klamath Basin. Members include Klamath Basin Audubon 
Society, Klamath Forest Alliance, Oregon Natural Resources Council, 
Pacific Coast Federation of Fishermen's Associations, Institute for 
Fisheries Resources, Sierra Club-Oregon Chapter, The Northcoast 
Environmental Center, The Wilderness Society, and WaterWatch of Oregon.
    The Klamath Basin is one of the nation's great ecological 
treasures. Considered a ``western Everglades,'' this area in southern 
Oregon and northern California once contained some 350,000 acres of 
shallow lakes and wetlands (only 75,000 acres of which exist today). 
The 200-mile long Klamath River was among the most productive salmon 
and steelhead rivers in the West. The upper basin is home to remarkably 
large native trout, and once contained thriving populations of spring 
chinook salmon, steelhead, and Kuptu and Tshuam (Lost River and 
Shortnose suckers). These fish once provided a major source of food for 
Native Americans. The Klamath Basin attracts nearly 80% of the birds 
migrating in the Pacific Flyway and supports the largest seasonal 
concentration of bald eagles in the lower 48 states.
    While water is vital to maintaining the ecological integrity of the 
Klamath Basin, fishery dependent economies, and tribal trust resources 
the dominant use of water in the Klamath Basin has historically been 
irrigated agriculture. To date more than 75% of the Basin's wetlands 
have been drained and converted to agriculture. Damming and diversion 
of rivers and draining of wetlands have taken an enormous toll on the 
Basin's ecology. Hydrology of the Basin has been radically altered and 
water quality has been severely degraded. These conditions have 
contributed to the decline of ESA listed species, the failure of 
streams and lakes to meet water quality and temperature standards, the 
failure to meet native American hunting and fishing rights, and 
insufficient water to maintain the wetlands on the basin's national 
wildlife refuges. Thousands of fishing dependent jobs have been lost as 
a direct result of salmon declines in the Klamath Basin.
    Federal assistance and support will be needed in resolving the 
numerous issues and conflicts over water in the basin. We need to do 
what we can to reduce the economic hardships this year's drought has 
brought on Klamath Basin farmers without sacrificing the incredible 
resources of Klamath Lake, the Klamath River, and the Klamath Basin 
Refuges. The Coalition hopes that careful consideration will be given 
to the actions outlined below so that the ecological wonders of the 
Klamath Basin will be preserved and restored.
    1. Reform Management of the Klamath Project. The Klamath Project 
should be managed to meet the river flow, lake-level and refuge water 
requirements as set forth in the applicable biological opinions and 
ultimately should seek means to meet the full water requirements of the 
refuges for ducks, geese, eagles and other wildlife, while recovering 
fish species to harvestable levels.
    2. Fund and Implement a Voluntary Demand Reduction Program. Water 
has been severely over allocated in the Klamath Basin. Any meaningful 
long-term solution will require considerable downsizing of the Klamath 
Project and the retirement of many other water rights throughout the 
basin. There are currently tens of thousands of acres for sale in the 
Klamath Basin. A voluntary program to give financial assistance to the 
farmers, who want to sell their lands, by buying their lands at a fair 
price would be an equitable way to reduce agricultural demand, while 
giving more security to those who want to stay in business. A federally 
funded buyout program should be developed and implemented in this 
regard.
    3. Terminate Refuge Lease Land Farming. The lease of 20,000 acres 
of federal refuge land in the Tule Lake and Lower Klamath National 
Wildlife Refuges for commercial agriculture should be terminated. This 
would allow management of these lands for fish and wildlife, eliminate 
the use of pesticides on the refuges, allow refuge personnel to devote 
more time to refuge management, help secure a reliable source of water 
for refuge purposes, and ease the irrigation season water demands on 
the Klamath Project.
    4. Restore Fish and Wildlife Habitats. Although fish and wildlife 
habitats have been degraded throughout the Klamath Basin, it remains 
one of the few major river systems in the US where substantial 
restoration is still possible. Reclaiming and restoring wetlands, 
especially in the Lower Klamath and Tule Lake Wildlife Refuge areas and 
around Upper Klamath Lake, are important to obtaining a more natural 
hydrological regime, improving and increasing fish and wildlife 
habitat, and improving water quality. Riparian areas need to be 
protected and restored. Dams and diversions need to be screened and 
provided with appropriate fish passage facilities, or removed. The 
water retention and flow regulation capability of upland forested 
ecosystems need to be restored through reforestation, canopy retention 
and work to reduce the impact of extensive unpaved road systems.
    5. Meet Water Quality Standards. The Klamath River and several of 
its tributaries have been listed as water quality ``impaired'' under 
the Clean Water Act. Total maximum daily loads (TMDLs) should be 
established and implemented for the impaired streams and plans should 
be developed and implemented to meet water quality standards.
    6. Implement Water Conservation Measures and Improve Water 
Management. There should be a thorough analysis of irrigation needs in 
the basin. Opportunities for improving conveyance system and on farm 
efficiencies should be carefully assessed, funded, and implemented. 
Water use measuring and reporting need to be required, and an active 
enforcement program needs to be implemented.
    7. Augment Water Supplies. Every effort should be made to evaluate 
water supply augmentation possibilities and environmentally sound 
projects should be funded and implemented.
                                 ______
                                 
    Mr. Pombo. Mr. Solem.

                    STATEMENT OF DAVID SOLEM

    Mr. Solem. Mr. Chairman and members of the Committee, my 
name is David Solem. I'm the manager of the Klamath Irrigation 
District and the director of the Klamath Water Users 
Association. Thank you for the opportunity to testify here 
today on behalf of the Association. The Association represents 
nearly all of the water districts in the Klamath Project.
    On April 6, the Bureau of Reclamation issued a 4-1/2 page 
operation plan. Two sentences apply to the project irrigation 
from Upper Klamath Lake. I'd like to read those. ``Due to the 
requirements of the biological opinions in the ESA and the 
current drought conditions, only limited deliveries of project 
water will be made for irrigation. As a result, current 
conditions indicate water deliveries to farms and refuges 
within the project service area will be severely limited.'' 
That's it. No options, no alternatives, no water.
    The reallocation of water as called for by Federal 
officials is causing tremendous hardship in the community. 
Farmers and ranchers are scrambling to drill wells or block up 
drain ditches, just to get the irrigation in order to salvage 
something from their fields. Their situation is getting worse 
by the day. Established hay fields and pastures are dying, 
livestock is running out of water, top soil is blowing away, 
and there is no certainty that the three species for which our 
water has been taken will even benefit from it. Many have been 
sympathetic about our situation, but sympathy doesn't pay the 
mortgage, the grocery bills or our kids' education. This mess 
must be fixed before the damage goes any further.
    The reckless and irresponsible implementation of the 
Endangered Species Act by U.S. Fish and Wildlife Service, the 
National Marine Fishery Service, will have disastrous human and 
environmental impacts for years to come. I understand the 
requirement under this law to prepare reasonable and prudent 
alternatives to protect threatened and endangered species. Is 
it reasonable and prudent to devastate an ecosystem relying 
upon agriculture for over 100 years?
    It is not reasonable and prudent to deprive an irrigation 
project of its water supply, to cause property values to drop, 
to cause jobs to be lost, and to force families into 
bankruptcy. Please tell me how it is reasonable and prudent to 
operate an irrigation project without water. I believe our 
situation can be resolved, but in the long run this crisis 
illustrates all too well why the Endangered Species Act must be 
amended. No one should fear an independent peer review of all 
science.
    In an attempt to deflect criticism of the Federal decision, 
some are now blaming the drought for this crisis. Drought is 
not to blame. There is no question the snow pack is low and 
water supplies are severely limited. The fact is, however, 
irrigation of lands in the Klamath Project will be seriously 
impacted in all but the most extreme wet years due to the 
demands of the biological opinions. These demands require the 
Project to provide more water than is available. Earlier this 
week, over 1,700 cubic feet per second was being released from 
Upper Klamath Lake down the Klamath River. The inflow to Upper 
Klamath Lake was roughly 200 cfs. Average inflow to the lake is 
1,400 cubic feet per second.
    Is sending over eight times the inflow of Upper Klamath 
Lake down the river reasonable and prudent in a drought? It 
clearly shows that NMFS is taking water that was stored for 
project irrigation. Total flows below Iron Gate Dam from April 
through September this year will be roughly twice the level of 
flows required in the drought of 1994, and three times as much 
as the drought of 1992.
    Upper Klamath Lake levels required by the U.S. Fish and 
Wildlife Service are roughly 3 feet higher in September 30th 
this year than in the drought years of 1992 and '94. Is it 
reasonable and prudent to take an additional 200,000 acre feet 
away from Project farms and ranches in a drought? Here again, 
it's clear the agencies are taking water that was stored for 
irrigation purposes. If the requirements for the two sucker 
species and for Coho salmon were relaxed even slightly, there 
would be water supplies for agricultural purposes and for the 
wildlife refuges. So clearly, it is not the drought that has 
created this crisis.
    Over-allocation of water supplies has also been cited as 
justification for taking project water. The only over-
allocation in this Basin is the over-allocation for 
environmental purposes this year. In an average year, farmers 
in the Klamath Project use approximately 400,000 to 500,000 
acre feet, less than evaporated off these lands prior to the 
development of the Project. The Klamath Basin overall produces 
10 to 20 million acre feet of water going to the ocean after 
irrigation diversions have been taken out. Our water use is but 
a fraction of the water in the Basin. Nonetheless, the two 
agencies are not restricting any use of water outside the 
Klamath Project. Why? This is an example of the inequity of the 
Federal decision. Why have they not required even other Federal 
agencies outside the Project to restrict water use.
    I urge the Committee, Congress, and the administration to 
take the following steps to undo the damage caused by the two 
Federal agencies to our communities. First, farmers and 
ranchers in the community must be provided adequate financial 
assistance for the water taken from them this year. I urge 
Congress to increase the $20 million now included in the 
Supplemental Appropriations Bill. While it is appreciated, that 
amount is inadequate to mitigate all of the financial impacts 
the Federal decisions caused. Of course, we would prefer to 
have our water supplies instead of any Federal fund.
    Second, the administration must conduct an independent peer 
review of the science, and I think that's been discussed in 
detail here today. Third, the Department of the Interior should 
complete an EIS for the long-term operations of the Klamath 
Project. The effort now underway must be withdrawn or modified, 
because it is tied to these biological opinions and will 
reflect all of their flaws as well. A new effort worthy of the 
seriousness of these issues must begin with congressional 
oversight. Fourth, Congress should appropriate funds for on the 
ground restoration measures, such as the ``A'' canal fish 
screen. A pilot oxygenation project in Upper Klamath Lake and 
modifications to Chiloquin Dam would also be good projects.
    I believe farming and a healthy environment are compatible 
in the Klamath Basin. The people who rely on this project have 
fulfilled their commitment to the U.S. By working hard to build 
a successful community and to protect the species dependent 
upon it. Now it's the Federal Government's turn to fulfill its 
commitment to us.
    [The prepared statement of Mr. Solem follows:]

     STATEMENT OF DAVID SOLEM, MANAGER, KLAMATH IRRIGATION DISTRICT

    Mr. Chairman and members of the Committee, my name is David Solem. 
I am
    the manager of Klamath Irrigation District and a director of the 
Klamath Water Users Association. Thank you for the opportunity to 
testify here today on behalf of the Klamath Water Users Association. 
Our association represents nearly all of the water districts in the 
Klamath Irrigation Project.
    Words cannot begin to describe the anguish that has befallen our 
community in the last 70 days. Look in the faces of the people here 
today - you'll see pain, frustration and disappointment. The Klamath 
Project, once an unparalleled example of individual accomplishment and 
western development, has been turned upside down due to being blamed 
for all of the environmental problems in the Klamath Basin.
    The reallocation of water, called for by federal officials, is 
causing tremendous hardship in our community. And our situation is 
getting worse by the day. Crops are dying, livestock are running out of 
water and feed, topsoil is blowing away, and there is no certainty that 
the three species for which our water has been taken will even benefit 
from it. Many have been sympathetic about our situation. But sympathy 
doesn't pay the mortgage, the grocery bills or our kid's education. 
This mess must be fixed before the damage goes any further.
    The reckless and irresponsible implementation of the Endangered 
Species Act by U.S. Fish and Wildlife Service (USFWS) and the National 
Marine Fisheries Service (NMFS) will have disastrous human and 
environmental impacts for years to come. I understand the requirement 
under this law to prepare ``reasonable and prudent alternatives'' to 
protect threatened and endangered species. But where does the law say 
it reasonable and prudent to take water from thousands of families to 
meet politically motivated goals? Is it reasonable and prudent to 
devastate an ecosystem that has relied upon agriculture for over 100 
years? It is not reasonable and prudent to deprive an irrigation 
project of its water supply, and to cause property values to drop, jobs 
to be lost, and families to face bankruptcy. Please tell me how it is 
reasonable and prudent to operate an irrigation project without water.
    Aside from the terrible damage this decision has caused our 
community, there are significant legal and scientific problems related 
to the federal effort to protect the Lost River sucker, the shortnose 
sucker and the coho salmon. The record is clear that these problems 
include the manipulation of science and the abuse of the scientific 
process. Many of these problems are described in a report our 
association prepared earlier this year; ``Protecting The Beneficial 
Uses Of Waters Of Upper Klamath Lake; A Plan To Accelerate Recovery Of 
The Lost River And Shortnose Suckers.''
    There are also serious financial implications from the decision. 
How ironic is it that we are spending our hard earned dollars to defend 
ourselves from a bureaucracy that our tax dollars supports? This is 
insulting.
    I believe our situation can be resolved by the Administration. But 
in the long run, this crisis illustrates all too well why the 
Endangered Species Act must be amended. The law must require 
independent peer review of all science. And it should require the U.S. 
Secretary of Interior must approve any action that will cause severe 
economic impacts.
    In regard to our situation, it seems the agencies are more 
interested in harming the Klamath Project than protecting the species.
    Since the two sucker species were listed in 1988, the Klamath Water 
Users Association has attempted to work cooperatively with the USFWS to 
improve habitat for these native fish. In 1993, we prepared a 
comprehensive recovery plan that the USFWS promptly ignored. Over the 
years, we supported numerous restoration projects, including the 
removal of over 20,000 acres of farmland for the purpose of creating 
wetlands--wetlands the USFWS said would solve water quality problems in 
Upper Klamath Lake. Each time the USFWS wanted to acquire another 
parcel, they promised us that particular acquisition would solve the 
problem, and that it would reduce further regulations. We supported 
every request. They failed to live up to their promise--each time.
    This year, we reviewed the science in their decisions and 
determined they were implementing steps that could actually harm these 
two species, and ignoring others that would benefit the suckers. So we 
prepared a new sucker restoration plan to accelerate the recovery of 
these fish. The Service ignored it as well.
    The situation is equally bewildering in regard to the Klamath 
River. For over a decade, a disjointed course of federally funded 
research, dominated by tribal interests, has resulted in politically 
motivated fishery requirements. The Yurok Tribe describes the Hardy 
study on the Klamath River as ``the most thorough, carefully researched 
and credible study yet to be produced on the flow needs of anadromous 
fish in the Klamath River. As such it is the best available science to 
guide the federal agencies in making this decision.''
    But what was the purpose of the Hardy study? According to documents 
provided by the Department of Justice, Dr. Hardy was contracted as an 
expert witness on behalf of the U.S. for the Yurok Water Rights 
Adjudication. And for his so called ``carefully researched'' work he 
has been paid hundreds of thousands of dollars. To say information 
prepared for tribal litigation with Department of Justice dollars is 
pure, unbiased science is outrageous. It's just one example of a 
process out of control.
    In an attempt to deflect criticism of the federal decision some are 
now blaming the drought for this crisis. Drought is not to blame. There 
is no question the snow pack is low and water supplies are severely 
limited. The fact is, however, irrigation of lands in the Klamath 
Project will be seriously impacted in all but the most extreme wet 
years due to the demands of the biological opinions issued by the two 
agencies. These demands require the project to provide more water than 
is available. Earlier this week, over 1700 cubic feet per second (cfs) 
was being released from Upper Klamath Lake down the Klamath River. Yet, 
the inflow to Upper Klamath Lake was roughly 200 cfs. Average inflow to 
the lake is 1400 cfs.
    Is sending over 8 times the inflow of Upper Klamath Lake down the 
river reasonable and prudent in a drought? It clearly shows that the 
NMFS is taking water that was stored for project irrigation. Total 
flows below Iron Gate Dam from April through September in 2001 will be 
roughly twice the level of flows required in the drought of 1994 and 
three times as much as the drought of 1992.
    Upper Klamath Lake levels required by the USFWS are roughly three 
feet higher on September 30th than in the drought years of 1992 and 
1994. Is it reasonable and prudent to take an additional 200,000 acre-
feet of water away from project farms and ranches in a drought? Here 
again, it's clear the agencies are taking water that was stored for 
irrigation purposes. If the requirements for the two sucker species and 
for the coho salmon were relaxed even slightly, there would be water 
supplies for agricultural purposes, and for the wildlife refuges. So 
clearly, it is not the drought that has caused this crisis.
    Over allocation of water supplies has also been cited as 
justification for taking Project water. The only over allocation in 
this basin is the over allocation of water for environmental purposes 
this year. In an average year, farmers in the Klamath Project use 
approximately 400,000 to 500,000 acre-feet of water, less than 
evaporated off these lands prior to the development of the project. The 
Klamath Basin, however, encompasses over six million acres and produces 
10-20 million acre-feet of water. Our water use is but a fraction of 
the water in the basin. Nonetheless, the two agencies are not 
restricting any use of water outside the Klamath Project. Why? This is 
another example of the inequity of the federal decision. If these two 
agencies are so concerned about these species that they have taken all 
of our water supplies, why have then not done anything else? Why have 
they not required other federal agencies outside the Klamath Project to 
restrict water use? Doesn't the Endangered Species Act apply to areas 
outside the project?
    Some people also argue that many of these issues were considered in 
recent litigation. Earlier this year, a federal court in Eugene, Oregon 
did not issue a preliminary injunction as we sought in this matter. 
Going into that proceeding, however, we well understood the difficulty 
facing the court, on such short notice, to throw out the agencies 
conclusions or to find them arbitrary or capricious. That case 
continues. A far better policy is for the agencies to confront reality 
and to be objective over how we more forward in the Klamath Basin.
    It is our hope that we'll all first focus on the actions necessary 
to make this community whole. A critical part of that process is for a 
thorough review of all of the actions taken to date, and those not 
taken, to protect the species that need our protection.
    I urge this Committee, Congress and the Administration to take the 
following steps to undo the damage caused by these two federal agencies 
to our community.
    First, farmers, ranchers and the community must be provided 
adequate financial assistance for the water taken from them this year. 
I urge Congress to increase the $20 million now included in the 
supplemental appropriations bill. While it is appreciated, that amount 
is inadequate to mitigate all of the financial impacts the federal 
decision has caused this year. Of course, we would prefer to have our 
water supplies instead of any federal funds.
    Second, the administration must conduct an independent peer review 
of the science and the process that led to the biological opinions, 
including a thorough investigation of the Hardy study.
    Third, the Department of Interior should complete an Environmental 
Impact Statement for the Long Range Operations Plan of the Klamath 
Project. The effort now underway must be withdrawn because it is tied 
to the biological opinions and will reflect all of their flaws as well. 
A new effort worthy of the seriousness of the issues must begin - with 
Congressional oversight.
    Fourth, Congress should appropriate funds for irrigation districts 
in the Klamath Project to begin on-the-ground restoration measures, 
such as the completion of a fish screen at the ``A'' canal. Oxygenation 
of Upper Klamath Lake and modifications to Chiloquin Dam would be 
appropriate measures as well.
    I believe farming and a healthy environment are compatible in the 
Klamath Basin. History will show that the people who rely upon this 
project have fulfilled their commitment to the U.S by working hard to 
build a successful community and to improve the habitat of these 
species. Now it's the federal government's turn to fulfill its 
commitment to us.
                                 ______
                                 
    Mr. Pombo. Thank you very much.
    Mr. Foreman, Mr. Fletcher, I agree with much of your 
testimony. I think the greatest mistake that I and many of my 
friends and neighbors made years ago was we sat by silently 
when your rights were being violated, and we--I believe all 
American citizens are paying the price for that now, because we 
allowed it to happen. At any time anyone's rights are violated 
in this country, we all need to stand together and fight 
against that, because once you establish a pattern, once you 
establish a precedent that the government can do something, 
they eventually will do it to you, and I think we're all paying 
the price for that right now. And I appreciate your offer to 
work with all of us to find a solution, because the solution to 
this problem is something that is going to involve all of those 
who have a legitimate right in this situation, so I appreciate 
your testimony. I thank you for being here today.
    And, Mr. Solem, just to follow up a little bit on your 
testimony. Now, you testified that the annual use was between 
400,000 500,000 acre feet of water for irrigation in the 
valley. Is that accurate?
    Mr. Solem. That's correct, in the Klamath Project.
    Mr. Pombo. Okay. And yet there is about--and I believe what 
you said--20 million acre feet that are produced out of the 
watershed.
    Mr. Solem. Correct, yes. It's a huge watershed, 6 million 
acres. The USGS reports it's an average of about 13 million 
acre feet that flow out at the ocean, and it's been as much as 
23 million acre feet within the last few years.
    Mr. Pombo. And that 13 million acre feet that you're 
talking about is not developed water. It's not being used.
    Mr. Solem. That's correct. I mean, the Klamath Project is 
unique in that the irrigation is on the east side of the 
mountains and is a river that flows through the Cascade Divide 
and into the ocean. Most of the water is generated on the west 
side, farther downstream.
    Mr. Pombo. Okay. Can you tell me what the approximate cost 
of water for farming is in this area?
    Mr. Solem. I can tell you what the O and M costs are, if 
that's what you want. In the Klamath Irrigation District, our O 
and M assessments are $25.50 per acre, per year. We have no 
construction component to that. Our district paid off the 
construction costs in 1954.
    Mr. Pombo. So it's $25.50 per acre?
    Mr. Solem. Correct.
    Mr. Pombo. Is there a cost per acre foot, or is that just 
based upon historic water rights?
    Mr. Solem. It's based on historical water use. The Klamath 
Project, because of the integral design of the system where 
water that gets past us becomes another district's source, it 
doesn't really work in the typical per acre foot type of 
pricing system.
    Mr. Pombo. How would you--if you needed to come up with a 
value of the water that is being diverted to another use right 
now, how would you come up with that value?
    Mr. Solem. The value is really to the producer and the 
owner of that land that the water is pertinent to. I mean, it's 
really their property right. The district is just the 
distributor. I think it's all of the value of the land. And 
maybe that's not the answer you want, but if we don't have 
water on this land, it won't produce, period.
    Mr. Pombo. Now, maybe I can ask Mr. Bishop this question. 
You used a number of figures to determine what the agricultural 
value was in the valley. Would there be a way to somehow come 
up with a figure as to what that water is actually worth?
    Mr. Bishop. In terms of irrigated property versus non-
irrigated property, certainly you could arrive at some kind of 
a number. We've done studies here in the Tulelake Basin, and 
land values have declined some over the last 2 years, and 
values for irrigated property range from somewhere between 
$2,200 to $3,000 an acre. If you take the water away from it--
this is only anybody's guess --but it could be $100 to $500 an 
acre. I mean, we don't know. We have no sales to back that up. 
We're trying to figure it out ourselves.
    Mr. Pombo. Do any of you know if anyone has sold water or 
leased water on an annual basis in the recent past, and if so, 
what they were able to get for that water?
    Mr. Solem. In Oregon there really isn't a system of 
marketing like in California, so it isn't really that type of a 
scenario. Bureau of Reclamation did pay irrigators not to 
irrigate on an annual basis, and those values ranged greatly, 
just depending on the crop in a particular farmer's situation. 
I really don't--.
    Mr. Pombo. Was that voluntarily?
    Mr. Solem. That's correct.
    Mr. Pombo. And can you give me a range?
    Mr. Solem. I think it ranged from somewhere from a hundred 
dollars to several thousand dollars, because it really--.
    Mr. Pombo. Per acre.
    Mr. Solem. Per acre. But it was more based on crop values 
than the water values.
    Mr. Pombo. And that was the Bureau of Reclamation?
    Mr. Solem. That's correct.
    Mr. Pombo. Okay, thank you. Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman. Mr. 
Fletcher, I want to commend you for your comments today and the 
spirit with which you offered them, and Mr. Foreman, you as 
well. You made a comment I wanted to follow-up on, though, Mr. 
Fletcher, about your belief that--if I heard you right--that 
other parties should have participated. You would have 
welcomed--maybe is a better way to say it--other parties 
participating in the Hardy discussions. Is that an accurate--
    Mr. Fletcher. Well, it's a little different. The Hardy work 
and the National Marine Fishery Service biological opinion was 
based on years of different studies, years of discussion, years 
of efforts. The Klamath Task Force in '96 and '97, of which 
Klamath County is a representative in that body and can have a 
technical worker's representative, began scoping on flow issues 
in the entire Basin. Hardy has extracted some of that. Hardy 
has shown up to the group on a number of occasions, has offered 
to share and discuss any and all the information that he has. 
We do studies, Fish and Game does studies, the Fish and 
Wildlife Service does studies as well, and that's kind of a 
sounding group.
    Now, I understand that out of the detailed, specific 
discussions on Hardy, that the irrigators didn't have an 
opportunity to be there, and that should be corrected, but I--.
    Mr. Walden. And I guess that's the point I want to make, 
because one of the things I've learned in this processes is, 
not only didn't they have an opportunity to participate in 
those early discussions, they were precluded, prevented by the 
Federal Advisory Committee Act, FACA.
    Mr. Fletcher. I would have a different opinion, because I 
sat on the Klamath Task Force. I asked people to show up at 
these meetings, to have their technical people there. The Hardy 
study is just one component to what NMFS considered. They 
considered a Trihey study that the Yurok--.
    Mr. Walden. But within the context of the Hardy study 
itself, is it not true that the water users were excluded 
because of FACA? I mean, that's what the Department of the 
Interior has told me. That's what the water users have told me.
    Mr. Fletcher. Well, I know specifically--and you can look 
at the Task Force minutes where Dr. Hardy briefs the Klamath 
Task Force about both Phase 1 and Phase 2, and he actually 
says, ``I'll be around all day. Anybody that has any questions, 
come ask me,'' those type of things.
    Mr. Walden. But the tribes were specifically included, 
because you are a separate nation, right? Under the trust 
responsibilities of the Department of Interior, you had an 
absolute right--.
    Mr. Fletcher. Yeah.
    Mr. Walden. --as you should, to participate. But I believe 
that the case is that, with the waters users, they were--this 
came up at a March 21 hearing back in Washington where I took 
the questions I got from the water users, saying, How come we 
can't sit in and participate? And it gets to the point, I 
think--some of us are concerned about--you spoke about the need 
to have this science out on the table throughout the process so 
you can participate and they can. Isn't that really the same 
case, Chairman Foreman, in terms of the science--the scientific 
underpinnings of the biological opinion on the suckers really 
originated through the Department of Interior and the BIA for 
use for the Klamath Tribe in adjudication, isn't that correct? 
And then was shared with Fish and Wildlife at that point?
    Mr. Foreman. Yeah, and I'm not fully aware of the process 
that was used at that point. But we do agree that everyone 
should participate.
    Mr. Walden. And I guess that's--if we're going to make 
decisions of this magnitude, you can see where people get very 
concerned about having the feeling they've been shut out, 
either by a Federal law, FACA, the Federal Advisory Committee 
Act, or some trust responsibility the department has. But be 
that as it may, it raises credibility issues, frankly, do you 
agree? Yeah, Mr. Fletcher.
    Mr. Fletcher. The bottom line is, I too want a crack at the 
science that is on the opposing side, and I think that 
everybody needs to be at the table and we need to hash that 
out. It's only going to benefit the end product. I know the 
FACA concerns, but I think you need to appreciate, Hardy wasn't 
the only thing looked at in NMFS' decision. There was a 
collective body of information.
    Mr. Walden. But it was a considerable piece of it, wasn't 
it?
    Mr. Fletcher. It was a considerable piece that used 
additional information that was available to everybody.
    Mr. Walden. But as you well know, there are lots of 
questions about Hardy and the Hardy study still circulating out 
there.
    Mr. Fletcher. Yes.
    Mr. Walden. And I think that raises another issue about 
using the--I don't remember the exact terminology--the best 
available science, or commercially something or other science. 
Those are issues that are coming up. What does that really 
mean? Whose do you take? I appreciated Mr. Vogel's comments 
about the need to have a blind peer review process, if you're 
going to have one. I can see where, you know, you can end up 
with problems absent that.
    Mr. Solem, if I could quickly go to you before my time 
expires. I appreciate your comments, as well as some others, 
about the different projects we can go do to improve habitat 
and all, and I want to raise the issue about oxygenation above 
the Klamath Lake and modification of potentially to Chiloquin 
Dam, or at least a fish passage and mitigation efforts. If we 
move forward, as the Bureau of Reclamation is doing, and 
initially, as I've encouraged, to look at oxygenation in the 
lake, do you have a concern that if that proves to be 
beneficial to the suckers, that there is a very difficult 
ability or an inability to determine whether it was the higher 
lake level or oxygenation that produced the improvement? 
Because I don't want to go do something that produces 
improvement in the suckers' viability and have it credited to 
some other thing, like the higher lake level.
    Mr. Solem. I understand your concern. I think we will have 
to look at the design of the experiment just to see how that 
would work. We are looking at doing it in deeper water as 
compared to shallower water. There are short-term and long-term 
restoration activities and we want to be able to look at both, 
because in order for us to operate there has to be short-term 
restoration things that we look at and that can benefit fish 
and their habitat.
    Mr. Walden. Thank you. Thank you, Mr. Chairman.
    Mr. Pombo. Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman.
    First of all, I'd direct my question to Mr. Solem. And you 
indicated in your testimony today that the water irrigation 
district for the Klamath area has fully paid for the cost of 
the diversion works to the Bureau of Reclamation in, I think 
you said, what was that, 1934.
    Mr. Solem. Our district paid off in 1954.
    Mr. Gibbons. '54, thank you. Since that time, have there 
been any actions with regard to the Federal Government in 
conveying the title to those works to the irrigation district?
    Mr. Solem. No, sir. The Klamath Project title still is in 
the Federal Government--the right of ways, the facilities--and 
there hasn't been any decision or movement to transfer those 
facilities.
    Mr. Gibbons. Has the irrigation district attempted to work 
with the Bureau of Reclamation on acquiring the title to those 
works?
    Mr. Solem. I've been with the district for nearly 20 years, 
and it's kind of a cyclical thing. We, about every 10 years, 
seem to bring up the issue. We are currently looking at that 
situation again and the possibility of transfer.
    Mr. Gibbons. Well, it would seem natural that once you've 
paid for something, you want to receive the title to it. I 
think that's probably the premise under which it was 
constructed. The other issue I have is in knowing that they are 
not delivering their water to you, have they approached you in 
any fashion to offer you relief from the expense of O and M on 
this project?
    Mr. Solem. No, we have-- I know that certain districts have 
paid their O and M to the Bureau already this year. You know, 
we have a contractual obligation, that we don't want to violate 
our contracts, but up to this point, the $325,000 of annual O 
and M, the bills have gone out from the Bureau to be paid.
    Mr. Gibbons. It seems to me that their breach of their 
contract to deliver the water to you should relieve your 
obligation to pay the O and M for this structure.
    Mr. Solem. I would agree.
    Mr. Gibbons. I have a question also, if you could help me. 
Obviously, there's some things that can be done, that you 
talked about earlier, from the Bureau of Reclamation--the 10 to 
15 million dollar project, including fish screens to keep fish 
out of the irrigation canals. Where does that project lie? 
What's its current status right now? Is the Bureau of 
Reclamation coming up with the required money, since it's their 
project, obviously, to fund that program.
    Mr. Solem. That's a very good question, because it's a 
requirement, a reasonable and prudent alternative on the 
funding, it's necessary that the funding goes along with it. To 
this point, there is some money in 2002. I believe it's 3.5 
million in the Bureau of Reclamation's budget, so I mean, it's 
clear that that's inadequate to construct these facilities. The 
problem is that the district is going to be held to a deadline 
for construction of those facilities. We have paid out of our 
pocket for the preliminary engineering design and are more than 
ready to move forward on the final design and get construction 
going, but Reclamation at this point has not been really too 
forwarded in getting funding.
    Mr. Gibbons. Mr. Chairman, I would suggest that when the 
Bureau of Reclamation comes before us in Washington, that we do 
take this issue up and make that a very pointed consideration 
for our efforts back in Washington.
    I want to just briefly talk with Mr. Bishop here for a 
second, because America probably has a very small idea of how 
much family farmers put at risk on a day-to-day basis, whether 
it's planting seed in the ground and hoping that something 
becomes of it, to taking out a loan through your institution to 
help defray the costs. Can you help us, in the brief time that 
I have remaining here, talk a little bit about the risks and 
the costs of an average farmer, what they have to go through, 
what they have to invest in? Why do they come to you to get 
this loan, and then why are we so concerned because of the 
outstanding indebtedness of a farm or a ranch, or something 
like that, when we start talking about shutting off the water? 
Obviously, they've got a debt that has to be paid, just as the 
obligation we talked about with Mr. Solem. Would you help us 
with something like that?
    Mr. Bishop. We are a farmer-owned cooperative system that 
was established, as I said earlier, in 1916, through the wisdom 
of Congress, to provide a dependable, short, intermediate and 
long-term source of financing to farmers and ranchers through 
bad times as well as the good times. And because we are farmer/
borrower owned and they own stock in our organization, they 
have something to say about the direction of the organization 
and participate in governance of our organization.
    They come to our organization to borrow operating funds, to 
buy the seed and pay for the operating costs, to buy equipment 
and machinery, and to buy real estate. And we provide a very 
important role, public policy role to America through being 
that lender that, in the good times and bad times, can be 
depended upon to be here. We have extensively used the FSA 
guarantees that I referred to earlier to help us to work with 
farmers through times of distress. It's very important that 
that program continue to function, and that they're not allowed 
to put additional conditions on those loan guarantees, that 
they've never before put on those loan guarantees, that will 
enable us to stick with the farmers, restructure their loans, 
perhaps re-amortize their loans, so that they won't have to 
face another payment, which would have been paid from the 2001 
crops that obviously aren't going to be there to make that 
installment, to allow them the time necessary to do some of the 
things that have been referred to by some of the previous 
witnesses here today. That's what farm credit is all about. We 
are very concerned about the farming and ranching families 
here. We want to do everything we can to support them.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Pombo. Mr. Simpson.
    Mr. Simpson. Mr. Chairman and Mr. Bishop, I want to follow 
that up just a little bit. You're conditioning their loan 
reorganization, and so forth, based on a full water allocation 
for 2002? Do I understand that to be the case?
    Mr. Bishop. Yes. We've been told that while normally the 
FSA guarantee loan program would be based on normal conditions, 
that perhaps this year they would be conditioned on the full 
water allocation, yes, sir.
    Mr. Simpson. How can you do that when you don't know what 
the water's going to be, what the snow's going to be, you know, 
what the conditions are going to be in 2002? So who's going to 
give that guarantee of a full water allocation? I mean, have we 
conditioned it on something that we can't promise.
    Mr. Bishop. Yes, Congressman. That's exactly my point is 
that by the agency placing that condition on the loan 
guarantees to provide the credit enhancement that we need, the 
farmers don't have the certainty that we will re-amortize their 
loans. We need to start that process immediately, so there is 
certainty that they're not going to have to pay the next 
installment from a crop that's going to be nonexistent. And 
that's where we need the congressional support to work with 
that agency to ask them to follow their own policy and 
regulations when issuing these guarantees to our loans so that 
we can work with the farm families.
    Mr. Simpson. Thank you.
    Mr. Solem, in the testimony that I was reading of the 
Pacific Coast Federation of Fishermen's Association, there's a 
statement that I'd like you to clear up, because we've talked a 
little bit about whether the irrigation district paid for their 
project, and so forth. They say in here, ``The Project users 
have not paid more than about 30 percent of the total cost of 
the Project since 1905, and not even a 70 percent tax payer 
subsidy.'' Which seems to be a little bit in conflict with what 
you were saying. Could you explain that difference or what it 
means?
    Mr. Solem. The project debt was paid off in a variety of 
ways, and there were other things that happened with this 
project beginning in 1905. We went through a depression. There 
were times that there were some payments actually dropped 
during that period of time. We had land--the Klamath City 
Airport was actually land within the district. That land was 
excluded. They didn't require that land to pay their 
construction obligation for that number of acres. I think 
that--you know, the other part of it is that it's kind of a 
complicated formula for Tulelake Irrigation District and they 
went through an inability to pay. Construction payments were 
paid with lease revenue from those lease lands and the 
agricultural production on them. But the bottom line is those 
obligations have been paid, period. There was no subsidy. And 
again, I think Mr. Crawford read something that, actually in 
the mid-fifties, it was already generating tax revenues way in 
excess, from those lands, of any investment that the government 
made.
    Mr. Simpson. So to put it clearly, they have paid their 
obligation.
    Mr. Solem. Absolutely.
    Mr. Simpson. And I was interested in why, once those 
obligations--we have encouraged, the Congress, those Bureau of 
Reclamation projects to be transferred to the ownership of the 
districts, and so forth, and I know that's been a slow process. 
Why hasn't this one been transferred?
    Mr. Solem. I think one of the reasons why is the pay outs 
occurred at different times. Our district, the Klamath 
Irrigation District, is one of the first districts that paid 
out. You had a build-up of the project lands. Ours started 
early, paid off early. Some other lands started the development 
a little later--their payment. Tulelake's was within the last 5 
years--the final payment. We also have a little bit different 
situation than maybe your districts, is there is a component of 
reserve works that are actually operated and maintained by the 
Federal Government, even though those facilities were--there 
was construction payments made on them by the districts. That's 
the O and M that we continue to pay. But I think the time is 
now that we do ask for transfer. But I can tell you, the Bureau 
of Reclamation here said, You are going to be fighting an 
uphill battle, just because of the complexities and the issues 
that we're dealing with here in the Klamath Project.
    Mr. Simpson. Thank you.
    Mr. Fletcher, in your testimony you wrote, ``No one 
involved with the water problems in the Klamath Basin believes 
that the annual operations plans for the Bureau of Reclamation 
is the best way to manage the Project.'' You share that view. 
What changes would you make in the management plans of the BOR?
    Mr. Fletcher. Well, if I were king of the--first off, the 
EIS needs to be done--long-term planning. That has got to 
happen, because we need the same thing that I think Dave and 
others need. We need certainty. You know, the worst thing is 
for us on an annual basis to make a migration back to D.C. to 
plead our case, and then we both live with whatever comes out 
the back end. We have the same problem that the irrigators do. 
There needs to be a good look at the science. There needs to be 
an EIS that's developed for a long-term basis. And the longer 
we prolong that--because we've been hearing EIS since '95, '96, 
and every year we need to get to an EIS, but the annual crisis 
prevents us from getting to an EIS, but it's got to happen.
    Concurrent with that, we've got to have negotiations and 
mediations on a bigger scale. It's not fair, like I said 
earlier, that the Klamath Project is singled out. I fully agree 
with that. We need to pick on everybody equally and do what we 
can to fix these problems in the basin.
    Mr. Simpson. A better way to put that might be for everyone 
to share the burden.
    Mr. Fletcher. Okay, there you go. You know, and I can fully 
appreciate the frustration, because we have the same 
frustration. We look above the lake and we look in the Shasta 
and the Scott, and there are problems. The Scott River is dry. 
It's going to go dry this year. So I don't think we need a peer 
review--you know, zero water in the channel is not good for 
fish. I mean, there's certain things that need to be done so--.
    Mr. Simpson. And I want to echo what the Chairman said at 
the first of this, that whenever we've seen anybody's rights 
trampled on, it's spread to everybody's rights. And I do share 
what he said, as I have studied with Native American tribes in 
my district, the problems that they've had, and quite frankly, 
the way they've been treated.
    Mr. Pombo. Mr. Herger.
    Mr. Herger. Thank you, Mr. Chairman. And I thank each of 
our witnesses and everyone who is here today. I really do not 
have a question, but I would like to make some observations, if 
I could.
    And that is, it would appear to me that really the problem 
that we have--the major problem we have is not that of the 
drought and not enough water, in my opinion. We've had droughts 
before. We have them periodically. The fish have made it, the 
people have made it. Had it in '92, we've had it in the 
seventies and the eighties. To me, that's not really the 
problem.
    And I think--Mr. Chairman, I think you hit on it before in 
an earlier panel when you mentioned something to the extent 
that the ESA, Endangered Species Act, is not being applied the 
same way in the East and the West. You gave the example that 
we've been becoming aware of here in the last few months, on 
the Potomac River in Washington D.C. where they're literally, 
every month, dumping huge amounts of toxins in the river, and 
our good environmental friends aren't saying anything. As a 
matter of fact, they're ignoring it. And we have even brought 
it to their attention, and they still ignore it. So we see what 
is clear, or it would seem clear to me that we're really seeing 
a war in the west. We're seeing a war on western states, and I 
think Mr. Kerr summed it up.
    The idea is that, as someone mentioned, in this county, 57 
percent of your county is federally owned. I have counties in 
my district that 92 percent are federally owned and 78 percent 
are federally owned--in the entire State of California, over 
half of the State. But to our friends in the extreme 
environmental movement, that's not enough. They want it all.
    And so we hear what so bothers me every time I hear it--
please excuse me, but this willing seller. I mean, we bankrupt 
someone, we make it so their property is worth something, and 
then we force them into either foreclosing to the bank or 
becoming a willing seller. And again, it seems for some reason 
we see it in the West, not so much in the East where we have so 
many of our environmental extreme friends seem to reside. And 
it's not just here in the Klamath Basin. It's not just with 
farmers.
    At a levee on January 2 of 1997, very close to where I 
live, down in the southern part of my district near Marysville 
and Naraboga area--the Corp of Engineers in 1991 came in and 
said, There will be a loss of life if this levee isn't repaired 
on the Feather River. Our good friends in the extreme 
environmental movement sued.
    And Mr. Kerr, I have looked through your statement, your 
testimony that you have printed, and I respectfully feel very 
resentful how even in your testimony one of your comments is, 
``Our attorneys are salivating at the prospect,'' basically of 
suing, having to do with the God Squad. Salivating. Now, I 
salivate on chocolate chip cookies, but to think of 
salivating-- It would be humorous if it weren't so tragically 
serious.
    On this levee, 6 years later, 5 years later, three people 
lost their lives on a levee that the extremists within the 
endangered species community or the extreme environmental 
community, they also were salivating to sue, and they did sue, 
and they sued, and they held it up for 5 years and three people 
drowned there. And you know what their comments were 
afterwards? Not that much different than what we're hearing 
now. ``We should never have built those levees. These rivers 
should meander. That's what they all did. They were built on 
flood plains.'' We should all live in the mountains, I guess. 
It's the only place in the valley that doesn't flood.
    Somehow that doesn't make sense, and somehow a country that 
can put men on the Moon in the 1970's--now, I'm old enough to 
remember that and I'm also old enough to remember, in the 
earlier 1960's, just in high school, when John F. Kennedy--we 
didn't even have air conditioning in our cars at that time, but 
he made a statement that we were going to not only put men on 
the moon, but we going to bring them back alive. And we did 
that in 10 years, and yet somehow we cannot work together to 
solve what challenge has been going on for thousands of years, 
of droughts and floods and everything else, so that we can both 
protect endangered species and homo sapiens, humans, as well? 
That's wrong. That's tragically wrong, Mr. Kerr. And an even 
though I respect you, I very much resent-- I sincerely respect 
you, personally, but at least the statements and what you have 
written here, that rather than working together, that you 
salivate to sue if we should work together to try to solve this 
problem, really concerns me and I think really shows us what 
we're up against. The extreme environmental community, which 
evidently it would appear that you represent, has declared war 
on us. And you know, we are not going to cry uncle. We're not 
going to give up. We're going to stand up for our rights and 
we're going to win the war.
    Mr. Pombo. Mr. Hastings.
    Mr. Hastings. Thank you very much, Mr. Chairman. I want to 
thank the panel also for being here. I want to add my 
congratulations, I guess, to Mr. Foreman and Mr. Fletcher for 
the tone in which you said you wanted to work together. And I 
say that recognizing that there is tension between tribes and 
people, and that goes on. I have two tribes in my district and 
there is tension that is always about and will probably never 
go away. That's part of the challenge of a self-government in 
the first place. But I think the difference in your tone, and 
certainly the tribes in part in my district, is that you live 
here, your families live here, you work here, and you want to 
find solutions to the problems. That's very hard to come by, 
but the idea is the willingness to sit down to come to common 
ground. And I think the trick that we have to do, the challenge 
that we all have is to try to find that area, those areas that 
we have common agreement from the start, and work from there.
    One area, for example, in my congressional district, where 
there is broad agreement with the tribes--probably not unity, 
but certainly broad agreement--is an issue that hasn't been 
brought up here, but I know exists here to a certain extent 
regarding the salmon, with the debate of wild and hatchery 
salmon. The tribes, for example, in my district, for the most 
part want to see salmon return and they're not so hung up on 
the idea of whether they're wild or salmon because I think that 
they look at the science and they agree there's not a whole lot 
of difference. And just briefly, do you share that the main 
concern is to try to get the fish back? Let's not get too hung 
up on the science. Is there a broad agreement with you on that 
also? You're more the salmon--.
    Mr. Fletcher. I'm the salmon guy, yes. We need adequate 
numbers of fish to provide for a robust fishery sufficient to 
meet a whole host of needs. The issue about natural versus 
hatchery salmon, that's a big, long debate that there's all 
kinds of issues on, but we typically support--on the Klamath 
River, for example, the Klamath Fishery Management Council is a 
body of commercial, sport, Federal agencies, tribes, and we 
come up with the best management practices for our respective 
harvests. We come up with harvest objectives, we come up with 
escapement objectives. And at present, for fall Chinook, we 
average for a 66 percent harvest on fall Chinook, natural 
populations, and we have a floor of 35,000 fall Chinook, 
natural population. Within that, the population of the 
hatcheries--the return to the hatcheries will swing up and 
down. I would say that the natural populations are equally as 
important as the hatchery fish, and I don't want to say that 
you can replace those populations with hatchery fish. You just 
can't do it.
    In the Klamath Basin there's still a lot of tributaries 
that are pristine--the Salmon River, the north fork of the 
Trinity, the south fork of the Trinity, New River on the 
Trinity, even the Shasta and the Scott. Those are all natural 
producing systems that the hatchery can't replace the 
production from those systems.
    Mr. Hastings. Yeah, and I wasn't suggesting that, because 
again on the extreme side, the extreme side says you can't co-
mingle whatsoever. And I mentioned in my opening remarks about 
the clubbing of the fish. Let me suggest that there may be a 
solution to this that we all ought to be aware of, because the 
first issue is the one that I addressed earlier about how much 
water is enough. And I think as we go along, we're going do 
somehow agree how much water is enough. The minute we do that, 
we'll find a solution. And we will find a solution, I have no 
doubt in my mind, which will lead then to the next argument of 
the debate between wild and hatchery, and I think we'll have to 
find it out the. But I think it's worth an anecdote in order to 
illustrate that even that solution is probably at hand.
    When I was growing up I heard about the buffalo on the 
great plains of the United States, and was well aware of when 
we settled the great plains, we moved out of the natural 
habitat, the buffalo. And pretty soon, when the wheat country 
grew up and settled in the great plains, there was no buffalo. 
But somebody thought that the buffalo was worth saving. Now, I 
don't know if that person was down to the last two buffalo or 
not, but the point is, they thought it was worth saving, and 
they made that decision before the Endangered Species Act was 
put into place. And now, of course, we know--I have buffalo in 
my district, people raise buffalo. Buffalo is a commercial 
product. Let's just remind ourselves of what we're talking 
about. They are hatchery buffalo. And so I say that in a sense. 
If the Klamath Basin has not been faced with this yet, it's 
coming. Just keep that anecdote in mind.
    And then as far as the solutions are concerned, nobody is 
suggesting that the people in the great plains--Topeka, 
Lincoln, Wichita--completely move out so that the buffalo can 
have their wild habitat. Nobody is suggesting that. Yet in the 
Northwest, when there was discussion about removing the dams on 
the Lower Snake River, that was precisely what they were asking 
us to do. Again, it's a double standard that the Chairman 
pointed out. So I am confident that in the long run, when the 
people are more and more aware of the issues that are being 
driven, from my point of view, by the extreme environmental 
side--we're seeing this in California on power right now, and 
that awareness is higher. But when the awareness gets higher, 
people become educated, they ask the right questions, and what 
do they find at the end of the day for everybody? They find a 
solution. So I am encouraged about the willingness to work this 
out. We have to get through this tough time for the people 
living here this year. That's the challenge that we have. Thank 
you, Mr. Chairman.
    Mr. Pombo. I want to thank this panel for your testimony. 
I'm going to go ahead and excuse this panel, but if there are 
any further questions from the Committee, they will be 
presented to you in writing, and if you could answer those in a 
timely manner for the Committee, I'd appreciate it. Thank you.
    I'd like to call up our fourth panel; Mr. Zeke Grader, Mr. 
Bill Gaines, and Mr. Robert Gasser.

 STATEMENTS OF ZEKE GRADER, EXECUTIVE DIRECTOR, PACIFIC COAST 
FEDERATION OF FISHERMEN'S ASSOCIATION; BILL GAINES, DIRECTOR OF 
 GOVERNMENT AFFAIRS, CALIFORNIA WATERFOWL ASSOCIATION; ROBERT 
               GASSER, KLAMATH BASIN BUSINESSMAN

    Mr. Pombo. I want to thank this panel for joining us here 
today. And again, I would remind you that if you can try and 
limit your oral testimony to 5 minutes--your entire written 
testimony will appear in the record, but if you can try to 
limit your oral testimony to 5 minutes, we'd appreciate it. Mr. 
Grader, if you're ready, you can begin.

                    STATEMENT OF ZEKE GRADER

    Mr. Grader. Thank you, Congressman Pombo, and thank you 
Congressman Walden, Congressman Herger, Congressman Hastings 
and our friends here also from Nevada and Idaho for holding 
this hearing today. I know this is a very difficult issue.
    Mr. Pombo. Would the gentleman suspend for just a minute? 
If I could have order with the audience, please. I'm even 
having a difficult time understanding him, so please-- Go 
ahead.
    Mr. Grader. Thank you again for bringing this hearing to 
Klamath Falls. I would hope that also at some point the 
Committee could also come out to Eureka to hold a similar 
hearing and basically get testimony from people on both ends of 
the Klamath River system. I think it would be very helpful in 
your deliberation as we seek to bring everybody together to try 
and find some solutions for these very difficult issues.
    My organization represents working men and women in the 
commercial fishing fleet, mostly in California, but we also 
have members in Oregon and Washington as well, and probably the 
bulk of our members are what they call commercial salmon 
trollers, people who make their living fishing on the ocean. 
They are food producers, which I need to remind people of now 
and then. You have a copy of my testimony so what I'd like to 
do is just briefly talk to you. I know this has been a long day 
and a long hearing, so let me just try and be brief and just 
make a few points.
    The Klamath Basin, as you know, historically was the third 
major salmon producing Basin in the lower 48 States. It was a 
tremendous system, probably a million or so fish at one time, 
second only to the Columbia system and the Sacramento, San 
Joaquin system. Myself, I grew up in the fishing industry in a 
place called Fort Bragg on the north coast. Some of you may be 
familiar with it. Up until about 15 years ago, that port was 
the largest ocean salmon port along the Pacific coast. More 
fish caught in the ocean were landed in that port than any 
other place along the coast. That was then. Today is now. Today 
we have a fraction of the fish going there, mostly because of 
closures that have been imposed to protect Klamath River 
Salmon.
    The history of our salmon is not something new. In 1971 the 
California legislature, a couple years before, had put together 
something known as the California Advisory Committee on salmon, 
steelhead, trout. And in 1971 it issued its first report called 
an Environmental Tragedy. Now, 30 years ago most people didn't 
even know what the word environmental meant, and it was at 
least a year or two before the passage of the ESA, the Clean 
Water Act, the National Environmental Policy Act. But these 
people, made up of commercial and sport fishermen, I believe a 
tribal member, as well as fishery biologists, pointed out then 
some of the ongoing problems that we're looking at in the 
salmon fishery, and particularly the diversions in the Trinity 
River system. Of course, the Trinity goes into the Klamath 
system. That was being diverted to another Federal water 
project, the Central Valley Project. There were also problems 
identified full well with some of the land use practices that 
were going on, as well as the diversions, and the threats that 
were being made to the salmon populations.
    Fast forward now 7 years to 1978. At that time the Bureau 
of Indian Affairs came out to California and said that we have 
to begin restricting ocean fishing of Klamath stocks to provide 
for the Indian tribal rights there, particularly for the Yurok 
and the Hoopa Tribes. That's fine, except that in the 1950's 
this very same Bureau of Indian Affairs and Department of 
Interior were saying that there were no such rights, and the 
fishing industry based their production, gearing up, building 
new boats, on the fact that pretty much they had clear rights 
to these fish in the ocean. In fact it was the same Department 
of Interior at that time that the Federal Fishery Agency was 
under, known then as the Bureau of Commercial Fisheries, the 
precursor to out modern National Marine Fishery Service.
    We had fishing vessel guaranty programs, tax programs for 
fishermen to be able to set aside money to build new boats. 
Indeed, Production Credit Association, who we heard from in the 
last panel, was lending money to the fishing fleet to buy new 
boats, so we were being told by another Interior agency, Go 
ahead, build up your fleet, these fish will be there. At the 
same time, as we well know, the Bureau of Reclamation, yet a 
third agency of the Department of the Interior, were telling 
farmers, both in this Basin as well as those serviced by the 
Federal Central Valley Project, that there would be plenty of 
water for them.
    Well, I think that's where we are today. We've got a 
situation where we had the Federal Government promising much 
that it could not deliver on, often times in conflict, 
apparently not talking to one another. The situation is that in 
my hometown now there virtually is no commercial salmon fishery 
left. There isn't along much of the California coast. In fact 
from San Francisco all the way to about the mid-coast of the 
point of Oregon, much of that is closed for all or a good part 
of the season to protect Klamath stocks--to try and protect 
them. This year, even with the predicted abundance of our 
Sacramento fall run Chinook, we cannot get to those fish 
because, whoops, the fish moved north this year. They're not 
being found off the central valley coast, and this happens in 
nature. They follow the feed, they follow current patterns. So 
right now we have a fleet that's pretty much tied up along the 
California coast because they cannot access the fish because 
they have implemented to try and protect those remnant stocks.
    The situation, of course, with Coho salmon, which was what 
brought on part of the crisis we're faced with here today, or 
caused at least the bi op and the order to restrict the water--
I should remind everybody that we have not had a Coho fishery 
since 1994. So it's obviously not a problem in the ocean of 
fishermen taking them. We have not been able to fish them, so I 
just want to make that issue clear.
    Now, there have been many here today that have said, Well, 
the problem is the Endangered Species Act. I would respectfully 
disagree. I think the Endangered Species Act, while it may not 
have always been implemented correctly, is more so than 
anything a messenger, and going after the ESA, in many 
respects, is like trying to kill the messenger. There have also 
been some that have said, Well, it's the fish. Well, you know, 
it doesn't take a lot of rocket science to know that fish gotta 
swim. In fact I think that was Oscar Hammerstein that said 
that, and we've heard that today from some panel members. We do 
know that fish have to have water, unless we develop some 
genetic engineering that allows them to grow legs and lungs. 
Right now, today, the way fish are, they've got to have water.
    And, third, people have said, Well, it's those greedy 
fishermen that have caused the problem. Again, I would 
disagree. I think that the problem has been that what we're 
left with in the fishing industry is we're just trying to save 
what remnant populations we currently have. We're trying to 
restore some of them, but we don't have any illusions about 
bringing them back to their historic levels, but we would like 
to save some of them so our people can continue working, can 
continue producing fish.
    Now, I think there are some solutions here, and I think we 
heard some today. I think one is, despite what we heard from 
some of the crowd, is that for those people that do want to get 
out, that they be offered just compensation. This is no 
different than what we're proposing right now for our ground 
fish fleet. Senator Wyden has a bill that would help buy out 
the ground fish fleet. There again, the government promised 
fish that weren't there, and we're trying now to give some of 
those people a way out so that we can provide stability for 
those that remain.
    Second, I think, obviously, we do need to have some 
immediate disaster relief. What the growers in this area 
experienced here was no different than what we experienced in 
the fishing fleet when we had the severe El Ninos, what 
ordinarily occurs when we have floods and hurricanes. This was 
a natural disaster. You've had an extreme drought. They ought 
to get some money and they ought to be compensated so we can 
keep these communities alive.
    Finally, I think we do need to provide some Federal 
assistance in helping develop some of the ground water basins 
here, to take a look, so you're not entirely dependent on 
surface water, so you have this mix so that in drought years 
you have other sources of water to access.
    Finally, I think we need to come up with a good restoration 
plan. I think I would agreed with my friend Troy Fletcher and 
some others. We need to get everybody in this Basin together. I 
know I've learned a lot here today from listing to various 
people and what they say, and I think that probably the best 
solution we can have is to bring everybody together. We started 
that under the Klamath Restoration Program in the 1986 
legislation by then Congressman Doug Bosco, and I think we need 
to continue on that process. I think we've got everybody's 
attention now. I won't quote Lyndon Johnson, but I do think 
that we need to bring everybody together and see if we can't 
work out some ways to where--I think we need some good 
restoration programs on that might then free up some additional 
water that could then be used in this basin. Thank you.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Grader follows:]

   STATEMENT OF WILLIAM F. ``ZEKE'' GRADER, JR., EXECUTIVE DIRECTOR, 
          PACIFIC COAST FEDERATION OF FISHERMEN'S ASSOCIATIONS

    Good morning. I am the Executive Director of the Pacific Coast 
Federation of Fishermen's Associations (PCFFA), the west coast's 
largest organization of commercial fishing families. PCFFA represents 
thousands of working men and women of the west coast commercial fishing 
industry and has member fishermen's associations and individual members 
in ports from San Diego to Alaska.
    We are a major west coast industry, generating many billions of 
dollars annually to the region's economy, and supporting tens of 
thousands of jobs in coastal communities as well as providing high 
quality seafood for America's tables and for export. However, it is no 
exaggeration to say that many of those coastal fishing-dependent 
economies are now in economic crisis as fisheries have declined 
coastwide. This is particularly true for salmon fishermen, who have 
suffered enormously from the loss of salmon habitat and the de-watering 
of many of our most productive salmon-bearing rivers and streams. This 
impact has hit especially hard in the Klamath Basin. Now the Klamath 
River suffers from major fish kills as a result of low flows to such an 
extent that we now have several basin species listed under the federal 
Endangered Species Act (ESA), including once abundant coho salmon.
    The Klamath Basin (9,691 sq. miles) was once the third most 
important salmon producing river system in the nation, producing an 
estimated 660,000 to 1,100,000 million adult fish annually. Now river 
conditions are so bad that most of these runs are either gone or so 
reduced in numbers as to be nearing extinction. At present, the 
``recovery'' goal for this system is to return at least 97,500 natural 
spawners to the system each year, a very modest goal that has still 
never been met. Even if met, this still means a total reduction of 
Klamath salmon populations by 89%. As a result, commercial fishing is 
almost non-existent throughout the ocean area in which Klamath salmon 
most frequently travel, the ``Klamath Management Zone (KMZ).''
    A big part of the problem for downriver salmon is reduced water 
quality and quantity from upper river sources because of the Klamath 
Project. The Klamath Basin works as a hydrological whole, and what 
affects water quality in the upper basin has a huge impact downriver.
    Unfortunately, diversion of natural waterways and draining of 
wetlands has taken an enormous toll on the Klamath Basin's ecology and 
wildlife. More than 75 percent of the Upper Basin's wetlands have been 
drained and converted to agriculture, down from 350,000 acres to about 
75,000 acres. Each acre of wetlands represents an enormous natural 
storage sink for water to buffer dry seasons and drought, as well as 
nature's most efficient water filtration system to keep water quality 
up. As a result of the loss of both water storage and water quality 
filtration of wetlands, fish and wildlife populations have declined 
dramatically. Klamath River Coho salmon are now listed as a federally 
threatened species and all species of salmon are now extinct above 
Irongate Dam because that structure provides no passage for fish. C'wam 
and qadpo (i.e., the Lost River and short-nosed suckers but originally 
called ``mullet''), once widely abundant and a mainstay in the diet of 
the Klamath Tribes as well as a major and valuable recreational fishery 
for the Upper Basin, are now also on the endangered species list.
    The Klamath Irrigation Project and other development in the upper 
Klamath Basin has had three major impacts: 1) wildlife habitat has been 
destroyed; 2) water quality has been degraded; and 3) the natural water 
storage capacity of native wetlands and other habitats has been lost. 
The hydrology of the Klamath River has been greatly altered, both 
reducing the overall storage capacity of the system as well as 
compounding the competition for water that is the impetus for this 
hearing.
    A number of restoration projects are underway in the Klamath Basin, 
but without real change in overall water and land management, the 
current state of affairs is simply unsustainable. According to the U.S. 
Fish and Wildlife Service, for example, if water management proposals 
now under consideration by the Bureau of Reclamation are implemented, 
12,000 to 18,000 acres of the 23,000 acres of wetlands on the Lower 
Klamath National Wildlife Refuge will go dry during the fall waterbird 
migration in half of all future years. Smaller but still significant 
impacts would occur in an additional 28 percent of future years. This 
year, for instance, the refuges may go dry entirely, devastating 
protected bird populations from all over the west coast who use the 
Pacific Flyway.
    In recent years, water quality from the upper Klamath Basin has 
been so poor that massive salmon die-offs have resulted far downstream. 
In 2000, more than 300,000 salmon deaths were recorded in the lower 
river, directly attributable to elevated temperatures caused by too 
little flow. Even the Iron Gate Hatchery cannot operate with water 
conditions so poor as they have been in many recent years.

    Crucial Economic Importance of the Klamath Basin to West Coast 
                               Fisheries
    Both Oregon and Northern California coastal communities are 
directly affected economically by the environmental degradation that 
has been allowed to occur within the upper Klamath Basin by the 
operations of the Klamath Project.
    First off, Iron Gate Dam in Northern California (just south of the 
Oregon border) is the end of the line for Pacific salmon, since it was 
originally built with absolutely no fish passage, and all salmon runs 
above that dam are now extinct. More important for this discussion, 
however, is the diminished water quality and quantity flowing through 
Iron Gate Dam, coming directly from the Klamath Irrigation Project. 
Water released by the Klamath Project has for many years been of such 
poor quality, and such minimal quantity, that Iron Gate Hatchery (the 
largest and most important salmon hatchery in the basin) functions only 
very poorly or not at all. Iron Gate Hatchery uses river water for its 
operations. Whenever river water is too hot, too polluted or just too 
little in flow, that hatchery fails! Even if some juvenile fish do 
emerge from that hatchery, in many years in-river hot water 
temperatures and pollutants are so bad that water conditions kill them 
quickly. <SUP>1</SUP> Furthermore, declining water quality and nitrate 
pollution coming out of Iron Gate Dam <SUP>2</SUP> ead to downriver 
water quality problems that extend for many miles downriver, which also 
disrupts natural production of wild salmonids.
---------------------------------------------------------------------------
    \1\ Salmon are cold-water fish and need cold water or their eggs 
will not hatch. Mortality of incubating salmonid eggs greatly increases 
as water temperatures rise from 56 F. (13.3 C.) to 60 F. (15.6 C.), 
which is usually considered the lethal limit. Water temperatures 
downstream from just below Iron Gate Dam downstream routinely exceed 
this lethal limit through mid-October. Spring-run chinook spawn from 
mid-August to mid-October, and fall-run chinook spawn from mid-
September through early-December. High water temperatures at Iron Gate 
have thus greatly narrowed the spawning windows for both these 
subspecies and also greatly reduced the range of ESA-listed coho salmon 
by blocking access to cold water tributaries.
    \2\ Nitrate laden runoff from agricultural fertilizers creates 
algae blooms which steal dissolved oxygen from the water that fish need 
to breath. The fish die of suffocation.
---------------------------------------------------------------------------
    It is not just hatchery fish that suffer, but many wild runs as 
well. Salmon must have cool, clear and abundant water just to survive. 
The extremely high volume irrigation diversions managed by the Upper 
Klamath Irrigation Project have, as a disastrous side effect, literally 
de-watered several key salmon spawning grounds in the Klamath River 
below Iron Gate Dam for parts of most years. It is not uncommon to 
loose 25% or more of all salmon nests to dewatering, in spite of all 
efforts to save them, amounting to a huge economic loss to coastal 
salmon fisheries and triggering major fisheries closures.
    Even the water that is released from the Klamath Project is often 
filled with agricultural fertilizers, pesticide residues and waste from 
runoff in the fields. These pollutants in and of themselves can kill of 
much of the aquatic life below the dam. Young salmon and salmon eggs 
are much more sensitive to toxic chemicals than fully mature adults, 
and scientists have already documented many long-term and debilitating 
problems, including developmental deformities, as a result of chronic 
pesticide exposures in even very small amounts well below current 
expose standards. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ See for instance, Diminishing Returns: Salmon Decline and 
Pesticides, a publication co-sponsored by the Institute for Fisheries 
Resources, available on the Internet at: http://www.pond.net/?fish1ifr/
salpest.htm.
---------------------------------------------------------------------------
    In essence, the lower river system has been engineered to be, and 
is often treated as, nothing more than a huge drain for the Upper 
Klamath Basin. However, the Klamath is not a drain, it is a river, and 
its ecological needs must be respected. This means that adequate water 
quality and quantity must be released from the Klamath Project 
sufficient to support salmon spawning and rearing, which in turn 
supports coastal salmon-dependent economies and communities.
    Unfortunately, the way the Klamath Irrigation Project is currently 
managed has greatly changed both the amount and nature of natural river 
flows we get downriver. Prior to Project construction, the Upper 
Klamath contributed as much as 35% of the total flow of the whole 
Klamath River at its mouth in a typical August. Today as much as 90% of 
that amount of water is captured by the Klamath Irrigation Project, 
particularly in a dry year, with the remaining 10% released below Iron 
Gate Dam essentially agricultural waste water of such low quality that 
it routinely triggers major downriver salmon fish kills. <SUP>4</SUP> 
In other words, the total impact of Project operations has been an 
order of magnitude reduction in total flows below Iron Gate Dam, a 
complete change away from natural seasonal flow characteristics, and 
highly degraded water conditions for what remains and is released. 
These highly degraded conditions are clearly major contributing factors 
in overall salmon declines in the lower Klamath Basin, often resulting 
in major fish kills.
---------------------------------------------------------------------------
    \4\ Figures from Initial Assessment of Pre- and Post-Klamath 
Project Hydrology on the Klamath River and Impacts of the Project on 
Instream Flows and Fishery Habitat, Balance Hydrologics, Inc. (4 March, 
1996) prepared for the Yurok Tribe. There is a fiction being espoused 
by upper river irrigation interests that the original flows above Iron 
Gate dam were only 2% of total Klamath river flows at its mouth, but 
this number is patently incorrect. The actual percentage varied 
seasonally, but peaked at about 35% in a typical August according to 
1911-1913 pre-Project flow records and was generally above 25% from 
July--October when those flows were most important.
---------------------------------------------------------------------------
    Klamath River salmon, once they reach the ocean, swim both north 
and south where some portion of them are then available for harvest. In 
the past, roughly 30% of all fall chinook landed between Coos Bay, OR 
and Fort Bragg, CA, for instance, were Klamath River stocks in origin 
(See Table 1). Thus when these fish decline, as we have seen in recent 
years, major fishing ports from Ft. Bragg, CA to Coos Bay and Florence, 
OR are severely impacted economically. Currently, all ocean and 
recreational salmon harvests within this ``Klamath Management Zone 
(KMZ)'' is specially restricted by the Klamath Fisheries Management 
Council or by state agencies to promote recovery of these severely 
depressed fish. As a result, when stocks are low (as we have seen for 
many years) most commercial fishing in the KMZ area is either closed or 
severely restricted, resulting in tens of millions of dollars in 
losses.
    The Klamath stocks are also key indicator species for harvest 
levels all the way from central California to the Canadian border. All 
of our ocean salmon fisheries are now managed on a ``weak stock 
management'' basis. This means that the weakest stock becomes the 
limiting factor on ALL OTHER FISHERIES, regardless of how abundant 
those other stocks might be. The requirement to avoid catching any 
severely depressed Klamath chinook stocks, or any ESA-listed coho, 
therefore limits harvest opportunities on all the otherwise abundant 
(hatchery origin) fish populations from the California Central Valley 
well into areas above Oregon.
    In other words, it costs fishermen tens of millions of dollars in 
lost economic opportunities just in order to reduce fishing impacts to 
a minimum on all these severely depressed Klamath River stocks. 
Klamath-driven closures and restrictions thus result in lost fishing 
opportunities for ports as far south as Monterey Bay and as far north 
as to the Canadian border.
    Restoration of the Klamath Basin's salmon production is thus 
critical to the future of salmon fisheries over much of the west coast 
north of central California.

  Over-Allocation of Klamath Project Irrigation Water Has Devastated 
                  Water Dependent Coastal Communities
    To be blunt, the Klamath Project has simply over-allocated the 
available water. As a direct result, there is too little water for 
downriver salmon production (and ESA listings there), too little water 
to maintain fish in the upper Klamath lakes (and ESA listings there) 
and too little water provided to the national wildlife refuges (and 
major bird kills there). The Klamath Project is simply using more than 
its fair share, leaving far too little water to maintain overall 
aquatic health.
    The fact that there are several species of Klamath Basin fish 
already on the Endangered Species Act list, serious problems with Iron 
Gate Hatchery operations, and major downriver fish kills nearly every 
year now should tell us that something is seriously wrong. What has 
gone wrong is that there are too many acres now irrigated in what has 
historically always been a very dry and water-limited basin. We will 
face increasing water conflicts unless the Project either reallocates 
and conserves the water it now has, including making sure we have 
adequate instream flows for fish and wildlife and to the refuges, or 
more water storage is developed quickly. Frankly, things are so bad now 
that we must do both.
    The fate of downriver and ocean salmon fisheries are directly tied 
to the quality and quantity of water released by the Bureau or 
Reclamation through Iron Gate Dam. In spite of our arbitrary political 
boundaries, the whole basin is hydrologically interconnected. Thus, as 
we have seen, whatever happens in the Upper Klamath Basin dramatically 
impacts downriver fishing-dependent communities and their allied 
businesses. In past years, as water released past Iron Gate Dam has 
been reduced in total flow and become more and more saturated with 
nitrate-laced runoff, sediment and agricultural chemicals, these 
downriver impacts, particularly on fishing-dependent communities, have 
accumulated to the level of an economic disaster.
    Downriver economic losses have already been staggering. Roughly 
3,780 family wage jobs have already been lost in these downriver 
fishing-based economies (representing a net loss of economic impacts of 
$75.6 million/year) by the failure to protect and restore salmon within 
the Klamath Basin, and several thousand remaining jobs are now at risk. 
<SUP>5</SUP> While Klamath Project operations have not been the sole 
factor leading to recent major in-river fish kills, poor water quality, 
nitrate pollutants and too little in-river flows directly related to 
over-appropriation of water by the Klamath Project for agriculture have 
certainly been a major factor.
---------------------------------------------------------------------------
    \5\ These are estimates done by the Institute for Fisheries 
Resources (IFR) for an as yet unpublished report, The Cost of Doing 
Nothing: The Economic Burden of Salmon Declines in the Klamath Basin, 
based on reconstructions of historic salmon runs and using standard, 
well accepted economic analysis.
---------------------------------------------------------------------------
    Every dead salmon in the lower river is another fish that can never 
be harvested, and will never provide income to hard-working downriver 
salmon fishermen. Right now very little fishing is allowed in the 
Klamath Management Zone for just that reason, because the fish are 
simply not surviving increasingly hostile river conditions.
    We support the right of upper Klamath farmers to a fair share of 
the water, but the irrigators are not entitled to take it all. 
Sufficient water must be reserved for salmon production for our 
industries and our families as well, both for sound biological as well 
as sound economic reasons.
    Water left in the river has just as much economic value to coastal 
Oregon and Northern California ports as it does used on the ground for 
Klamath Falls agriculture. A fishermen's job is no less valuable than a 
farmers, a fishermen's family no less deserving.
    Millions in federal funding is now going toward salmon restoration 
in the Klamath. It does no good to pour millions of dollars into 
ecosystem restoration when federal funds are also simultaneously used 
to de-water rivers we are trying to save. It is much cheaper to prevent 
disasters than to fix them once they have occurred.

Water Planning Must Be on a Basin-Wide Basis, Including Both States and 
                             All Interests
    It is all too often forgotten in Oregon, my home state, that 
roughly two thirds of the Klamath Basin lies in California. Thus the 
Klamath Irrigation Project, which over the years has reduced the total 
flows from the upper Klamath River to California by nearly an order of 
magnitude and polluted the whole upper river, has had tremendous 
impacts over the border in California. In a real sense, Oregon has 
simply exported its pollution to California.
    Any solution to Klamath Basin water issues MUST involve elected 
officials as well as the agencies of both states. Any solution MUST 
also involve the full range of stakeholders, including the downriver 
Northern California coastal communities that have seen their fisheries-
based economies systematically strangled, and also including the lower 
river Tribes whose cultures have been violated and whose fishing rights 
have been rendered all but meaningless.
    Unfortunately, the Bureau of Reclamation has long managed the 
Klamath Project simply to provide as much water to irrigators as 
possible, but without regard to the environmental consequences or to 
other downriver and coastal economic sectors. The consequence has been 
to create unnecessary conflict between Tribal rights, fisheries and 
wildlife on the one side with Klamath Falls farmers on the other, a 
conflict that is unnecessary and ultimately counterproductive. In a wet 
year, these conflicts were apparent and pervasive but largely ignored 
by the Bureau and therefore unresolved. Now, in this extremely dry 
year, these conflicts have reached crisis.

Farmers Should Stop Blaming the ESA and Get To Work Solving Their Real 
                                Problems
    As small-scale family food providers, commercial fishing families 
are very similar to, and generally very sympathetic to, the plight of 
upper basin farmers who may be facing a year with no water because of 
forces over which they have no control. However, we must also inject a 
note of reality into the current near-panic. The problems facing upper 
Klamath Basin agriculture are not primarily driven by either water 
shortages (except on a short term basis) nor the increasing need to 
protect flows for fish and wildlife. Nor can the blame be ascribed, as 
some would have it, to the Endangered Species Act, which is after all 
only the messenger. Upper Klamath Basin farmer's problems are much more 
pervasive and systemic, including:
    1. Climate and Location of the Klamath Basin Is Not Ideal for 
Agriculture: The high elevation of the upper Klamath in and around 
Klamath Falls (in excess of 4100 feet), and the resulting short growing 
season with both late and early frosts, has made it difficult to grow a 
wide variety of crops. Reliance on traditional temperature-hardy crops 
such as onions, sugar beets and potatoes, however, has created problems 
in itself because these commodities are in oversupply in both US and 
world markets.
    Likewise, Klamath Falls is not near any major transportation hubs 
of the region, and so farmers there have more difficulty and expense in 
shipping their produce to world markets than farmers in many other 
regions. These problems add to their total production costs.
    2. LMany Upper Klamath Farming Operations Can No Longer Compete in 
World Markets: Because of the additional transportation costs, short 
growing seasons, and other added costs of Klamath Falls agriculture, 
many growers can no longer compete in the world markets. Some Upper 
Klamath Basin potato farmers, for instance, chose last year to plow 
their potatoes into the ground because they would have lost money 
competing on saturated and depressed world markets. Many of these crops 
have been declared as ``surplus'' and their growing operations are 
supported not by a healthy market, but by federal surplus crop payments 
from the federal Treasury. Klamath Basin cannot even compete cost 
effectively with potato production in Idaho, much less foreign markets, 
and the same is true for many of its products.
    3. LProcessing Capacity Has Left the Basin: Secondary or value-
added processing is one major ways agriculture remains profitable and 
serves a variety of markets. However, potato and sugar beet processors 
and other processing plants have left the basin, largely because of the 
first two factors mentioned. It is no longer economically feasible for 
major processors to remain in the basin because of transportation 
costs, limited and uncertain production, and oversupplied world 
markets.
    4. Conflicting Uses: Some 20,000 acres of the national wildlife 
refuges (public lands) is now leased out to private parties for row 
crop farming. Oddly, these lease lands have first call on water that 
would otherwise go to the refuge. In other words, even when the refuge 
wetlands themselves are threatened with drying up, the farms on the 
refuge continue to receive full water! Additionally, those farms are 
allowed to use pesticides and agricultural fertilizers that are well 
known to damage wildlife in the refuges. Lease land farming on the 
refuges is clearly a conflicting use, and should be phased out by 
nonrenewal of these leases, which are on five-year renewable terms. In 
order to keep those farmers whole, there are a number of opportunities 
at present to simply move lease holders to farmland now for sale 
outside the refuges on a willing seller--willing buyer basis, and this 
would be a good use of federal funds, freeing up additional water for 
the refuges as well as allowing those farmers who wished to continue in 
operation to do so.
    Most of these problems have little or nothing to do with ESA listed 
species, but rather with the costs of production, conflicting uses, 
global gluts and an increasingly volatile and interconnected world 
market. Klamath Basin farmers are far more oppressed by world trade 
agreements and increased global competition than by any endangered 
species.
    Fortunately the Klamath County economy has been swiftly 
diversifying in recent years, and the farming sector now accounts for 
only about 6 percent of total county employment. Most new jobs in 
recent years, and those projected over the next several years, will be 
in other sectors as the economy matures. The Klamath County economy 
will survive, and even thrive in the long run, if traditional 
agriculture within the county is cut back to more sustainable, and 
ultimately more profitable, levels.

                   Working Toward Long-Term Solutions
    However, there are several things that can be done in the long term 
to prevent future water conflicts, and to move the upper Klamath Basin 
toward an agricultural base that is truly sustainable. At present there 
is not enough water to meet Project needs in 6 out of 10 water years, 
and as the drought this year clearly shows the present water allocation 
system is not sustainable. The following are some suggested short term 
and long term actions that should be considered for addressing the 
current drought situation, for restoring a healthy, naturally diverse, 
and productive Klamath Basin ecosystem and for meeting future water 
supply needs:

    1. Emergency Relief for the Crisis. The Klamath Basin is in the 
middle of what appears to be the most severe drought in recorded 
history for the region, with less than 21% of rain inflow to the Upper 
Klamath Lake in a region that normally gets less than 12 inches of rain 
a year. Because of the severity of this water emergency, disaster 
relief funds should be made available to farmers in the Klamath Basin 
similar to the support other farmers nationwide receive when they 
suffer form natural disasters. However, the drought is not caused by 
the ESA or any other statute. The drought is caused by lack of 
rainfall. No amount of lawsuits, protests or politicians can make more 
rain.
    Because this is a natural disaster, all necessary steps should be 
taken to qualify the Klamath Basin farmers for emergency relief funds 
and to help the many who are likely to have little or no water this 
year. PCFFA strongly supports the effort to get disaster relief for 
affected farmers.

    2. Reform the Management of the Klamath Project. Protecting fish 
and wildlife, as well as maintaining the basin's wildlife refuges, 
should also be explicit purposes of the Klamath Project, not just the 
delivery of water for farming. The Project should be explicitly managed 
to first meet the needs of species listed under the Endangered Species 
Act. The Bureau of Reclamation should meet the river flow, lake-level 
and refuge water requirements as set forth in the applicable biological 
opinions and ultimately should seek means to meet the full water 
requirements of the refuges and downriver fisheries, while recovering 
fish species to harvestable levels.
    The Bureau of Reclamation should also have a drought contingency 
plan. Reclamation and the Service should look at ground water 
development that can be brought on line this year, which includes 
approximately 30,000 acre-feet of groundwater already purchased by 
Reclamation this year, and using any carryover water from Clear Lake 
and Gerber reservoirs. In the long term, the State of Oregon has said 
that 200,000 acre-feet of ground water could be made available from a 
combination of existing ground water pumps as well as new well 
development. While it will be too late to make much difference in crop 
cycles this year, this ground water should be developed in any event to 
prevent future drought disasters of this magnitude.

    3. Terminate Lease Land Farming within the Wildlife Refuges and Use 
Lease Lands Water to Keep the Refuges Viable and for Wetlands Water 
Storage: Four years ago Congress passed the National Wildlife Refuge 
System Improvement Act of 1997. That law was intended to improve the 
health of America's wildlife refuges. It directs the Secretary of the 
Interior to provide necessary water to national wildlife refuges and to 
maintain the biological integrity and ecological health of these 
special places.
    The official policy of the Bureau of Reclamation is that the 
wildlife refuges in the Upper Klamath Basin, among the most important 
in the country for bird migrations, are in fact last in line for water 
from the Klamath project with a junior water right to almost everyone 
else. Even more troublesome is the fact that no water has yet been 
allocated to the refuges this year even to meet the minimum refuge 
water needs to support ESA-listed bald eagles as required in the 
current USFWS biological opinion. A secure source of water needs to be 
obtained to meet the refuges' water requirements. One immediate action 
that should be taken to meet the water requirements for the refuges is 
the termination of the refuge lease land farm program.
    Currently 20,000 acres of federal refuge land within the Tule Lake 
and Lower Klamath Wildlife Refuges are leased for commercial 
agriculture. Commercial agriculture of these lands is simply not 
compatible with refuge purposes, especially at a time when there is not 
enough water to meet refuge needs. Commercial agriculture within the 
refuges should be eliminated and the lands should be returned to their 
natural habitat condition as wetlands. The water rights associated with 
these lands could then be transferred to refuge purposes. This would 
allow management of these lands in a normative manner that could allow 
for storage of thousands of acre-feet of water that could be devoted to 
refuge needs. This would greatly reduce water shortages to refuge 
wetlands while easing the irrigation season water demands on the 
Klamath Project. This would also allow the conversion of these lands to 
habitats more productive for wildlife, eliminate the use of pesticides 
and fertilizer on the refuges, allow refuge personnel to devote more 
time to refuge management, and help secure a reliable source of water 
for refuge purposes.
    Many basin farmers now have private land for sale on the open 
market in areas outside the refuge. There is a proposal to buy these 
for-sale farmlands using a combination of private land trust funds and 
federal funds, and then to lease these lands back to the local 
irrigation district so that the district can sublease those lands to 
farmers now leasing within the refuges as replacement lands as they are 
moved off the refuges. This would recapture more wetlands for the 
refuges (i.e., add more total water storage), eliminate conflicts 
between farming and the refuges, and give those farmers now leasing 
lands on the refuge itself replacement land for row crops at a 
comparable price. It appears to be a win-win solution to these 
conflicts and should be pursued actively. In the meantime, no new farm 
leases on refuge lands should be issued and those which can be 
terminated should be. At present these federal leases have a 5-year 
rollover period by which approximately 20% will terminate each year.

    4. Willing Seller Buyouts. Simply put, the limited water resources 
in the Upper Klamath Basin has been grossly over-allocated in the 
Klamath Project. A necessary as part of any solution must be to 
downsize the Klamath Project and to purchase and retire many water 
rights in the Upper Basin.
    The impacts of global competition have been devastating on Klamath 
county. Farming is no longer very profitable in the arid Upper Klamath 
Basin. Real personal income from farming and agricultural services 
declined 66% between 1969 and 1998 in Klamath County, 57% in Modoc 
County and 26% in Siskiyou County. Most farm families now have second 
incomes from work outside the farm, and the farm sector now only 
employs about 6% of the total workforce in Klamath County, 17% in Modoc 
County, and 7% in Siskiyou County, according to readily available 
government economic and census data. Income from farming in Klamath 
County now represents only two-tens of one percent of total county 
personal income. Agricultural support services accounted for six-tens 
of one percent of total income in 1997, only a slight decrease since 
1969. <SUP>6</SUP> This is why so many have recently offered to sell 
out, well before the current water crisis has hit the region. The 
reality is that many of those traditional farming operations in the 
basin are simply no longer profitable. Most of the crops grown there, 
with its short growing season and 4100 foot elevation, are now classed 
as ``surplus crops'' (potatoes, sugar beets and onions) that can only 
be grown profitably in today's worldwide glut of these products because 
of major agricultural subsidies.
---------------------------------------------------------------------------
    \6\ From Economic Profile of Klamath County, Oregon, an economic 
study by The Wilderness Society (2000), available from The Wilderness 
Society, 1615 M. Street, Washington, DC 20036 (202)833-2300.
---------------------------------------------------------------------------
    There are currently tens of thousands of acres for sale in the 
Klamath Basin, most of it for sale long before the current drought. 
Many farmers in the Klamath Basin were financially stressed long before 
this year's drought, because of global market competition.
    A voluntary but targeted buyout program will give financial 
assistance to the farmers, who want to sell their lands, by buying 
their lands at a fair price. This would be an equitable way to reduce 
overall water demand, provide farm families some transition money, and 
provide more future water security to those who want to stay in the 
business. A federally funded buyout program should be developed and 
implemented for this purpose.
    Water right acquisitions should be focused on the Klamath Project, 
and target areas where acquisition of associated land is also a 
priority for habitat and refuge restoration, areas where acquisitions 
would help meet tribal and other federal reserved water right claims, 
areas where acquisitions would improve water quality, and areas where 
acquisitions would have multiple benefits. In other words, disaster 
relief payments in the form of buyouts should be targeted to do the 
most good toward long-term solutions.

    5. Restore Fish and Wildlife Habitats. Although fish and wildlife 
habitats have been degraded throughout the Klamath Basin, it remains 
one of the few major river systems in the US where substantial 
restoration is still possible. Reclaiming and restoring wetlands, 
especially in the Lower Klamath and Tule Lake Wildlife Refuge areas and 
around Upper Klamath Lake, are important to obtaining a more natural 
hydrological regime, improving and increasing fish and wildlife 
habitat, and improving lower river water quality and quantity for 
salmon restoration, and generally increasing total water storage. 
<SUP>7</SUP> The area lying north and west of Lower Klamath National 
Wildlife Refuge known as the Klamath Straits should be among the 
highest priorities for purchase and restoration. Riparian areas need to 
be protected and restored, especially in the Upper Basin tributaries in 
Oregon and the Shasta and Scott Rivers in California. Dams and 
diversions need to be screened and provided with appropriate fish 
passage facilities, or removed. No fish screens have ever been 
installed by the Klamath Project, in spite of obvious need.
---------------------------------------------------------------------------
    \7\ Wetlands is nature's best water storage system. One acre of 
wetlands holding one acre-foot of water, for instance, has stored 
325,851 gallons of water which would otherwise be lost to evaporation 
or waste or floods. Wetlands naturally release this water into the 
system to buffer the effect of droughts and seasonal rainfall. (1 acre-
foot = 43,560 cu. ft. x 1,728 cu. in. per cu. ft. = 75,271,680 cu in. 
of water. One gallon = 231 cu. in. Divide one by the other = 325,851 
gallons/acre-ft. of wetlands storage).
---------------------------------------------------------------------------
    Upland impacts also play an important role in water quality. The 
water retention and flow regulation capability of upland forested 
ecosystems need to be restored through reforestation, canopy retention 
and work to reduce the impact of extensive unpaved road systems, a 
constant source of excessive silt.
    There are existing and effective habitat restoration efforts within 
the Basin, including those of the Klamath River Basin Fisheries 
Restortion Task Force, created by P.L.-99-552 (October 27, 1986) as 
amended by P.L. 102-570 (16 U.S.C. 460ss-3 et. seq.). The Task Force 
has representation from the whole basin and a well established 
restoration plan, but pitifully little money with which to accomplish 
its immense tasks. Providing better funding to the Task Force is 
certainly one way to assure that Basin habitat restoration efforts 
continue.

    6. Restore Normative Hydrology and Flows: The Upper Basin as a 
whole has a highly disturbed hydrology, and needs to be brought into 
more ``normative'' conditions. That is not to say that pre-Project 
conditions could ever be re-established, but that the Project could 
operate in such a way as to roughly emulate or imitate the more 
biologically important natural hydrological conditions under which the 
many unique species of the Basin evolved.
    a) Instream Flow Protection and Water Right Acquisitions. 
Meaningful instream and lake level flows need to be established and met 
throughout the basin. Successful adjudication of federal and tribal 
reserved water rights needs to be completed, and the water needs that 
ESA-listed fish need for their recovery should be determined and 
provided for. An active water right acquisition program to transfer 
water rights from willing sellers to instream purposes should also be 
established and funded. Again, such a process would allow compensation 
to those who wanted to discontinue farming for whatever reason, while 
providing more water certainty to those who continue. Water right 
acquisitions should be focused on areas where acquisition of the 
associated land is also a priority for habitat and refuge restoration, 
where acquisition would help meet Tribal and other federal reserved 
water right claims, and where the acquisition would have multiple 
benefits. For instance, acquisitions in the basin above Klamath Lake 
could assist in meeting Tribal and other federal reserved water right 
claims in the upper basin, provide needed instream flows in the upper 
tributaries, assist in maintaining Klamath Lake levels, improve water 
quality in Klamath Lake, and add to the water supply to meet project 
water needs, refuge needs and downstream flow needs for the re-
establishment of the salmon fishery.
    b) Water Conservation and Improved Water Management. Improving 
water use efficiencies and conserving water can increase water supply 
at critical times and improve water quality. There should be a thorough 
analysis of irrigation needs in the basin. Opportunities for improving 
conveyance system and on farm efficiencies should be carefully 
assessed, funded, and implemented. Water use efficiency standards and 
goals should be set. Detailed basin-wide conservation plans, including 
water conservation plans required of project users under the 
Reclamation Act of 1982, should be established and implemented to meet 
the efficiency goals. A full range of other measures should also be 
considered to reduce irrigation demand, including changing crop types, 
developing rotation schedules, and fallowing land.
    c) Better Water Measurement, Reporting, and Enforcement. Given the 
demands on the water resource, we can no longer afford to have anyone 
taking more than their lawful share. This is unfair to other water 
users and adversely affects instream flow conditions. The States of 
Oregon and California need to assume greater responsibility in managing 
and regulating water use. Very little water monitoring or enforcement 
is actually being done today. Water use measuring and reporting need to 
be required, and an active enforcement program needs to be implemented. 
A recent study of water use from the Wood River in Oregon has shown 
that requiring measuring devices can reduce illegal use and increase 
streamflow.
    d) Reduce Out-of-Basin Transfers. There are approximately 30,000 
acre-feet of water transferred each year from the Klamath Basin to the 
Rogue Basin. Some of this water is managed by the Bureau of Reclamation 
as part of the Rogue Basin Project. An examination should be made as to 
how the Rogue Project could be managed differently to help with the 
situation in the Klamath Basin, and if possible these out-of-basin 
transfers eliminated at least in low water years.

    7. Fully Meet Water Quality Standards. The Klamath River and 
several of its tributaries have been listed as water quality 
``impaired'' under the Clean Water Act from the headwaters to the 
ocean. In fact, water in the Klamath River in the Upper Basin is the 
most polluted in Oregon, and among the most polluted in California. 
Total maximum daily loads (TMDLs) should be established and implemented 
for the impaired streams, preferably on a bi-state basis. The U.S.EPA, 
Oregon DEQ, and California Water Quality Control Board Northwest Region 
should immediately act to establish and implement interstate TMDLs in 
the Lost and Klamath Rivers.

    8. Implement and Fully Fund P.L. 106-498 to Develop More Water 
Storage. Since at least July, 1994, when I personally testified on 
these very same issues before this very same Subcommittee in a field 
hearing in Klamath Falls, we have been strong supporters of efforts to 
increase overall storage of water in the Basin. More recently, we 
supported the Smith-Wyden Bill (S. 2882) in the 106th Congress, now 
P.L. 106-498, as a good if belated beginning, and we commend both 
Senators for their efforts in this regard. I also testified in support 
of full funding for P.L. 106-498 in a hearing before this same 
Subcommittee on 21 March 2001.
    Now once again we urge this Committee and other Members of Congress 
to fully fund P.L. 106-498 and urge the Administration to support 
including that funding in the Budget. No good idea is worth much if it 
cannot be implemented. Inherent in P.L. 106-498 also is language that 
allows us to look at some creative solutions:
    ``Sec 2(3): The potential for further innovations in the use of 
existing water resources, or market-based approaches, in order to meet 
growing water needs consistent with State water law.''
    This means finding creative ways to better conserve and reuse 
existing water supplies, as well as considering a water marketing 
system to make more efficient economic use of the supplies we do have. 
All these are proven methods.
    Although the Bureau of Reclamation is using some P.L. 106-498 funds 
this year to purchase about 30,000 acre-feet of water, conservation, in 
the short run, is the only option that we have this year to stretch 
water supplies to their furthest, and even that will be nowhere near 
enough. However, making more efficient use of a scarce resource always 
makes sound economic sense. Reduced water demand can also be 
accomplished in part though aggressive water conservation.

    9. Meet all Fish and Wildlife Obligations to the Greatest Extent 
Possible: Obligations under the ESA to prevent extinction of valuable 
public resources, and obligations to Tribes to provide instream flows 
sufficient to assure fisheries and protect their culture, are primary 
obligations that the courts have ruled must be satisfied ahead of 
Bureau obligations to water contractors. Klamath Water Users Assn. vs. 
Patterson, 204 F. 3d 1206 (9th Cir. 1999), cert. denied, 121 S. Ct. 44 
(2000). See also O'Neal vs. United States, 50 F 3d 677 (9th Cir. 1995). 
This is the law of the land. Though not as clear in the courts, the 
same policy considerations should also apply to protection of migratory 
bird species on the national wildlife refuges, which are protected 
under the Migratory Bird Treaty Act and under international treaties. 
Bald eagles on the refuges (which support the largest population in the 
lower 48 states) are also protected under the ESA. Obligations to 
public resources must be met first, under the law, by public agencies 
before meeting the needs of private farmers to make a profit using 
publicly subsidized water.
    In summary, it is unfortunate that in serious drought years like 
this one that limited water supplies may create hardships for some 
farming families. We should seek to do all we can to: (1) avoid such 
conflicts in the future by increasing the overall water supply and 
making the most efficient use of the water we do have through 
conservation and sustainable land use practices, and; (2) where 
cutbacks on irrigation water do cause hardships, take all reasonable 
and necessary steps to see that farmers are reasonably compensated for 
the hardships they must endure through no fault of their own.
    Federal financial assistance and support will be needed in 
resolving the numerous issues and conflicts over water in the basin. 
This is totally appropriate, in our view, as it was after all the 
federal government who largely created these problems though gross 
over-appropriation of limited water as well as years of negligence in 
dealing with the fundamental biological limits imposed by a limited 
(and variable) water supply.
    We need to do what we can to reduce the economic hardships this 
year's drought has brought on Klamath Basin farmers without sacrificing 
the incredible resources of Klamath Lake, the Klamath River, the 
Klamath Basin Refuges and a large part of the west coast salmon runs. 
We hope you will give the above suggestions for long-term solutions 
your careful consideration.
    For more information see: http://www.pcffa.org/klamath.htm
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3135.054
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3135.055
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3135.056
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3135.057
                                 
                        THE OREGONIAN EDITORIAL
                         The Klamath dust bowl

Water crisis in the Klamath Basin isn't just about suckers vs. farmers: 
        It's about a century of unresolved problems
    Sunday, May 13, 2001

    A 3-year-old girl, daughter of one of Klamath Basin's desperate 
farmers, stood amid 8,000 people at the bucket--brigade protest in 
Klamath Falls thisweek clutching a sign that read simply ``We need 
water.''
    The little farm girl, Peyton Hager, her family and hundreds of 
other families cut off from irrigation water face a bitter summer. But 
if their farms are to ultimately survive, they need more than a token 
share of what little water is available in Upper Klamath Lake.
    They need immediate drought relief, and they need responsible 
leadership to resolve a tangle of problems rooted in the basin's 
history and its dry soil.
    So far, all these farmers are getting are cover crops to prevent 
thousands of acres of dry fields from blowing away in the hot summer 
wind. That, and the political equivalent of cover crops----big talk, 
lots of bluster about amending the Endangered Species Act, but no 
effort to dig deep into all that needs to be done for the people, the 
land and the wildlife of the Klamath Basin.
    The Klamath crisis won't be solved by elected officials who fly 
into town on borrowed corporate jets to join protests and shout about 
how farmers are more important than endangered sucker fish. Political 
hay isn't a cash crop for Southern Oregon farmers.
    This crisis is not just about the worst water year in recorded 
history in the Klamath, and not just about the federal government's 
decision to use the available water to protect endangered sucker fish 
and threatened coho salmon.
    It is about decades of failure to resolve conflicts over water 
rights that allow some upstream irrigators to take more water than they 
are entitled to, while others are left high and dry.
    It is about the facing the reality that the government long ago 
promised settlers and farmers more water than it could deliver without 
destroying some of the most significant marsh lands, wildlife refuges 
and wild salmon runs in the nation. There's not enough water, even in 
years of average rainfall, to sustain all of the farms in the Klamath 
Basin. The government must work with willing sellers to retire some 
farmland.
    These farmers need water, but they also need federal agencies to 
stop warring over their particular turf--fish runs, or irrigation 
delivery, or waterfowl refuges--and begin working in concert to restore 
wetlands, improve water quality, screen irrigation canals and conserve 
water.
    The Klamath drought is a true crisis, and perhaps a catalyst for a 
serious reexamination of the Endangered Species Act. Put a picture of 
that little farm girl with the plaintive sign, ``We need water'' up 
against a shot of a slimy sucker fish, and for many people it's not 
even a close call.
    Yet it's not that simple, and nearly everyone close to the Klamath 
crisis understands that. It's also about the people and communities 
downstream from the Klamath Basin, the commercial fishermen and their 
families who have lost their livelihoods, their way of life, because of 
the way water is diverted, sprinkled and polluted across the arid 
basin. The Klamath River system once was the third most productive 
salmon river in the United States. Now it's a warm shadow of what it 
once was, the Klamath coho is a threatened species and fishermen are 
out their jobs.
    It's about the Klamath refuge system, among the nation's oldest and 
most important waterfowl refuges. These refuges host 80 percent of the 
waterfowl that migrate along the Pacific Flyway, and are home to the 
largest wintering population of bald eagles, yet they are abused. They 
are last in line for water, behind suckers, salmon and farmers, and 
what little arrives through myriad dikes and ditches is polluted. This 
winter, the U.S. Fish and Wildlife Service is worried that as many as 
950 bald eagles--it's hard to even imagine that many of the great birds 
in one basin--will be harmed by the drought.
    There is a better way. It must begin with responsible elected 
officials, a strong local community open to change and a real 
commitment from the federal and state governments.
    It should end with restored wetlands, a lake clean and sufficient 
enough for fish, a river with enough cool flow for coho salmon, and 
last but not least, a Klamath Basin with a sustainable level of 
irrigated family farms.

    Copyright 2001 Oregon Live. All Rights Reserved.
                                 ______
                                 
A Eugene, Oregon Register-Guard Editorial
May 27, 2001
 Don't blame the fish: Government policies created Klamath Basin crisis
    It's tempting oh so tempting - to oversimplify and distort the 
Klamath Basin water crisis by declaring that it's all about protecting 
sucker fish and salmon at the expense of farmers.
    That's no more accurate than saying, as many did, that the 
Northwest timber crisis was solely about protecting the spotted owl at 
the expense of timber workers, an explanation that ignored the 
government's primary role in allowing decades of overharvesting of 
national forest lands.
    It's that same federal government - and not the suckers and salmon 
that bears the ultimate responsibility for the Klamath crisis.
    It's that same federal government that dug dams, drained marshes 
and built hundreds of miles of canals and ditches in the early 1900s, 
and then promised farmers that they would forever have irrigation water 
to feed crops across the breadth of what once had been an arid basin.
    It's that same federal government that for years has ignored its 
own scientists' warnings about the Klamath Project's devastating impact 
on the region's fish runs and waterfowl refuges.
    It's that same federal government that has failed to craft a 
cohesive water policy that balances the needs of farmers against those 
of fish and wildlife - and the Native American tribes, fishing 
industries and downstream communities that depend on them.
    The understanding that it's the federal government - and not the 
sucker and salmon or those fighting for their survival- that is the 
true culprit is critical to understanding new developments.
    An example is environmentalists' demand last week that the 
government stop the trickle of water that continues to flow to a few of 
the more than 1,000 farms served by the Klamath Project. The 
environmentalists say water is needed to save more than a thousand bald 
eagles and other waterfowl that depend on wildlife refuges in the 
Klamath Basin and that were the very reason these refuges were created. 
Without this water, they say, eagles may perish in the months ahead.
    Federal wildlife biologists have issued similar warnings. Yet the 
federal government, at the insistence of Vice President Dick Cheney, 
allowed the symbolic diversion of 70,000 acre feet of water to irrigate 
cattle pastures in the Langell Valley east of Klamath Falls. It was an 
irresponsible, unscientific and blatantly political decision that could 
devastate the largest winter population of threatened bald eagles in 
the lower 48 states.
    Ironically, the plight of the eagles could serve a useful purpose. 
It's harder to blame a beloved national symbol for farmers' predicament 
than it is to blame the sucker and salmon - and the Endangered Species 
Act that protects them.
    Klamath Basin farmers can make it through this crisis intact, 
provided the federal government gives them the financial assistance 
they need and deserve, and moves quickly to develop a long-term 
strategy that balances the needs of the basin's people, its wildlife 
and the land itself.
    But government grants and low-interest loans won't get the eagles, 
salmon and sucker fish through the dry months ahead; they must have the 
water they need to survive.
    It was the federal government that laid the groundwork for the 
Klamath water crisis. Now it's the federal government that must fix 
this mess.

    Source: http://www.registerguard.com/news/20010527/
ed.edit.klamath.0527.html
                                 ______
                                 
                             The Oregonian
               Klamath solution takes cooperation by all

There are no easy answers in this drought year or for the future; many 
        interests must negotiate
Friday, June 1, 2001
    IN MY OPINION John A. Kitzhaber DEAN ROHRER/NEWSART The current 
water crisis in the Klamath Basin has been 150 years in the making and 
serves as a reminder to us all that we are stretching our natural 
resources beyond their limits.
    Even in a normal year, the water in the Klamath Basin cannot meet 
the current, and growing, demands for tribal, agricultural, industrial, 
municipal and fish and wildlife needs. And with this year's near-record 
drought, the consequences of our actions have hit home in a disastrous 
way.
    While we are working hard at the state level to address the short- 
and long-term impacts of this drought, the history of the Klamath Basin 
bears some scrutiny so we can understand how we got here in the first 
place--and can avoid getting here again in the future.
    The history of the Klamath Basin includes tribal rights resulting 
from the 1864 treaty and later settlement of the basin at the urging of 
the federal government, which offered land and water to veterans of 
World Wars I and II. The Klamath Basin historically contributed 
significantly to coastal recreational and commercial fishing--an 
industry that has lost 7,000 jobs over the past 30 years related to 
Klamath species decline. Traditional tribal fishing for suckers in the 
basin stopped in 1986, two years before the Endangered Species Act 
listing, because of tribal concerns over population declines of these 
species.
    This is the context in which drought has hit. The drought, in 
conjunction with the need to provide water in Upper Klamath Lake for 
listed suckers and in the Klamath River for listed coho, resulted in 
only 70,000 acre-feet of water available for irrigation from the Bureau 
of Reclamation Klamath Project, versus the usual 500,000 acre-feet. In 
addition, this year, no water is allocated for wildlife refuges, home 
to hundreds of bald eagles and a major waterfowl stopover on the 
Pacific Flyway.
    As a state, we have taken a number of steps to try to avoid, 
minimize or mitigate these impacts. A drought emergency has been 
declared for Klamath County. At my request, the U.S. Department of 
Agriculture has also declared a drought disaster. Furthermore, before 
the final biological opinions were released in early April, I urged the 
secretaries of Commerce, Interior and Agriculture to exercise maximum 
flexibility and share the burden, given the severe drought conditions.
    At my request, state Attorney General Hardy Meyers asked the U.S. 
District Court in Eugene to supervise court-ordered mediation of all 
parties to resolve both the short-term and long-term issues in the 
basin. Three days of mediation occurred in late April in an attempt to 
find a compromise for this year. While the state put serious proposals 
on the table, the parties were unable to reach agreement. However, 
mediation will resume on the long-term issues in the basin this month. 
The state is taking the lead in offering the court a proposal on the 
conduct, scope and timing of continued mediation.
    We have learned that many of the traditional federal disaster-
assistance programs do not fit the needs in Klamath County. I have 
asked members of the congressional delegation to make a specific 
request for the Klamath as part of any supplemental appropriations bill 
for this fiscal year. I have also asked the federal agencies to return 
to mediation with a willingness to bring long-term solutions to the 
table.
    Oregon's state agencies already have made available programs, 
services and assistance to individuals and businesses in need.
    Oregon's Water Resources Department has been working to process 
emergency water permits and limited licenses to tap groundwater 
sources.
    Having heard concerns about the science being used in the basin to 
make decisions about water allocation, I have asked the Independent 
Multidisciplinary Science Team, created as part of the Oregon Plan for 
Salmon and Watersheds, to review the available science and to offer an 
opinion about the reliability of that information for making decisions 
that have such critical effects on the basin.
    All of these efforts, however, will not solve the underlying 
problem in the Klamath Basin: A demand for water that exceeds the 
supply of water.
    No court can solve this problem; no one person can solve this 
problem. It will take all the parties coming to the mediation table--
leaving their positions at the door--ready to roll up their sleeves and 
design a long-term solution that will sustain the Klamath Basin for the 
benefit of communities, the economy and the environment.
    The recent political rhetoric about amending the Endangered Species 
Act is just that--political rhetoric, making for good sound bites, but 
doing nothing to solve the current crisis in Klamath County. I am on 
record supporting changes to the act that were proposed in Congress a 
few years ago. It is clear from that experience, however, that there is 
not the national consensus or will to amend the act. This is even more 
true of this Congress than the last.
    Only the people in the Klamath who care about the future of their 
watershed, their economy and their communities--working with tribal, 
state and federal officials--have the tools to meet this challenge. 
Increased water storage, decreased demand, enhanced conservation, 
habitat improvements and many more actions can and should be taken to 
ensure a sustainable future for all species in the Klamath Basin. I 
will continue to do all I can to bring these actions about.
    Copyright 2002 Oregon Live. All Rights Reserved.
                                 ______
                                 
    Mr. Pombo. Mr. Gaines.

                    STATEMENT OF BILL GAINES

    Mr. Gaines. Thank you, Chairman Pombo, members of the 
Committee. It's a pleasure to be here today in Klamath Falls to 
talk with you about the California Waterfowl Association and 
our concerns with the water allocation decisions that have been 
made recently, in the last few weeks. My name is Bill Gaines. 
I'm the director of Government Affairs for the California 
Waterfowl Association, and on behalf of our 15,000 members 
throughout the Pacific Flyway, thank you for the opportunity to 
speak to you today.
    The Upper Klamath Basin is the most critical waterfowl 
staging area in North America. So important is the Klamath 
Basin to North American waterfowl on their annual migratory 
trek, that if you look at a Pacific Flyway map, which I happen 
to have right here--I don't know if you can see this or not--
you can easily find the Klamath Basin simply by looking at the 
big black dot because that's where the apex of the Pacific 
Flyway funnel is. It's right there, right on the Klamath Basin. 
We estimate that about 75 to 80 percent of Pacific flyway 
waterfowl either nest or stage here at some time during their 
annual migratory trek.
    Historically, this Basin contained about 350,000 acres of 
naturally occurring waterfowl habitat. Today, however, largely 
due to the construction of the Klamath Reclamation Project, we 
only have about 25 percent of that historical habitat 
remaining. Yet each year, as I mentioned, a full 75 to 80 
percent of our Pacific Flyway depend upon this Basin's few 
remaining wetlands to address their habitat needs.
    In addition, these birds depend upon wildlife-friendly 
agriculture for critical staging habitat as well. In addition 
to waterfowl that depend upon these remaining wetlands--which, 
by the way, nearly all of which are contained within the 
Klamath National Wildlife Refuge complex--a documented 430 
other wildlife species depend upon this Basin for habitat, 
including the largest wintering population of bald eagles in 
the lower 48 States.
    Because of the Klamath Reclamation Project and the manner 
in which it changed the Upper Basin's natural hydrology, nearly 
all of our remaining wetlands today must now be managed. In 
other words, they have to be artificially irrigated and 
intensely managed to maintain marsh conditions. In effect, 
similar to the farmers that are struggling with the water 
allocation, the public and private wetland managers in the 
Klamath Basin are also. As a result of this condition, the 
quantity and quality of wetland habitat available in any given 
year is nearly entirely dependent upon the allocation of water 
it receives from the Klamath Reclamation Project, local 
irrigation districts and other sources.
    Tragically, the Upper Basin's highly limited surface water 
supply, combined with the regulatory actions mandated by the 
two recent biological opinions, will result, as you know, in no 
water to the refuges this year, and little or no water for 
wetland habitat in all but the wettest of future years.
    Some environmentalists, in their zeal to protect both fish 
and refuges, have called for the elimination of agriculture in 
this Basin to free up the water necessary to address listed 
species concerns. Our Association, as a spokesman for waterfowl 
and their environments, can assure you that this is not the 
answer. With only 25 percent of our historic wetland habitat 
available in this region, it is critical that we manage our 
remaining habitat to maximize these wetland values and 
functions. Yet, even if we have sufficient water to maximize 
the wetland values of our few remaining wetlands, it still is 
not enough.
    These waterfowl depend heavily on the wildlife-friendly 
agriculture provided by local agricultural production to help 
meet their nesting and foraging needs. In fact with the 
agriculture that's going to be eliminated with the lack of 
water this year, it's going to reduce the normal total wetland 
food base and the waterfowl food base in this Basin by nearly 
one-half. That's how much these birds depend upon local 
agricultural production in addition to the habitat provided on 
the refuges.
    As we're all well aware, the two biological opinions 
released in early April have not only shut off the critical 
water deliveries to the Klamath refuge complex, but also, of 
course, to the agriculture in the surrounding basin. To make 
matters worse, because these waterfowl are going to be forced 
to crowd onto the few remaining wetlands, we are very likely to 
see significant avian die offs due to avian botulism and 
cholera as well. The serious stress placed on these birds by 
the lack of habitat, coupled with the anticipated die-offs due 
to disease, may mark the beginning of the end for our Pacific 
Flyway waterfowl resource.
    Gentlemen of the Committee, three species of fish are 
currently holding our Pacific Flyway, the bald eagle, roughly 
430 other wildlife species, over 1200 local families, and an 
entire local economy hostage here in the Upper Klamath Basin. 
The California Waterfowl Association does not believe that this 
was Congress's true intent when they passed the Endangered 
Species Act a few short decades ago. Truly, as our nation 
becomes more urbanized, conflicts between our fish and wildlife 
species and our human environment will become more frequent. 
Today's crisis in the Klamath can only be viewed as the 
``canary in the mine shaft'' for what we can expect in the 
future should resource agencies continue to be allowed to 
implement the ESA as they do today.
    To address these very real concerns, we ask Congress to 
join us in seeking a few solutions. First, in the short-term, 
we call for the U.S. Department of Interior and its agencies to 
fully consider the impacts and risks to waterfowl and other 
wildlife and the importance of wildlife-friendly agriculture 
before making water allocation decisions based on the current 
biological opinions.
    Secondly, ground water is being talked about as the silver 
bullet, if you will, to address these concerns. We can assure 
you that ground water will help address these concerns, but it 
cannot be viewed as a silver bullet. We must get a ground water 
management plan in place to assure that the ground water 
resource will be available over the long-term to assist in 
meeting our water needs here in the Klamath Basin.
    Over the long-term, we ask you to join us in seeking 
careful common sense amendments to the Endangered Species Act. 
If there were ever a poster child for the need for Endangered 
Species Act amendments, it's what we're looking at right now in 
the Upper Klamath Basin. In addition, we'd like you to work 
with us in seeking changes in the Migratory Bird Treaty Act, 
which helps to elevate our internationally shared migratory 
waterfowl resource to a par with local and regional listed 
species. We'd also like you to work with us in appropriating 
Federal funding for projects which could provide incentives to 
local growers to do wildlife-friendly agriculture on their 
lands, or maybe even fallow marginal land when necessary, which 
can also provide upland habitats for a variety of species.
    And finally, helping us to call for peer review of future 
biological opinions. Outside peer review is commonplace before 
biological opinions, if you will, within the scientific 
community are accepted as credible. It should also be 
commonplace when biological opinions have the ramifications of 
the ones that we're currently looking at up here in the Klamath 
Basin are also put into play.
    In closing, we urge the Committee to recognize that the 
most important environmental asset of the Klamath Basin, its 
waterfowl, are also the most costly victims of the current 
water management decisions. It is important to recognize that 
waterfowl hunting provides a financial and emotional commitment 
to the conservation and enhancement of wetlands throughout 
North America. These habitats directly or indirectly support 
hundreds of wildlife species as well as more than one-half of 
our currently listed species in California. Water allocation 
decisions mandated to address the needs of three listed species 
in the Klamath Basin are seriously threatening the future 
health and well-being of the entire Pacific Flyway. Should the 
flyway be devastated, I can assure you that many thousands of 
acres of privately managed wetlands throughout California and 
Oregon will also go away, because there will be no incentive 
for these people to annually manage those lands, year round, to 
provide waterfowl habitat or habitat for other species as well.
    The California Waterfowl Association appreciates your close 
attention to this serious crisis and the opportunity to provide 
testimony today. We believe that we can all work together to 
find solutions which meet the needs of the local community, the 
Pacific Flyway, other wildlife and the fish species, and we 
look forward to working with Congress and all interests in 
seeking these solutions. Thank you.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Gaines follows:]

  Testimony of Bill Gaines, Director, Government Affairs, California 
                         Waterfowl Association

    Good morning. Mr. Chairman and Members of the Committee, my name is 
Bill Gaines, and I am the Director of Government Affairs for the 
California Waterfowl Association. On behalf of our Association's 15,000 
members, and waterfowl enthusiasts throughout the Pacific Flyway, I 
would like to thank you for coming to Klamath Falls, and for providing 
us the opportunity to present our concerns regarding the serious water 
crisis currently confronting the Upper Klamath Basin.
    Founded in 1945, the California Waterfowl Association (CWA) is a 
private nonprofit organization dedicated to the conservation of 
California's waterfowl, wetlands and our sporting heritage. The 
California Waterfowl Association effectively pursues this mission 
through waterfowl research, habitat projects, education and outreach 
programs, and Government Affairs activities.
    The Upper Klamath Basin is the most critical waterfowl staging area 
in North America. So important is the Klamath Basin to North American 
waterfowl on their annual migratory trek that the region can be easily 
located on a flyway map simply by locating the ``apex of the Pacific 
Flyway hourglass.''
    Historically, this Basin contained over 350,000 acres of naturally 
occurring seasonal and permanent wetland habitat. Today, however, 
largely due to the construction of the Klamath Reclamation Project, 
over 75% of these historic wetlands have been destroyed. Yet, each 
year, a full 75% of Pacific Flyway waterfowl depend upon this Basin's 
few remaining wetlands and wildlife-friendly agricultural lands for 
critical staging habitat. In addition to waterfowl, remaining wetlands 
in the Basin--nearly all of which are now contained within the Klamath 
National Wildlife Refuge Complex--also provide critical habitat for 
many other species. In fact, more than 430 other wildlife species have 
been documented in the Upper Klamath Basin--including the largest 
wintering concentration of bald eagles in the lower 48 states.
    Recognizing the importance of the Upper Klamath Basin to migratory 
waterfowl, and the tremendous loss of waterfowl habitat resulting from 
the construction of the Klamath Reclamation Project in 1906, President 
Teddy Roosevelt established the Lower Klamath National Wildlife Refuge 
by Executive Order just two years later. Nearly one hundred years 
later, the Klamath National Wildlife Refuge Complex remains the most 
important waterfowl refuge in the entire National Wildlife Refuge 
System.
    Because of the Klamath Reclamation Project, and the manner in which 
it changed the Upper Basin's natural hydrology, nearly all of the 
region's wetlands must now be ``managed''--artificially irrigated and 
intensely managed to maintain marsh conditions. In effect, public and 
private wetland managers in the Klamath Basin must ``farm for ducks''. 
As a result of this condition, the quantity and quality of wetland 
habitat available in any given year--most notably the exceptional 
habitat available on the Lower Klamath National Wildlife Refuge--is 
almost entirely dependent upon availability of wetland water supplies 
from the Klamath Reclamation Project. Tragically, the Upper Basin's 
highly limited surface water supply, combined with the regulatory 
actions mandated by the two recent Biological Opinions, will result in 
no water to the refuges this year, and little or no water for wetland 
habitat in all but the wettest of future water years.
    Some environmentalists, in their zeal to protect both fish and 
refuges, have called for the elimination of agriculture in this Basin 
to free up the water necessary to address listed species concerns. Our 
Association, as a spokesmen for waterfowl and their environments, can 
assure you that this is not the answer. With only 25% of our historic 
wetland habitat available in this region, it is critical that we manage 
our remaining habitats to maximize values and functions for waterfowl 
and other wetland dependent wildlife. Yet, even if we have sufficient 
annual water available to maximize the waterfowl values of these few 
remaining wetlands, we still could not meet the biological needs of the 
tremendous numbers of waterfowl that depend upon this region. As such, 
similar to California's Sacramento Valley where rice production 
provides vitally important surrogate habitat and food for waterfowl, 
cereal grains and other wildlife-friendly agriculture in the Basin are 
critical to meeting the needs of Pacific Flyway waterfowl. Removing 
wildlife-friendly agriculture from the Upper Klamath Basin--regardless 
of the quantity of water it may free up for refuge use--would gut our 
Pacific Flyway waterfowl resource by eliminating roughly half of the 
food base annually available to these birds.
    As we all are aware, the two Biological Opinions released in early 
April have not only shut off critical water deliveries to the Klamath 
Refuge Complex, but also to the important waterfowl food resources 
provided by local agriculture. To make matters worse, as waterfowl are 
forced to crowd onto what little wetland habitat that may remain, there 
will likely be significant die-offs due to the increased risk of avian 
botulism and cholera. The serious stress placed on birds by the lack of 
habitat, coupled with the anticipated die-offs due to disease, may mark 
the beginning of the end for our Pacific Flyway waterfowl resource.
    Ladies and gentlemen of the Committee, three species of fish are 
currently holding our Pacific Flyway, the bald eagle, roughly 430 other 
wildlife species, 1,200 families and the entire local economy hostage 
in the Upper Klamath Basin. The California Waterfowl Association does 
not believe that this was Congress'' true intent when they passed the 
Endangered Species Act a few short decades ago. Truly, as our nation 
becomes more urbanized, conflicts between our fish and wildlife species 
and our human environment will become more common. Today's crisis in 
Klamath can be viewed as the ``canary in the mineshaft'' for what we 
can expect in the future should resource agencies be allowed to 
continue to implement the ESA as they do today.
    To address these very real concerns, we ask Congress to join our 
Association in immediately seeking some solutions. First, in the short-
term, we ask you to join our Association in:
    1. Calling for the U.S. Department of Interior and its agencies to 
fully consider the impacts and risks to waterfowl, other wildlife and 
the importance of wildlife-friendly agriculture before making water 
allocation decisions based upon these Biological Opinions.
    2. Calling for a groundwater management plan that will ensure that 
the groundwater resources used to help address our short-term water 
supply needs will remain viable over the long-term. It is important to 
recognize that groundwater is not the ``silver bullet'' to addressing 
the Basin's water needs. Groundwater quality must be checked to ensure 
that it is not harmful to agriculture and wetland plant growth. In 
addition, the excessive temperature of some groundwater sources could 
be harmful to waterfowl and other wildlife. Finally, we must fully 
understand the ramifications of using this resource. Past use of 
groundwater has reportedly resulted in the drying up of naturally 
occurring spring fed wetlands.
    Finally, over the long-term, we ask for your help in:
    1. Seeking changes in the Migratory Bird Treaty Act which elevates 
our internationally shared migratory waterfowl resource to a par with 
local or regional listed species.
    2. Seeking careful, common sense amendments to the Endangered 
Species Act. If ever there were a ``poster child'' for the need to 
amend the ESA in order to ensure it considers impacts upon other non-
listed species and our human environment, it is the current crisis in 
the Klamath Basin.
    3. Appropriating federal funding for projects which serve to 
increase the surface water annually available to meet the region's 
water needs. For example, off-stream storage facilities to capture 
excess flows when available, and tail-water return systems which more 
effectively utilize available supplies could play a vital role in 
addressing the region's water woes. In addition, these types of 
facilities, if properly managed, can also provide additional waterfowl 
habitat and groundwater recharge benefits.
    4. Calling for appropriate ``peer review'' of future Biological 
Opinions. Full outside peer review is required throughout the 
scientific community before any opinion is considered credible.
    5. Creating federal programs which provide incentives to encourage 
for wildlife-friendly farming and ranching practices.
    The Upper Klamath Basin is the most important waterfowl staging 
area in all of North America. Yet only about 25% of the Basin's 
historic wetland habitat base remains today. With nearly all of these 
remaining wetlands contained within the Klamath Basin National Wildlife 
Refuge Complex, it is critical that we allocate sufficient water to 
address the needs of the waterfowl, bald eagles and hundreds of other 
species which depend upon this habitat. But we must not stop there. 
When allocating limited water supplies, we must also consider the 
vitally important wildlife benefits provided by local agriculture, and, 
of course, the importance of farming to local families and the 
community.
    In closing, we urge the Committee to recognize that the most 
important environmental assets of the Klamath Basin--its waterfowl--are 
also the most costly victims of the current water management decisions. 
Waterfowl hunting provides a financial and emotional commitment to the 
conservation, and enhancement of wetlands throughout North America. 
These habitats directly or indirectly support hundreds of wildlife 
species, as well more than one-half of our currently listed species. 
Water allocations mandated to address the needs of three listed species 
in the Klamath Basin are seriously threatening the future health and 
well-being of the entire Pacific Flyway. We urge the Committee to 
reject the current action, and demand water management strategies to 
assure that waterfowl, including the farm and ranch food resources, are 
protected.
    The California Waterfowl Association appreciates your close 
attention to this serious crisis, and the opportunity to provide 
testimony today. We do not believe there can be only one ``winner'' in 
this crisis. We believe that if we all work together we can find 
solutions which meet the needs of the local community, the Pacific 
Flyway, other wildlife and the fish species. We look forward to working 
with Congress and all interests in seeking these solutions.
                                 ______
                                 
    Mr. Pombo. Mr. Gasser.

                   STATEMENT OF ROBERT GASSER

    Mr. Gasser. Mr. Chairman and members of the Committee, I'm 
the witness you've been waiting for--the last. Thank you for 
coming.
    My name is Bob Gasser. I'm co-owner of Basin Fertilizer 
Company, Merrill, Oregon, located on the Oregon/California 
border in the heart of the Klamath Basin. My great-grandfather, 
Frank Zumpfe, selected the town site of Malin, and established 
a Czech settlement there in 1909. The Czechs were drawn here to 
the area by the Klamath Irrigation Project. My wife and I are 
both descendants of these Czech settlers.
    My partner, Chris Moudry, and I started our company in 1975 
when we were both in our early twenties. With the help of our 
employees, we built Basin Fertilizer into a successful 
operation that employees 26 people and provides ag-services to 
over 600 basin-area family farms.
    We have a loyal, family oriented company. The average 
employee worked for us for over 15 years. We have worked hard 
and built the businesses into the kind of solid, tax paying 
company that the American dream is built upon. Our company 
supports 80 individuals, and last year our employees paid over 
one half million dollars in taxes. These taxes are being used 
against us to fund agencies like National Marine Fishery 
Service, the U.S. Fish and Wildlife.
    Today, many previously solid Klamath Basin ag-dependent 
businesses are in serious trouble due to bad decisions that 
have been made by our government.
    The National Marine Fishery Service and the U.S. Fish and 
Wildlife Service caused the Klamath Basin crisis. These two 
agencies came up with misguided biological opinions using 
unproven voodoo science. These opinions handed down under the 
authority of the ESA have been used to justify the destruction 
of an entire basin's economy, ecosystem and thousands of lives. 
Lives are being destroyed.
    When the decision was announced on Black Friday, April 6th, 
2001, my first thought was, How is my business going to keep 
afloat? Later that evening a valued employee approached me with 
tears in his eyes, wondering if he would still have the job 
that he loves. My focus immediately changed. How can I and the 
people who helped build this business survive together? From 
that point on, all my attention has been strictly focused on 
simple survival.
    No one could believe that their country, the United States, 
land of liberty and justice for all, could actually tear apart 
the very fabric of their lives based on such unjust, unfounded 
reasoning. This kind of arbitrary decision making happens in 
dictatorships, not here. Most farmers and ranchers felt that 
surely someone in Washington D.C. would use common sense and 
rescind this ludicrous order to deliver zero water before it 
was actually too late to plant. That was not to be. Today, many 
businesses are in dire straits. My company is projecting a loss 
of 85 percent of revenue. Other businesses are also taking a 
severe hit.
    I have 17 letters from a variety of ag-dependent 
businesses. There has been an immediate drop in ag-sales and 
projected sales ranging from 15 percent at a local restaurant 
to 95 percent at a Tulelake irrigation business. I'd like to 
submit these to the Committee. They're all trying to hang on.
    Bankers are reluctant to make operating loans. Mortgage 
payments can't be made. Property and equipment values have 
plummeted. The labor force is leaving. The value of businesses, 
including blue-sky, will never again be what it should, due to 
the fear of this happening again at the whim of some 
misinformed government agency. The American dream of owning 
one's own business is shattered. Now that dream is a nightmare 
and a liability.
    In your June 7 memo, you asked me to discuss what I'm doing 
to help repair the situation. I've had no choice but to step 
away from my normal business routine and devote my volunteer 
energy working to solve this crisis. I've been involved in 
planning community efforts to draw national attention to this 
crisis, including the tractor rally, the forum with Governor 
Kitzhaber, the May 7th Klamath Basin Bucket Brigade which drew 
an estimated 18,000 frustrated people to the streets of Klamath 
Falls in protest. Where else but in Southern Oregon could 
18,000 protestors leave the streets cleaner after the protest, 
with no vandalism or violence? Klamath Basin people are the 
backbone of America, but our backs are being broken by our own 
American Government.
    I'm on the Committee that developed the economic impact 
report to evaluate the damage our community has endured. This 
report has been submitted to Congress. You can help by urging 
your colleagues to support this package to mitigate the unjust, 
regulatory drought. In addition to the Relief Package, Congress 
is considering a $20 million program in the supplemental 
appropriations process. While this is a start, it only begins 
to cover the massive financial impacts of the April 6th taking 
of our water.
    We need your help now. There must be an immediate 
independent review team to assess the data used in this year's 
biological opinions for the two sucker species and the Coho 
salmon. I also urge you to amend the ESA so that people are 
finally considered along with the needs of fish, wildlife and 
plants. We must consider people, families and common sense.
    My partner and I made a pledge to our people to keep them 
employed for this 2001 season. To do this we have already cut 
hours, wages, overtime and health benefits. We're trying to 
keep our well-trained, licensed employees, even if we have to 
make no profit and are forced to take out loans to pay them. To 
lose this valuable work force would surely be the death of our 
company. Please take a look at those two pages, with pictures I 
provided for you. These families are hard-working, self-
motivated Americans. If you choose not to help the Basin 
farming and ranching community, I'd like you to choose which 
page of people I should let go. I'd also like your help when I 
have to tell these families that their livelihood is gone. I'm 
not sure I can deliver that message and ever look at our flag 
with pride again. Thank you for coming, and thank you in 
advance for your determination to end this crisis.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Gasser follows:]

       STATEMENT OF ROBERT E. GASSER, OWNER, BASIN FERTILIZER CO.

    My name is Bob Gasser. I'm co-owner of Basin Fertilizer Co. in 
Merrill, Oregon; located on the Oregon and California border in the 
heart of the Klamath Basin. My great-grandfather, Frank Zumpfe, was the 
scout who selected the town site of Malin, Oregon, and established a 
Czech settlement there in 1909. The Czechs were drawn to the area by 
the Klamath Irrigation Project and the opportunity it provided to help 
hard-working people rise from poverty. My wife and I are both 
descendants of those Czech settlers and have planned on living here our 
entire lives, surrounded by friends and family members who also desire 
a wholesome, family and community oriented, country lifestyle.
    My partner, Chris Moudry and I started our company in 1975 when we 
were both in our early twenties. With the help of our employees, we've 
built Basin Fertilizer into a successful operation that employs 26 
people and provides ag services to over 600 Basin area farm families.
    We have a loyal, family oriented company. The average employee has 
worked over 17 years with us. We have worked hard and built this 
private business into the kind of solid, tax-paying company that the 
American dream is built upon. Our company supports eighty individuals 
and collectively the 26 employees paid a minimum of over + million 
dollars in taxes last year. These taxes are being used against us to 
fund agencies like National Marine Fisheries Service and Fish and 
Wildlife.
    Today, many previously solid Klamath Basin ag-dependent businesses 
are in serious trouble. We are in trouble not from a natural disaster 
or any decisions of our own. We are in trouble because of bad decisions 
that have been made by our government.
    The National Marine Fisheries Service and the U.S. Fish and 
Wildlife Service caused the Klamath Basin Crisis. These two agencies 
came up with misguided Biological Opinions using unproven ``voodoo 
science''. These ``opinions'' handed down under the authority of the 
Endangered Species Act have been used to justify the destruction of an 
entire basin's economy, eco-system and thousands of personal lives.
    Seriously, gentlemen, lives are being destroyed.
    When the decision came on Black Friday, April 6th, 2001, my first 
thought was--``How is my business going to keep afloat?'' Later that 
evening, a valued employee approached me with tears in his eyes 
wondering if he'd still have the job he loves. My focus immediately 
changed. ``How can I and the people who helped build this business 
survive together?'' From that point on all my attention has been 
strictly focused on simple survival. It's hard to believe that this is 
happening in a productive area that works hard to feed our nation.
    For three to four weeks following this devastating decision, I 
found my customers in denial and disbelief. No one could believe that 
their county, the United States, land of liberty and justice for all, 
could actually tear apart the very fabric of their lives based on such 
unjust, unfounded reasoning. This kind of arbitrary decision making 
happens in dictatorships or war-torn countries, not here. Most farmers 
and ranchers felt that surely someone in Washington D.C. would use 
common sense and rescind this ludicrous order to deliver zero water 
before it was actually too late to plant. That was not to be.
    Today, businesses such as mine are in dire straits. We are 
projecting a loss of 85% of revenue in the Klamath Project lands that 
are receiving no water. The 15% remaining business is due to the 
limited number of ag wells.
    How are ag dependent businesses in the Klamath Basin affected?
    <bullet> Bankers are reluctant to make operating loans.
    <bullet> There has been an immediate drop in sales ranging from 
15% at a local restaurant to 90% loss at a recently closed auto repair 
shop in Tulelake.
    <bullet> Mortgage payments can't be made.
    <bullet> Property & equipment values have plummeted.
    <bullet> The well-trained labor force is forced to leave the area.
    <bullet> The value of businesses (including blue-sky) will never 
again be what it should be due to the fear of this happening again at 
the whim of some misinformed government agency.
    <bullet> The American dream of owning one's own business is 
shattered. Now that dream is a nightmare and a liability.
    The business impacts from shutting off our water are far-reaching. 
Oregon Employment Department reports that in the three counties of 
Klamath, Siskiyou and Modoc, approximately 2,061 farm labor jobs will 
be lost for a total of $36 million in lost wages. These figures do not 
include approximately 880 more farm labor jobs that are not covered by 
the unemployment insurance program.
    <bullet> Agricultural Employment in Klamath County represents--35% 
of total employment countywide
    <bullet> Agricultural Employment in Siskiyou County represents--
58% of total employment countywide
    <bullet> Agriculture represents 27% of total payroll in Klamath 
County, 47% in Siskiyou County
    This data provides evidence that not only is the agricultural 
financial infrastructure demolished but also the economic base of all 
three counties is seriously compromised. This man-made disaster has 
torn through Northern California and Southern Oregon like a tornado, 
leaving a wake of financial, physical and mental destruction.
    In your June 7th, memo, you asked me to discuss what I'm doing to 
help repair the situation. When this decision came down, I had no 
choice but to step away from my normal business routine, and devote my 
volunteer energy working to solve this crisis. I've been involved in 
planning a variety of community efforts to draw attention to this 
crisis, including the tractor rally, Kitzhaber Forum, and the May 
7th,Klamath Basin Bucket Brigade which drew an estimated 18,000 
frustrated people to the streets of Klamath Falls to protest the zero 
water allocation. Where else but in Southern Oregon could a mass of 
18,000 protestors leave the streets cleaner after the protest with no 
signs of vandalism or violence. Unlike the radical so-called 
environmental groups, we don't destroy other's property and lives to 
further our cause. Klamath Basin People are the backbone of America but 
our backs are being broken by our own American government.
    I'm on the committee that developed the Economic Impact Report. 
We've submitted this report to Congress. You must provide relief with 
the Economic Relief Package of $221 million to help mitigate this 
unjust regulatory drought. Oregon State University Department of Ag & 
Resource Economics has concurred with the damage amounts suffered by 
this basin. Recently, President Bush signed a supplemental 
appropriations package for $20 million. While this is a start, it in no 
way begins to cover the massive financial impacts of the April 6th 
taking of our water.
    We need your help now. There must be an immediate independent 
review team to assess the data and scientific method used in this 
year's biological opinions for the two sucker species and the coho 
salmon. We believe that the suckerfish were mistakenly listed and 
should be delisted immediately. No science available can prove their 
endangered status. History has proven that these unprecedented high 
lake levels and high stream flows will kill more suckers and salmon, 
not save them. Undoubtedly, this government decision will kill the 
fish, wreck our basin eco-system and devastate thousands of people, 
financially, physically and mentally. The people making these drastic 
decisions must be held accountable for the destruction of the entire 
Klamath Basin. We can and we must amend the ESA to prevent future 
disasters of this nature. We must consider people, families and common 
sense.
    My partner and I made a pledge to our employees to keep them on the 
job for this 2001 season. To do this, we've already cut hours, wages, 
overtime and health benefits. We're trying to keep our well-trained, 
licensed employees even if we make no profit and are forced to take out 
loans to pay them. To lose this valuable work force would surely be the 
death of our company. I'd like you to take a look at the two pages of 
pictures I've provided for you. They're all hard-working, self-
motivated, non-subsidized Americans. If this crisis is not solved 
quickly, I'm going to have a real problem. These people will find their 
lives ruined when we can no longer provide them with the jobs they 
depend on. Please take a careful look at these families. If you choose 
not to help the Basin farming and ranching community, I'd like you to 
choose which page of people to let go. I'd also like your help when I 
have to tell these families that their livelihood is gone, maybe 
forever.
    I'm not sure that I can deliver that message and ever look at our 
flag with pride again.
    Thank you for coming, and thank you in advance for your 
determination to end this crisis.
                                 ______
                                 
    Mr. Pombo. Mr. Hastings.
    Mr. Hastings. Thank you, Mr. Chairman. And, Mr. Gasser, 
thank you for that testimony. Before I got into this job, I was 
a businessman in the Tri-city area at the same time that the 
public power, the nuclear plants were being terminated. You 
probably don't recall that, but I saw overnight the revenues 
drop precipitously, not to the scale that you're going through, 
but I understand exactly what you're going through, and we will 
obviously do everything we can to try to alleviate that pain.
    Mr. Grader, is it Grader?
    Mr. Grader. Grader.
    Mr. Hastings. In your oral testimony, you sounded very much 
like you wanted to find solutions to the problems that are 
facing us, and you expressed the concern of the fishing 
industry in general and gave us an historical perspective. But 
then I read your written testimony and I see what I would 
consider a bit of an inflammatory sentence here, and I'll quote 
it. It says, ``Farmers should stop blaming the ESA and get to 
work solving their real problems.'' And then I read the rest of 
this, and quite frankly--and then I looked over at Mr. Kerr's 
testimony and it sounded like it came out of the same playbook.
    Now, the concern I have--and I want to give you a chance to 
make amends here--is that Mr. Crawford, who is a farmer here, 
in his testimony--in his oral testimony and his written 
testimony--said very specifically that this is not an either/or 
situation. He supports the fishing industry recovery, and yet 
you're representing the fishing industry and you're coming in 
here with this rather inflammatory statement.
    Mr. Grader. Well, first of all, I don't even know Mr. Kerr. 
Secondly, I think as far as the ESA goes, it's the same thing I 
tell my own membership, and we had some very serious problems, 
as you're probably aware of, on Stellar sea lions in Alaska. 
They're very serious problems that we have off of California at 
times where, for example, we've been closed, had our fishing 
restricted to protect winter run fish. And I go back and tell 
my members, I said, What is it with the ESA? Well, we're being 
shut down. And I said, Well, why? Well, because the fish 
numbers are down. Well, that's the problem.
    In this particular instance, I think it's a situation where 
there is not adequate water. And what water is remaining, to 
prevent a couple species from going instinct, are being 
allocated to them right now to prevent their extinction. We can 
keep the human people here from extinction by some immediate 
cash relief from the Congress. That will help--.
    Mr. Hastings. Okay--.
    Mr. Grader. Let me finish, because I think there are some 
other solutions. That's why I said we need to get everybody 
together. I think we can find ways between the restoration 
programs and better use of some of the water. Some of it might 
be looking at, for example, the removal of Iron Gate Dam, which 
right now is a heat sump. It's causing a lot of hot water to go 
down into the Klamath River itself. The removal of that, 
basically, a dam which regulates water from an upstream hydro-
project, is located in the wrong location. It's heating up the 
water. That may mean, for example, that we don't have to 
release as much water then downstream if we can get that water 
so it has areas where it's kept cool.
    There are other things we can do. This is not a lot 
different--and I know Congressman Herger probably realizes 
where we were 10 years ago when we had the winter run listed, 
and what we had to do then. We made some changes and nobody 
went broke.
    Mr. Hastings. Well, but my point is--and I know there's 
solutions to that and I know you take them--I now you're very 
sincere in your approach. What I'm addressing, though, and I'll 
just make the final point here, is that in your statement--and 
your association apparently agrees with this statement or you 
wouldn't have said it--``Farmers should stop blaming the ESA 
and get to work solving their real problems.''
    Mr. Grader. Exactly, and that's the same thing I tell my 
own members. Stop blaming the ESA and let's get on with the 
real problems, and sometimes that's been working to try and 
bring back winter run salmon--.
    Mr. Hastings. Right, well--.
    Mr. Grader. --which, let me add, because that's a success 
story. We listed the winter run salmon. It took 4 years to list 
them. It didn't happen overnight. People have been saying, 
Well, you can automatically get these suckers listed. You 
don't. It took 4 years to get them listed, after the agency was 
in big-time denial. We had to first get them listed under our 
state act. After that we had to threaten to sue a number of 
people changing the Federal Shasta Dam operations to cold 
water. We then had to change a couple major irrigation 
districts, their pumping policies, get them to screen their 
pumps, also fix a dam downstream. We did all those under the 
ESA, and those fish are coming back now.
    Mr. Hastings. I appreciate that, but my only point I'm 
saying--and I understand the sense that you're saying that--but 
in your testimony here, then you criticize exactly the same 
way, ``Well, you know Mr. Coronada is immaterial,'' but you 
simply say this area is not suitable for agriculture, and I 
think that that is wrong.
    Now, my time is up and I'm going to have to leave here very 
shortly, Mr. Chairman. But what I would like to say in my 
closing remarks is, number one, to thank everybody for your 
patience in coming down and hearing what is perhaps your first 
Congressional testimony or Congressional hearing. I am very 
pleased to have the privilege of coming down here and being 
part of this panel, since I don't sit directly on this panel. 
But this issue interests me so much, because of what I have 
learned and what I have gone through in my district in Central 
Washington, that I wanted to come down here today.
    And I was very impressed this morning when I saw the 
grocers come down with the supplies for the food bank. Boy, I 
have to tell you, that shows what Oregonians are all about, and 
particularly, Oregonians in rural areas. This is a very 
compassionate society, and certainly this part of Oregon is 
very compassionate.
    But here is something that I am very concerned about, and 
this isn't directed to any of you that are sitting here. As a 
matter of fact, it's directed to the press. I understand that 
we have national press here. They should be here. This is a 
huge story. People's lives and livelihoods are potentially cut 
off with an act of the Federal Government, with absolutely no 
time for people to react. But if the only story--if the only 
story is a story about how compassionate people are in this 
part of the country, without saying why that compassion has 
reached this level--namely, the need to amend the Endangered 
Species Act--then quite frankly, the media will have not gotten 
the story right.
    Now, one of the things that we that are elected should 
probably not do is to tell the free press what to print, but 
I'll tell you this. This area is a rural part of America, just 
like my district is a rural part of America. And the story was 
always missed, because it did not talk about the root cause 
that caused these hearings to be held in rural America, and 
that's the need to amend the Endangered Species Act. I hope 
that that message gets out to the media that is here today.
    Mr. Chairman, I want to thank you very much for the 
consideration that you've given me and my colleagues. Thank 
you.
    Mr. Pombo. Thank you. Mr. Herger.
    Mr. Herger. Well, Congressman Hastings, I want to thank you 
again for taking time out from your district on a Saturday 
morning and afternoon to be here with us. We're very grateful 
to you. And I just have to also comment too, you know, the 
greatness of our country is that we can disagree and hopefully 
not be too disagreeable, unlike China or the former Soviet 
Union where they would maybe throw you in jail, or worse.
    But, Mr. Grader, evidently the Endangered Species Act has 
been much kinder to your fisherman than they have been to the 
constituents that I represent, or you would never begin to make 
the statement that it should not be at least brought up and 
modernized and updated. And again, let me just allude to 
three--in addition to what's happening here, where basically 
zero water is going to these farmers. That's not right. Where 
we can get extreme environmental groups that can sue because of 
the way the law is written and be able to stop--a couple 
biologists, without peer review, can shut off this water, and 
you can listen to them and not listen to all the other 
information, that's not right. And a law that's set up that 
way, I would respectfully say, is in dire need of being 
reformed.
    And I can go on to the three people who drowned on a levee, 
where they couldn't replace a levee, where they could sue--a 
highway--and these are all in the district I represent. A 
highway where just as of yesterday the 149th head-on collision, 
resulting in a fatality, where they can't widen the road 
because of a meadow fern. They're fighting it there. Again, my 
good friends in the extreme environmental community, lawsuits 
are holding up that highway. And a high school in Chico where 
they cannot build, or they built it over more than two-thirds 
for a bond issue to increase, to build a new high school 
because they're over-crowded--cannot build it because of this. 
That is wrong and something needs to be done.
    And I'm grateful that your people aren't being affected 
nearly as dramatically as the ones I know, but I would like to 
urge you to consider the other areas of this. But let me, if I 
could--and I want to thank you for being here, Mr. Grader. We 
can work together, I believe. In essence, maybe we have a 
little bit of disagreements here or there, but for the most 
part, I think most of the people here today do want to work and 
solve the problem.
    Mr. Grader. In fact we have, Congressman Herger, as you 
know, in your district, in dealing with a lot of the salmon 
issues, and as a result both farmers and fishermen are doing 
pretty well now.
    Mr. Herger. Yeah, and one of my good friends, Doug Bosco, 
former Congressman, we worked very closely on these issues 
affecting you. And, Mr. Gaines, I want to thank you for being 
here.
    Mr. Gaines. Thank you.
    Mr. Herger. And some of the irony, the tragic irony of the 
Endangered Species law--one more example why it must be 
reformed, just for the sake of the environment is, supposedly 
to save two endangered species, we're endangering I don't know 
how many countless more. And maybe I'd like to have you respond 
to that just a little bit. But you indicated in your testimony 
that the leased land provided important food and habitat for 
migrating waterfowl, but this year, because there is no water 
for farming on private lands, on leased lands or for the 
refuge, there will be no habitat for migrating waterfowl. And I 
understand that the United States is under a certain obligation 
to provide habitat for migrating waterfowl, pursuant to the 
Migratory Bird Treaty. And if you would, if you have any 
details about this treaty, do you know what kind of impact this 
zero water decision will have on the United State's obligations 
under the treaty, and do you know if these impacts were 
considered on other endangered species.
    Mr. Gaines. Congressman, I'm glad you asked me the question 
about the Migratory Bird Treaty, because that treaty was 
written about 80 to 90 years ago. It's a treaty that has been 
signed by the Federal Governments throughout the North American 
continent, and it is a treaty that simply is outdated. It was 
largely passed many, many decades ago to deal with the taking 
of waterfowl, to try to deal with issues such as market hunting 
and other issues that, you know, we don't really worry about 
today, but still there is an obligation to help protect and 
embrace our international migratory waterfowl resource.
    Another agreement between the Federal Governments of 
Canada, Mexico, and the United States that is incredibly 
important to waterfowl is the North American Waterfowl 
Management Plan, which is a plan that recognizes that the 
waterfowl populations have suffered tremendous losses and that 
we as a continent need to work together to provide habitat to 
address their needs. The Klamath Basin, again, as far as the 
Pacific Flyway is concerned, is the most important staging area 
we've got. It's the most important staging area in all of North 
America.
    You may remember, one of the long-term solutions that I 
asked for Congress's help in seeking was to strengthen the 
Migratory Bird Treaty Act so that it can raise waterfowl and 
the other wetland dependent species that depend upon their 
habitat to somewhat of a par, if you will, with the suckers and 
salmon and other listed species.
    Another point that I made that I'd like to mention one more 
time is that the wetlands not only provide habitat for 
waterfowl, but the Central Valley Habitat Joint Venture, which 
is a component of the North American Waterfowl Plan down in 
California's Central Valley, estimates that half of 
California's listed species are dependent upon the same exact 
habitat that our waterfowl depend on as well. The single 
species focus of the current Endangered Species Act just 
doesn't make any sense. Again, you've got three species holding 
over 430 species hostage, and that's above and beyond the 
impact to our human environment and local economy. It just 
doesn't make sense.
    I work for a wildlife organization. You would think that 
we'd be hanging our hat on the Endangered Species Act. We're 
not. It causes us as much pain as it does the people here in 
the Klamath Basin and elsewhere. When we put in a waterfowl 
project, if we want to take marginal farm ground out of 
production and restore it to managed waterfowl habitat--habitat 
that provides benefits for all of those listed species--we 
might as well go and try to build a Wal-Mart. We have to go 
through all the same steps that somebody would if they want to 
put blacktop over the top of it. It just doesn't make any 
sense. It needs to be amended. It needs to have careful, common 
sense amendments, and we look forward to working very, very 
closely with Congress in doing so. Thank you.
    Mr. Herger. Thank you very much. Thank you, Mr. Chairman.
    Mr. Pombo. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman. And I'm glad to have 
all of you testifying. And there's a couple questions I want to 
ask that have absolutely nothing to do with just the basin 
right here, but the ESA in general.
    Mr. Gaines, is it true that--because this affects my 
district--that the terns on Rice Island, which was created by 
dredging the mouth of the Columbia River, that they are 
protected under the Federal Migratory Bird Act?
    Mr. Gaines. I'm sorry, the last piece of that question 
again? I'm sorry.
    Mr. Simpson. Are those terns protected under the Federal 
Migratory Bird Act?
    Mr. Gaines. All migratory birds? No, The Caspian terns.
    Mr. Simpson. The Caspian terns, yeah.
    Mr. Gaines. If they're migratory. I'm not sure if they're 
migratory, but if they're migratory, they are, absolutely.
    Mr. Simpson. So, you know, my constituents in Idaho, my 
farmers, have a real hard time trying to understand why these 
Caspian terns that thrive at this banquet of salmon that go 
down the river and out to the ocean, past a man-made island, a 
federally protected bird eating a federally protected fish, and 
they're being asked to give up their water to make this happen. 
Quite frankly, they just shake their heads and they wonder if 
there's any common sense left.
    And I will ask you, Mr. Grader. There is one other question 
to ask, by the way. Are there any other listed endangered 
species that we actually kill?
    Mr. Grader. That we actually kill?
    Mr. Simpson. Yeah. I'm just asking this --I mean, I like to 
meet them so I don't mind your industry.
    Mr. Grader. Well, keep in mind--well, let me just add 
something here. There are none that we have a deliberate plan 
for killing on. What we do have is there are regulations in 
place, very severe regulations that have been put in place on 
the commercial fishing industry to avoid any take of a listed 
species. Likewise, we also have restricted certain land uses, 
timber harvest practices, for example, certain water things 
have all been implemented to try and give some level of 
protection. The level of take is very marginal right now, and 
like I say, we cannot get at healthy runs of salmon right now 
off California, because they've moved into a closed area. And 
ordinarily those fish are found off the Central California 
coast where they're available to our fleet, but because of this 
year's currents and that, they moved into this closed area. 
We're hoping it's not going to stay that way, but we could very 
well be seeing a whole fleet of salmon trollers likewise 
requesting some sort of disaster insurance. At the same time, 
we understand that we've got to do something to get back some 
of these wild fish.
    Keep in mind, we've also talked about industries being held 
hostage to the ESA. My industry this last year, or part of it, 
was held hostage to the Migratory Bird Act. We have a fishery 
for California halibut off of the Monterey coast and off of the 
San Luis Obispo area. That fishery was shut down because of 
incidental take of not an endangered species, but a bird that 
is under the Migratory Bird Act. Now, we could have gone and I 
guess come forward to all of you and said, Let's get rid of the 
Migratory Bird Act or let's reform it so it doesn't apply to 
us. Instead, what we're trying to do is figure out a way where 
we can design those nets where we can avoid the take of the 
birds, and I think that's a better solution.
    Mr. Simpson. Well, I appreciate your answer, and I don't 
mean to sound like I'm against your industry. As I said, I 
enjoy those salmon an awful lot. But it is a question the 
people of Idaho often ask. You talk about conflicting actions 
by Federal agencies. They want to bring Grizzly bears back into 
Idaho at the same time they want to bring salmon back in, but 
they tell us that they're going to bring Grizzly bears who are 
herbivores. These won't eat salmon.
    Mr. Grader. Well, I suspect those Grizzly bears would be 
eating very well. They're probably very healthy, because if 
they're eating wild salmon they're getting a lot those good 
Omega 3s, so that means they're probably going to have good 
hearts, they're probably going to be immune from any type of 
cancer, and who knows what other health benefits they'll have, 
so you'll have some very healthy Grizzly bears.
    Mr. Simpson. Well, I want to make sure that whoever I'm 
with out in the forest I can out run. But there is right now in 
the Stanley Basin--and I'll give you an example. You mentioned 
all the difficulty we have--and farmers face it every day--
dealing with different Federal agencies charged with different 
goals. Right now in the Stanley Basin there is a case going on 
where several years ago an individual dug an illegal diversion, 
a canal in the Salmon River. It was illegal. Everybody admits 
it. It was done probably 15 years ago. Today the Army Corps of 
Engineers-- The land was subsequently sold to an individual 
that now owns it. Today the Army Corps of Engineers is telling 
the new land owner to fill back in that diversion. And NMFS is 
telling him, Well, there's spawning salmon in there so don't 
fill it back in. We've got a land owner stuck in the middle 
here, and he's going to lose a ton of money just defending 
himself one way or another.
    You know, last night I heard on television--I got back to 
my room and I watched this hour long program of what's going on 
here in this Basin, and I noticed that everyone who supported 
the farmers not getting their water--maybe that's the wrong way 
to say it--the environmentalist, or whatever you want to say, 
that were on the program--expressed a great deal of sympathy 
and sorrow for the farmers that this had to happen. But I got 
to tell you, it's sort of like my dad told me one time, you 
know, ``Sorry don't feed the bulldog,'' and that's kind of the 
way I look at this. I really hope that in the end that we as a 
society have the wisdom to save the environment from the 
environmentalists.
    Mr. Pombo. Thank you. Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. And, 
gentlemen, thank you for your testimony here today. I know 
that, like the rest of these fine people sitting in this 
audience, that it took dedication and time out of your busy day 
to come here and help us better understand this. And, 
gentlemen, let me say, as someone who comes from Nevada, which 
probably is drier than any other state, except for whiskey-- 
Well, whiskey is for drinking. Water is for fighting over. But 
I'm really troubled. I'm troubled when I hear organizations 
that say there's a better use for this water than farming. I'm 
very troubled by that because--I'm troubled because I don't 
believe that, Mr. Grader, your fishermen in California are any 
more important than these farmers who are growing food here in 
the Klamath Basin.
    Mr. Grader. That's exactly right, Congressman, we're not. 
And we've never said that we were. What we're trying to do, and 
I think one of the reasons we're concerned is that we have some 
critters that are probably--and the science we have, and it's 
the best science available, indicates that they may go over. 
That is, if they're lost--as the old saying goes, extinction is 
forever. We've been working ever since 1986 with the passage of 
the Klamath Restoration Act to try and come up with solutions 
that would work for everybody, and we're still doing that. And 
I would readily agree. I think one of the problems we got into 
the trouble we're in right now is that for a long time people 
considered somehow fish and fishermen as some sort of lower 
species, for an awful long time, and that was a sad thing. I 
think now we're getting on a par--we certainly don't--and I 
think if you know of my work in California, we're working very 
hard with the water users, we're working hard with the rice 
growers. We have worked very hard, and sometimes in the face of 
a lot of environmentalists who want to take their water, and 
saying, We've got to protect out food producers. But those food 
producers also include fishermen.
    Mr. Gibbons. So then you would say that it would be just as 
fair for the Federal Government to come in here and mandate 
buying out your fishermen to stop them from fishing.
    Mr. Grader. They're doing it.
    Mr. Gibbons. Well, Mr. Chairman, I know that this hearing 
has gone on a long time, and what I would like to do in just 
the brief time remaining that I have is kind of do what our 
colleague from Washington did, just sort of sum up what I think 
is important that we have taken away from this hearing. And 
that, of course, is the hope that all America can understand 
what the issue is about today and that the problems that we 
have here, the problems that these wonderful people, the 
farmers and ranchers in this area are suffering through, is not 
about this year's drought and it's not about the agricultural 
industry being present here today. It's not about the farmers 
trying to feed this nation. The problem, Mr. Chairman, is about 
the misapplication and the abuse of the Endangered Species Act, 
and it's the misapplication and the abuse of science that's 
gone in to support it. In fact it's been poor science and a 
reliance on emotion and politics rather than science to support 
that issue.
    And highlighted today, which I think we've all heard that 
clearly today--and I hope everyone gets this and all America 
gets this--that it's time to amend the Endangered Species Act. 
It's time we gave our farmers and the agricultural industry the 
same access to decisions and the process of those decisions 
that some of our extreme environmentalists have had over the 
last several years. We want to give them the same opportunity 
to be part of the decision process and to put sound science, as 
I said earlier, and common sense back into the law, back in the 
front of the decision process, and take the emotion and 
politics out.
    And I think it's time, as we heard also, to begin the 
restoration projects on the ground here, to get these species 
into recovery so that we can get them off the list. And any 
law--this is common sense--any law that can only meet the 
requirements of the application of justice must be applied 
fairly and equally. And we can't save every species, and maybe 
that's the way it should be. And under the current Endangered 
Species Act, the way it has been misapplied gives me pause to 
stop and say thank you. Thank you that we don't have dinosaurs 
roaming around the country today.
    Mr. Chairman, I do want to thank you and Mr. Walden and Mr. 
Herger for bringing this issue to our attention. I'm from 
Nevada, as I said. It's an important issue that's going to 
apply not only just to this area, but all across the West, all 
across America, if we don't stand and fight it today. It is 
time for us to go to work, time to amend the ESA, and I just 
want to say thank you for allowing us to be here today, and 
that's my statement. Thank you.
    Mr. Pombo. Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman. I beg to differ with 
my colleague from Nevada. He says there are no dinosaurs 
running around today. Actually, they are. They oppose reforming 
the ESA. They are the dinosaurs.
    Mr. Grader, I want to go back--you made a comment that 
intrigued me how about how back 30 years ago, which would be 
about 1971, most people didn't even know about the word 
environment. And it raised a point, because in about the 1971 
session of the Oregon Legislature, Oregon passed its landmark 
Bottle Bill, and that section of the report dealt with Land Use 
Planning, which is still a controversial topic here, but 
indeed, it looked at that. It was engaged aggressively in 
cleaning up a very, very polluted Willamette River, and there's 
still obviously work to be done there. And it set aside its 
beaches for the benefit of the general public.
    And the reason I say that all that is because the thing 
that frustrates me the most in the last 2-1/2 years of being in 
Congress is being told--and I'm not saying you did this today--
but this sense that no matter what we do to improve habitat, to 
improve water quality and quantity in basin after basin after 
basin, you never get credit for it. And you see it right here 
in the mitigation efforts that have been taking place with the 
false promise that if you take this land out of production it 
will help you over here on the regulatory side where you get 
water. And I'm sure your industry has been through this as 
well, and it's an extraordinarily frustrating thing. When I 
look at Oregon's history, and the people I've met with and 
worked with throughout this district, and the projects they've 
shown me in this Basin, we're making good progress and doing 
good things. And a lot more needs to be done, obviously, but we 
need to get some credit for what we're doing too.
    When you said, ``Going after the ESA is like killing the 
messenger,'' if troubles me, because I don't think you heard 
any of us up here say, Go after and eliminate the ESA, 
although, there may be that sense. But what you did here today 
I think is hard to argue against. And the question I would 
raise for any of you is, Does anybody disagree with the notion 
of requiring blind peer review of the science, yes or no?
    Mr. Grader. No, they do not.
    Mr. Walden. You don't disagree with that? Does anybody 
disagree with that? Does anybody disagree with requiring public 
access to that science so that everybody has a chance to look 
at it, yes or no? Do you agree or disagree? Is that a bad thing 
to but into the act.
    Mr. Grader. No.
    Mr. Walden. Those are the things I get, coming out of this 
hearing, that would strengthen the Act and lend credibility to 
the science by allowing everybody to have a chance to look at 
it. And you made another comment that intrigues me, about the 
Chinook runs. And if I heard you right--and correct me if I 
didn't--but that they have moved north because of the ocean 
currents. And some of us have argued with NMFS for a long time 
that the ocean conditions have as much, if not more, to do with 
salmon survival as what happens upstream.
    Mr. Grader. They both do.
    Mr. Walden. They both do. The difference is, in the 
Columbia Basin--and I represent probably as much of the 
Columbia River as anybody now that Doc Hastings has left the 
room. It is the farmers and those before us who have had the 
whole blame laid on them. And I have had NMFS say to me in a 
hearing, We can't deal with what goes on in the ocean. We can 
only deal with what goes on up-river, from the mouth, which is 
where all the focus seems to be.
    Now, you've had pressure on harvests and things of that 
nature, but in effect there are natural occurrences that take 
place in the ocean environment that are way beyond our control, 
and yet the penalty and the price is paid by those up-river--in 
many cases, to their extinction.
    Mr. Grader. Well, yeah, I don't disagree with that, and 
obviously ocean conditions are critical. We saw that in the 
Columbia River. We could contrast that with California. In the 
past few years--.
    Mr. Walden. About every 10 years--.
    Mr. Grader. Well, in the past few years we've had excellent 
ocean conditions off California, and off the Columbia Basin 
they did not. And we know full well-- NMFS is saying it's now--
because they've done just about everything they could to our 
commercial fleet, and then they began looking at some of the 
upstream causes. And it's a balance, and there are no simple 
solutions. But, obviously, we do need to have, and I think it's 
well-known in science, a certain minimal level of water in 
streams.
    Mr. Walden. Sure.
    Mr. Grader. We need to protect those watersheds from 
certain types of activities, and much of this is do-able. The 
problem is getting people to the table to talk about it, 
getting them out of denial. And it's no different than what 
happened in my fleet 30 years ago when we were saying that some 
of our fishing activities were resulting in over-harvest. It 
took a while, but finally our guys took a look at the numbers 
and said, We better correct it, and they went about doing that. 
But, you know, it's a whole combination of things. I think we 
are moving out of denial. I think we're moving into acceptance. 
I think we're going to be able to resolve this issue. It may 
mean that there may be a few less farms in this district, but 
it may mean that there's going to be better conditions for Mr. 
Gaines' waterfowl and it may mean more security for the 
remaining farmers here as well as providing the water we need 
here and providing the minimum flows.
    Mr. Walden. Well, let me make two points. One gets back to 
this issue of hatchery fish versus wild stocks. And I am told, 
and I've been told this several times, and I'm going to go get 
it in writing from somebody, that when it comes to the recovery 
plan for the east coast--the Atlantic salmon recovery efforts--
they count the hatchery fish, and they don't out here. And the 
only place where we have environmentally sensitive units, or 
whatever the technical term is for ESU, is in the northwest--
Ecologically Significant Units--is in the Pacific Northwest. 
NMFS does that apply that anywhere else in the country.
    Mr. Grader. The ESUs are applied throughout the West, in 
California there as well.
    Mr. Walden. But they're not applied in the East, are they?
    Mr. Grader. Well, let me just add that I think--.
    Mr. Walden. They are not applied-- Yes or no--.
    Mr. Grader. You're right, you're right, no, but that is--
that's a big issue with us because--.
    Mr. Walden. Thank you. That's a bigger issue with us.
    Mr. Grader. Yeah. Because in Maine, for example, we were 
just appalled at the way that they handled--.
    Mr. Walden. At their recovery program.
    Mr. Grader. Yeah. There was no recovery program. It's a 
joke.
    Mr. Walden. Well, we have reached an agreement here, 
because it wasn't a joke, because they apply a different 
standard in Maine than they do in the Pacific Northwest. They 
count hatchery fish there. They ignore them here. We had one of 
the biggest runs of Chinook in our history, even preceding 
construction of the dams in the Columbia River this year, and 
our farmers are going broke and being shut off from their water 
up there, and we've shut down our forests.
    And let me conclude with one other comment, because I think 
we all have to gauge and measure our rhetoric, and I realize 
mine has gotten hot today on occasion, but I would draw your 
attention to your comments and those of Pietro Pavarano?
    Mr. Grader. Paravano.
    Mr. Walden. Thank you. And Glen Spain, from your 
Fisherman's News Letter of June of this year.
    Mr. Grader. Right.
    Mr. Walden. And I'm going to quote from it. It says, 
``However, real water reforms always come at a price for 
irrigators who have become dependent on bloated and federally 
subsidized water projects. These growers, who now find 
themselves with less water for irrigation, are blaming Federal 
laws and fishermen for stealing water''--and I'm quoting here--
``they themselves have stolen from the ecosystem and lower 
river fisheries over many decades. It's a little like the 
owners of chop shop and the bad cops they had on their payroll 
complaining after a bust about the cars and their parts being 
returned to their rightful owners.''
    I would suggest that that sort of rhetoric is probably not 
the kind of conducive verbiage that we need if we're all going 
to sit at the same table and try to come to a result.
    Mr. Grader. Thank you.
    Mr. Walden. Mr. Chairman, if I could just take the liberty 
of introducing into the record a letter from the Horton family 
here, residents of Klamath County, Oregon, which I'll make it 
available. And also a letter from United States Senator Gordon 
Smith in which he explains that he is very supportive in 
helping to get the 20 million disaster assistance emergency 
supplemental, and it says if it does not stay in there, he will 
filibuster the bill until it is in there. Further, he is 
introducing the Endangered Species Act Reform Bill with Senator 
Max Bacchus of Montana as a co-sponsor in a bipartisan effort, 
and other material, so I will put that in the record as well. 
And on a final note, because I was asked to do, this hearing 
will be cable cast on Klamath Cable, Channel 3, Sunday at 2:00, 
for those who want to sit through it a second time. But we do 
appreciate the Klamath Cable Channel for you being here.
    Mr. Chairman, I appreciate your diligence in the way you've 
conducted this hearing. And to my colleagues, thank you for 
taking your time to be here. And to the members of all of our 
panels, we appreciate your taking your time to be here as well. 
Thank you.
    Mr. Pombo. Well, I could go back to Mr. Grader and ask some 
more question--.
    Mr. Grader. I feel sorry for the other members here who 
don't share the same popularity I have with all of you.
    Mr. Pombo. But I feel he's probably answered enough for 
right now, and there will be an opportunity in the future to 
answer some more. But I will tell you that, for you and your 
organization, that if you want to be part of a constructive 
solution to the problem then you've got to work for it and 
you've got to stop throwing bombs.
    Mr. Grader. Well, I'll tell you--thank you, Congressman, 
but we have, in fact if you look at our track record in 
California, we have a good record--.
    Mr. Pombo. I can look at your track record, and if you want 
to get into it, we can. Because some of the most abusive 
testimony I have ever received as a Chairman of a Committee has 
come from your organization, and some of the most outrageous 
testimony I have ever received as a Chairman of this Committee 
has come from your organization. I want to work with you. I 
have supported compensating fishermen when we take their 
private property or destroy the value of their private property 
by destroying their fishing industry. I have supported that in 
the past. Your organization has opposed compensation for 
farmers when the Endangered Species Act takes away their 
private property.
    Mr. Grader. Congressman, I respectfully disagree. We have 
never done to that and you must--.
    Mr. Pombo. You testified--.
    Mr. Grader. I have never testified to that.
    Mr. Pombo. Well, I'll provide it to you. And it wasn't you. 
It was one of the other gentlemen who was representing your 
organization at a hearing.
    Mr. Grader. I have never done that nor authorized anybody 
to do that.
    Mr. Pombo. Well, they've done it.
    Mr. Grader. I'd like to see it, because--I mean, I think 
that's one of the values of these type of hearings, because 
there's a lot of charges flying around and we're getting at the 
truth of this. We not only need peer review science. I think 
perhaps peer reviewing some of the statements that are made, 
and I guess that's the reason that it's necessary for all of us 
to get together. But if there are those type of statements, I'd 
like to find them. Likewise, I've heard other statements here 
that are, frankly, not true. For example, this is the first 
time the ESA has ever been used, and this type of thing, and it 
was not. We saw what happened in the--well, Congressman Herger 
knows what happened to the growers in the Glen Claus Irrigation 
District, but we got that resolved, when their water almost got 
cut off.
    Mr. Pombo. This is not the first time the Endangered 
Species Act has been used to that end, and all I have to do is 
look at my own district to explain it. And so it's a matter of, 
if we are going to work toward a constructive solution to this 
particular problem, everybody needs to put down their swords 
for a minute and sit down and try to work toward that.
    Mr. Gaines and I have worked together for years, and that 
does not mean we've always agreed. There have been times when 
we have very vocally disagreed on topics, but no matter what 
happened, he has always come back on the next issue and we've 
tried to work it out, and I respect him a great deal for that, 
because he has always been willing to work with us and try to 
find a solution. Sometimes my growers, my farmers are at odds 
with what his organization wants, and we try to work something 
out on it, and I respect him for always doing that, and I 
appreciate that.
    Mr. Gasser, I don't have a good answer to give you. I wish 
I did. If I had a good answer to give you to what to tell your 
employees and what to tell your family, I'd probably tell it to 
everybody in my district, because I'm going through the same 
thing. There is not one square inch of my district that is not 
habitat or potential habitat for something, and we don't do 
anything unless we check with Wish and Wildlife Service.
    In fact I've got a letter sitting on my desk back in 
Washington that was sent from our local Fish and wildlife 
Service in Sacramento to the United States Department of 
Agriculture representative, saying that before the farmers 
plant this year's crop, they better check with us to see if 
they have any endangered species problems. And what are we 
going to do about that? I mean, that's these people's attitude. 
And, you know, a lot of these guys are in the same boat that a 
lot of your people are in. They're going broke, through no 
fault of their own, nothing they did. They are not inefficient. 
They didn't change their operations. They didn't go out and 
spend all their money. Government actions killed them. And 
there's got to be a way for us--for us to sit down with you 
guys and figure out an answer and come up with some kind of a 
solution that is good for Fish and Wildlife, but allows human 
beings to be part of the environment and continue to be there.
    I just want to close this hearing by thanking all of you 
for being here, thanking all of our witnesses, for those of you 
that took your time to be here today. I've got to tell you that 
being a witness in front of a Congressional hearing is not the 
easiest or most comfortable thing in the world to do. Not only 
are some of them pretty nervous about coming up here, they also 
know they're going to be up for some abuse when they do, and I 
appreciate all of our witnesses who did agree to be here and to 
testify. The hearing would not have been possible without you, 
so thank you very much for doing that.
    I would also like to thank the local peace officers for 
being here, for helping us keep everything orderly here today. 
That has meant a great deal to us. I'd like to thank our staffs 
for coming out here and all the hard work they put in to make 
this hearing a success. And I would like to also add a special 
thank you to the security detail from Washington who came out, 
because many of them are fathers just like us, and they're 
going to all be running for planes right now, trying to get 
back home to be with their kids tomorrow, and I appreciate what 
they did and what our staffs did to make this work. Thank you.
    In conclusion, I just want to say, you know, we've got 
problems in this country. And I get extremely frustrated with 
things that happen under our government, actions that are taken 
under our government, mistakes that we've made, mistakes that 
we will make. And we will continue to work, we will continue to 
fight, we will continue to argue, we will continue to try to 
make things better. And our jobs as elected representatives are 
to try to fix problems and to try to abide by our 
constitutional ability to fix what is wrong with the way our 
government is working, and we will continue to do that. Your 
jobs as citizens are to participate in the political process, 
and you are doing that by being here today, and I appreciate 
that.
    But at times, especially at times like this, you get 
extremely mad and frustrated and everything else, but I've got 
to remind you that you still live in the greatest country on 
earth. Just a couple of weeks ago we had 14 people who died in 
the Arizona desert trying to sneak into this country. We are 
still the only country on earth that employees a full-time 
police force to keep people out, not to keep people in. You 
still live in the greatest country on Earth. We just need to 
make it better. And I appreciate you all being here, thank you. 
This hearing is adjourned.
    [Whereupon, at 2:55 p.m., the Committee was adjourned.]

    [The items listed below were submitted for the record:]

    1. Letter from Senator Gordon H. Smith
    2. Letter from Patricia L. Horton, et al
    3. Statement from Jack Roberts, Oregon Labor Commisioner
    4. Miscellaneous pictures and letters submitted for the 
record

                          United States Senate
                              Gordon Smith
    Dear Friends

    It is encouraging that so many members of the Committee have 
traveled to Klamath Falls to examine the crisis you are facing.
    It has been over two months since the Bureau of Reclamation 
announced that no water would be delivered to agriculture in the Basin. 
In that time, the inequity of your situation has attracted national 
attention, having been recognized by Fox News, The New York Times and 
The Wall Street Journal. Congressman Walden and I have taken your cause 
to the floors of the U.S. House and Senate, to federal agencies and to 
the President.
    President Bush has included $20 million in disaster assistance in 
the Emergency Supplemental appropriations bill, and I am working to 
ensure that it will remain there in the Senate version. Otherwise, I 
intend to filibuster the bill, and will hold it up until the money is 
restored.
    I know that at this time of year you would rather be working your 
land than attending hearings and worrying about making it through this 
year. At the Bucket Brigade last month, I promised that I would 
introduce legislation to amend the Endangered Species Act. My bill, S. 
911--which connotes the urgency of the problem - seeks to return 
objective science to species management, provide more stability for 
landowners, and allow for locally developed management plans. I am very 
gratified that Senator Max Baucus of Montana joined me in this 
bipartisan effort as an original cosponsor of the bill.
    I recognize that this will come too late to affect the current 
situation with the Klamath Project. That is wiry I am encouraged that 
the Department will undertake an independent scientific review of the 
science that has been used to develop the current biological opinions. 
I continue to believe that other reasonable and prudent alternatives 
can be developed that would allow for much more flexibility in the 
operation of the project and thereby ensure water deliveries to farmers 
and ranchers.
    Friends, rest assured that I am with you in this fight, and will be 
until we prevail.

    Warm regards,
    Gordon H. Smith
    United States Senate
                                 ______
                                 
To The House Endangered Species Act Working Group,

    First let me thank you for taking the time to travel and hold this 
hearing where people can feel they too have a voice in a very 
complicated system of government. I would like each of you to know and 
take back to Congress the knowledge, that the residents of this basin 
are descendants of pioneers and that makes us much stronger than the 
average American, we have strong genes in our blood and soles. Knowing 
that, understand we will fight this fight to the end. Please understand 
that we are true and good stewards of our land and have held that proud 
tradition for generations here in The Klamath Basin. Please understand 
that the dams around here only hold the water longer, they do not and 
have never raised the ``historic'' level of the lake. Please know that 
the Sucker fish do not and have never thrived in high water (too much 
ammonia). The Original draft of the Biological Opinion stated this on 
three pages, but those pages did not find their way into the final 
draft. Please know that we are going to harm the salmon, when the 
overly warm water that is being held in Klamath Lake is sent down 
stream. We will need water from the Trinity to cool the warm water 
before it kills the fish. What we are urging you to do is stop the 
destruction of this entire ecosystem. We have 500 other species that 
are being directly affected by this singular act. What about their well 
being? What we are urging you to do is to find a compromise between 
mankind and the environment. Know we too provide much needed habitat 
for the species that live here and travel through the basin each year. 
Remember that 20% of the world migratory water fowl travel through here 
every year. What are they to do this winter when the much needed food 
for their long journey is not here? Know and remember that we do and 
have always cared about our lands and environment. We need to stop the 
junk science for good and it needs to stop right here right now!

    Sincerely,
    Patricia L Horton
    Alice M Horton
    Doyle D Horton
    Ronald L Horton
    Maxwell P Horton
    Residents of Klamath County Oregon
                                 ______
                                 

          STATEMENT OF JACK ROBERTS, OREGON LABOR COMMISSIONER

    For the record, my name is Jack Roberts and I am commissioner of 
the Oregon Bureau of Labor and Industries. I would like to thank you 
for this opportunity to testify before your committee. Because I know 
there are many people who also want an opportunity to share with you 
both their insights and their experiences as they relate to the Klamath 
Basis Water Crisis, I will be brief.
    Others will give testimony regarding the human and scientific 
aspects of this problem. I would like to speak to you about the 
economic impact, specifically the impact thus situation, and the 
federal policies which have been prescribed to deal with it, will have 
on the jobs and the incomes of the people of the Klamath basin.
    It is obvious that no water for irrigation means no crops, which 
means no harvest and therefore no employment for those who work in the 
fields and harvest the crops. Payments to farmers to compensate them 
for the loss of their crops, while welcome, will not replace the lost 
income of those who would have been employed on those farms, or the 
local merchants and landlords who would have profited by selling or 
renting to those workers.
    In this regard, the Klamath Basin Water Crisis may seem no 
different than any other crop failure or economic disaster that can 
befall a community. However, this crisis must be seen against the 
broader backdrop of what has happened to rural Oregon generally, and to 
the Klamath basin specifically, in order to appreciate its full import.
    On a national basis, unemployment in rural communities is roughly 
the same as unemployment in urban areas. As recently as 1995, this was 
also true in Oregon. Since that time, however, while Oregon's urban 
unemployment rate has been the same as, or lower than, the national 
rate, unemployment in rural Oregon has soared to 3, 4 or even 5 
percentage points higher throughout the last six years. This growing 
employment gap has corresponded to the adoption of restrictive new 
federal environmental policies, particularly those virtually banning 
the harvest of timber on the federal lands that make up most of 
Oregon's territory.
    Unemployment here in Klamath County has been in excess of 10 
percent most of this year. In nearby Lake and Harney Counties, 
employment in recent months has reached 13 and 15 percent, 
respectively. And these figures are computed on the basis of civilian, 
nonagricultural employment.
    A lack of jobs outside of agriculture is but one half of the cruel 
equation creating poverty and distress in rural Oregon. The other half 
is the fact that those who are employed invariably end up working for 
less money than those in our major cities.
    In Oregon, per capita income is just 95 percent of the national 
average. Yet even this statistic is misleading. Only four of Oregon's 
36 counties have an average income that is above the statewide average, 
and all four of these have incomes above the national average as well. 
Three of these counties--Multnomah, Clackamas and Washington--form the 
greater Portland metropolitan area, while the fourth-Benton-is a small 
county that is home to Oregon State University and a large Hewlett-
Packard manufacturing plant.
    The other 32 counties all have incomes below our state average, 
which means they have an income well below the rest of the country. In 
fact, 22 of Oregon's 36 counties have incomes that are less than 80 
percent of the national average. All are rural counties. Klamath 
county, even before the current water crisis, ranked just 31St out of 
our 36 counties in income. Its per capita income was less than three-
quarters that of the rest of the county, and just 65 percent of the 
average income earned in by people living in Portland.
    This is the economic situation confronting farmers and farmworkers 
who will be displaced in the current crisis. And who are those workers? 
More than a fifth, 22 percent, will be Hispanic-nearly three times 
their percentage of the Klamath county population at large. Another 10 
percent will be Native Americans more than twice their share of the 
population.
    Ninety percent of them have no more than a high school education, 
and 41 percent have never completed high school (double the rate of the 
total Klamath County population). Only 15 percent are under 21 years of 
age, the ones who can most easily be educated or retrained for other 
employment. Nearly a third are 40 years of age or older, the hardest 
age group to retrain or reeducate. And more than 80 percent of 
agricultural workers are men, usually the sole or primary support for 
themselves and their families.
    All of these statistics point to a single, irrefutable fact: 
Denying farmers in the Klamath basin the water they need to irrigate 
their crops will have a devastating impact on communities and families 
that are already reeling from the effects of other federal policies 
that have driven a growing wedge between urban and rural Oregon. 
Somehow, at some level of government, there must be a recognition that 
people are part of the environment, too, and that our natural habitat 
is a growing and productive economy.
                                 ______
                                 
    [The following pages includes some of the many photographs 
and letters submitted for the record from residents of the 
Klamath Basin. All items submitted for the hearing record have 
been retained in the Committee's files.]

[GRAPHIC] [TIFF OMITTED] T3135.001

[GRAPHIC] [TIFF OMITTED] T1353.002

[GRAPHIC] [TIFF OMITTED] T3135.003

[GRAPHIC] [TIFF OMITTED] T3135.004

[GRAPHIC] [TIFF OMITTED] T3135.005

[GRAPHIC] [TIFF OMITTED] T3135.006

[GRAPHIC] [TIFF OMITTED] T3135.007

[GRAPHIC] [TIFF OMITTED] T3135.008

[GRAPHIC] [TIFF OMITTED] T3135.009

[GRAPHIC] [TIFF OMITTED] T3135.010

[GRAPHIC] [TIFF OMITTED] T3135.011

[GRAPHIC] [TIFF OMITTED] T3135.012

[GRAPHIC] [TIFF OMITTED] T3135.013

[GRAPHIC] [TIFF OMITTED] T3135.014

[GRAPHIC] [TIFF OMITTED] T3135.015

[GRAPHIC] [TIFF OMITTED] T3135.016

[GRAPHIC] [TIFF OMITTED] T3135.017

[GRAPHIC] [TIFF OMITTED] T3135.018

[GRAPHIC] [TIFF OMITTED] T3135.019

[GRAPHIC] [TIFF OMITTED] T3135.020

[GRAPHIC] [TIFF OMITTED] T3135.021

[GRAPHIC] [TIFF OMITTED] T3135.022

[GRAPHIC] [TIFF OMITTED] T3135.023

[GRAPHIC] [TIFF OMITTED] T3135.024

[GRAPHIC] [TIFF OMITTED] T3135.025

[GRAPHIC] [TIFF OMITTED] T3135.026

[GRAPHIC] [TIFF OMITTED] T3135.027

[GRAPHIC] [TIFF OMITTED] T3135.028

[GRAPHIC] [TIFF OMITTED] T3135.029

[GRAPHIC] [TIFF OMITTED] T3135.030

[GRAPHIC] [TIFF OMITTED] T3135.031

[GRAPHIC] [TIFF OMITTED] T3135.032

[GRAPHIC] [TIFF OMITTED] T3135.033

[GRAPHIC] [TIFF OMITTED] T3135.034

[GRAPHIC] [TIFF OMITTED] T3135.035

[GRAPHIC] [TIFF OMITTED] T3135.036

[GRAPHIC] [TIFF OMITTED] T3135.037

[GRAPHIC] [TIFF OMITTED] T3135.038

[GRAPHIC] [TIFF OMITTED] T3135.039

[GRAPHIC] [TIFF OMITTED] T3135.040

[GRAPHIC] [TIFF OMITTED] T3135.041

[GRAPHIC] [TIFF OMITTED] T3135.042

[GRAPHIC] [TIFF OMITTED] T3135.043

[GRAPHIC] [TIFF OMITTED] T3135.044

[GRAPHIC] [TIFF OMITTED] T3135.045

[GRAPHIC] [TIFF OMITTED] T3135.046

[GRAPHIC] [TIFF OMITTED] T3135.047

[GRAPHIC] [TIFF OMITTED] T3135.048

[GRAPHIC] [TIFF OMITTED] T3135.049

[GRAPHIC] [TIFF OMITTED] T3135.050

[GRAPHIC] [TIFF OMITTED] T3135.051

[GRAPHIC] [TIFF OMITTED] T3135.052

[GRAPHIC] [TIFF OMITTED] T3135.053


</pre></body></html>
